<html>
<title> - IMPLEMENTATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 112-34]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 112-34
 
    IMPLEMENTATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

=======================================================================


                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
67-219                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             MARCO RUBIO, Florida
MARK WARNER, Virginia                KELLY AYOTTE, New Hampshire



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 8, 2011....................................     1
Statement of Senator Begich......................................     1
Statement of Senator Kerry.......................................     3
    Prepared statement...........................................     4
Statement of Senator Snowe.......................................     5
Statement of Senator Rubio.......................................    20
Statement of Senator Cantwell....................................    22
Statement of Senator Boozman.....................................    26
Statement of Senator Nelson......................................    28

                               Witnesses

Eric C. Schwaab, Assistant Administrator, National Marine 
  Fisheries Service, NOAA, U.S. Department of Commerce; 
  accompanied by Dr. Douglas DeMaster, Acting Director, 
  Scientific Programs and Chief Science Advisor, NOAA's National 
  Marine Fisheries Service (NMFS)................................     8
    Prepared statement...........................................    10
William C. Hogarth, Ph.D., Director, Florida Institute of 
  Oceanography, University of South Florida......................    32
    Prepared statement...........................................    34
Stephanie Madsen, Executive Director, At-Sea Processors 
  Association....................................................    37
    Prepared statement...........................................    38
Vito Giacalone, Gloucester Fisherman and Policy Director, 
  Northeast Seafood Coalition....................................    43
    Prepared statement...........................................    45
William R. Bird, Attorney at Law, Private Angler and Member, 
  Coastal Conservation Association...............................    52
    Prepared statement...........................................    54

                                Appendix

Hon. Frank R. Lautenberg, U.S. Senator from New Jersey, prepared 
  statement......................................................    65
Hon. Kelly Ayotte, U.S. Senator from New Hampshire, prepared 
  statement......................................................    65
Robert E. Dooley, President, United Catcher Boats, prepared 
  statement, dated April 22, 2010, before the House Subcommittee 
  on Insular Affairs, Oceans and Wildlife--House Committee on 
  Natural Resources; Oversight Hearing: A Community Perspective 
  on Catch Shares................................................    66
Response to written questions submitted to Eric C. Schwaab by:
    Hon. Bill Nelson.............................................    68
    Hon. John F. Kerry...........................................    73
    Hon. Amy Klobuchar...........................................    79
    Hon. Maria Cantwell..........................................    80
    Hon. Frank R. Lautenberg.....................................    83
    Hon. Olympia J. Snowe........................................    86
    Hon. Roger F. Wicker.........................................    88
    Hon. Kelly Ayotte............................................    90
Response to written questions submitted to Dr. Douglas DeMaster 
  by:
    Hon. John D. Rockefeller IV..................................    91
    Hon. Bill Nelson.............................................    92
    Hon. John F. Kerry...........................................    94
    Hon. Maria Cantwell..........................................    96
    Hon. Roger F. Wicker.........................................    98
Response to written questions submitted to William Hogarth, Ph.D. 
  by:
    Hon. John D. Rockefeller IV..................................    99
    Hon. Bill Nelson.............................................    99
    Hon. Maria Cantwell..........................................   100
    Hon. Olympia J. Snowe........................................   101
Response to written questions to Stephanie Madsen submitted by:
    Hon. Maria Cantwell..........................................   102
    Hon. Olympia J. Snowe........................................   104
Response to written questions submitted to Vito Giacalone by:
    Hon. John D. Rockefeller IV..................................   105
    Hon. John F. Kerry...........................................   106
    Hon. Olympia J. Snowe........................................   107
Response to written questions submitted to William R. Bird by:
    Hon. John D. Rockefeller IV..................................   109
    Hon. Bill Nelson.............................................   109
    Hon. Olympia J. Snowe........................................   109
Letter, dated March 8, 2011 to Hon. John D. Rockefeller IV and 
  Hon. Mark Begich from Hon. Charles E. Schumer and Hon. Kirsten 
  E. Gillibrand..................................................   110
Gordon Robertson, Vice President, American Sportfishing 
  Association, prepared statement................................   111
Letter, dated March 21, 2011 to Senator Mark Begich, from 
  Citizens for Gloucester Harbor: Peter Anastas, Writer; Ann 
  Banks, Board Member, Gloucester Maritime Heritage Center; Damon 
  Cummings, PhD, Naval Architect; Henry Ferrini, Documentary 
  Filmmaker; Jeanne Gallo, PhD, Social Ethics; Jay Gustaferro, 
  Lobsterman, Former Gloucester City Councilor; Marcia Hart, RN; 
  Ann Molloy, Neptune's Harvest Organic Fish Fertilizer Company; 
  Valerie Nelson, PhD, Economics, Former Gloucester City 
  Councilor; M. Sunny Robinson, RN; Angela Sanfilippo, Gloucester 
  Fishermen's Wives Association..................................   114
Letter, dated March 8, 2011 to Hon. John D. Rockefeller IV, Hon. 
  Doc Hastings, Hon. Kay Bailey Hutchison and Hon. Edward Markey 
  from E2--Environmental Entrepreneurs...........................   116
Letter, dated March 21, 2011 to Senator Mark Begich from Dennis 
  O'Hern, Executive Director, Fishing Rights Alliance, Inc.......   121
Letter, dated March 21, 2011 from Capt. Gary Jarvis, F/V Back 
  Down 2, Back Down 2 Inc........................................   122
Bruce Stedman, Executive Director, Marine Fish Conservation 
  Network, prepared statement....................................   124
Art C. Ivanoff, Chair, Southern Norton Sound Fish and Game 
  Advisory Committee, prepared statement.........................   128
Letter, dated March 22, 2011 to the Subcommittee on Oceans, 
  Atmosphere, Fisheries, and Coast Guard from David Krebs, 
  President, Gulf of Mexico Reef Fish Shareholders' Alliance.....   129
Letter, dated March 18, 2011 to Oceans, Atmosphere, Fisheries, 
  and Coast Guard Subcommittee from David Walker, Walker Fishing 
  Fleet, Inc.....................................................   130


                         IMPLEMENTATION OF THE



        MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT

                              ----------                              


                         TUESDAY, MARCH 8, 2011

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:35 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. This hearing is called to order.
    Senator Snowe will be here in short order. She's coming 
from a Finance Committee meeting.
    Why don't you go ahead and have a seat while I get the 
meeting started. Now, you can say it. Thank you very much.
    Good morning to all of you. Welcome, to our witnesses and 
other guests, to this first hearing of the Subcommittee on 
Oceans, Atmosphere, Fisheries, and Coast Guard in the 112th 
Congress.
    This also marks my first meeting as a subcommittee 
chairman, a responsibility I take especially seriously, because 
of its jurisdiction over so many issues in our economy, from 
fisheries, oceans, weather forecasting--multiple roles played 
by the Coast Guard in Alaska.
    Today we will hear from testimony from two distinguished 
panels of witnesses regarding the implementation of key 
provisions of the Magnuson-Stevens Act, or MSA, that were added 
by Congress when it was last reauthorized. We hope to learn 
more about the impacts these changes and additions to the MSA 
have on--having on the Nation's fisheries and individuals, 
businesses, and communities who depend on them.
    This landmark legislation was originally sponsored by 
several great friends of Alaska--Senator Magnuson, our own 
Senator Ted Stevens, and Senator Inouye--and co-sponsored by 
several Republican and Democratic members of the Committee. It 
represented a truly bipartisan effort to carefully manage one 
of America's greatest assets, our fisheries.
    As most of us in the hearing room today know, marine 
fisheries conservation and management is a subject this Nation 
has struggled with, not just for years, not just for decades, 
but for centuries. These issues are never easy. One of the most 
challenging has been, and likely will always be, how to 
properly balance the need for responsible stewardship of our 
fisheries for future generations with needs of individuals, 
businesses, and communities who rely on them today.
    In Alaska, we've had, generally, a positive experience 
under MSA. Since taking control of these fisheries from foreign 
fleets in 1976, Alaska now produces over half the Nation's fish 
landings, and our major fisheries, like the salmon, pollock, 
halibut, and cod, are certified as sustainable. In fact, I 
contend, Alaska has the best managed fisheries in the world. We 
operate on the strict catch limits, or hard TACs, as they have 
been known. None of our groundfish stocks is considered 
overfished, and most operate under some form of limited access 
program.
    Not that these actions are not--noncontroversial, 
fishermen--and our fishermen so argue at length at council 
meetings. They feel the pain when quotas are cut and downturns 
in fisheries cycle. But, at the end of the day, the Alaska 
fishing industry has learned to work within the rules of MSA 
and has largely prospered.
    I'm pleased to welcome a fellow Alaskan, Stephanie Madsen, 
a former Chair of the North Pacific Fishery Council and now 
Executive Director at the At Sea Processors Association, to 
address the Alaskan perspective, on the second panel.
    Given how contentious fisheries issues can often be, it is 
important to remind everyone that the 2006 reauthorization 
wasn't your typical fisheries bill. At the end of the day, the 
Senate passed it, by unanimous consent.
    We're hoping for more of those things, right, John?
    And the House passed it under suspension of the rules.
    The 2006 reauthorization made several changes to MSA in 
order to improve its effectiveness and strengthen the fisheries 
conservation and management, domestically and internationally. 
Most notably, it amended the MSA to require, for the first 
time, the use of annual catch limits and accountability 
measures in all management plans in order to end the 
overfishing that provided fishermen and the councils with new 
tools to rationalize fisheries, where they wish to do so. 
Equally important, it imposed a requirement that all management 
plans for overfished stocks include a timeline for rebuilding 
that is as short as possible, and generally not longer than 10 
years.
    The 2006 reauthorization also made important changes to the 
MSA, aimed at improving the accuracy and reliability of data on 
recreational fisheries activities in order to better manage so-
called ``mixed use'' fisheries, fisheries that support charter 
and private recreational fishing, as well as commercial 
fishing, including through the authorization of a new National 
Saltwater Angler Registry.
    I look forward to hearing from our witnesses today on how 
these and other changes and updates to MSA are being 
implemented, and what effects they are having, and what 
recommendations in the future.
    Before I do the opening statements from the individuals 
that are here, when Senator Snowe----
    Perfect timing. Perfect. Good.
    What I would like to do is recognize the Ranking Member, 
Senator Snowe. Give her a minute, here.
    Senator Snowe. OK. If you wanted to go to Senator Kerry, 
that'd be fine. Thank you.
    Senator Begich. Do you want to do openings? Or I'm going to 
directly----
    Senator Kerry. I'd like to say a couple things. Can I?
    Senator Begich. Yes.
    Senator Kerry. Mr. Chairman----
    Senator Begich. I'm breaking my own rule. I hope you know 
that.
    [Laughter.]

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Well, I appreciate you doing that, because I 
have to speak on the floor, on the budget, in a little while, 
and I'm locked into that, so I won't be able to be here for the 
whole thing. But, I really appreciate it.
    First of all, let me welcome you to the chair, Mr. 
Chairman. As a former chair of this subcommittee, I'm really 
happy to see you take over. I actually was chair, with my 
Ranking Member, Senator Stevens.
    And, to be honest with you, Senator Stevens and I worked 
for a couple of years leading up to the rewrite of the Magnuson 
Act, and we sort of got ready to do it, and then the Senate 
changed and he became the chairman. And now we have the 
Magnuson-Stevens Act instead of the Magnuson-Kerry Act, which 
has----
    [Laughter.]
    Senator Kerry.--always been little bit of a, you know, 
question.
    [Laughter.]
    Senator Kerry. But, Ted became, just, an enormous friend. 
And he was a wonderful advocate for the fisheries, for the 
environment. And he was really a pleasure to work with. And we 
did a lot of things together, including going to the United 
Nations together to get the drift net ban put in place. And we 
still have problems with that.
    The reason I say all of this is just--I wanted to lay a 
predicate for my comments. I think I've rewritten Magnuson-
Stevens two or three times in the course of being here, and we 
are still struggling. I just had a meeting, this past week, 
with Secretary Locke and with Jane Lubchenco out of NOAA, 
because our fishing folks up in Massachusetts are really having 
a very, very difficult time right now. And I hope, Mr. 
Chairman, that we'll be able to get the--some progress here in 
the process.
    I can remember Ted Stevens sitting here, probably right 
here in this chair, saying how much we needed better science 
and how we--and I know Senator Snowe knows this--we need better 
science for our fishing people to make the judgments that are 
being made. And they just don't have confidence in them. And we 
still need it. We still need better science.
    And I'm concerned that right now, in the current Northeast 
Groundfish Fishery situation, we don't accurately reflect the 
situation that is facing the fishermen there. And I've heard 
people say, ``Well, the revenues are rising for the total take 
in your ports.'' Well, for about 10 percent of the fleet, that 
may be true; and that's because of the allocations. And the 
allocations are hurting the, sort of, smaller fishermen. And we 
need to get better in this job. We need, from you, Mr. Schwaab, 
the hard science/evidence of what the state of those fisheries 
are, so we can make a better judgment about how this is 
impacting our industry. And I think you know this.
    And I'd just very quickly say to you, there's a lack of 
transparency and a lack of sharing of the data. And it 
continues, assuming the data exists--the detailed individual 
boat and permit revenue--I emphasize, ``individual boat and 
permit revenue,'' not just the whole kit and caboodle--the 
quota transfer and leasing information that's critical to 
understanding this impact.
    So, my hope is--I also think that the ACLs ought to be 
increased for the remainder of the fishing season, consistent 
with the requests that we've made, which I believe--I'm 
convinced, and I've been one of the advocates over 27 years 
here, for maintaining the stocks and preserving the oceans and 
making sure we have fishing in the future--but, I'm convinced 
that we could do that in the short-term without hurting either 
of the goals. And so, I hope we'll look at that very, very 
closely.
    But, I thank you, Mr. Chairman, for taking this on. This is 
a committee/subcommittee that has a lot of impact on people's 
lives, and this issue is really critical to a whole lot of 
parts of our country.
    Thank you.
    [The prepared statement of Senator Kerry follows:]

  Prepared Statement of John F. Kerry, U.S. Senator from Massachusetts
    Chairman, Begich, thank you for this opportunity to discuss the 
implementation of the Magnunson-Stevens Fishery Conservation and 
Management Act and the increasingly difficult situation facing 
fishermen in Massachusetts.
    During my tenure on the Senate Commerce Committee, I helped to 
rewrite the Magnuson-Stevens Act and remain committed to the goal of 
building sustainable fisheries. However, I am concerned about the 
negative consequences that have resulted from the implementation 
sector-based management under Amendment 16 coupled with low Allowable 
Catch Limits (ACLs) under Framework 44 in Massachusetts.
    In a recent trip to Massachusetts I met with our fishermen, local 
business leaders, Mayors, state representatives and officials from 
Governor Patrick's administration. Each of these disparate groups asked 
me to change direction of fisheries management in Massachusetts.
    I have reviewed information from the National Oceanic and 
Atmospheric Administration (NOAA) on the current state of the Northeast 
Groundfish Fishery, but I am concerned that the information does not 
accurately reflect the situation facing the majority of fishermen in 
Massachusetts. Revenues for the entire fishery may be increasing under 
sectors. However, net revenues have been drastically reduced for much 
of the fleet as the costs of leasing quota have become the highest 
percentage of fishing expenses than any expense realized in the past. 
There has also been a distinct shift of revenues from the bottom 90 
percent of the fleet to the top 10 percent of the fleet mainly due to 
an allocation schematic that left many of the fishermen with woefully 
small allocations making them unable to fish or afford to lease quota 
that would enable them to fish. Many of the fishermen are struggling 
just to keep a roof over their heads and feed their families.
    Specifically, during my time in New Bedford it was clear that there 
was a deep sense of disappointment that the Department of Commerce has 
rejected the Governor's request for direct economic relief that was 
supported by the Congressional delegation. This denial is unacceptable, 
and I strongly urge NMFS, NOAA, and the Department of Commerce to 
continue to work with the Massachusetts delegation and the Governor to 
provide direct economic aid to the fishing community. What I find 
particularly frustrating is the continued lack of transparency and 
sharing of data (assuming it exists) that details individual (boat and 
permit) revenue, quota transfer, and leasing information which is 
critical to answer consolidation and excessive share questions and 
fully understand how the industry is changing.
    Second, they believe that ACLs should be increased for the 
remainder of the fishing season consistent with the Governor's report. 
As I argued prior to the start of the Fishing Year 2010, catch limits 
need to be increased for the choke stocks in order to minimize the risk 
of failure of the sector management while still preventing overfishing 
from occurring. Low ACLs coupled with the new management plan is one of 
the main reasons that there has been a backlash against catch shares in 
Massachusetts. While the Governor's Report did not provide new 
scientific data, because they do not possess new scientific data, it 
presented a well-reasoned analysis of how catch limits can be increased 
within both sustainable and legal bounds. This increase would greatly 
aid many fishermen in the last 2 months of this fishing year.
    Third, there is continued distrust of the Federal agencies as a 
result of the past abuses highlighted in the Inspector General's 
reports. More must be done to restore credibility. Specifically, a 
window should be opened for additional fishermen who did not initially 
submit their cases to the Inspector General for fear of retaliation to 
bring their cases to the Special Master, and the penalties associated 
with the cases currently being reviewed by the Special Master be stayed 
until the review is complete.
    Finally, there is a lack of confidence in the science that informs 
ACLs and fisheries management. This is an issue fishermen, scientists, 
and decisionmakers have wrestled with for years. We must continue work 
to increase the frequency of stock assessments, more quickly 
incorporate the findings of cooperative research, and reduce the amount 
of scientific uncertainty in our management decisions.
    Taken together, these actions will help reduce the tensions between 
our fishermen and the Federal Government. It will help our fishermen 
join in the process to develop a healthy, profitable and sustainable 
fishery that we envisioned in the 2006 Magnuson-Stevens 
reauthorization.

    Senator Begich. Thank you, Senator Kerry.
    Senator Snowe, for your opening----

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, and I welcome you 
as a chairman of this subcommittee. I'm looking forward to 
working with you, and I congratulate you for assuming the 
leadership of this subcommittee.
    I think both of our states share the legacy of the fishing 
industry and the traditions that are the hallmark of the states 
that we represent. Not to mention that both of our states 
represent about 40 percent of our Nation's shoreline, and how 
instrumental this industry is to our respective states, and 
obviously to the country. Extending the legacy as well of 
Senator Stevens, as Senator Kerry indicated, was the chair of 
this subcommittee for many years. In fact, I was on the 
Commerce Committee when I first came to the U.S. Senate and 
served on this subcommittee. Under the leadership of Senator 
Stevens, we learned how this industry is crucial to Alaska and 
to Maine, as well as to country.
    Mr. Chairman, this committee passed the reauthorization of 
the Magnuson-Stevens Act more than 5 years ago and reinstated 
the critical balance between marine environments and the 
economic imperative of commercial fishing to coastal 
communities in Maine and elsewhere.
    I want to welcome Assistant Administrator Schwaab, who, 
this past weekend, joined me again at Maine Fishermen's Forum 
in Rockland, Maine. There we both heard directly from the men 
and women who have unsurpassed knowledge about the current 
status of the New England groundfishery.
    I also want to welcome NOAA's Fisheries' Acting Chief 
Scientist Dr. DeMaster, as well as the rest of the witnesses, 
for their testimony today and their work to achieve crucial 
stability in our industries.
    This is a vital moment for our New England groundfishery, 
as Senator Kerry indicated, as we assess preliminary data from 
the 2010 fishing season and look forward to 2011. It is 
essential that, as we review the results from the first year of 
implementation of the sector-based systems, we remember that 
our fishery was in a crisis at this time last year.
    The Days-at-Seas Program had created a downward spiral for 
our industry: from 65 days, to 35 days, and the prospect of 
having as few as 14 days at sea for 2010. We were running out 
of days. And, moreover, we are running out of fish.
    The 2009 Status of U.S. Fisheries report listed 12 of the 
20 stocks as overfished in New England. And in 2009, New 
England fishermen caught fewer cod than in the previous years 
of recordkeeping.
    Today, compared to last year, revenue has increased. My 
fishermen inform me that the catch of healthy stocks, including 
haddock and redfish, are up by more than 10 percent. And, 
critically, bycatch has fallen from historical levels of 15 
percent to roughly 2 and a half percent.
    The bottom line is that the sector-based system, while it 
cannot immediately turn around our fishery, is providing 
cautious optimism for our fishermen for the first time in 
decades. As a result, it is imperative that we redouble our 
efforts to improve the management of the sector-based system. 
While I strongly believe in the intent of a science-based 
approach to fisheries management, we must also ensure the 
science is being efficiently applied and working for our 
fishing community.
    Currently, policies are burdened by antiquated stock 
assessments as well as painstaking Federal regulations, such as 
the process required by the National Environmental Policy Act. 
For example, I understand that, while Canada is able to 
implement changes to its fishery management in 4 months, 
bureaucratic delays can lead to a full year of waiting for 
changes in U.S. policy. We must recognize that cumbersome 
policies cost thousands of jobs today. And, frankly, Federal 
agencies must exhibit a sense of urgency to address the crisis 
in our fisheries.
    There are opportunities for action today to improve the 
management of our fisheries. Specifically, the legislation that 
I authored and was signed into law this January, corrected an 
interpretation of a bilaterally managed fishery and enabled 
representatives of the New England Fishery Management Council, 
NOAA, and Canadian fishery managers to recommended an increase 
in catch levels for Georges Bank yellowtail flounder by 44 
percent for 2011, compared to the expected catch limit for this 
coming fishing year. We must similarly act with respect to 
streamlining Federal regulations through the NEPA process, and 
accelerate collection of baseline data that helps establish the 
critical total allowable catch limitations.
    Though the intent of Magnuson-Stevens was to foster 
cooperation rebuilding overfished stocks while retaining jobs, 
I remain gravely concerned that fisheries management in New 
England is in a state of antagonism, mistrust, and dysfunction. 
The Department of Commerce Inspector General report, issued 
approximately a year ago, and the CBS News investigative report 
last month, revealed Federal enforcement officials as reckless 
and vindictive rather than the trusted, honest, and efficient 
public servants that the complex management of critical fishery 
stocks requires. I will not stand as individuals at NOAA and 
NMFS undermine, harass, and in some cases bankrupt, the very 
fishermen they should partner with to rebuild our Nation's 
fisheries.
    I look forward to the testimony of Assistant Administrator 
Schwaab of the National Marine Fisheries Service to ascertain 
exactly how the service is implementing the corrective action 
plan to address the Inspector General's finding.
    Make no mistake, the sobering assessment from the report 
must result in action, not further planning. And I, for one, 
will work aggressively to remove any perverse incentives that 
lead to the excessive fining of fishermen merely to increase 
budgets. Logically, fines should be invested in restoring 
species harmed through violations, not more funding for more 
enforcement. Further, the detailed abuses of the Asset 
Forfeiture Fund must lead to an immediate overhaul that will, 
as I called for last summer, freeze the fund until the full 
scope of mismanagement is revealed and a new, transparent 
policy is established that mandates rigorous oversight.
    The bottom line is, the success of Magnuson-Stevens and the 
recovery of the ground fishery will only be accomplished if we 
build a climate of trust between fishing communities and 
regulators. Increasing the frequency of stock assessments and 
of data collection through cooperative research will be 
critical to reduce the uncertainty about stock status while 
rebuilding the broken relationships between the regulators and 
the regulated.
    As you have said, Assistant Administrator Schwaab, counting 
fish is a lot like counting trees, except that fish swim and 
consume each other. It is challenging and requires complex 
methodology, but these assessments have far-reaching economic 
consequences. In Maine, hypothetical stock assessments for 
herring directly led to the closure of the Stinson Cannery in 
Prospect Harbor, exacting further job losses in an already 
economically distressed community. And I know you know this, 
Administrator Schwaab, because you were at the Fishermen's 
Forum this past weekend, where they auctioned off some of the 
very last cans that came out of Stinson Cannery. This was the 
only remaining sardine cannery in the United States, and it was 
ultimately closed because the reductions in the allowable catch 
of herring that could be caught ultimately depleted the supply 
that was available for this cannery. Again, not because it was 
being overfished, but because we had to make management 
decisions based on uncertain science.
    These assessments have dramatic ramifications and can lead 
to draconian decisions for coastal economies. Stock assessments 
and resulting management measures may make the difference 
between employment and unemployment, or between a tradition 
being passed down to children and a way of life being lost. As 
a result, we must have independent and updated analyses of the 
results of fishing management decisions on the economies of our 
coastal communities.
    And that's why in my first year, on this committee, I 
worked to make sure that we included National Standard 8 to 
consider the impact on the economic well-being of our 
communities that depend on fishing as a result of any of the 
regulations and was supposed to provide equal consideration in 
determining the catch levels that would be available for 
fishing.
    I have also cosponsored Senator Scott Brown's legislation, 
which would require independent assessments of the 
socioeconomic impact of fishing regulations on already 
beleaguered fishing communities.
    While rebuilding our stock is an economic opportunity with 
potential to generate $133 billion in sales and employ 2 
million Americans, the policies must work for all fishermen, 
for all boat sizes, and for every port. I hope that together we 
can work through these critical issues for our fisheries for 
the months and years to come.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much, Senator Snowe.
    What I'd like to do is--Senator Rubio, if you have some 
quick comments--what I'm going to try to do in future hearings 
is just Chairman, Ranking, and get right into it. So--but I--
just because I gave some flexibility for Senator Kerry, do you 
have anything you want to add to it?
    Senator Rubio. No, just go to questions.
    Senator Begich. OK.
    Let me, again, thank the witnesses that are here. You will 
have to bear with me. As my first meeting, I told--I promised 
the staff that I would not make any mistakes, so I'm counting 
on you to help me make that happen.
    [Laughter.]
    Senator Begich. But, let me first say, thank you again for 
being here. We'd like to limit your comments to 5 minutes. 
Whatever you do not--are not able to put in, we will put into 
the record. So, feel very comfortable about that.
    First, we have two speakers. One is Mr. Eric Schwaab who is 
Assistant Administrator, National Marine Fisheries Service; and 
then Dr. Douglas DeMaster, Acting Director of Scientific 
Programs and Chief Science Advisor for the National Marine 
Fisheries Service.
    What we'd like to do is--Mr. Schwaab, we will ask you to go 
ahead and go first, and then we'll go to Dr. DeMaster.

            STATEMENT OF ERIC C. SCHWAAB, ASSISTANT

       ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE,

       NOAA, U.S. DEPARTMENT OF COMMERCE; ACCOMPANIED BY

       DR. DOUGLAS DeMASTER, ACTING DIRECTOR, SCIENTIFIC

           PROGRAMS AND CHIEF SCIENCE ADVISOR, NOAA'S

            NATIONAL MARINE FISHERIES SERVICE (NMFS)

    Mr. Schwaab. Thank you, Chairman Begich, Ranking Member 
Snowe, members of the Committee. It is a great pleasure to be 
here.
    My name is Eric Schwaab. I am the Assistant Administrator 
for Fisheries within the National Oceanic and Atmospheric 
Administration. Also with me is Dr. Doug DeMaster, our Acting 
Chief Scientist, who does not have a formal statement prepared, 
but will be available to help me answer scientific questions.
    Mr. Chairman, I'm honored to be your first witness. Thank 
you.
    Senator Begich. You say that right now. That's great.
    [Laughter.]
    Mr. Schwaab. Our Nation's fisheries have been vital to the 
economies and identities of our coastal communities for 
hundreds of years. According to recent estimates, U.S. 
commercial and saltwater recreational fisheries support almost 
2 million jobs and generate more than $160 billion in sales. 
Americans are the world's third largest consumers of seafood, 
and we spend billions on recreational fishing. The economic 
activity generated by our fisheries creates local jobs, jobs 
that will never be outsourced. So, it is critical that we do 
everything we can to rebuild fisheries and ensure strong 
economic opportunities for fishermen and their communities.
    At NOAA, we are committed to preserving and growing good 
sustainable domestic fishing jobs: commercial, recreational, 
and aquaculture. The reauthorization of Magnuson in 2007 gave 
NMFS an important and clear charge to end overfishing. I am 
happy to say that we're making very good progress toward 
meeting that mandate. In 2010, the fishery management councils 
put in place annual catch limits and accountability measures 
for all stocks experiencing overfishing. I am also happy to 
report that we are on track to meet the deadline of having 
annual cash limits in place for all managed stocks in 2011.
    Despite this progress, we know that many of America's 
fishermen and their families face extremely challenging 
economic times. We also know that nearly $31 billion in sales 
and as many as 500,000 jobs are lost because our fisheries are 
not performing as well as they would if all stocks were 
rebuilt. While we are turning a corner toward a brighter future 
for fishermen and fishing communities, many fishermen are 
struggling, in part as a result of years of decline in fishing 
opportunity. While we rebuild future opportunity, we are 
committed to helping fishermen during this difficult period of 
transition so that diverse, thriving family fishing businesses 
remain a part of working waterfronts around our coasts.
    The 2007 reauthorization also included new requirements to 
ensure that management decisions are based on the best 
available science. I know there is a significant amount of 
tension around this issue, and there are certainly areas where 
science needs to be improved. That is why the President's 
budget request for Fiscal Year 2012 includes an additional $15 
million for stock assessments, an additional $3 million to 
improve recreational fishery statistics.
    One longstanding challenge is obtaining more timely and 
more accurate data on recreational fisheries. Magnuson provided 
new tools to fix the problems with recreational fishing data, 
and we are implementing wholesale changes under the Marine 
Recreational Information Program, or MRIP. One of the main 
components of MRIP is a new National Registry of Anglers. Since 
January 2010, anglers and for-hire fishing vessels that fish in 
the EEZ or for migratory species in shore have been required to 
register with NMFS or through an approved State registration 
process.
    These data are being put to work quickly to estimate 
catches more accurately, more efficiently, and in a more timely 
fashion.
    We have some very good examples of how fisheries management 
ends overfishing and leads to improved economic conditions for 
fishermen and our coastal communities. Many can remember when 
Atlantic swordfish was a stock in serious jeopardy. However, 
NMFS and ICAT lowered catch quotas and closed areas to fishing, 
to protect young fish. And the overfishing of Atlantic 
swordfish ended in 2002, leading to what is now a fully rebuilt 
fishery.
    Similarly, Atlantic sea scallops were once severely 
overfished. But, through careful regulation and collaboration 
with industry, that stock was rebuilt in 2001. It is now the 
top-valued fishery in the United States, producing over $385 
million in dockside revenue in 2009.
    The reauthorization of Magnuson-Stevens also gave the 
councils and fishermen new tools to increase flexibility and 
innovation in our fisheries. One such tool is limited access 
privilege programs, a type of catch-share program. Catch shares 
have been utilized in domestic fisheries since the 1990s. While 
not appropriate for all fisheries, where catch shares have been 
successfully implemented, they provide for greater safety at 
sea and have successfully led to increased landings and reduced 
bycatch. The flexibility the catch shares provide has fostered 
innovative techniques and business practices that can add 
substantial value to fisheries. The development of catch shares 
has raised concerns for--from some fishermen, ranging from 
industry consolidation to loss of community access to higher 
costs associated with monitoring. We have worked hard with the 
councils, fishermen, and fishing communities to ensure proper 
program design and to allow for adaptive implementation to help 
address these potential challenges.
    These are just a few of the many efforts taking place to 
meet the requirements of the Act and to ensure productive and 
efficient fisheries. We have turned a corner in our management 
of fisheries in this country. And the sacrifices made, and 
being made, by so many who rely on this industry are showing 
great promise. As we end overfishing and rebuild stocks, we 
will increase the economic output of our fisheries, improve the 
economic conditions for our fishermen, and create better, more 
stable and sustainable jobs and opportunities in our coastal 
communities.
    Thank you for--again, for inviting me here, Mr. Chairman. 
Dr. DeMaster and I look forward to your questions.
    [The prepared statement of Mr. Schwaab follows:]

    Prepared Statement of Eric C. Schwaab, Assistant Administrator, 
 National Marine Fisheries Service, NOAA, U.S. Department of Commerce; 
   accompanied by Dr. Douglas DeMaster, Acting Director, Scientific 
 Programs and Chief Science Advisor, NOAA's National Marine Fisheries 
                             Service (NMFS)
    Chairman Begich and members of the Subcommittee, thank you for the 
opportunity to testify before you today on the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act). My name is Eric 
Schwaab and I am the Assistant Administrator for Fisheries, within the 
National Oceanic and Atmospheric Administration (NOAA), Department of 
Commerce. Accompanying me is Dr. Douglas DeMaster, Acting Director of 
Scientific Programs and Chief Science Advisor for NOAA's National 
Marine Fisheries Service (NMFS.) NMFS is dedicated to the stewardship 
of living marine resources through science-based conservation and 
management, and the promotion of healthy ecosystems. As a steward, 
NOAA's National Marine Fisheries Service conserves, protects, and 
manages living marine resources to ensure functioning marine ecosystems 
and recreational and economic opportunities for the American public.
    Marine fish and fisheries, such as salmon in the Pacific Northwest 
and cod in New England have been vital to the prosperity and cultural 
identity of coastal communities in the United States for hundreds of 
years. As of our most recent estimate, in 2008, U.S. commercial and 
saltwater recreational fisheries supported 1.9 million full- and part-
time jobs and generated $163 billion in sales impacts.\1\ Americans are 
the third largest consumers of seafood in the world and are global 
leaders in marine sport fishing.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service. 2010. Fisheries Economics of 
the United States, 2008. U.S. Dept. Commerce, NOAA Tech. Memo. NMFS-F/
SPO-109, [177 pp].
---------------------------------------------------------------------------
    Recreational fishing is an important social activity for 
individuals, families, and communities, and it is a critical economic 
driver of and contributor to local and regional economies, as well as 
the national economy. Take for example, the Gulf of Mexico and the 
Southeast Atlantic regions, where our most recent statistics (2008) 
show combined expenditures on saltwater fishing trips and durable 
fishing equipment total $20 billion dollars annually; or the Mid-
Atlantic and Pacific regions where expenditures for these items reach 
$4.1 billion and $2 billion respectively, on an annual basis. This 
significant economic activity generates local jobs--that cannot be 
outsourced--which support communities large and small in our Nation's 
coastal states, territories, and commonwealths.
    The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act (Magnuson-Stevens Act) was groundbreaking in many 
respects and gave NMFS a very clear charge. It mandated the use of 
science-based annual catch limits and accountability measures to 
prevent and end overfishing, provided for widespread market-based 
fishery management through Limited Access Privilege Programs (or catch 
shares), focused on collaborative research with the fishing industry 
and bycatch reduction, addressed the need to improve science used to 
inform fisheries management, and increased international authorities to 
end illegal fishing and bycatch problems around the globe so that 
foreign fishing fleets are held to the same standards as, and do not 
economically disadvantage, U.S. fleets.
    My testimony today will focus on NMFS's progress in implementing 
the Magnuson-Stevens Act's key domestic provisions. Specifically, I 
will address progress implementing provisions to end and prevent 
overfishing and improvements to fish stock population assessments and 
recreational fisheries data. Additionally, I will discuss our efforts 
to support Limited Access Privilege Programs, a management approach 
that has been used in the U.S. since 1990, but that received additional 
guidance with the 2007 Magnuson-Stevens Act reauthorization. All of 
these efforts contribute to the success of U.S. fisheries management 
and to ensuring sustainable fisheries and strong economic opportunities 
for fishermen and coastal communities.
Implementing the Magnuson-Stevens Fishery Conservation and 
        Management Act
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the eight Regional Fishery Management Councils (Councils). 
This structure ensures that input and decisions about how to manage 
U.S. fisheries develops through a ``bottom up'' process that includes 
fishermen, other fishery stakeholders, affected states, tribal 
governments, and the Federal Government. The Councils are charged with 
developing fishery management plans to ``achieve and maintain, on a 
continuing basis, the optimum yield from each fishery.'' The Councils 
can choose from a variety of options to manage fish stocks--quotas, 
catch shares, area closures, gear restrictions, etc.--and also 
determine how to allocate fish among user groups. These measures are 
submitted to the U.S. Secretary of Commerce for approval and are 
implemented by the National Marine Fisheries Service.
    The Magnuson-Stevens Act guides fisheries management by 10 National 
Standards for fishery conservation and management. These standards, 
which have their roots in the original 1976 Act, provide a yardstick 
against which all fishery management plans and measures developed by 
the Councils are measured. National Standard 1 requires that 
conservation and management measures prevent overfishing while 
achieving, on a continuing basis, the optimum yield from each fishery 
for the U.S. fishing industry. Optimum yield is the average amount of 
fish from a fishery that, over the long-term, will provide the greatest 
overall benefits to the Nation, particularly by providing seafood and 
recreational opportunities and affording protection to marine 
ecosystems.
    Thus, the Councils in developing their plans must carefully balance 
fishing jobs and conservation. Other National Standards mandate that 
conservation and management measures be based upon the best scientific 
information available, not discriminate between residents of different 
States, take into account variations in fisheries and catches, minimize 
bycatch, and promote the safety of human life at sea.
    Working with the Councils, coastal states, and a wide range of 
industry groups and other constituents, NMFS has made significant 
progress in implementing key provisions of this legislation. For the 
rest of this testimony, I want to focus on progress implementing some 
of the key domestic provisions of the Magnuson-Stevens Act and the 
results that we are already seeing with the modernization of fisheries 
management.
Progress Implementing the Magnuson-Stevens Act
Implementing Annual Catch Limits
    One of the most significant new management provisions of the 2007 
Magnuson-Stevens Act reauthorization is the mandate to implement annual 
catch limits, including measures to ensure accountability and to end 
and prevent overfishing in federally-managed fisheries by a certain 
deadline.
    Overfishing has both ecological and economic impacts for the U.S. 
Overfishing reduces fish stock abundance, threatens and alters the 
coastal and marine ecosystem productivity and negatively impacts the 
economy. Depleted fish stocks reduce the Nation's supply of U.S. wild-
caught seafood and recreational opportunities, resulting in economic 
revenue and employment losses, particularly in coastal economies. 
Overfishing also contributes to increased dependence on foreign seafood 
imports, often from countries using fishing practices that are more 
harmful to ocean ecosystems. Overfishing jeopardizes the health of fish 
stocks and ecosystems, the economic viability of the fisheries, and the 
economic and cultural heritage of fishing-dependent communities. 
Moreover, there are long-term economic benefits to rebuilding our 
stocks. We estimate that if all stocks were rebuilt and harvested at 
maximum sustainable yield, it would generate an additional $31 billion 
in sales impacts, support an additional 500,000 jobs, and increase ex-
vessel value by $2.2 billion.\2\
---------------------------------------------------------------------------
    \2\ Internal analysis using the National Marine Fisheries Service 
Commercial Fishing & Seafood Industry Input/Output Model. For 
additional information on this model, see ``The NMFS Commercial Fishing 
& Seafood Industry Input/Output Model.'' available at https://
www.st.nmfs.noaa.gov/documents/Commercial%20Fishing%20IO%20Model.pdf.
---------------------------------------------------------------------------
    As noted in the 2007 reauthorization's Senate report, ``requiring 
routine adherence to an annual catch limit or TAC [total allowable 
catch] is a well-known management approach that has been utilized 
effectively by several Councils, but failure to adopt this technique 
more broadly has contributed to continued overfishing.'' Federal 
fishery management plans now must establish mechanisms for annual catch 
limits and accountability measures such that overfishing does not 
occur, with exceptions for stocks with a life cycle less than one year 
or stocks otherwise provided for under an international agreement in 
which the United States is a participant. Annual Catch Limits were in 
place by 2010 for stocks subject to overfishing and must be put in 
place by 2011 for all others. If the limits are exceeded in a fishing 
year, accountability measures should provide for adjusting harvest 
levels within the season or setting responsive levels for the following 
year. This is an important move away from a management system that 
could only be corrected by going back through the Council process--
often taking years to accomplish, all while overfishing continues. Now, 
when developing a fishery management plan or amendment, the Councils 
must consider the actions that will result if a fishery does not meet 
its performance objectives.
    Toward this end, NMFS has been working closely with the Councils to 
ensure compliance with these requirements and statutory deadlines. In 
January 2009, NMFS published new guidance on ending overfishing and 
implementing annual catch limits through revised National Standard 1 
Guidelines. Most significantly, the National Standard 1 Guidelines 
describe how scientific and management uncertainty should be taken into 
account as Councils establish annual catch limits and accountability 
measures. NMFS is also working to ensure that the Councils have the 
best available science upon which to base annual catch limits and that 
they are accompanied by effective and credible accountability measures 
to prevent catch limits from being exceeded and to make necessary 
adjustments, if these limits are exceeded.
    The strict deadlines for implementing annual catch limits required, 
in many cases, difficult decisions and short-term sacrifice on the part 
of commercial and recreational fishermen. We recognize this sacrifice 
and are working to provide the Councils with the best scientific and 
economic information available upon which to base management decisions, 
to ensure that management actions are as precise and focused as 
possible. However, history has shown that effective management does end 
overfishing. For example, overfishing of North Atlantic swordfish 
occurred from 1998 to 2002, but has not occurred since, due to action 
taken by NMFS and the International Commission for the Conservation of 
Atlantic Tunas to lower catch quotas and close areas to protect 
juveniles. This fishery is now rebuilt. In the Pacific Northwest, 
lingcod was designated as overfished in 1999, with overfishing 
occurring for several years. Quotas, trip limits, depth restrictions, 
size limits, seasonal closures, and gear restrictions ended lingcod 
overfishing in 2005, and the stock was rebuilt several years ahead of 
schedule. Atlantic sea scallops were once severely overfished, but with 
cooperation from scallop fishermen the stock was rebuilt in 2001 and is 
now the top-valued fishery in the United States. Compared to the 1990-
1999 time period when scallops were overfished, New England scallop 
fishermen are now sustainably harvesting an additional 17.5 million 
metric tons per year (131 percent higher landings) and ex-vessel 
revenues have increased by $93 million annually.
Rebuilding Overfished Stocks
    In addition to measures to end and prevent overfishing, the 
Magnuson-Stevens Act includes actions to rebuild any overfished 
fishery. If a stock is determined to be overfished, a Council, in 
coordination with NMFS, must immediately end overfishing on the stock, 
and within 2 years of the determination, develop and implement 
management measures to rebuild the stock to healthy levels. The 
requirement that rebuilding measures immediately end overfishing was 
added by the 2007 reauthorization. Rebuilding of overfished fisheries 
is required in as short a time as possible taking into account the 
status and biology of the stock, needs of fishing communities, 
international commitments, and the stocks' interactions within the 
marine ecosystem. In addition, the time period for rebuilding cannot 
exceed 10 years except where biology, environmental conditions, or 
international agreements dictate otherwise.
Measuring Progress in Eliminating Overfishing and Rebuilding Stocks
    Between 2000 and 2010, there have been a total of 84 stocks on the 
overfished list; in that same timeframe, 36 stocks have come off the 
list. Similarly, there have been a total of 76 stocks subject to 
overfishing; 36 stocks have come off that list. There are currently 48 
stocks that are overfished and 40 stocks subject to overfishing.
    For fisheries subject to the 2010 deadlines, the Councils have 
taken final actions to end overfishing and put annual catch limits in 
place. The Councils and NMFS are also on track to meet the 2011 
deadline to have annual catch limits in place for all managed stocks. 
Even though measures have been implemented to end overfishing, we will 
still report stocks as subject to overfishing until a new stock 
assessment confirms that the management measures were successful. 
Preventing future overfishing will be maintained only through continued 
strong science, monitoring of fisheries, and adaptive management that 
can quickly respond to new information and problems that may arise. 
Also, ending overfishing is only one part of sustainable fisheries. For 
stocks that are overfished, we need to continue our efforts to rebuild 
those stocks.
    Our progress and performance is also tracked by the Fish Stock 
Sustainability Index, an overall index of sustainability for 230 U.S. 
fish stocks selected for their importance to commercial and 
recreational fisheries. The Fish Stock Sustainability Index tracks both 
improvements in our knowledge about fish stocks, as well as performance 
in ending overfishing and rebuilding stocks. According to the 4th 
Quarter Update of the Status of U.S. Fisheries for 2010, our index 
score increased by 63 percent over the last 10 years (from 357.5 to 583 
points out of 920 possible points). Twenty one fish stocks have been 
rebuilt in this same time period. The Fish Stock Sustainability Index 
will continue to increase as overfishing ends and stocks rebuild to the 
levels that provide for maximum sustainable yield.
Limited Access Privilege Programs
    The 2007 reauthorization also added a new Section 303A, which 
established rules governing the development and use of Limited Access 
Privilege Programs in fisheries where Councils have voluntarily adopted 
this management approach. Limited Access Privilege Programs include 
programs that allocate harvest privileges exclusively to individual 
entities, and the recipient of the harvest privilege is directly 
accountable to stop fishing when its exclusive share or allocation is 
reached. These programs were first implemented in the 1990s in the surf 
clam/ocean quahog, wreckfish, and halibut/sablefish fisheries.
    Limited Access Privilege Programs provide a valuable fishery 
management tool that can play a significant role in meeting our 
national goal of rebuilding and sustaining our U.S. fishery resources. 
While not appropriate for all fisheries, Limited Access Privilege 
Programs can bring a wide range of social, economic, and biological 
benefits to a fishery. For example, these approaches can eliminate the 
undesirable ``race-to-fish'' or fishing derby conditions, thereby 
improving safety for fishermen. They have also demonstrated increased 
landings, reduced bycatch, improved stability and increased season 
length in some fisheries. These conditions encourage product 
innovation, encourage savings in fishing costs and result in higher 
profits. For example, in the long-overfished Gulf of Mexico commercial 
red snapper fishery, quotas were regularly exceeded and fishing derby 
conditions were resulting in shorter and shorter seasons. In 2007, an 
individual fishing quota program was implemented as well as measures to 
end overfishing. Since then the commercial season length has been 
extended from an average of 88 days before the individual fishing 
quotas to year-round access after program implementation. In 
combination with other favorable factors, the quotas have also been 
increased. Additionally the share price, which reflects the long-run 
expectations of economic returns, has more than doubled since program 
implementation and ex-vessel prices for red snapper had increased by 14 
percent (6 percent when adjusted for inflation).
    In many cases, Limited Access Privilege Programs can also help 
modernize a fishery. In particular, these programs tend to require more 
detailed and timely monitoring of the landings of the individual entity 
holding the harvest privilege. This both ensures transparency in the 
program, and facilitates market-based transfers between eligible 
entities, which drives economic efficiency. With this, the quality and 
quantity of fishery data improve significantly through new catch 
accounting, monitoring and compliance systems, as well as improved 
tracking systems for social and economic outcomes. These requirements 
improve our scientific estimates of overfishing levels and reduce 
scientific uncertainty in setting annual catch limits. With more 
precise scientific data, further increases in allowable biological 
catches are often possible.
    The most recent program, the Northwest trawl individual 
transferable quotas program, is a significant achievement modernizing 
the management of this major U.S. fishery that was developed over many 
years with significant input from industry groups in the Council 
process. This program, as all other fishery management programs in the 
U.S., will continue to evolve and adapt to meet changing management 
objectives identified by NMFS, the Councils, and industry.
    Limited Access Privilege Programs are a type of catch share 
program. Catch share is a more general term used to describe fishery 
management programs that allocate a specific portion of the total 
allowable catch to individuals or other eligible entities. In November 
2010, NOAA released a catch share policy. The policy supports the 
voluntary consideration of catch shares by Councils in fisheries they 
deem appropriate by removing impediments to the consideration of catch 
shares, and informing and educating stakeholders of the different 
options and capabilities of catch share programs. The policy aims to 
support well-designed catch share programs to help maintain or rebuild 
fisheries, and sustain fishermen, communities, and vibrant working 
waterfronts, including the cultural and resource access traditions that 
have been part of this country since its founding. The policy 
explicitly recognizes that catch shares may not be the best management 
option for every fishery or every sector of a fishery and that NOAA 
will not require catch share programs. The development of catch share 
programs should be based on close collaboration with Federal, state, 
and industry partners through the council process to evaluate catch 
share options and design programs that meet the needs of their unique 
regional fisheries.
Improvements to Science and Recreational Fisheries Data to End 
        Overfishing
    Science-based decisionmaking is at the core of the Magnuson-Stevens 
Act. Each year, NMFS conducts stock assessments around the country 
which include rigorous peer review processes to ensure the best 
available results. All eight Regional Fishery Management Councils now 
have functional Science and Statistical Committees that provide 
science-based acceptable biological catch recommendations for stocks in 
a fishery that the Councils must follow when establishing management 
measures. The Councils and their Science and Statistical Committees 
also more consistently account for scientific uncertainty in the stock 
assessments and management uncertainty in the fishery. Based on these 
uncertainties and where data permits, they are developing control rules 
that identify the risk of overfishing stocks or exceeding an annual 
catch limit under different management scenarios. They are also making 
recommendations about what data is needed to improve management for 
various fish stocks.
    NMFS continues to strive to improve our scientific knowledge of 
marine fisheries. The President's FY 2012 budget includes an increase 
of $15 million to improve Expanded Stock Assessments. These funds would 
improve assessments for high priority stocks; update assessments for 
stocks more frequently; and conduct fishery-independent surveys to 
enable assessment of more stocks, including data poor stocks. High 
priority stocks include commercially and recreationally valuable stocks 
and associated fishery-limiting stocks with high scientific or 
management uncertainty influencing annual catch limits, as well as 
those that were previously experiencing overfishing to verify that 
overfishing has ended. All regions of the Nation have some assessments 
that will benefit from these increased funds.
    A workshop with 43 participants from NMFS, the Councils' Scientific 
and Statistical Committees, and academia was held February 15-17, 2011, 
to explore the science needed for even better implementation of annual 
catch limits. Within each of eight topics, the workshop explored 
feasible improvements for the next 5 years. Increasing data collection, 
including advanced technologies and cooperative research, and more 
methods standardization were key findings to support a faster tempo of 
assessment updates needed for annual catch limit determinations. NMFS 
will release a report of these discussions and seek additional input on 
these topics.
    Cooperative research with the fishing industry is another useful 
component to ensuring sustainable fisheries. For example, the 
development of the Ruhle trawl for the New England groundfish fishery 
resulted in gear that retains abundant haddock and eliminates 
overfished cod and flounder. Pelagic longline fishermen in the Atlantic 
worked with NMFS to demonstrate that new circle hook and bait 
requirements could reduce sea turtle interactions in Atlantic swordfish 
fisheries. When the $20 million Hawaii-based pelagic longline fishery 
was closed in 2001 due to turtle interactions, these innovations from 
the Atlantic allowed the Hawaii-based fishery to reopen.
    The Magnuson-Stevens Act also required improvements to recreational 
fisheries data collected by NMFS for use in management decisions. In 
October 2008, NMFS established the Marine Recreational Information 
Program, a new program to improve recreational fishery data collection 
efforts, consistent with the Magnuson-Stevens Act requirement and the 
2006 recommendations of the National Research Council. The Marine 
Recreational Information Program is a national system of coordinated 
regional data collection programs designed to address specific needs 
for improved recreational fishing information. The design of regional 
programs is guided by research projects which provide recommendations 
for modifying or developing new survey methods. The President's FY 2012 
budget includes an increase of $3 million to improve the timeliness and 
quality of catch monitoring in recreational fisheries. This includes 
funding to implement monthly, rather than bimonthly, surveys of fishing 
effort to support updates to catch estimates in the Southeast and 
Northeast Regions and to initiate electronic trip reporting and 
dockside validation of such trip reports in ``for-hire'' fisheries in 
the Southeast and Northeast Regions.
    In January 2011, NMFS submitted a report to Congress, entitled 
``Counting on the Future of Recreational Fishing,'' as required by the 
Magnuson-Stevens Act. That report provided specific documentation of 
the actions NMFS has taken to implement the statutory requirements, 
including the requirement to implement the recommendations of the 
National Research Council review to the extent feasible. Overall, the 
report concludes that NMFS is on track toward fully implementing new 
requirements of the law through a deliberate, scientifically rigorous 
process engaging a broad and diverse range of scientists, state and 
Federal agency partners, Fishery Management Councils, Marine Fisheries 
Commissions, government and non-government marine scientists, stock 
assessors, recreational fishermen, ocean conservationists, business 
people, coastal communities, and others.
    One major component of the Marine Recreational Information Program 
is the development of a national registry of anglers, also required by 
the Magnuson-Stevens Act, which will significantly improve the quality 
of recreational fishing data. Since January 2010, anglers and for-hire 
fishing vessels that fish in the Exclusive Economic Zone or who fish 
for anadromous species have been required to register with NMFS (or a 
cooperating state agency) so we can better collect effort and 
participation information. Using these lists of known anglers as the 
basis of telephone and mail surveys will significantly improve the 
efficiency of recreational data collection and the quality of 
recreational fishing data.
    The Marine Recreational Information Program is also developing and 
implementing numerous other survey improvements to address the National 
Research Council's recommendations. Improved survey methods will be 
phased in beginning this winter with the implementation of a new, 
unbiased estimation method that will re-estimate Atlantic and Gulf of 
Mexico recreational catches based on data collected in 2011 and prior 
years by the Marine Recreational Fishery Statistics Survey. 
Complementing the improved estimation method, an improved shoreside 
survey design has been tested for collecting catch data needed for 
estimating total catches of different fish species. This new design 
will be implemented in 2012 to further improve the accuracy of 
recreational catch statistics for the Atlantic and Gulf States. Other 
survey improvements to address the National Research Council panel's 
recommendation regarding sources of potential bias and improvements in 
for-hire fishery data will also be completed and implemented over the 
next 2 years.
Challenges
    Despite considerable progress, challenges still remain, including 
continuing to increase the quality and quantity of scientific data, 
dealing with difficult transitions to a more biologically and 
economically sustainable condition, and ensuring that resource 
allocations are fair and equitable.
    Annual catch limits and accountability measures require 
improvements to our stock assessments and monitoring efforts. They call 
for us to look ahead to the catch levels that will prevent overfishing. 
Solid, science-based determination of these levels needs better 
linkages to ever-shifting environmental and ecosystem conditions. 
Moreover, U.S. fisheries are extraordinarily diverse in value, 
participation, and science needs. Our science efforts strive to balance 
these needs, by conducting the best possible assessments of our more 
important stocks, and conducting at least baseline monitoring of all 
fished stocks. We struggle with implementing annual catch limits, in 
particular, for fisheries with stocks that are considered data-poor or 
for which monitoring improvements are needed. Together with our 
partners, to address these situations, we continue to explore 
alternative approaches that will produce the best available information 
to incorporate into management. In light of climate change and ocean 
acidification, it is increasingly important that we start to understand 
ecosystem factors and incorporate them into our stock assessments and 
management decisions as well.
    The development of Limited Access Privilege Programs has raised 
concerns from fishermen with respect to a variety of issues ranging 
from consolidation to loss of community access to monitoring costs 
among others. As we move forward in our development and implementation 
of these programs, we are firmly committed to working with the 
Councils, fishermen, and the broader fishing community to help them 
consider the multitude of options a properly designed program can offer 
to address these potential challenges.
    Rebuilding fish stocks provides an opportunity to consider 
allocation of resources among different users without necessarily 
reducing the allocation of one stakeholder group at the expense of 
another. Allocation discussions are challenging and can harden the 
lines and attitudes of some stakeholders because of the real or 
perceived loss of fish. However, as fishery resources increase, we can 
have a more fruitful discussion about allocation in light of 
conservation, social, and economic objectives of fisheries management. 
We need to recognize that many people have made sacrifices and 
acknowledge that short-term hardship was suffered with the expectation 
of future benefits, but we also need to look at the greatest net 
benefit to the Nation. We are starting to examine this issue in more 
depth to determine if any new guidance or policy would assist the 
Councils when they consider National Standard 4--ensuring fair and 
equitable allocations--in their deliberations during the development of 
fishery management plans.
    The combined effects of implementing the Magnuson-Stevens Act will 
result in: (1) increases in allowable harvests in some fisheries over 
time; (2) improved stability and predictability in most stocks; and (3) 
more stable incomes and increased profitability in catch share 
fisheries. Achieving these benefits will not happen quickly or easily. 
These changes take time and require some significant short-term 
sacrifices by fishermen who participate in these fisheries. Challenges 
in the short-term include:

  <bullet> Ending and preventing overfishing by means of annual catch 
        limits may mean lower harvests and incomes in the short-term;

  <bullet> Rebuilding overfished stocks, especially those with long 
        rebuilding periods, involves a difficult transition while the 
        stocks recover;

  <bullet> Improved scientific information depends on adequate support 
        for stock assessments and other research programs, an uncertain 
        proposition in light of the prevailing budget austerity;

  <bullet> Achieving our goals with respect to marine recreational 
        registries and data will depend on the continued cooperation of 
        the coastal States and recreational community; and,

  <bullet> Finally, addressing all of these issues and keeping us on 
        track will require a continued adaptive and participatory 
        management process, which will enable us to deal effectively 
        with new information and ecosystem changes.

    While in the short-term, it may require sacrifices by fishermen, 
following through on the steps being taken now will provide significant 
long-term economic benefits to fishermen, coastal communities, and the 
Nation. As previously mentioned, if all stocks were rebuilt allowing 
harvest at maximum sustainable yield, we estimate this would generate 
an additional $31 billion in sales impacts, support an additional 
500,000 jobs, and increase ex-vessel value by $2.2 billion.
    NMFS is mindful that all of these activities and efforts are 
occurring in the midst of one of the most difficult economies we have 
seen in years. As some fishermen make sacrifices to comply with these 
new requirements, the state of our national economy is undoubtedly 
compounding the weight of their sacrifices.
Conclusion
    It is important to keep in mind that sustainability of our Nation's 
fisheries, the goal of the Magnuson-Stevens Act, is something that is 
maintained. Our living marine resources and the marine environment is 
dynamic--constantly changing--and we need to have adaptive, responsive 
management to sustain successful fisheries management. We have 
mechanisms in place through the public, transparent Fishery Management 
Council process and through our science and management programs to 
monitor the status of fish stocks regularly, annually when we can, and 
respond quickly to changes in stock abundance, especially if any 
overfishing is detected.
    We have dedicated significant funding to achieve the 2007 
reauthorization's objectives. A total of $153.4 million is included in 
the President's FY 2012 budget request to support implementation of the 
Magnuson-Stevens Act. Funding increases have been received each year 
since 2008 to support a phased-in approach to implementing the new 
provisions of the Act. This funding supports a wide variety of 
activities undertaken by NMFS and the Councils, including developing 
and implementing annual catch limits, expanding stock assessments and 
improving commercial and recreational fishery statistics, supporting 
at-sea observers, peer review of scientific information, cooperative 
research, Limited Access Privilege Programs, enforcement, bycatch 
reduction, economics and social science research, deep sea coral 
research and technology, and international efforts.
    Funding uncertainties may seriously affect implementation of the 
Magnuson-Stevens Act. Congress provided NMFS with significant resources 
in FY 2010 to achieve these mandates including funding for annual catch 
limits, stock assessments, and recreational fisheries data collection. 
Significant deviations from the President's FY 2012 budget request, let 
alone reductions below the FY 2010 level, would constrain our ability 
to achieve our long-term objectives.
    We are now in a unique position to ensure that the Nation's marine 
fisheries are both biologically and economically sustainable in the 
future. Implementing the Magnuson-Stevens Act's provisions to end 
overfishing and rebuild stocks through the partnership between NMFS, 
the Regional Fishery Management Councils, the commercial and 
recreational fishing industry, environmental groups, and the public is 
the key component in ensuring this future. With continued support we 
will make substantial progress toward science-based, effectively 
managed, and economically viable commercial and recreational fisheries 
that will benefit coastal communities and the Nation as a whole. As 
noted, the potential economic and social benefits of rebuilt fisheries 
we stand to gain are considerable. The Magnuson-Stevens Act provides 
great flexibility in adapting rebuilding plans to the life history 
differences among species and nuances of particular fisheries. The 
requirement for timely rebuilding of stocks within the context of 
gaining improved economic performance from rebuilt fisheries has 
already resulted in a number of successful rebuilding programs--such as 
for Atlantic sea scallop, lingcod and swordfish--and much improved 
resource conditions for others, such as the groundfish complex on the 
West Coast. Over the next few years, having eliminated overfishing for 
the 40 stocks where such conditions now exist will add to this list of 
successful rebuilding plans.
    As fisheries rebuild, they will also provide social benefits. More 
stable fisheries should ease some of the stress on industry 
participants that we have seen in recent years. Limited Access 
Privilege Programs can contribute to stabilizing the economics of 
coastal communities. Ending the ``race-to-fish'' and reducing 
overcapacity should produce continued improvements to the safety of 
fishermen at sea. The projected improvements in economic performance of 
U.S. fisheries should result in an increase in employment in the 
domestic seafood industry and more stable income to participants. 
Importantly, future generations of Americans will be able to enjoy 
abundant and productive marine recreational fisheries. Overall, robust 
commercial and recreational industries will generate billions of 
dollars of economic activity cross the broader U.S. economy, rippling 
outward from the marine sector to support sales and employment in 
manufacturing, wholesale, and retail along the coast and providing an 
economic engine for sustaining working waterfronts and economically 
resilient coastal communities.

    Senator Begich. Thank you very much. Thanks for your 
testimony.
    What I'd like to do is ask Senator Snowe if she wants to go 
through her questions. And we'll do this in 5-minute 
increments. And then the list will go as follows: Kerry, Rubio, 
Cantwell, Nelson.
    Senator Snowe.
    Senator Snowe. Thank you.
    Welcome again, Assistant Administrator Schwaab. I 
appreciate that you attended the Fishermen's Forum in Maine 
over the weekend.
    I want to address the issue of the sector-based approach, 
because it is critical to our industry. And what I heard 
repeatedly at the Fisherman's Forum--and I'm sure you did, as 
well--is the fact that fishermen want sector management to 
continue, because it's an improvement compared to the 
fluctuations and the extensive nature of the regulations that 
were implemented this last decade in particular, including the 
Days-at-Sea regime which I went through in my opening 
statement. The fact is, that numbers coming in so far are 
evidence that the sector-based approach is working. I wonder if 
it would have been different with the Days-at-Sea management 
regime. For example, as I mentioned earlier, we are seeing 
increased revenues for haddock. Also, looking at these charts, 
I see that the catch of underutilized stocks has increased 
slightly, and that's an increase over what would have been 
caught under Days-at-Sea and the revenues that would have been 
generated under Days-at-Sea. Finally, under sectors the 
groundfishery has been catching fewer fish from overfished 
stock, compared to under Days-at-Sea.
    One of the concerns that was expressed at the Fisherman's 
Forum was that somehow the sector-based approach might not last 
or stay in place. So, first and foremost, I think it's 
important to get assurances that we can continue this program, 
even if it needs some changes, such as increased limits on some 
of the species within the groundfishery, which I'll talk about 
in a moment.
    Mr. Schwaab. Thank you, Senator Snowe.
    It is true that there have been significant signs of 
promise in sector-based management. Obviously, as we faced the 
increasingly tight catch limits, particularly for a number of 
stocks in the groundfish fishery, going forward into the 
current fishing year, there were concerns that, under a days-
at-sea management system, continued declines in opportunity 
would have put increased--an intensive pressure on many aspects 
of the fishery.
    We do know that there are concerns that need to be 
addressed, going forward. But, at the same time, we also know 
that there are some very positive signs associated with sector-
based management. Many fishermen who feel that it has, even 
under tight catch limits, given them the flexibility that they 
need to fish more efficiently, to time markets more 
effectively, to avoid limiting stocks. One of, I think, the 
under-acknowledged benefits of sector-based management so far, 
has been the significant reduce in discard waste and what that 
will have--the effect that that will have going forward with 
rebuilding programs.
    What--we do see sector-based fishermen fishing more 
effectively around the more limiting stocks, thereby securing--
taking greater advantage of the healthier stocks. That is 
something that we hoped that sector-based management would 
allow. It is something that we do see happening. And obviously, 
of--the goal of securing and catching a higher portion of those 
healthier stocks is something that we all share. It's been a 
problem in the fishery for a long time, and it's something that 
we think sector management will help to address.
    Senator Snowe. First of all, you think that we should stay 
the course in sector-based management. Is that correct?
    Mr. Schwaab. Yes. Obviously there are some adjustments that 
might be called for. But, in general, staying the course is the 
right plan of action.
    Senator Snowe. Second, you also agree, from what you have 
said, that there have been some positive preliminary results 
under the sector-based approach, such as increased revenues.
    Mr. Schwaab. Yes. So, we've seen increased dockside 
revenues. Some of that may be attributable to sector-based 
management. We certainly can't claim that to be the case 
universally. But, there has also been, we think, as you 
indicated in your question--in your initial question--
opportunity for fishermen to more effectively secure a higher 
percentage of the healthier stocks, going forward, which will 
have significant benefits for the industry in the short term 
and long term.
    Senator Snowe. How will that happen? That's the other part 
of the question. There are at least 7 of the 19 stocks within 
groundfishery that have been rebuilt and the central issue is 
whether or not we could increase total allowable catch for 
those stocks, because it really is important for the community. 
Is there a possibility of getting a mixed-stock exception?
    Mr. Schwaab. Well so, there are----
    Senator Snowe. For those species?
    Mr. Schwaab. I'm sorry.
    Senator Snowe. Yes.
    Mr. Schwaab. There are several components to this. First is 
securing a higher percentage of the available stocks before--
particularly as it relates to healthier stocks--before the 
fishery is constrained by needed actions to protect the more 
limiting stocks. That is happening now. A second part of this 
is that we will see, as this rebuilding process unfolds, catch 
limits increase for a number of stocks that will provide 
greater opportunity for fishermen in the future. Of course, the 
third component of that is continuing to refine the science so 
that, where we have data that suggests improvements that are 
quicker than what were anticipated, we can take more timely 
action.
    Senator Snowe. Thank you.
    Senator Begich. Thank you very much.
    Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you.
    And thank you, gentlemen, for appearing here before us 
today.
    Before I ask my question, I just want to kind of lay out 
how important this issue is for Florida, from an economic 
standpoint. I'm sure you're both aware of it. And I know 
Senator Nelson will be back in a minute; he'll talk about this, 
as well.
    But, from Florida, this is almost a $13-billion-a-year 
industry, and more than half of that is in the recreational 
fishing endeavor. In fact, we've got over about 131,000 jobs in 
Florida that are built on the recreational fishing.
    And I think there are two starting points for my question, 
and--that I think we all agree on. The first is a sustainable 
fishery, is that--is a goal we all share. And, in fact, I don't 
think anyone has a bigger stake in that than the fishermen, 
themselves. And the second is that, in order to have a good 
management plan, we have to have good data, and that the 
decisions that are being made have to be driven by the data. 
And, of course, that--number three, that data has to be used 
effectively.
    What we can't afford to do is arbitrarily shut down 
fishing, based on incomplete or insufficient data, for a lot of 
different reasons.
    First of all, the economic impact of it is absolutely 
devastating. Last year, when I traveled the state, I was 
campaigning at the time, and I ran into people who were being 
wiped out by, not just some of these restrictions that had been 
put in place, but they also got hit with an oil spill in parts 
of our state, which was a double whammy. And it was just 
devastating for many of these folks that they couldn't get 
going again. And I'm not sure they're going to be able to get 
going this year.
    The second is that it undermines the legitimacy of these 
laws. When it's not based on data that people believe in or 
that they can see, it undermines the legitimacy of the law. It 
undermines the agencies that are trying to implement the law. 
And I would add that one of the things that it does is it 
creates this rift, this fight between two parties that I think 
have the same interest in mind, and that's protecting the 
stock. But, it creates this fight between them that, again, is 
driven by the fact that they know that these decisions aren't 
being made on data that's accurate, because it's not being 
shown to them.
    So, obviously, I think data, as far as the Florida 
perspective and probably at the national perspective, is 
critical to all of this. And that's why I'm puzzled as I looked 
at some of this. It appears the Administration has transferred 
about $6 million from the Cooperative Research Program to the 
National Catch Share Program; and then it transferred another 
$11.4 million from the Fisheries Research and Management 
Program to the Catch Share Program. And so, my question is, if 
data--is data a priority--data collection, accuracy of the data 
a priority? And, if it is, why isn't it being reflected, at 
least in my mind, based on what I'm reading, on the way we're 
funding some of these programs?
    Mr. Schwaab. Thank you, Senator.
    Data is a priority. There are several elements to that. 
Obviously, biological data is a big part of that question. 
Catch-and-effort data are a big part of the question in the 
recreational industry, as well as in the commercial and the 
for-hire sectors. So, those are a priority. Those have been 
reflected, I think, substantially in a number of our actions.
    In 2010, we had an increase in our stock assessment line 
item of approximately $10 million. Because of the particular 
concerns in the Southeast, we did dedicate approximately half 
of that increase to the Southeastern part of the country to 
deal with some of the particular data-poor challenges down 
there. As I indicated in my opening statement, the President's 
budget for Fiscal Year 2012 does propose another $15 million 
increase in stock assessment data. At the same time, we do have 
to take steps to improve some, for the long-term, of our 
management approaches.
    And we see investment in catch share line item--in the 
catch share line item, as a way to, over the long-term, improve 
the efficiency of our management efforts, vest more authority 
in the hands of the fishermen to make day-to-day management 
decisions; thereby, over the longer term, freeing up more 
resources within the agency to focus on, not only these stock-
specific data challenges that we face now, but some of the 
broader challenges that we face in years ahead, going forward.
    Also, the last thing I would note is that we do, obviously, 
derive significant amount of data from the increased observer 
and monitoring coverage that is associated with catch-share-
based systems. And that data does then feed right back into the 
management decisionmaking process.
    Senator Rubio. But, if I may, we have some fisheries, 
particularly in the recreational realm, that we have very poor 
data on, and some that we've had no assessments done on 
whatsoever. Has there been, ever, any consideration or thought 
that maybe we shouldn't be putting limits on these fisheries 
until we actually know what we're basing it on?
    Mr. Schwaab. So, there are obviously a range of challenges 
that we face there. Some of those that deal specifically with 
data-poor circumstances are one that, frankly, from the science 
perspective, we've been placing a great bit of attention on in 
recent months and even years.
    And, if it's OK with you Senator, I would defer to Doug 
DeMaster to say a few words about some of those efforts.
    Dr. DeMaster. I'm Doug DeMaster. I'm the Director of the 
Alaska Fisheries Science Center, from Juneau, Alaska. I'm the 
Acting Chief Scientist for National Marine Fisheries Service.
    The question about data-poor stocks is an important one. 
There has been considerable effort, at our National Stock 
Assessment Workshops, to address this. We've worked 
specifically with the SSCs in the south Atlantic and the Gulf 
Coast. We have four, kind of, specific approaches that we want 
to test, in terms of computer simulations, to see how well they 
perform.
    But, I should start out by saying that, when you're trying 
to manage a fishery on catch or landing data alone, you're in a 
risky position. All of the history we have, and our experience, 
suggests that catch data alone--it's very difficult to manage 
fisheries properly.
    That being said, if you have assessment scientists who have 
some sense of the status of the stock--Are they depleted or not 
depleted? Are they productive or not productive? Do they have--
are they long-lived or not?--those are the features that go 
in--or some of the assumptions that are made in using these 
catch-only assessments for data-poor stock. So, we are 
developing those.
    We recognize, in the south Atlantic and in the Gulf, we 
need to improve our throughput, in terms of stock assessments. 
So, certainly considerable effort is going to be put into 
trying to increase the number of assessments--in particular, 
for these data-poor stocks.
    Senator Begich. Senator Rubio, if I can interrupt, we're--
I'm going to allow a second round. I--people have gone a little 
bit over. So, if I can have you hold there, if that's OK.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And it--I know I wasn't here at the beginning of the 
hearing, but I wanted to say a congratulations to you on your 
new position, and----
    Senator Begich. Thank you.
    Senator Cantwell.--to thank Senator Snowe for the time we 
worked together, for the last 4 years, as I was the Chairman of 
this subcommittee.
    But, Mr. Chairman, you know that there is no more pertinent 
relationship between Alaska and Washington State than the 
fishing industry, itself. And I know you know how many jobs are 
at stake. But, I think Alaska produces something like $3.7 
billion in sales and 48,000 jobs; Washington State is about 
$3.7 billion and 72,000 jobs. So, I certainly look forward to 
working with you, as the new Subcommittee Chairman, on these 
important issues.
    And, I guess it's apropos, because this morning's, you 
know, conversation is about resource management strategies and 
questions. And Washington and Alaska, I think, have proven that 
managing these resources in a sustainable way produces the best 
outcome, in the long run, for the industry, and the economic 
impact.
    I noticed this ad that was in Politico, ``Catch Shares 
Work,'' and all the various sectors there of people who have 
benefited from that. So, a very interesting hearing this 
morning.
    But, I do, Mr. Schwaab, have a very specific question for 
you on groundfish, because we've, obviously, been trying to 
rationalize that. And people are anxious, because this 
continuing resolution could undercut the implementation of 
that. So, I want to ask you specifically, on the record, if we 
are going to have the resource--can you commit that the West 
Coast groundfish catch-share funding will be a top priority for 
your agency?
    Mr. Schwaab. Senator Cantwell, yes, we can. We certainly 
appreciate the intensive effort in developing that program, put 
forth by the Council, put forth by the fishermen of the region. 
We recognize how important it is to them, going forward. We 
also recognize the importance of some of the commitments made 
by the agency in providing transitional support in funding for 
significant portions of the observer and monitoring costs. 
Obviously, there's significant uncertainty in the long--in the 
prospects for the current fiscal-year budget. We recognize how 
important that funding is. It is a top priority for us. And we 
will do everything within our power to see that we meet the 
commitments that have been made there from the agency.
    Senator Cantwell. So, the implementation funding will be 
there.
    Mr. Schwaab. We will--it is a top priority--we will do 
everything within our power to make sure that happens.
    Senator Cantwell. Well, I think you know how important this 
industry is, and the policies that it represents, so----
    And I also just want to bring out another point. You know--
and when we were talking about the catch-shares strategies--and 
I know this is a larger discussion, but--you know, when it 
comes to, you know, the Alaskan/Washington fishing industries, 
have these decisions on catch shares been made by the Fisheries 
Service or by the regional fishery organization councils--the 
management councils?
    Mr. Schwaab. These--thank you, Senator--these decisions are 
made by the Fishery Management Councils. In many cases, such as 
the one just cited, the Trawl IQ in the Northwest, they have 
been long-term under development. It is a tool that the agency 
thinks is an important tool. And we have encouraged the 
councils to explore that tool. But, the decision to adopt the 
tool, and the important design elements that are infused in the 
process, once that decision to adopt is made, are purely--are 
purely at the----
    Senator Cantwell. Bottom up.
    Mr. Schwaab. I'm sorry?
    Senator Cantwell. Bottom up.
    Mr. Schwaab. Purely bottoms up. Purely at the discretion of 
the council.
    Senator Cantwell. Well, I hope that we can, you know, show 
the success that we've had in the north Pacific. And that the 
Council's work is critical to making those decisions; and, 
certainly, once those decisions are made, like on the 
groundfish, that we get the resources for implementing them.
    So, thank you, Mr. Chairman. And again, I look forward to 
working with you on this important committee, in the interests 
of our region.
    Senator Begich. Thank you very much, Senator Cantwell. And 
I do want to also thank you for your work here on the 
Committee. I've only been on it for 2 years, but had a chance 
to sit in on many opportunities, when you've put them on the 
table. And there is no question the relationship between Alaska 
and Washington, when it comes to our industry, is long and has 
a great future, also. So again, thank you for the opportunity 
to----
    Senator Cantwell. Two years, and you're already the 
Chairman.
    [Laughter.]
    Senator Begich. I don't know if that's good or bad, but----
    Senator Cantwell. It's very good----
    Senator Begich.--it feels good.
    Senator Cantwell.--Mr. Chairman.
    Senator Begich. It feels good. Thank you.
    Senator Rubio, you had some folks you want to just quickly 
introduce. And then I'm going to----
    Senator Rubio. I do.
    Senator Begich.--go ahead with my questions.
    Senator Rubio. And I apologize I'm--I have another meeting 
to leave to.
    But, I wanted to welcome two Floridians, Mr. Bill Bird and 
Dr. William Hogarth, who are going to be part of the next 
panel. I wanted them to know I read their testimony and their 
statements. And I appreciate your input on this.
    And I want to thank you, Mr. Chairman and the Committee, 
for holding these hearings. These are of critical importance in 
our state.
    And thank you, gentlemen, both for being here today and 
being a part of this.
    Senator Begich. Thank you very much, Senator Rubio.
    Just--I know usually the chair would ask questions first. 
But, I'd prefer to just give as much time to other members. But 
I'm--now I'm at the end of the line, so I'll ask a few 
questions, if I can.
    I want to follow up on something Senator Cantwell asked, 
but in kind of a specific, but a broader sense. And I was--you 
were very careful with your words. You said implementation 
funding will--you want to make sure it's there. So, let me ask 
it a different way. Did you ask for the money necessary for the 
implementation?
    Mr. Schwaab. Yes, sir, we did, both in the Fiscal Year 2011 
budget request and again in Fiscal Year 2012.
    Senator Begich. OK. And that is in the current budgets that 
are in front of us, 2012, but also 2011, which we're muddling 
through as it's--working through it.
    Mr. Schwaab. Correct.
    Senator Begich. OK. To a broader question, if I can. Do 
you, for all the stock assessments that are necessary--and, of 
course, in Alaska it's, as you know--and we're very proud of 
our fisheries, and I think stock assessments and this science 
and research is critical for us to do the work we're doing; 
sometimes, as I like to say, the fish wars are not always fun, 
but if we have sustainable stock at the end of the day, that's 
good--do you believe, in both the 2011--but really let's focus 
on the 2012 budget, if we could, because 2011--it's hard to say 
how this story will unfold, but let's go to 2012 budget--do you 
believe you have the resources--let me put it in two parts.
    Did you request resources, that maybe OMB might have shaved 
down, based on what you think is necessary, versus what they 
think, in a broader sense of the budget? I hate to be so 
specific, but this is where I like to get to.
    Mr. Schwaab. Yes, sir, Chairman Begich. We believe, both as 
it relates to the biological data necessary to support stock 
assessments, that we are making significant strides forward. 
Obviously, there are always additional challenges. There are a 
number of stocks that are on our radar to be the subject of 
additional attention, going forward. But, in the President's 
budget, both in Fiscal Year 2011 and Fiscal Year 2012, there 
were significant funds that were proposed to allow us to move 
forward substantially with respect to----
    Senator Begich. Were those the amounts that you requested? 
Did OMB shave those back at all? That's really the question. I 
hate to put you on the spot, but, you know, welcome to my new 
opportunity, here.
    Mr. Schwaab. So----
    [Laughter.]
    Senator Begich. And, by not answering you can--that answers 
my question.
    Mr. Schwaab. So, honestly, Mr. Chairman, you know, I'm one 
year into this job, so, as I sit here, I'm not sure that I even 
could--if I was in a position to speak to that issue, that I 
could actually factually speak to that issue. I do know that 
there are significant increases that are contained. We see them 
as significant steps forward.
    Senator Begich. OK. I'll leave you at that. I'll get you 
off the hook, there.
    Let me ask you, with regards to science for the Northeast 
versus, you know, in, what I would--obviously, the Alaska 
region--do you think you--is there equity in the rate--in the 
amount of science being developed for the Northeast compared to 
what we have in Alaska? In other words, is there an additional 
effort that really needs to be done in the Northeast? But, give 
me your assessment. Either one of you, I guess, could answer 
the question.
    Mr. Schwaab. So, Mr. Chairman, at your pleasure, I would 
defer that----
    Senator Begich. Surely.
    Mr. Schwaab.--to Dr. DeMaster.
    Senator Begich. Dr. DeMaster.
    Dr. DeMaster. Yes----
    Senator Begich. You have a unique role, because of your 
permanent position and your acting position, so----
    Dr. DeMaster. I do know the Alaska scene quite well. I'm--
--
    Senator Begich. Oh, you do.
    Dr. DeMaster.--happy to talk about Alaska fishery issues 
quite a bit.
    Senator Begich. Well, how does that compare to science 
data-gathering that you get in Alaska, for our state, compared 
to the Northeast? That's really the fundamental question.
    Dr. DeMaster. I'd say they're certainly comparable. I think 
the stock assessment scientists, in terms of their respect in 
the greater community, is certainly equal. The number of stock 
assessments in Alaska per year is a little greater. Partly 
that's because the process is designed to address 40 stocks a 
year. And it works. It works in a very public, transparent 
process, with significant participation by all the major 
players.
    Senator Begich. You say that with a smile. I know what you 
mean.
    Dr. DeMaster. Well, I--and I don't know quite how to 
describe the situation in the Northeast, it's less--
``friendly's'' the wrong word--but there's more tension 
involved.
    I think they're--the number of stocks assessed per year are 
about 20 per year. In the Northeast, I think the assessments 
are of high quality. I think the--they're trying to incorporate 
the most current information. For example, one of the recent 
groundfish assessments, they held off on the implementation, 
because they knew there was a new assessment coming in. So, I 
think they've really tried to be flexible.
    Certainly the number of NOAA vessels right now, if you look 
at--we have five vessels that are supporting surveys in the 
Gulf of Alaska and the Atlantic; we have two vessels that are 
supporting the west coast in Alaska, and one vessel in the 
Pacific.
    So, I think it's clear we have put a priority on trying to 
improve stock assessments, the number of stock assessments in 
the Atlantic. We've certainly moved six new positions--stock-
assessment positions to Southeast. That was a--that in--was, in 
particular, in response to trying to increase throughput. So, I 
think we have a good situation in Alaska, in terms of the 
quality of the assessments and number. I think we're trying to 
improve the number of assessments in Southeast. And I think 
we're in pretty good shape in Northeast, in terms of the 
quality.
    Senator Begich. Very good. Let me end there.
    Senator Boozman, you came in at the right time for the end 
of this first round. So, you are up now.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Being a good member, like I say, I 
appreciate the testimony and things, and enjoyed looking at it. 
But, I'm quite content to move on.
    Thank you.
    Senator Begich. OK. We are actually going to go to one more 
round, if, Senator Snowe, you have additional questions.
    Senator Snowe. Just a couple of questions.
    Dr. DeMaster, what would you suggest is an acceptable level 
of certainty, at which you would be comfortable making these 
regulatory decisions? That's really the crux of the issue for 
the fishing community, which depends on the most up-to-date 
data. Again, I'll cite the herring fishery as an example 
because it really is historical. This is one of the last cans 
of sardines made in America. For hundreds of years the United 
States of America has had a sardine industry. The last one was 
in Maine, in Prospect Harbor; and now we have none. It is 
closed, because there was a 40-percent reduction in the catch 
limits for herring. And herring wasn't even overfished. That's 
devastating. And that resulted in 130 jobs lost, and an 
American industry shattered. That's the problem.
    What would you do? How would you suggest we could do better 
so that we can restore the integrity of the data and ultimately 
the confidence in the decisions that result from those data?
    Dr. DeMaster. Thank you, Senator Snowe. That's a difficult 
question. The agency works closely with all the councils. In 
the Northeast, in particular, the ACL is basically--it requires 
policy input, it requires how much risk you're willing to live 
with, in terms of overfishing. That risk isn't supposed to 
exceed 50 percent. The--in a perfect world, we might be around 
a--you know, a 25-percent risk of overfishing; but, that has 
costs, as you just mentioned. When you're up at a 50-percent--
that is, you could--you're just as likely to overfish as not 
overfish. In my professional opinion, that's too close. That's 
not risk-averse enough.
    On the other hand, how far down you move from 50 percent 
is, frankly, an issue the council and the regional managers 
decide. Once that decision is made, then the scientists can run 
the assessment models and the ABCs, and the actual TACs come 
out of it.
    So, it obviously has to be no greater than 50 percent. How 
much less than 50 percent is a policy question that's addressed 
by the council and the regional managers.
    Senator Snowe. The socioeconomic effect of fishery 
management decisions is a key issue, Administrator Schwaab, 
that as you know I have constantly addressed this issue 
recently on this committee, and, as I said, early throughout my 
career in the Senate and on this committee. I championed 
National Standard 8; to ensure that we do examine the economic 
impact of these regulations on the community and the fishing 
industry as a whole. That assessment truly doesn't take place 
as an independent analysis.
    What can we do to live up to the requirements of National 
Standard 8 and to give equivalency to that standard? Clearly if 
we lose our fishing communities, we lose them forever. What can 
you do or say to assure us that you're going to give that level 
of commitment, that equal level of commitment, to considering 
the socioeconomic impact of these regulations on the community?
    Mr. Schwaab. Thank you, Senator Snowe. The councils and the 
agency do undertake significant economic analyses, in support 
of all of these fishery management decisions. As you indicated, 
that is largely under the auspices of National Standard 8. 
There has been, obviously, some concern and significant 
discussion, with respect to relative waiting.
    So, National Standard 1, which is the requirement to 
prevent overfishing and to achieve optimum yield over time, 
does, in some cases, create tension between the requirement to 
end overfishing, the requirement to put in place standards to 
rebuild stocks to historic sustainable levels; and the 
potential short-term impacts of those activities, as they might 
be felt through individual fishermen and fishing communities. 
That is a tension that the councils do devote time to, that the 
councils obviously spend significant amount of time 
deliberating amongst various management choices. But, they do 
exist--the realm of choices available to them do exist within 
the context of those requirements to end overfishing and to 
rebuild stocks.
    Senator Snowe. Is there flexibility in the regulations to 
allow changes in management decisions for a mixed-stock fishery 
to allow for different decisions and adjust it accordingly?
    Mr. Schwaab. So, there are flexibility in the regulations 
to choose strategies that are more sensitive----
    Senator Snowe. That's right.
    Mr. Schwaab.--to some of----
    Senator Snowe. Yes.
    Mr. Schwaab.--those economic----
    Senator Snowe. Exactly.
    Mr. Schwaab.--considerations.
    Senator Snowe. That's----
    Mr. Schwaab. But----
    Senator Snowe. For example, I had to pass legislation in 
order to secure the 44 percent increase in yellowtail flounder 
catch for this coming season. Without that legislation, it 
would not have occurred through the agency. We couldn't get it 
done. That's the point. Is there not that kind of flexibility 
to make adjustments?
    Mr. Schwaab. So, first of all, Senator, we, as you know, 
supported your efforts on the transboundary issue on Georges 
Bank yellowtail flounder. We appreciate what you did there. And 
we thought it important, in the case of, particularly, that 
transboundary stock, to treat Georges Bank yellowtail flounder 
management in the same way that Magnuson treats a number of 
other shared stocks, internationally.
    But, to the basic point of your question, the flexibility, 
in our view and understanding of the law, ends at the point at 
which we have a reasonable expectation of ending overfishing 
and rebuilding stocks, in accordance with the time lines that 
are prescribed in the Act. And that's, I think, the--sort of, 
the crux of the challenge.
    Senator Snowe. Thank you.
    Senator Begich. Thank you very much.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, thank you for calling this 
hearing.
    And fishing, of course, is enormously important to our 
State--commercial, charter, recreational. It's a multi-multi-
billion-dollar business in all three. And I'm grateful that 
you've included two Floridians--Mr. Bill Bird and Dr. Bill 
Hogarth--that are on the second panel. And I look forward to 
their testimony.
    But, while the government witnesses are here, let me say to 
you all that I'm distressed at the fact that we don't have 
updated data in which to make our assessments. We've been told 
that the closures in certain fisheries are due to the Magnuson-
Stevens reauthorization to end overfishing, which is a 
desirable goal. But, when Congress passed the reauthorization 
in 2006, it was on the assumption that the data was going to be 
complete, accurate, and up-to-date. And I think that your 
organization is interpreting the Act in a way that it was not 
intended. And so, I would ask you all to consider updated data 
collection.
    And yet, we've had this in 2006; we had another bill, 
signed by President Bush, in 2007; and now, almost 40 months 
later, the program's still not operational. Then it took the 
Deepwater Horizon oil spill for us to get focused on the Gulf. 
And we went in there and we found that 35 percent of all the 
stocks that are under fishery management have never had a stock 
assessment. And then, in the south Atlantic, less than a third 
of all the stocks under fishery management have had a stock 
assessment.
    Now, recently, the National Marine Fisheries Service and 
the regional councils have instituted these fishery closures, 
shutting down virtually all the access. And we've seen it with 
red snapper, black sea bass, and gag grouper. And now we may be 
facing restrictions on wahoo, cobia, and others.
    And then we've seen how science can really help us, if we 
have the data. For example, last year, when there was the 
looming possibility that waters, from Brunswick, Georgia, in 
the north, all the way south to Cape Canaveral, were going to 
be closed to all bottom fishing to protect one fish: the red 
snapper, it was based on outdated data. And after going through 
a lot of flailing about, then the updated stock assessment 
showed that the bottom closure wasn't necessary.
    And so, I'm concerned that we're not following the intent 
of Congress. And so, I want to know, and my first question 
would be, How does the National Marine Fisheries Service 
prioritize which stocks we're going to assess?
    Mr. Schwaab. Thank you, Senator Nelson. You covered a lot 
of ground there. Let me make a couple of quick points and then 
perhaps ask Dr. DeMaster to say a word or two about the 
prioritization process.
    As it relates to the biological data needed to support good 
and timely stock assessments, we have been--both in Fiscal Year 
2010 and again in the President's proposed budget in Fiscal 
Year 2012, also reflected in the 2011 proposed budget--
increased stock assessment research funding. In Fiscal Year 
2010, we dedicated over half of a $10 million--or approximately 
half of a $10 million increase to the Southeast, because of 
particular concerns there.
    At the same time, I think part of your question was 
alluding to concerns with respect to implementation of the 
Marine Recreational Information Program that was prescribed in 
the 2007 reauthorization. We are moving to implement an 
entirely revamped Marine Recreational Information Program. We 
have dedicated additional resources to help make that a reality 
and to move that forward in several ways. Obviously, a big 
component of that was the establishment of--in 2010, of the 
National Angler Registry, but there are components associated 
with revising the way that dockside assessments are undertaken, 
looking, retrospectively, at the way some of those data have 
been modeled and characterized in the past and revamping, 
essentially, the whole data-crunching process. We are also 
looking, this year, at, for example, in the Fiscal Year 2012 
budget, funds that would allow us to move to one-month waives, 
for the purposes of collecting recreational data on the East 
Coast and in the Gulf, which would be a significant step 
forward to allow timely actions in response to changing catch-
and-effort patterns.
    So, let me----
    Senator Nelson. Well, wait just a minute.
    Mr. Schwaab. Oh, I'm sorry.
    Senator Nelson. The question was, How do you determine 
which stocks to assess? That's the question.
    Mr. Schwaab. Thank you. So, the--I was going to, if it is 
acceptable to you, ask Dr. DeMaster, our Acting Chief 
Scientist, to address that question.
    Senator Nelson. OK.
    Mr. Chairman, now the--we've used 3 minutes of my remaining 
time, and I am now 2 minutes over the allocated time. I'm 
trying to get to a simple question and a simple answer.
    Senator Begich. We'll allow a little bit more time. Dr. 
DeMaster, if you could try to answer that very succinctly.
    Dr. DeMaster. Thank you.
    There are three vessels that are assigned to the Southeast 
from NOAA. Those vessels are used to do stock assessments. The 
actual stock assessments are basically--are based on an 
agreement between the SSC, the council, and the region--the 
southeast region. The additional funds that could be used, for 
example, to increase the throughput, in Southeast, has a 
problem, in terms of throughput for stock assessments. That 
comes from headquarters. Decision was made to increase the 
number of stock assessment scientists by six over the next, 
about, year and a half. So, that's both a headquarters decision 
and a regional decision.
    Senator Nelson. So, is your answer--when we go and make 
assessments on the lack of data, is your answer that who I need 
to see is Dr. Lubchenco?
    Dr. DeMaster. I think----
    Mr. Schwaab. I'm----
    Dr. DeMaster.--Mr. Schwaab should answer that.
    Mr. Schwaab. I'm happy to, Senator Nelson, address those 
issues directly.
    Senator Nelson. All right. Well, how are we going to start 
getting updated data so we don't make these blanket 
eliminations of folks going out and fishing--and yet, 
protecting the very fish that need to be protected? How are we 
going to do it if we don't have the scientific data?
    Mr. Schwaab. So, Senator Nelson, there are obviously a 
number of steps that we are taking to try to improve both the 
catch-and-effort data as well as the number and pace of our 
stock assessments, both in the region and nationally.
    We, to go back to your original question, do prioritize, 
based upon the relative importance of those stocks to fishermen 
and other interests in respective regions. Obviously, there are 
factors related to the pace at which those--the circumstances 
surrounding those stocks might change, as well, so there are 
biological factors that also come into play there. But, if 
there are specific stocks, or if you would like to talk 
specifically about, sort of, the ranking of stocks within the 
Gulf or the south Atlantic, I'm happy to assist you with that 
personally.
    Senator Nelson. All right.
    I'm way over time. May I just close out with this? Thank 
you, Mr. Chairman.
    You all----
    Senator Begich. It's only because it's my first meeting I'm 
giving you flexibility.
    [Laughter.]
    Senator Begich. Be prepared.
    Senator Nelson. Did you all get additional data on red 
snapper, and that is why that has been changed? Just yes or no.
    Mr. Schwaab. Yes.
    Senator Nelson. OK.
    Senator Begich. Perfect.
    Senator Nelson. Given the fact----
    [Laughter.]
    Senator Nelson.--that that's the case, do you realize that 
there are a lot of other people that are suffering trauma 
because a lot of that other ban is based on the lack of data? 
That we wouldn't have had to go through all of that, with 
regard to red snapper, if we'd have had the updated data?
    Mr. Schwaab. I agree, sir.
    Senator Begich. OK, leave it at that.
    Let me say, we're ending the last--this round, here, and 
we're going to bring up the next panel--but, just a quick 
question, to follow up on Senator Nelson's.
    Do you have a list of protocols that you utilize to 
determine, kind of, the prioritization of how you do 
assessments? You listed some of them just verbally. But, do you 
actually have a written protocol that says, ``Here are the 
things we will determine to create a prioritization?'' That's 
really, I think, the question Senator Nelson is trying to get 
to. How do you get to the bottom, here?
    Mr. Schwaab. Yes, sir. We do use a sustainability index 
that identifies relative importance of stocks, what we know 
about stocks, and their relative status that factors in. As it 
relates to a specific written set of criteria articulating some 
of the things that I just mentioned----
    Senator Begich. Right.
    Mr. Schwaab.--honestly, I'm not certain. A lot of those 
decisions get made regionally. But, I'm happy to----
    Senator Begich. Could you get that for the record?
    Mr. Schwaab.--look into that and get back to you.
    [The information referred to follows:]

    NMFS rationale and protocols for conducting fish stock assessments 
are generally described in the Marine Fish Stock Assessment Improvement 
Plan published in 2001. Although the Stock Assessment Improvement Plan 
did not include explicit criteria for prioritization of stocks to be 
assessed, each NMFS' Region uses similar concepts in selecting stocks 
to be assessed for the first time or as an update of a previous 
assessment. In 2010, a prototype set of national criteria was developed 
and used in setting priorities for additional stocks to be assessed 
with the FY 2012 request. This prototype set includes:

        1. Commercially and recreationally valuable stocks and 
        associated fishery-limiting stocks with high scientific or 
        management uncertainty influencing annual catch limits;

        2. Intensity of fishing, including stocks that have an 
        overfishing status, stocks that have fishing rates approaching 
        levels that would lead to overfishing, or stocks with high or 
        increasing fishing pressure that require additional attention;

        3. Stock abundance including stocks that are overfished or on 
        the brink of overfished, on a rebuilding plan, or have 
        uncertain abundance trends;

        4. Assessment frequency considerations such as stocks that have 
        never been assessed, stocks that have an assessment that is 
        more than 5 years old, or stocks with management plans that 
        require more frequent updates than currently provided;

        5. Stock importance in terms of commercial and recreational 
        value, role in ecosystem, and as bycatch; and

        6. Synergistic factors, including level of data already 
        available and benefit to other stocks and future assessments.

    Ultimately, the particular assessments that will be updated in any 
given year are determined through regional processes consistent with 
national priorities and in consultation with the Regional Fishery 
Management Councils and other partners as the execution year 
approaches.

    Senator Begich. Great. I think that's the question.
    And let me add some additional ones. I'll submit mine for 
the record, because I want to get to the next panel.
    Senator Begich. But, I really appreciate both of you.
    Senator Boozman, did you have anything, last, before this 
panel is dismissed?
    Senator Boozman. No. Thank you, Mr. Chair.
    Senator Begich. Thank you.
    Again, thank you both. You were on the hot seat a little 
bit, but I guarantee you a lot of the information you laid out 
helped us a little bit. And we'll have some more, I'm sure, for 
the record, we'll submit to you both.
    Thank you very much.
    Mr. Schwaab. Thank you.
    Dr. DeMaster. Thank you.
    Senator Begich. Let's get prepared for the next panel.
    We have four presenters. And we'll give a second for a 
quick changeover.
    And, Mr. Schwaab, you can see Mr.--Senator Nelson's already 
on the path. So, there we go.
    [Laughter.]
    [Pause.]
    Senator Begich. Thank you all very much for being here.
    We--again, we have a distinguished panel of presenters. And 
what I'd like to do--I'm going to go in order as it was listed 
here.
    Dr. William Hogarth, I'm going to have you first. Ms. 
Madsen, I'm going to have you second. Mr.--is it 
``Gicaloney''--``Giacaloney''?
    Mr. Giacalone. Yes.
    Senator Begich. Is that close?
    Mr. Giacalone. That's perfect.
    Senator Begich. Oh, very good. My wife will be happy.
    [Laughter.]
    Senator Begich. She's half Italian. So, I did it right.
    And, Mr. Bird, we'll then have you last, if that's OK.
    First person up, again, is Dr. William Hogarth, Interim 
Director of Florida Institute on Oceanography, University of 
Southern--South Florida. And last time we saw each other was 
when I was Mayor and you were doing the IWC in Anchorage. And 
you did a great job, and we thank you for that.
    You're up. If you can keep your conversation--or your 
comments to 5 minutes or less. And then whatever you would like 
to submit for the record, we will do that.

       STATEMENT OF WILLIAM C. HOGARTH, Ph.D., DIRECTOR,

               FLORIDA INSTITUTE OF OCEANOGRAPHY,

                  UNIVERSITY OF SOUTH FLORIDA

    Dr. Hogarth. Thank you, Chairman Begich and members of the 
Subcommittee. I thank you for the opportunity to testify on the 
implementation of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    My name is Bill Hogarth, and I am the current Director of 
the Florida Institute of Oceanography, which is--there are 20 
institutions in Florida within--that's made up primarily of the 
11 public universities. From 2000 to 2007, I was the Assistant 
Administrator for Fisheries and Director of the National Marine 
Fisheries Service. Many of the changes to the Magnuson Act that 
occurred during the reauthorization of 2007 occurred during my 
tenure as Director of the National Marine Fisheries Service.
    Today, I would like to offer my perspectives on the issues 
that were important in the 2007 reauthorization, and the 
successes and challenges in implementation of its new 
requirements.
    The 2007 reauthorization of the Magnuson Act included a 
number of key changes aimed at finally ending overfishing, 
increasing the accountability of the councils for using best 
available science, decreasing the IUU--illegal, unreported and 
unregulated--fishing, and for managing fisheries, consistent 
with an ecosystem view.
    Many changes occurred to the basic law, in which many 
regions of the country, such as Alaska, were perceived as 
working well. Senator Stevens and many of the current members 
of the subcommittee were deeply involved in making sure the law 
lived up to the--its expectations to rebuild depleted stocks 
and manage, on a sustainable basis, for the fishers of the U.S.
    For over 30 years, a number of the stocks were chronically 
overfished. These include some New England groundfish stocks, 
reef fishes in the Gulf of Mexico, South Atlantic, Caribbean, 
and highly migratory stocks in the Atlantic.
    Despite a series of increasingly restrictive management 
plans, the councils were never able to eliminate overfishing 
for about 40 of these stocks. It's also during this time that 
we did a lot of work to look at the economics of not rebuilding 
the stocks, and it is very clear that we'd lose some $2 billion 
a year--$2 billion a year--by not rebuilding these stocks.
    In my tenure as director of NMFS, I was concerned about--
that the detailed regulations on where, when, what year, and 
how much fish to catch were limiting the ability of the 
fishermen to act as rational businesses. This is a huge 
business. I've heard, all morning, you talk about how much it 
brings in. It is a huge business, billions of dollars. But, 
investments in fishing vessels, processing jobs need to be 
based on a rational business planning environment. And many of 
the Nation's fisheries' allocations to individuals or sectors 
have allowed regulators to reduce the overall regulatory 
burden, as long as catches do not exceed allocation.
    The 2007 authorization has helped to better define catch-
share programs, and encouraged their use, within certain 
constraints. I support these programs, where appropriate; and 
they should be from bottom up, not top down; and they're not 
the salvation for all circumstances.
    The 2007 reauthorization also emphasized the importance of 
improving the science, its purview and use by the councils. It 
mandated that advice by council scientific committees could not 
be exceeded, and called for more research on stock assessment. 
It also emphasized the importance of Cooperative Research 
Program, where NMFS scientists work in concert with fisheries 
to gather important data to use as help managing stocks.
    Based on actions of the Fisheries Management Council, it is 
highly likely that, in 2010, we have functionally ended 
overfishing in federally-mandated domestic fishing. There are 
several qualifications to this statement. One, it does not 
necessarily include state-managed fisheries. Two, it does not 
include management by the Regional Fishery Management 
Organizations. And three, it does not mean that all stocks are 
rebuilt. This will take some time.
    One of the most important requirements emphasized in the 
reauthorization of the Magnuson is a need for high quality 
science supporting the ACLs. We've heard this all morning, as I 
listened, the need for science. We must invest if we want to 
rebuild.
    Finally, in my view, the Magnuson-Stevens Act does not need 
to be reopened; it ought to effectively address the various 
issues raised above.
    Congress and the Administration need to recognize the 
enormity of the task they gave the agency in 2007. Further, 
additional resources for science and management activities are 
needed in order to make this system more timely, responsive to 
stock increases, and more credible in the eyes of the 
fishermen. We're all on the right path and--with the Magnuson-
Stevens Act.
    NMFS has within its control, in my opinion--it can use the 
National Standard guidelines to refine implementation of the 
Act to address issues such as mixed-species harvesting, 
rebuilding targets for overfished stocks, and other issues, and 
even look at landing what you catch.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Hogarth follows:]

      Prepared Statement of William C. Hogarth, Ph.D., Director, 
     Florida Institute of Oceanography, University of South Florida
    Senator Begich and members of the Subcommittee, thank you for 
inviting me to this hearing on how the implementation of certain 
aspects of the Act is impacting fisheries and the individuals, 
businesses and communities who depend upon them.
    I am Bill Hogarth, Director of the Florida Institute of 
Oceanography (FIO) which is an Administrative Infrastructure Support 
Organization (AISO) created by the Florida Legislative and serves under 
the Board of Governors. FIO consists of 20 members including 11 State 
University System institutions, the Florida Department of Environmental 
Protection, Florida Wildlife Research Institute, Mote Marine Lab, 
University of Miami, Eckerd College, Smithsonian Institution, Florida 
Sea Grant, NOVA SE University and New College.
    From 2000 to 2007, I was the Assistant Administrator for Fisheries 
and Director of the National Marine Fisheries Service. Many of the 
changes to the Magnuson Stevens Act that occurred in the 
reauthorization of 2007 occurred during my tenure as Director of the 
National Marine Fisheries. Today, I would like to offer my perspectives 
on the issues that were important in the 2007 reauthorization, and 
successes and challenges in implementation of the new requirements to 
date.
    In my tenure as Director of NMFS, I was concerned that detailed 
regulations on where, when, what gear and how much fish to catch were 
limiting the ability of fishermen to act as rational businesses. 
Investments in fisheries vessels, processing and jobs need to be based 
on a rational business planning environment. In many of the Nation's 
fisheries, allocations to individuals or sectors have allowed 
regulators to reduce the overall regulatory burden as long as catches 
to not exceed allocations. The 2007 reauthorization helped to better 
define catch share programs and encouraged their use, within certain 
constraints. I continue to support these programs, where appropriate--
and they are not necessarily appropriate in all circumstances. In my 
opinion, the continuing debate about New England groundfish management 
stems from the fact that we put into place restrictive annual catch 
limits intended to end overfishing at the same time incorporating a 
catch share program with its allocations to the various sectors. This 
is the first time that I recall that important conservation and 
economic objectives were addressed for such an important fishery 
simultaneously. Thus there is confusion regarding the purposes of the 
specific ACLs and the catch share system.
    The 2007 reauthorization also emphasized the importance of 
improving the science, its peer review, and use by the councils. It 
mandated that advice by Council's Scientific and Statistical Committees 
could not be exceeded, and called for more research on stock 
assessments. It also emphasized the importance of cooperative research 
programs--where NMFS scientists work in concert with fishers to gather 
important data used to help manage the stocks. During my tenure working 
with Congress and the Administration, we were able to increase funding 
for science including the Expand Stock Assessments budget line, and to 
build several acoustically-quiet fishery survey vessels. Incidentally, 
these new fishery survey vessels were crucial to the response to the 
Deepwater Horizon oil spill response because of their diverse 
capabilities and ability to monitor gas and oil seeping from the 
vicinity of the well head.
    The discussions on the reauthorization of the Magnuson-Stevens Act 
were very intense and centered to a large extent on the annual catch 
limits to be set to stop overfishing, prevent overfishing of stocks, 
and the necessity of the rebuilding timeframe. In evaluating the 
impacts of not controlling overfishing and overfished stocks it was 
calculated that we could realize a $2 billion increase in revenue if we 
properly managed and rebuilt the stocks
    The potential economic impact to the fishing families, businesses 
and communities created debate on the on balance of conservation and 
economics. Many options were considered with the final requirements 
that the Councils have 1 year to develop the plan, with an end to 
overfishing occurring as soon as possible not to exceed 2 years. It is 
my understanding that an end to overfishing has now been achieved for 
U.S. fish stocks that are federally-managed, but not for some state or 
International stocks.
    Each Council must set ACLS such that overfishing does not occur. As 
uncertainty in stocks status is caused by many factors: Change in 
climate and ecosystem condition, type and amount of data, and year to 
year variation in assessments. This uncertainty can be accounted for by 
the Councils as they specify probability which in many cases would be 
at least 50 percent, if not higher. In fact, some U.S. fisheries lack 
complete or comprehensive collection programs needed to support stocks 
assessments. This along with some of the complexes such as reef fish 
where ``weak stocks'' that exist must be protected, have presented 
challenges which need to be addressed. In my opinion, these can be 
addressed by the Agency reviewing its guidelines for implementing ACLs 
to see if they can be redefined to help in easing some of the economic 
impact of preventing overfishing in data poor or weak stocks. I believe 
reopening Magnuson-Stevens at this point to consider this issue would 
be counterproductive, the act is working, overfishing has or soon will 
be ended and increased catches should be available. The Agency should 
examine every alternative including the requirement to land all fish 
caught and re-examination of the ACL guidelines as a first step.
    As for catch-shares, individual fishing quotas, rights based, 
market based quotas or whatever term you wish to call this option, 
should remain a vital part of the tool box for addressing fishery 
management issues. While I was with the Agency we had implemented 
approximately 11 market-based programs. These programs not only 
resulted in increased safety for some fisheries such as the Alaskan 
crab fishery, but in almost all market based quotas, extended seasons 
allowed the fisherman to make the decision when to fish, taking 
advantage of weather, market, etc. There are many options for the 
Councils and each fishery to consider. The most important part is they 
must be built from bottom-up and not top-down. At a workshop I 
commissioned at the Heinz Center in 2002, the main issues were: (1) who 
gets in and (2) consolidation of permits. The ``who'' is because many 
do not have good catch records for various reasons, plus, there may not 
be provisions for crew members and concern for one group or individual 
buying the entire quotas. These are still issues today, but can be 
handled in the developing the plan amendments. The future is operate as 
a business--make your decision when and where to fish--realize better 
prices, reduce by catch, etc. and increase safety.
    The ongoing confusion regarding the use of catch shares and how 
these programs are being applied is definitely creating an obstacle to 
helping the industry realize a better price, product and safety 
decisions. The most difficult situation appears to be in New England, 
where additional cuts to the annual catch limits for several of the 
stocks were required to be implemented for the 2010 season to meet the 
MSRA requirements. Instead of taking additional day-at-sea cuts, the 
Council opted for implemented the sector based allocation program, 
which was a voluntary program on the part of the Council. There 
continues to be confusion regarding the allocations under the catch 
share program based on the 11-year catch history of fishing along with 
the overall ACLs necessary to meet conservation requirements. I believe 
the Industry and Council should be able to work through this issue.
    In summary, the 2007 reauthorization of the Magnuson-Stevens Act of 
1976 included a number of key changes aimed at ending overfishing, 
increasing the accountability of the Councils for using best available 
science, decreasing IUU (illegal, unreported and unregulated) fishing, 
and managing fisheries consistent with an ecosystem view.
    The requirement to end overfishing for some 40 stocks, where 
documented by previous stock assessments, required Fishery Management 
Councils (FMCs) to incorporate more stringent measures for New England 
ground fish, as well as a number of reef fish stocks.
    Based on the actions of the FMCs, it appears that the U.S. has 
fundamentally ended overfishing in federally-managed domestic 
fisheries. This is an enormous achievement, and one that Congress and 
the Administration clearly intended in its 2007 reauthorization of 
MSRA. There are several qualifications to this accomplishment: (1) it 
does not necessarily include state-managed fisheries; (2) it does not 
include stocks managed by Regional Fishery Management Organizations; 
and (3) it does not mean that all stocks are rebuilt, this will take 
some time, but we are on the upswing.
    One of the most important requirements emphasized in the 
reauthorization of the MSRA is the need for high quality science 
supporting the stocks assessment proper and ACLs. While the science 
used to support the status of stocks determination is generally robust, 
additional resources are required to make the science more timely, 
include more stocks, more fisheries independent surveys, and in some 
cases such as weak stocks and reef stocks complex, increase the 
precision of assessments. In particular, additional resources are 
needed in the Gulf of Mexico, South Atlantic, Caribbean, and in New 
England to increase the production of assessments supporting 
management. While there are 139 of the most important stocks in the 
country that are routinely assessed, the Fishery Management Councils 
have 522 stocks under management, and some of the stocks that are 
assessed are not done so annually. The requirement to set annual catch 
limits means that we need to be assessing stocks more frequently in 
some areas. NOAA needs to increase funding for high quality fishery 
independent surveys for as many harvested stocks as possible. This 
includes using its fleet of fishery survey vessels to its full 
potential.
    At the University of South Florida-College of Marine Science we 
began a new course in Marine Resource Assessment in order to address 
some of the concerns I have heard about real time data and assessments. 
This course is being conducted with the aid of National Marine 
Fisheries Services. We have hired three new Faculty members; have five 
dedicated fellowships and a large amount of interest from students 
across the country. We believe this course which will utilize the 
oceanographic data, and instruments at the College to better understand 
fish behavior, etc. This should lead to move precise and timely stock 
assessments.
    Improvements in the recreational fishing data were an extremely 
important requirement of MSRA. The requirements of recreational 
registrations were designed to strengthen state-by-state recreational 
fishery data collection programs. These catches are vital to an 
accurate data collection program to conduct valid stock assessments. 
The Agency needs to speed up the transition from the old MRFSS system 
to the new MRIP system which will not use random-digit telephone calls 
to coastal counties to assess recreational fishing efforts.
    Finally, my honest opinion after much thought, is that the MSRA 
does not need to be ``re-opened'' in order to address the issues raised 
in my testimony. Congress and the Administration need to recognize the 
enormity of the task it gave NMFS in 2007 reauthorization of the 
Magnuson-Stevens Act. We in the U.S. are recognized as having excellent 
laws to management over fisheries; we must find the political strength 
and resolve to see it through. The fisherman, businesses, communities 
and American people will realize the benefits, it is working.
    In my opinion, we need Congress to provide resources and support to 
carry out the science and management activities. Thus, the process will 
be more timely, responsive to stock increases, and more credible in the 
eye of the fishermen.
    The U.S. can be a leader again in fisheries and not rely on 
importing over 80 percent of our seafood and over 90 percent of our 
shrimp from foreign countries that do not have as stringent 
conservation standards as the U.S. Rebuilt stocks, effective seafood 
safety and marketing programs, and a robust aquaculture program will 
realize over $2 billion in increased revenue for our coastal 
communities economy, increased jobs and increased fishing opportunities 
for our recreational fisherman. The United States has sent a clear 
signal to the rest of the world that we will achieve sustainable 
fisheries, which was our commitment to the World Summit on Sustainable 
Development (WSSD). Importantly, it helps in our international 
negotiations for stocks that the USA harvests under international 
agreements.

    Senator Begich. Thank you very much, Dr. Hogarth.
    Let me move now to Ms. Stephanie Madsen, Executive Director 
of the At-Sea Processors Association.
    Again, welcome. And thanks for traveling the distance from 
Alaska.

   STATEMENT OF STEPHANIE MADSEN, EXECUTIVE DIRECTOR, AT-SEA 
                     PROCESSORS ASSOCIATION

    Ms. Madsen. Well, thank you, Mr. Chairman and members of 
the Subcommittee, for the opportunity to testify on the 
implementation of the 2007 Magnuson-Stevens Act amendments.
    I am testifying today on behalf of the At-Sea Processors 
Association. APA is a trade association representing companies 
that own and operate 19 trawl catcher/processor vessels. APA 
members participate principally in the Nation's largest 
fishery, the Alaska pollock fishery, which yields average 
annual landings of nearly 3 billion pounds.
    Since enactment of the Magnuson-Stevens Act in 1977, I have 
been closely involved in fishery management process, including 
serving from 2001 to 2007 on the North Pacific Council. I 
chaired the Council for 4 of those 6 years.
    My testimony today focuses on the requirement for fishery 
management plans to include annual catch limits, the 
requirement for accountability measures to ensure that catch 
limits are not exceeded, and catch shares, including APA's 
innovative Fish Harvesting Cooperative.
    While the annual catch limit requirement is a new provision 
in statute, it essentially tracks the process, established over 
three decades ago by the North Pacific Council, to manage 
species under its jurisdiction.
    In the Alaska region, NOAA fishery scientists prepare 
annual stock assessments for each of the target species. The 
stock assessment report is peer-reviewed in public sessions by 
the council's Groundfish Plan Team, which is composed of 
Federal and State fishery scientists and academics. The Plan 
Team recommends an acceptable biological catch limit and 
forwards the stock assessment to the council's Scientific and 
Statistical Committee, which also includes government 
scientists and academics. The SSC then makes its own ABC 
recommendation to the council. The council then develops a 
total allowable catch level, which is synonymous, Mr. Chairman, 
with annual catch limit, for each target groundfish fishery.
    The North Pacific Council has never set a TAC above the ABC 
recommendation of its scientific panels, and there has never 
been overfishing of any groundfish stock.
    While the annual ABC recommendations can be highly 
anticipated by the industry, there is a distinct lack of 
tension or friction to the process. NOAA Fisheries' Alaska 
science programs have been adequately funded through the years, 
providing critical survey research necessary for estimating 
stock abundance with a high degree of confidence. There is also 
a comprehensive data collection program that supports analysis 
of stock characteristics essential to understanding whether the 
population trend is likely headed up or down, allowing fishery 
managers to plan accordingly. Stakeholders appreciate the 
quality of the information collection process. They respect the 
analysis and buy into the process because of its transparency.
    In this budget climate, both the agency and the industry 
are extremely concerned about maintaining current funding 
levels for fishery science to ensure high quality annual survey 
research. If basic fishery science funding levels are reduced, 
catch levels will be sacrificed as more precautionary catch 
limits will be imposed to account for increased scientific 
uncertainty about fish stock trends and abundance.
    We urge Congress to continue to invest in fishery science 
as a cornerstone to maintaining a healthy commercial fishing 
industry. We also urge Congress to continue to support a 
council process that is transparent, inclusive, and 
participatory.
    My written testimony goes into some detail about various 
accountability measures, but I'll just highlight one element 
for the Subcommittee now. The centerpiece of accountability 
measures in the north--is the North Pacific Groundfish Observer 
Program. NOAA Fisheries' Alaska Science Center administers this 
program, which has built a comprehensive observer program over 
the last 20 years. The Alaska groundfish industry contributes 
approximately $13 million annually to help fund the placement 
of federally-trained and certified observers on vessels and at 
processing plants.
    It was the experience of the APA catcher/processor 
companies that catch limits and accountability measures alone 
were not sufficient tools to provide for a stabile and 
prosperous fishing industry. During the 1990s, while catch 
limits maintained healthy Alaska pollock stocks, the industry 
suffered from chronic overcapacity and attendant economic 
instability resulting from the race for fish.
    The Alaska pollock fishery achieved socioeconomic stability 
only when a catch-share-style program was adopted. The Alaska 
pollock catcher/processor fleet banded together in 1999 to form 
a fish harvesting cooperative. In that cooperative agreement, 
we allocate the pollock under private contract, and there are 
stiff penalties for violating any portion of that contract.
    By making operational changes to maximize the value of 
allocated catch instead of racing, the pollock catcher/
processors are producing almost 50 percent more food products 
per pound of fish harvested than they did operating without a 
catch-share-style program.
    Mr. Chairman, our pollock conservation has measurable 
conservation benefits, as well. I'm running out of time, so my 
written comments will address that.
    But, finally, Mr. Chairman, we're aware of recent efforts 
in Congress to bar funding for developing or approving new 
catch share plans on the East Coast or in the Gulf of Mexico. 
We hope that Congress will not support efforts to derail new 
catch share programs if that is the tool managers and 
stakeholders identify as the best management option.
    That concludes my testimony, Mr. Chairman. Thank you again 
for the opportunity to appear today. And I am pleased to answer 
any questions.
    [The prepared statement of Ms. Madsen follows:]

      Prepared Statement of Stephanie Madsen, Executive Director, 
                     At-Sea Processors Association
    Thank you, Mr. Chairman and members of the Subcommittee, for the 
opportunity to testify on implementation of key provisions of the 2007 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) 
reauthorization.
    I am testifying today on behalf of the At-sea Processors 
Association (APA). APA is a fishery trade association representing six 
companies that, among other commercial fishing and fish processing 
interests, own and operate 19 trawl catcher/processor vessels eligible 
to participate in the Bering Sea groundfish fishery. APA member vessels 
participate principally in the Nation's largest fishery, the Alaska 
pollock fishery, which yields on average nearly 3 billion pounds 
annually in landings. Some APA vessels also harvest and process Bering 
Sea cod and flatfish and west coast Pacific whiting.
    Since 1974, I have worked in support industries for commercial 
fisheries, transitioning into the commercial fishing industry along the 
way. Since passage of the MSA, I have been closely involved in the 
fishery management process. My involvement includes serving from 2001 
to 2007 on the North Pacific Fishery Management Council, chairing the 
Council for 4 of those 6 years. I served on the Council's stakeholder 
Advisory Panel prior to being appointed to the Council. Currently, 
though not a member of the Council, I chair its Ecosystem Committee. 
Much of my testimony today is informed by my involvement over the past 
three decades as a commercial fishing stakeholder and as a Council 
member.
    As requested by the Subcommittee, my testimony focuses on three 
issue areas addressed in the 2007 MSA reauthorization. I will speak to: 
(1) the requirement for fishery management plans to include Annual 
Catch Limits (ACLs) for fisheries; (2) the requirement for 
Accountability Measures in fishery management plans to ensure that ACLs 
are not exceeded; and (3) NOAA Fisheries' catch share policy and 
Limited Access Privilege Programs (LAPPs) as a subset within catch 
share options.
1. Annual Catch Limits (ACLs) for Alaska Pollock
    The 2007 MSA reauthorization required that each regional fishery 
management council specify annual catch limits (ACLs) for each managed 
fishery. Each council is directed to set ACLs for fisheries at, or 
below, the sustainable fishing level recommended by that council's 
scientific and statistical committee (SSC). While this is a new 
provision in statute, it essentially tracks the process established 
over three decades ago by the North Pacific Fishery Management Council 
to manage the groundfish fisheries, and other species, under its 
jurisdiction in Federal waters off Alaska.
    In the Alaska Region, NOAA Fisheries' scientists prepare annual 
stock assessment reports for each of the target groundfish species, 
including Alaska pollock, Pacific cod, Atka mackerel, and various 
flatfish species. The stock assessment report is peer reviewed in 
public sessions by the Council's groundfish Plan Team, which is 
composed of Federal and state fishery scientists and qualified 
academics. Based on its review of the stock assessment reports, the 
Plan Team recommends an acceptable biological catch (ABC) limit and 
forwards the stock assessment with any proposed revisions to the 
Council's SSC, which is similarly populated with Federal and state 
scientists and academics. The SSC, which like the Plan Team also meets 
in public and takes testimony from stakeholders, prepares an ABC 
recommendation for the Council's consideration as well. Most often 
there is a consensus view between these scientific panels on a 
precautionary ABC recommendation.
    Informed by this comprehensive and transparent scientific review, 
the Council then develops total allowable catch (TAC) levels annually 
for each target groundfish fishery. Even prior to the 2007 MSA 
amendment, the North Pacific Council never set a TAC--which is 
synonymous with an Annual Catch Limit--above the ABC recommendation of 
its scientific panels. Not coincidentally, all of the Alaska groundfish 
stocks have been sustainably managed since the MSA was enacted in 1977. 
(Appendix #1 is a table showing the ABC and TAC levels for the Bering 
Sea pollock fishery from 1977 to the present.)
    For groundfish, the North Pacific Council has had to make minimal 
changes to its current annual TAC setting process to be compliant with 
the MSA implementation regulations. The Bering Sea groundfish fishery 
management plan has been amended to identify ACLs for minor, non-target 
species that can be incidentally harvested in the commercial pollock, 
cod or flatfish fisheries, but that is more of an administrative change 
than a substantive one. (Appendix #2 is the ACL specifications sheet 
for Bering Sea groundfish fisheries for 2011.)
    While the annual ABC recommendations for individual groundfish 
species can be highly anticipated by the commercial fishing industry, 
there is a distinct lack of tension or friction to the process. NOAA 
Fisheries' Alaska Fisheries Science Center has been adequately funded 
through the years, providing critical survey research necessary for 
estimating stock abundance with a high degree of confidence. There is 
also a comprehensive fishery dependent and fishery independent data 
collection program that supports analyses of stock characteristics that 
are essential to understanding whether the population trend is likely 
headed up or down and allows fishery managers to plan, accordingly. 
Commercial fishing stakeholders appreciate the quality of the 
information collection process, respect the analysis, and buy into the 
process because of its transparency.
    The situation with Alaska pollock, a fish stock with a fluctuating 
biomass, is useful in appreciating the industry's support for NOAA 
Fisheries' work and the Council process. In 2004, the ABC for the 
Bering Sea pollock fishery was 2.5 million metric tons--the highest ABC 
level ever recorded--and the TAC was set at almost 1.5 million metric 
tons. Favorable environmental conditions that boosted pollock stock 
abundance in the early 2000s, were much less favorable in the latter 
half of the decade. NOAA Fisheries' bottom trawl surveys and hydro-
acoustic surveys showed declining fish populations. By 2010, the ABC 
and TAC were set at 813,000 metric tons. The commercial fishing 
industry accepted NOAA Fisheries' stock assessments equally when the 
projections were high as when they were low, and accepted the necessary 
concomitant reductions in catch levels when the stock trended downward.
    Good science and responsible, adaptive management pays off. The 
Alaska pollock stock is once again trending upward. The 2011 ABC is 
1.27 million metric tons, a more than 50 percent increase from a year 
ago. The 2011 TAC, or ACL, is set just under the ABC and is just about 
at the 35-year average for the fishery.
    Industry confidence in the quality of the science fosters a 
collegial working relationship between NOAA Fisheries' regional 
scientists and managers and the commercial fisheries. In this budget 
climate, both the agency and the industry are extremely concerned about 
maintaining current funding levels for fisheries science to ensure high 
quality, annual survey research. If basic fisheries science funding 
levels are reduced, catch levels will be sacrificed as more 
precautionary catch limits will be imposed to account for increased 
scientific uncertainty about fish stock trends and abundance. The 
Alaska groundfish fishery, which accounts for roughly 40 percent of all 
U.S. seafood landings, is valued at more than $1.0 billion at the 
primary processing level. Tens of thousands of men and women earn 
family-wage jobs fishing and processing Alaska groundfish, and the 
economic benefits of this commercial enterprise flow directly 
throughout Alaska coastal communities and the Pacific Northwest.
    We urge Congress to continue to invest in fisheries science as a 
cornerstone to maintaining a healthy commercial fishing industry. We 
also urge Congress to continue to support a council process that is 
transparent, inclusive, and participatory.
2. Accountability Measures (AMs) in the Alaska Pollock Fishery
    The 2007 MSA reauthorization included an Accountability Measures 
(AM) requirement designed to complement the new ACL requirement. The AM 
requirement is provided to ensure that, once established, sustainable 
catch limits are not exceeded. Because annual catch limits have been in 
place for Alaska groundfish stocks since U.S. fisheries management 
authority was extended out to 200 miles in the late 1970s, 
accountability measures that ensure compliance with such catch limits 
have been developed and improved upon as well over time.
    The centerpiece of accountability measures is the North Pacific 
Groundfish Observer Program implemented in 1990. NOAA Fisheries' Alaska 
Fisheries Science Center administers this program, which has grown from 
providing minimal levels of observer coverage for some fisheries to a 
comprehensive observer program. The Alaska groundfish industry 
contributes approximately $13 million annually to help fund the 
placement of federally trained and certified observers on vessels and 
at processing plants. NOAA Fisheries covers some administrative costs, 
but the industry bears most of the cost of this world-class monitoring 
program.
    With regard to the Alaska pollock fishery, two federally-trained 
and certified fishery observers are stationed aboard all catcher/
processor vessels, processing-only vessels, and at onshore processing 
plants during the fishing season. A single Federal fishery observer is 
assigned to every Bering Sea pollock catcher vessel while it is 
fishing. Among other responsibilities, fishery observers record all 
catch amounts broken out by species, conduct fishery dependent 
research, and record any marine mammal interactions.
    The Federal fishery observer program is supplemented by other 
accountability measures developed through the council process to ensure 
that annual catch limits are not exceeded. At-sea processing and 
onshore processing facilities are required to use government-approved 
scales to weigh all catch, including non-target species. All fish 
caught, whether retained or discarded, are accounted for in this system 
so that the fishery's ecosystem impact is measured. Catch information 
is reported electronically to NOAA Fisheries by the vessel operator and 
by the fishery observer, providing real-time information to fishery 
managers. The fishery closes when the target catch limit is reached. 
For some Alaska groundfish fisheries, the fishery closes if certain 
limits on non-target species are reached even if the quota for the 
target fishery has not been achieved.
    The Council and NOAA Fisheries also develop regulations stipulating 
when and where fishing occurs, regulations that include accountability 
measures to ensure compliance with time and area closures. For example, 
every pollock fishing and fish processing vessel is equipped with a 
Vessel Monitoring System (VMS) unit that transmits the vessel's 
location to NOAA Fisheries at random intervals several times per hour.
    The accountability measures identified above, which are supported 
by industry funds in some cases, are viable because science-based catch 
limits on fish stocks (and an innovative catch shares program that I'll 
discuss below) lead to profitable fisheries. The fishing industry is 
better positioned to take on a greater financial share of stewardship 
responsibilities--such as contributing directly to the multi-million 
dollar observer program--when businesses are stable. That is what you 
see in the Alaska groundfish fishery in general and, specifically, with 
the Alaska pollock fishery.
3. Catch Shares--Fish Harvesting Co-ops and Limited Access Privilege 
        Programs (LAPPs)
    It was the experience of APA catcher/processor companies that ACLs 
and AMs alone were not sufficient tools to provide for a stable and 
prosperous fishing industry. During the 1990s, while ACLs and AMs 
maintained healthy Alaska pollock stocks, the Alaska pollock industry 
suffered from chronic overcapacity and the attendant economic 
instability resulting from a race to catch the available quota. The 
Alaska pollock fishery achieved socio-economic stability only when a 
catch share-style program was adopted, rationalizing the harvesting and 
processing of the resource.
    The Alaska pollock catcher/processor fleet banded together in 1999 
to form a fish harvesting cooperative, the Pollock Conservation 
Cooperative (PCC). PCC members allocate among themselves under private 
contract their sector's allocation of Bering Sea pollock. By 
apportioning the allowable harvest among eligible fishery participants 
(as determined through Federal law and regulation), vessel operators 
need only utilize as much fishing and harvesting capacity as needed to 
catch the quota and to do so at a pace that optimizes performance. By 
making operational changes to maximize the value of allocated catch 
instead of racing to catch as much of the sector quota as possible, 
pollock catcher/processor vessel operators are producing almost 50 
percent more food products per pound of fish harvested than in the last 
year of operations under the race for fish format.
    Our Alaska pollock fish harvesting cooperative has measurable 
conservation benefits as well. Cooperative members share catch 
information on a real-time basis to inform fishing vessel captains 
about bycatch ``hotspots'' to avoid. In fact, the cooperative members 
have entered into a private contractual agreement that closes areas to 
fishing if incidental catch levels of certain non-target species of 
concern are high. The government simply cannot adapt that quickly to 
impose regulatory closures. The cooperative's area closure agreement 
supplements existing Federal bycatch reduction rules and directly 
improves fleet performance. The contract imposes substantial monetary 
penalties for any member violating the agreement by ignoring area 
closures imposed under the cooperative fishing agreement.
    The APA catcher/processor fish harvesting cooperative is a type of 
catch share program, though it is distinct from a LAPP. A LAPP is 
defined in section 2 of the MSA as a privilege ``to harvest a quantity 
of fish . . . representing a portion of the total allowable catch of 
the fishery.'' The catcher/processor sector is assigned a portion of 
the overall Bering Sea pollock quota, but the individual allocation is 
determined through a private contract, not through law or regulation. 
Nonetheless, APA members' experience is that catch share-style 
programs, whether fish harvesting cooperatives or LAPPs or another 
variation on the theme, provide measurable conservation benefits and 
promote stable, family-wage jobs for commercial fishermen and fish 
processors.
    We are aware of recent efforts in Congress to bar funding for 
developing or approving new LAPPs on the east coast or in the Gulf of 
Mexico. While that might leave the door open for other catch share-
style programs, such as fish harvesting cooperatives, we hope that 
Congress will not support efforts to derail new LAPPs. We need to keep 
moving fisheries management forward.
    Catch share-style programs are commonplace in the Federal fisheries 
off Alaska, and they are working. All of the major federally managed 
fisheries that occur in the waters off Alaska are benefiting from catch 
share programs. The small boat halibut and sablefish fishery has had a 
successful Individual Transferable Quota (ITQ) program for nearly 20 
years. The Alaska pollock cooperatives have been in effect for a dozen 
years, and they are an unqualified success. The crab fisheries and the 
non-pollock groundfish fisheries have converted more recently to ITQ 
and cooperative management schemes, respectively, and both have strong 
industry support. In those fisheries, catch share management is 
resolving overcapitalization problems, fostering a safer fishing 
environment, and maximizing utilization of fishery resources. Congress 
should continue to provide commercial fishing interests around the 
country with the same opportunities to improve their fisheries as those 
of us have on the west coast and in Alaska.
    That concludes my testimony, Mr. Chairman. Thank you again for the 
opportunity to appear before the Subcommittee today, and I am pleased 
to answer any questions.

            Appendix #1--Science-based ACLs for Bering Sea Pollock from 1977 to 2011--in metric tons
            Source: Bering Sea Pollock Stock Assessment and Fishery Evaluation Report, December 2010
----------------------------------------------------------------------------------------------------------------
                 Year                            ABC                      TAC                     Catch
----------------------------------------------------------------------------------------------------------------
1977                                                   950,000                  950,000                  978,370
1978                                                   950,000                  950,000                  979,431
1979                                                 1,100,000                  950,000                  935,714
1980                                                 1,300,000                1,000,000                  958,280
1981                                                 1,300,000                1,000,000                  973,502
1982                                                 1,300,000                1,000,000                  955,964
1983                                                 1,300,000                1,000,000                  981,450
1984                                                 1,300,000                1,200,000                1,092,055
1985                                                 1,300,000                1,200,000                1,139,676
1986                                                 1,300,000                1,200,000                1,141,993
1987                                                 1,300,000                1,200,000                  859,416
1988                                                 1,500,000                1,300,000                1,228,721
1989                                                 1,340,000                1,340,000                1,229,600
1990                                                 1,450,000                1,280,000                1,455,193
1991                                                 1,676,000                1,300,000                1,195,646
1992                                                 1,490,000                1,300,000                1,390,331
1993                                                 1,340,000                1,300,000                1,326,601
1994                                                 1,330,000                1,330,000                1,329,350
1995                                                 1,250,000                1,250,000                1,264,245
1996                                                 1,190,000                1,190,000                1,192,778
1997                                                 1,130,000                1,130,000                1,124,430
1998                                                 1,110,000                1,110,000                1,101,165
1999                                                   992,000                  992,000                  989,816
2000                                                 1,139,000                1,139,000                1,132,707
2001                                                 1,842,000                1,400,000                1,387,194
2002                                                 2,110,000                1,485,000                1,480,195
2003                                                 2,330,000                1,491,760                1,490,899
2004                                                 2,560,000                1,492,000                1,480,543
2005                                                 1,960,000                1,478,500                1,483,286
2006                                                 1,930,000                1,485,000                1,486,435
2007                                                 1,394,000                1,394,000                1,354,097
2008                                                 1,000,000                1,000,000                  990,566
2009                                                   815,000                  815,000                  810,731
2010                                                   813,000                  813,000                  813,000
2011                                                 1,270,000                1,252,000                       --
Avg.                                             ABC 1,382,000            TAC 1,192,260          Catch 1,168,547
----------------------------------------------------------------------------------------------------------------


                                                Appendix #2--ACLs for Bering Sea Groundfish Fishery, 2011
                                   NPFMC recommended TACs for 2011-2012 BSAI Groundfish; SSC recommended OFLs and ABCs
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  2010                           2011                                2012
           Species                      Area           -------------------------------------------------------------------------------------------------
                                                            TAC        Catch         OFL         ABC         TAC          OFL         ABC         TAC
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pollock                       EBS                          813,000     809,238    2,450,000   1,270,000   1,252,000    3,170,000   1,600,000   1,253,658
                              AI                            19,000       1,266       44,500      36,700      19,000       50,400      41,600      19,000
                              Bogoslof                          50         131       22,000         156         150       22,000         156         150
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pacific cod                   BSAI                         168,780     159,012      272,000     235,000     227,950      329,000     281,000     229,608
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sablefish                     BS                             2,790         721        3,360       2,850       2,850        3,080       2,610       2,610
                              AI                             2,070       1,049        2,250       1,900       1,900        2,060       1,740       1,740
--------------------------------------------------------------------------------------------------------------------------------------------------------
Yellowfin sole                BSAI                         219,000     114,600      262,000     239,000     196,000      266,000     242,000     197,660
--------------------------------------------------------------------------------------------------------------------------------------------------------
Greenland turbot              Total                          6,120       3,589        7,220       6,140       5,050        6,760       5,750       4,950
                              BS                             4,220       1,706          n/a       4,590       3,500          n/a       4,300       3,500
                              AI                             1,900       1,883          n/a       1,550       1,550          n/a       1,450       1,450
--------------------------------------------------------------------------------------------------------------------------------------------------------
Arrowtooth flounder           BSAI                          75,000      38,098      186,000     153,000      25,900      191,000     157,000      25,900
--------------------------------------------------------------------------------------------------------------------------------------------------------
Kamchatka flounder            BSAI                             n/a         n/a       23,600      17,700      17,700       23,600      17,700      17,700
--------------------------------------------------------------------------------------------------------------------------------------------------------
Northern rock sole            BSAI                          90,000      53,111      248,000     224,000      85,000      243,000     219,000      85,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Flathead sole                 BSAI                          60,000      19,863       83,300      69,300      41,548       82,100      68,300      41,548
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alaska plaice                 BSAI                          50,000      15,771       79,100      65,100      16,000       83,800      69,100      16,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Other flatfish                BSAI                          17,300       2,179       19,500      14,500       3,000       19,500      14,500       3,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pacific Ocean perch           BSAI                          18,860      16,567       36,300      24,700      24,700       34,300      24,700      24,700
                              BS                             3,830       2,267          n/a       5,710       5,710          n/a       5,710       5,710
                              EAI                            4,220       4,033          n/a       5,660       5,660          n/a       5,660       5,660
                              CAI                            4,270       4,033          n/a       4,960       4,960          n/a       4,960       4,960
                              WAI                            6,540       6,234          n/a       8,370       8,370          n/a       8,370       8,370
--------------------------------------------------------------------------------------------------------------------------------------------------------
Northern rockfish             BSAI                           7,240       4,039       10,600       8,670       4,000       10,400       8,330       4,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Blackspotted/Rougheye         BSAI                             547         232          549         454         454          563         465         465
Rockfish                      EBS/EAI                          n/a         n/a          n/a         234         234          n/a         240         240
                              CAI/WAI                          n/a         n/a          n/a         220         220          n/a         225         225
--------------------------------------------------------------------------------------------------------------------------------------------------------
Shortraker rockfish           BSAI                             387         252          524         393         393          524         393         393
--------------------------------------------------------------------------------------------------------------------------------------------------------
Other rockfish                BSAI                           1,040         676        1,700       1,280       1,000        1,700       1,280       1,000
                              BS                               485         179          n/a         710         500          n/a         710         500
                              AI                               555         497          n/a         570         500          n/a         570         500
--------------------------------------------------------------------------------------------------------------------------------------------------------
Atka mackerel                 Total                         74,000      68,643      101,000      85,300      53,080       92,200      77,900      48,593
                              EAI/BS                        23,800      23,599          n/a      40,300      40,300          n/a      36,800      36,800
                              CAI                           29,600      26,387          n/a      24,000      11,280          n/a      21,900      10,293
                              WAI                           20,600      18,657          n/a      21,000       1,500          n/a      19,200       1,500
--------------------------------------------------------------------------------------------------------------------------------------------------------
Squid                         BSAI                           1,970         402        2,620       1,970         425        2,620       1,970         425
--------------------------------------------------------------------------------------------------------------------------------------------------------
Other species                 BSAI                          50,000      16,614          n/a         n/a         n/a          n/a         n/a         n/a
--------------------------------------------------------------------------------------------------------------------------------------------------------
Skate                         BSAI                             n/a      16,419       37,800      31,500      16,500       37,200      31,000      16,500
--------------------------------------------------------------------------------------------------------------------------------------------------------
Shark                         BSAI                             n/a          47        1,360       1,020          50        1,360       1,020          50
--------------------------------------------------------------------------------------------------------------------------------------------------------
Octopus                       BSAI                             n/a         149          528         396         150          528         396         150
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sculpin                       BSAI                             n/a       5,168       58,300      43,700       5,200       58,300      43,700       5,200
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total                         BSAI                       1,677,154   1,347,836    3,954,111   2,534,729   2,000,000    4,731,995   2,911,610   2,000,000
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Begich. Thank you very much.
    Our next person is Mr. Vito Giacalone, the Policy Director 
of the Northeast Seafood Coalition.

STATEMENT OF VITO GIACALONE, POLICY DIRECTOR, NORTHEAST SEAFOOD 
                           COALITION

    Mr. Giacalone. Mr. Chairman, member of the Subcommittee, 
thank you for this opportunity to share my thoughts on the 
implementation of the Magnuson-Stevens Reauthorization Act, 
which I'll refer to as the MSRA.
    As an active fisherman and the policy director for the 
Northeast Seafood Coalition, I have been deeply involved in the 
process to implement key provisions of the MSRA as they relate 
to the Northeast Multispecies Fishery.
    Through Amendment 16 to the Groundfish Plan, this fishery 
has made a profound transition from an effort-controlled 
management system to a catch-based system of harvesting 
cooperatives, called sectors. The Northeast Seafood Coalition 
is sponsor of 12 of the 17 sectors in operation, with over 300 
active vessels as members operating in ports from Maine, New 
Hampshire, Massachusetts, Rhode Island, Connecticut, and New 
York. In a number of ways, the Council's decisions to broadly 
expand the application of sector management fisherywide was a 
consequence of key changes present in the MSRA.
    Amendment 16 was conducted under heavy pressure to meet 
statutory deadlines, implemented in the MSRA, which caused the 
Agency and the Council to proceed in a manner that was most 
expedient. Embedded in that action was a relatively 
nontransparent and complex discussion of sector allocations, 
which effectively resulted in an ITQ-type of system. It seems 
very conflicting that, in the process of meeting the MSRA 
timeliness for annual catch limits and accountability measures, 
we effectively trampled over the LAPP provisions in the MSRA, 
which clearly aim to minimize socioeconomic disruption to the 
fishery and dependent communities.
    I want to be clear, however, that I agree with the Agency's 
final legal determination that the sectors ultimately developed 
under Amendment 16 are not LAPPs, because they were not 
developed under the LAPP provisions of the Act. More 
importantly, I strongly concur with the Agency's published 
interpretation that sectors and vessels are not issued a 
permanent allocation.
    We are extremely concerned, however, that the Agency's 
message is not being heard, has not been made strong enough, or 
that the Agency is wrongly backing off. If and when the 
Northeast Council or the Agency take any future action to 
formally establish an IFQ or any other form of LAPP program for 
the groundfish, such program and associated allocations must 
meet all Section 303(a) and other applicable MSRA requirements. 
Anything less would perpetuate the inherent flaws we have 
experienced with the current system, as well as the 
circumvention of what was, in our strong opinion, plain 
congressional intent for allocation systems, such as groundfish 
sectors, to be designed according to the MSRA rules and 
protections for LAPPs, including an IFQ referendum. This would 
be a very helpful message for Senators interested in improving 
current New England situation to deliver to the Agency and the 
Council.
    The final issue, regarding lost yields due to arbitrary 
rebuilding timeliness, is far more than I can explain in a very 
brief statement. And so, I hope you and the Committee staff 
will find my written testimony useful.
    While many people have expressed many different ideas about 
the need for rebuilding flexibility, our consistent view has 
been the need to simply eliminate any arbitrary time 
requirements for rebuilding, and replace it with a rebuilding 
strategy founded on natural population dynamics. We don't need 
flexibility built into arbitrary rebuilding timeframes. We need 
to get rid of them.
    Those who understand the realities associated with 
arbitrary rebuilding targets and timeliness, especially in a 
mixed-stock fishery that is part of a complex ecosystem, 
appreciate the reality that we have subjected our U.S. 
fisheries to a fool's errand. The costs are simply too great to 
continue to pursue an effort to control the uncontrollable, to 
know the unknowable, to attain the unattainable. The costs of 
this futile policy are huge losses of yields, jobs, and 
revenues, which are contrary to optimum-yield mandates of the 
Act. This is an inherent conundrum, presented by National 
Standard 1, for multispecies fishery and a complex ecosystem.
    The United States fishermen are doing their part by ending 
overfishing and fishing at sustainable levels. It is time to 
amend U.S. law to focus on controlling what we can, and stop 
pretending what we cannot control, which is the entire 
ecosystem and the productivity of wild fish stocks.
    Finally, to that subject, I want to express our sincere 
thanks to Senator Snowe and Senator Kerry and your 
extraordinary committee staff for making the U.S./Canada 
legislation a reality after 5 long years of intense efforts. I 
assure you these efforts will pay off, as they have already 
begun to do so with the Georges Bank yellowtail flounder stock. 
The bilateral agreement between U.S. and Canada will set the 
example of how we can successfully rebuild fish stocks without 
arbitrary rebuilding timeframes while maintaining a viable 
commercial fishery.
    I'd be pleased to answer any questions.
    [The prepared statement of Mr. Giacalone follows:]

 Prepared Statement of Vito Giacalone, Gloucester Fisherman and Policy 
                 Director, Northeast Seafood Coalition
    Mr. Chairman, distinguished members of the Subcommittee, thank you 
for this opportunity to testify before your Subcommittee and contribute 
to your oversight of the implementation of the very important Magnuson-
Stevens Reauthorization Act (MSRA).
    As an active Fisherman and the Policy Director for the Northeast 
Seafood Coalition, I have been deeply involved in the process to 
implement key provisions of the MSRA as they relate to the Northeast 
Multispecies fishery, better known as the New England groundfish 
fishery. Through Amendment 16 to the NE Multispecies Fishery Management 
Plan (FMP), this fishery has made a profound transition from an effort-
based management system using Days at Sea (DAS) and vessel capacity as 
the allocation currency, to a catch-based output control system of 
voluntary fishery cooperatives called ``sectors'' that now use the 
``catch history'' of a permit as the allocation currency.
    The Northeast Seafood Coalition is the sponsor of 12 of the 17 
sectors now operating under this Amendment including one serving as a 
private permit bank of which I serve as the Director. Over 300 active 
trawl, gillnet and hook gear vessels are members of the Northeast 
Seafood Coalition-sponsored sectors operating in ports from Maine, New 
Hampshire, Massachusetts, Rhode Island, Connecticut and New York.
    While Northeast Seafood Coalition is now both deeply-invested in 
and committed to making the existing sector system work, sector-based 
management was not the preferred choice of the Northeast Seafood 
Coalition, nor were a number of key aspects of the current sector 
system. Nevertheless, because it was clear the Council was firmly 
committed to adopting the sector approach notwithstanding our input to 
the contrary, we felt a strong obligation to our members to fully 
engage in the sector system in order to protect their best interests as 
best we could.
    As I will explain, in a number of ways the Council's decisions to 
broadly expand the application of sector management fishery-wide, as 
well as the ensuing details of the sector system structure they 
developed, were both consequences of the key changes made to the 
Magnuson-Stevens Act (MSA) in the MSRA.
    While most of my comments are critical, please understand that we 
fully recognize and greatly appreciate the efforts of this committee 
and others in Congress to continually improve the MSA such as through 
the MSRA. It is natural for me to point out the problems and concerns 
with a hopeful eye toward another opportunity to make further 
improvements to this landmark statute.
    Having said that, certainly not all the problems we see in 
groundfish management are due to the policies or legislative language 
in these statutes. On the contrary, it has been our observation that 
the Agency frequently makes excessively narrow or incorrect 
interpretations of your legislation, ignoring useful opportunities to 
apply flexibility where it exists throughout the MSA that might have 
avoided unnecessary problems. This can be very frustrating for all of 
us. We often wish the agency's attorneys would adopt a more common 
sense approach to interpreting Congressional intent. Perhaps that is a 
message this committee can convey to the agency.
Arbitrary Implementation Deadlines
    The MSRA set forth two key implementation deadlines that had 
important consequences for New England groundfish management; the 
requirement to end overfishing immediately, and the requirement for 
Annual Catch Limits (ACLs) and Accountability Measures (AMs) to be in 
place for fishing year 2010 for stocks subject to overfishing.
    Of course, those deadlines are well behind us now, but I think it 
is important to use our experience as a case in point of how arbitrary 
statutory deadlines of any kind that lack sufficient flexibility and/or 
proper agency interpretation can generate unintended or at least 
unanticipated consequences that are rarely positive. My testimony may 
also help explain the reasons for the strong and loud voices you 
continue to hear from New England regarding the sector system.
    Amendment 16 began as a confluence of statutory and Council 
objectives to achieve in a fair and equitable manner an historic 
transition from effort-based management to catch-based management while 
simultaneously ending overfishing immediately, establishing annual 
catch limits, and imposing strict accountability measures to achieve 
those limits--all while causing a minimum of disruption to the fishery 
and communities. Adding to that, our fishery is a complex group of 
disparate multispecies fisheries involving several gear-types and 19 
stocks all under one FMP.
     It is no surprise that such an overly ambitious agenda simply 
could not be achieved according to the statutory deadlines without 
making critical sacrifices to the quality of the outcome.
    It is impossible to know what might have been the result under 
different, more favorable circumstances, but in my personal view, the 
New England Council's and the Agency's rush to achieve these 
overwhelmingly complex objectives according to the MSRA-mandated 
schedule had--or substantially contributed to--the following adverse 
consequences:

        1. Very early on, the Council hastily abandoned any serious 
        analysis or consideration of potentially more favorable 
        alternatives (e.g., the points system) to the sector system. 
        Instead, the design and operation of two existing sectors 
        originally adopted years prior as a very limited ``pilot 
        program'' for the small, directed cod fishery on Cape Cod 
        became the sole focus. Essentially by default, a sector system 
        quickly became the defacto Accountability Measure using the 
        existing Cape Cod ``non-LAPP'' sectors as the template.

        2. There was insufficient time for the Council and the fishing 
        community to adequately analyze, understand or consider the 
        implications of the various allocation criteria alternatives. 
        This resulted in the expedient adoption of the most simplistic 
        alternative (catch history). Because the Days at Sea system 
        produced a series of ever increasing cuts in Days at Sea 
        allocations, traditionally single-permit fishermen were forced 
        to purchase additional permits for a completely different 
        purpose (increasing their DAS) than what was used to assign 
        value to those permits under the Amendment 16 sectors 
        allocation system. Consequently, as the currency on which all 
        non-speculative investment in the fishery had been based (DAS/
        Capacity) was abandoned, substantial investments in the DAS 
        currency were stranded. This created instant winners and losers 
        that, for most fishermen, was a matter of pure chance and/or a 
        product of regional and inshore/offshore disparities in fishery 
        regulations affecting catch history.

        3. Under pressure to meet the statutory deadlines, and for 
        expediency in dispensing with a protracted debate, the Council 
        adopted disparate allocation baseline periods for different 
        groups within the overall groundfish fishery. After completing 
        a difficult process to resolve the baseline period for the core 
        commercial fisheries, the recreational fishery was given a 
        separate, more favorable baseline as were the two previously 
        established Cape Cod sectors. These differences had very 
        significant implications for the resulting allocations to the 
        three groups. The vast majority of commercial permit holders in 
        our fishery have raised very serious concerns that the 
        Council's action to treat each of these three groups 
        differently was not fair and equitable. This action has raised 
        many ongoing concerns over its consistency with a number of MSA 
        provisions including National Standard 4. These concerns are 
        currently under review in Federal court.

        4. The Council's adoption of the final sector design and 
        complex operational details took place well in advance of the 
        2009 GARM III stock assessment and subsequent ACL 
        determinations--before the biological objectives of the sector 
        system were known. Lacking information on the status of many 
        key stocks, the Council knew it had no idea what the actual 
        consequences of the sector system would be on the functionality 
        of sectors and the sector trading system, but was forced to 
        prematurely set an Accountability Measure in stone in order to 
        meet the MSRA deadline.

        5. Perhaps the most damaging result of attempting to meet the 
        timelines set forth in the MSRA is the absence of legitimate 
        Amendment 16 alternatives to an ITQ-type system such as the 
        current Sector allocations scheme operating today. Creative 
        alternatives could not be proposed or developed adequately 
        absent updated biological objectives being made available in 
        time for the proper process to unfold. (the extra year granted 
        through interim rule was used exclusively for the purpose of 
        ironing out the complexities of the sector policy and 
        administration and to allow the industry and NOAA to prepare 
        the infrastructures necessary to handle the new system. The 
        extra time was not used to create sensible alternatives.

        6. At least partly for the purposes of expediency, a deliberate 
        decision was made by the Council to develop the sector 
        allocation and management system outside of the MSRA rules 
        governing Limited Access Privilege Programs (LAPPs) now set 
        forth in section 303A of the Magnuson-Stevens Act after 
        receiving an initial legal opinion from the Agency confirming 
        that the existing Cape Cod sectors were not LAPPs as defined 
        under the MSRA. Thus, none of the rules and protections 
        envisioned by Congress for LAPP programs apply to the Amendment 
        16 sectors.
Sectors
    With that last point in mind, I want to be clear, however, that the 
Northeast Seafood Coalition has strongly concurred with the agency's 
final legal determination that the Sectors ultimately developed under 
Amendment 16 are not LAPPs. More importantly, the Northeast Seafood 
Coalition also strongly concurs with the Agency's published 
interpretation that sectors and vessels are NOT issued a permanent 
allocation.
    This latter determination is absolutely crucial to the current and 
future investment environment with profound implications for the future 
structure of the fishery and communities. It also confirms very 
importantly that if and when the NE Council and/or agency take any 
future action to formally establish an IFQ or any other form of LAPP 
program for groundfish, such program and associated allocations must 
meet all section 303A and other applicable MSA requirements.
    We are extremely concerned, however, that the Agency's message is 
either not being heard, has not been made strong enough, or that the 
agency is wrongly backing off.
    Consistent with the Agency's correct interpretation, it is not 
possible to simply morph the current Amendment 16 ``non-LAPPs'' and the 
associated non-permanent sector allocations into a section 303A-
consistent LAPP allocation system through a Framework or other 
abbreviated process. A new, legitimate LAPP allocation system must be 
fully developed from the ground up with all elements on the table, 
including especially the allocation criteria and issues related to 
consolidation, through a deliberate, comprehensive Plan Amendment 
process to conform the new allocation system to Section 303A 
requirements.
    Anything less than this would likely perpetuate both the inherent 
flaws we have experienced with the current system as well as the 
continued circumvention of what was, in our strong opinion, plain 
Congressional intent for allocation systems such as the Amendment 16 
sectors to be designed according to the MSRA rules and protections for 
LAPPs including a referendum for an Individual Transferrable Quota 
(ITQ). This would be a very helpful message for Senators interested in 
improving current New England groundfish management to deliver to the 
Agency and Council.
    With that in mind, let me further clarify that the current sector 
system is effectively an ITQ system wearing a ``non-LAPP sector'' 
costume. Amendment 16 to the Northeast Multi-Species fishery management 
plan established an initial allocation for each and every limited 
access permit. Individually, each permit received a Potential Sector 
Contribution (PSC) which is represented by percent quota shares based 
upon historical performance for each stock allocated through the 
amendment. The PSC values are what each fisherman brings to the sector.
    Naturally, once a fisherman receives that information from the 
Agency, he/she fully expects to take out what they brought into a 
sector. The proof that this is the reality is that all 17 sectors have 
sector/member contracts and operations plans that incorporate a ``what 
you brought in is what you can take out'' redistribution method within 
the sector. Sector members are allowed to trade their individual 
allocations freely between members of their own sector. In addition, 
Amendment 16 provides for inter-sector trading; a system which has 
effectively operated as an ITQ given that members of different sectors 
regularly make private business agreements to trade fish and then 
instruct their respective Sector Managers to facilitate the 
transactions through the inter-sector trading mechanisms.
    That said, I must point out that the sector scheme has built a form 
of protection to the smaller operators in the form of Right of First 
Refusal for permit sales and quota leasing. Each sector has a hired 
professional Sector Manager that assists the sector members in the 
burdensome reporting requirements as well as acting as a communication 
and trading facilitator. The low ACLs coupled with the straight catch 
history method of allocation produced a very narrow distribution of 
quota and without a referendum. I believe that the requirement that 
vessels be members of a sector, and the manner in which the industry 
formed the sectors, has created a layer of protection to fishing 
communities that many do not yet understand. But, the fact remains that 
the current Amendment 16 sector scheme is effectively operating as an 
ITQ system.
    Finally, while I have attributed a lot of the problems we've 
experienced with the Amendment 16 sector development process to the 
statutory deadlines, I feel I owe you my honest assessment that many of 
these problems relate to the reality that Council members have the 
extraordinary power to create winners and losers in the initial 
allocation process of any catch share/LAPP program. Notwithstanding 
statutory rules governing recusal and conflict of interest, I believe 
Council members presented with a choice of plausible allocation 
alternatives will naturally gravitate to what is best for their own 
business interests. On a personal level, I am infinitely grateful to 
those individuals who have invested countless days, months and even 
years of their lives serving in the all too often thankless roles as 
Council members. As an organization, the NSC supports the Council 
process and strenuously endorses substantial industry representation on 
the council. The statements I am making here are not intended to 
discredit anyone or to insinuate that any improprieties or unethical 
behavior took place. I am merely offering my sincere and honest 
observation having lived this up-close and personally. Given similar 
circumstances, I believe there are few human beings that are capable of 
self-inflicting wounds when the alternative is to achieve instant 
wealth through a favorable initial allocation scheme. The stakes are 
simply too high which makes it almost unfair to Council members to have 
to make ultimate allocation decisions when the results are as 
financially profound as they can be in the initial allocation of a 
valuable resource like New England groundfish.
    The perception in New England, shared by a great many, is that the 
allocation choices made by the New England Council were a product of an 
exclusive and very closely coordinated working relationship among 
Council members from the groundfish fishery, the recreational fishery, 
the pro-catch share environmental community, and perhaps the agency 
itself. This created a few big winners among those Council members and 
their sectors, and many, many losers of those fishermen not privileged 
to be inside that inner circle. This is, unequivocally, the perception.
    Surely it must have been the fear and concern of precisely this 
type of result that caused members of the New England delegation to 
provide for a referendum requiring two-thirds approval before an IFQ 
allocation scheme could be implemented. Similarly the MSRA LAPP 
provisions and associated requirements must be placed front and center 
if an action involves allocation to any group or persons that 
represents a quantifiable portion of any stock or stocks within a 
fishery. In New England, we effectively received an IFQ/ITQ-type 
allocation scheme and a LAPP-type management regime without either a 
referendum or full consideration as a LAPP under the MSRA.
    Had NOAA determined Amendment 16 sector allocations to be an IFQ 
subject to a referendum the Council would have avoided the level of 
culpability now perceived to be attributable to them.
    Having identified some of the pitfalls we experienced in trying to 
accomplish too much with groundfish management within the MSRA 
deadlines for ending overfishing and establishing ACLs and AMs, there 
are certainly a number of positive aspects of a properly designed and 
implemented sector management scheme that we can also learn from.
    By definition, the input-control DAS management system deliberately 
imposed inefficiencies on the fisheries in order to control catch 
(fishing mortality). The transition to sectors relieved fishermen of a 
number of those inefficiencies including seasonal/rolling closures and 
trip/possession limits and the associated regulatory discards (waste), 
among several others.
    Certainly, the transition from input-control effort management to 
output-control sectors also made it possible to avoid the consequences 
of deep Days at Sea cuts that were inevitable absent a fully supported 
effort to radically modify the effort control system. Had we attempted 
to use the Days at Sea system that was in place as the tool to meet the 
new mandates of the MSRA, the results would have been catastrophic.
    To that point of the absence of real efforts to improve the DAS 
system, over the years the Northeast Seafood Coalition proposed 
numerous modifications to the Days at Sea system that were intended to 
advance the tool to meet the anticipated MSRA requirements. Although 
some were ultimately implemented, like the ``B-Days'' concept, they 
were never adequately administered or utilized by the Council or the 
agency. Other useful modifications were rejected such as the ``Cod 
Cap,'' the ``Yellowtail Trigger'' and further development of the ``B-
regular day'' concept.
    It was apparent, however, that these provisions were not taken 
seriously because they ran counter to the ultimate desire of key 
Council leaders and perhaps the agency to execute an ITQ allocation of 
the resource. In my strong opinion, had there been an adequately 
advanced Days at Sea alternative that could meet MSRA mandates without 
collapsing the industry, it would have been impossible to have 
implemented the sector ``catch share'' program we have now because the 
industry simply would not have allowed it. The combination of MSRA 
mandates, a lack of timely biological objectives in the stock 
assessment, and the resistance to advancing the Days at Sea tool left 
the industry with a ``Hobson's Choice'' that led to sectors.
    In any case, theoretically, if individual initial allocations are 
fair, equitable and sufficient, and if adequate quota is available to 
support a healthy, functioning sector trading system, a sector system 
can provide useful tools to improve the efficiency of fishing 
businesses and economic stability overall. As we all know, on paper, a 
sector ``catch-share'' system enables fishermen to choose to fish at 
times and in places that can maximize catch-per-unit-effort, the market 
value of the catch, and even vessel safety. A functioning sector 
allocation trading system itself should provide for the greater 
utilization of the optimum yield of strong stocks consistent with 
national Standard 1. In theory, a sector ``catch share'' system should 
provide important benefits.
    When asked whether the sector system is actually working in 
practice, my response is simply--it truly depends on which fisherman 
you ask. As I indicated, the Council's deliberate decision to abandon 
the DAS-based currency on which all non-speculative investments in the 
fishery were previously based, it created instant winners and losers, 
mostly by pure chance.
    If a fisherman happened to have purchased a permit because of its 
value in allocated DAS--and that permit also just happened to have a 
lot of catch-history associated with it--then they became lucky 
winners. If a fisherman bought a permit for DAS purposes that just 
happened to have very little catch-history associated with it, then 
they became unlucky losers. A lot of permit holders in the fishery--it 
seems the majority--had substantial investment stranded in DAS currency 
and are now faced with a sector allocation and trading system that is 
not functioning in a way that enables them to recover. Consequently, 
many permit holders are locked into dire circumstances at no fault of 
their own. Naturally, that is why you have heard and will probably 
continue to hear a lot of outrage about sectors coming from the region.
Rebuilding Timelines
    The MSRA also revised the deadline for the Councils to prepare and 
implement measures to rebuild overfished stocks. This deadline was not 
in itself a problem, at least for New England groundfish management. 
What continues to present a problem is the 10-year or any arbitrary 
time-frame for rebuilding resulting from MSA section 304(e)(4)(A)(ii).
    While many people have expressed many different ideas about the 
need for ``rebuilding flexibility,'' as explained below, our consistent 
view has been the need to simply eliminate any arbitrary time 
requirement for rebuilding and replace it with a rebuilding strategy 
founded on natural population dynamics. We don't need flexibility built 
into arbitrary rebuilding time-frames; we need to get rid of them!
    The fundamental MSA objective to simultaneously achieve the biomass 
that produces the MSY for all stocks in a multispecies ecosystem and 
fishery is a very expensive one (not to mention biologically 
unachievable). The least-common-denominator management effect resulting 
from this objective ensures that in a multi-species fishery, very 
substantial amounts of the optimum yield of those stocks that happen to 
be at their high points will be wasted in order for the fishery to 
comply with the requirements to rebuild all stocks that happen to be at 
a low point. When I say wasted, I mean that substantial portions of the 
optimum yield will be left in the water uncaught and lost to natural 
mortality. This is the inherent conundrum presented by National 
Standard 1 for a multispecies fishery in a complex ecosystem.
    What often greatly exacerbates this loss of sustainable yield are 
the arbitrary rebuilding timeframes generated from MSA section 
304(e)(4)(A)(ii) which generally require shorter timeframes and lower 
fishing mortality rates than the true population dynamics of a stock 
would otherwise require. In other words, even more sustainable yield of 
the stronger stocks will be lost in the effort to rebuild more quickly. 
In our multi-species groundfish fishery, approximately 60 percent of 
the total optimum yield remains harvested each year.
    To be successful, a rebuilding strategy based on an arbitrary time-
frame either requires knowing the unknowable, or pure luck. The 
``unknowables'' are future recruitment, natural mortality and, 
consequently, what the correct rebuilding target should actually be 10 
years or more into the future. These parameters of fish stock 
population dynamics are ultimately driven by the dynamics of the 
ecosystem and environment--things that are completely beyond our 
control.
    And, these ecosystem dynamics are even further complicated by the 
interrelationships between stocks in a multi-species ecosystem and 
fishery.
    We may get very lucky and by accident choose the right numbers, but 
far more likely the population effects on a fish population caused by 
the relatively small portion of mortality we do have control over 
(fishing) will be far outweighed by the effects caused by those 
ecosystem and environmental parameters we have no control over and 
cannot predict.
    Instead, as more than one distinguished NMFS Chief Scientist has 
testified, the arbitrary timeframes for rebuilding set forth in MSA 
section 304(e)(4)(A)(ii) should be replaced with a strategy linked 
directly to the true population dynamics of a stock. In other words, a 
strategy of setting a target fishing mortality rate at the level that 
will over time, on average rebuild the stock to the biomass that will 
produce maximum sustainable yield. This fishing mortality rate is known 
as Fmsy, and managers may appropriately adjust the target with a buffer 
to reflect scientific uncertainty.
    The time it will take to rebuild any stock fished at Fmsy (or as 
adjusted) will be exactly that which reflects the actual future 
recruitment and natural mortality exhibited by the stock--parameters 
that will be dictated by the uncontrollable and unpredictable dynamics 
of the ecosystem. By definition, this strategy will prevent overfishing 
and achieve rebuilding which are the true and legitimate biological 
objectives of the MSA. The policy decision to rebuild more quickly than 
this strategy was purely a political one, and I should point out that 
even NOAA Administrator Lubchenco has suggested this question should be 
reviewed by the National Academy of Sciences (NAS), and that at some 
point she was in discussions with NAS for this purpose. We would 
encourage you to follow-up with Dr. Lubchenco on her plans.
    Again, the current arbitrary rebuilding time frames have compounded 
the difficulties in multispecies management, particularly with the 19 
stocks subject to our groundfish plan. They force ACLs to be extremely 
low for some stocks, choking the sector trading system needed to 
achieve the Amendment 16 objective of increasing the utilization of 
Optimum Yield.
ACLs
    The MSRA requirement to set ACLs for all stocks was never a problem 
per se'. The need to set annual catch limits was fundamental to the 
decision to transition the New England groundfish fishery from effort-
based to catch-based management anyway.
    As explained above, the arbitrary deadline for ACL implementation 
was problematic for NE groundfish due to the complexity of the broad 
objectives of Amendment 16 and the lack of updated biological 
objectives from the new stock assessment before the sector system was 
set in stone and the implications understood.
    As also explained above, those ACLs that were set at artificially 
low levels for stocks subject to the arbitrary 10-year rebuilding 
timeframe, exacerbated the least-common-denominator (choke stock) 
effect on the fishery resulting in even greater losses of Optimum 
Yield.
    Further, what came to light for some of us only after the MSRA was 
enacted and more fully understood was the profound role the Scientific 
and Statistical Committees (SSCs) were afforded. While purely advisory 
pre-MSRA, the SSC's recommended catch levels now dictate the upper 
limit of the ACLs developed by the Councils according to MSA section 
302(h)(6).
    The SSC's responsibility to generate catch limits involves 
following the National Standard 1 guidelines, a process which can 
generate a range of results, some more conservative than others, but 
all consistent with the requirements of the Act. This is an 
extraordinary authority, responsibility and level of discretion for a 
group that includes non-Federal scientists and, therefore, is something 
that should be accompanied by a process of checks and balances.
    As we have seen with NE groundfish, there is indeed a great deal at 
stake in the ACL-setting process--including whether the sector 
allocation trading system can function. A functional sector allocation 
trading system is fundamental to the premise that sectors, as coops, 
can achieve a higher utilization of the Optimum Yield than under the 
previous system and, thereby, achieve greater economic benefits for 
sector members. This is among the most important purposes of the sector 
system. Unfortunately, the ACLs generated for the NE groundfish fishery 
were set so low for some stocks that when coupled with the narrow 
distribution of the initial allocation, a vast majority of the vessels 
that were relatively viable in 2009 suddenly found themselves too far 
below the break point to actively engage the new system.
    NSC has repeatedly noted that MSA section 302(h)(6) does not apply 
to the Secretary and that this provides the Secretary with critical 
``checks and balances'' authority to intervene if the ACLs need to be 
adjusted in order to meet other equally important National Standards, 
objectives and mandates of the Act. With this authority, the Secretary 
can also serve as a ``peer review'' of the SSCs application and 
interpretation of the National Standard 1 guidelines and of the 
scientific data itself. We feel this is a critical and potentially very 
useful Secretarial authority that Congress ought to encourage. It 
appears, however, that this is one of those areas of the statute where 
the agency's attorneys have adopted a very conservative, unhelpful 
interpretation.
    Finally, I would note that NOAA recently announced the anticipated 
increases in ACLs for some groundfish stocks. To be clear, these 
increases were not a result of the Secretary responding to the multiple 
requests from members of the New England Congressional Delegation to 
use his authority to adjust the groundfish ACLs described above. 
Instead, these increases were a natural product of the Framework 44 
ACL-setting process generated from Amendment 16. I should also point 
out that these ACL increases are not a testament to the success of 
sectors and ``catch-share'' management as some might suggest. In fact, 
the data on which these ACL increases are based pre-date the 
implementation of our sectors.
Senator Brown's Bill
    S. 238, the Fishery Impact Statement Honesty Act introduced by 
Senator Scott Brown and co-sponsored by Senators Snowe and Collins 
brings focus to another very important issue that became apparent 
during the Amendment 16 development process.
    Because a basic purpose of Amendment 16 was to make the enormous 
and complex transition from the DAS effort-based management system to 
the sector ``catch share'' system, there was a great deal of 
uncertainty about what the social and economic impacts would be on 
individual fishermen, ports and communities throughout the region. In 
any case, everyone knew the impacts would be huge.
    However, because so much of what was being developed in Amendment 
16 was unprecedented, the required Fishery Impact Statements and 
associated socio-economic analyses were both difficult to produce and 
of limited utility or influence in the Amendment 16 decision-making 
process. In fact, in an effort to facilitate better industry-wide 
understanding of these impacts in the face of a limited Council 
economic analysis of the allocation options, the Northeast Seafood 
Coalition itself commissioned a professional analysis of these options. 
Unfortunately, none of these analyses had their intended impact and 
under current law, once the Amendment is implemented, such analyses 
basically sit on a shelf to gather dust. Further, there is no formal 
process to go back and assess what the post-implementation impacts 
actually were--much less do anything about them.
    Nevertheless, Congress made clear in both National Standard 8 and 
the required impact statements that understanding and minimizing the 
economic impacts of Federal fishery regulations on fishermen and 
fishing communities must be among the very top priorities of the 
Councils and NMFS.
    Notwithstanding this clear mandate, this has proved to be a weak 
link in the fishery management process. Although prepared by Council 
and agency staffs, fishery impact statements appear to have little if 
any operative effect in the actual fishery management process and have 
been reduced to a pro forma paperwork exercise.
    When originally championed by Senator Olympia Snowe in the 1990s as 
part of the Sustainable Fisheries Act (SFA), National Standard 8 was 
intended to provide the crucial, missing balance to those elements of 
the SFA that were focused strictly on fish stock conservation. In 
practice, we saw little evidence that National Standard 8 mandate to 
minimize adverse economic impacts on fishing communities was reflected 
in the Amendment 16 process.
    If enacted we think this legislation would have at least three very 
important positive impacts on future fishery management. First, it 
would improve the quality of Fishery Impact Statements given the 
authors are both independent and would know their work will be reviewed 
annually after implementation. Second, it would lead to the Council's 
taking National Standard 8 and these economic analyses far more 
seriously in their initial decision-making and implementation. And 
third, the mandate for the Secretary of Congress to actually mitigate 
unacceptable economic impacts identified in post-implementation reviews 
would be a giant leap forward in restoring more balance between 
conservation and economic impacts to the fishery management process. 
These would be very big improvements that should be given the 
Committee's full and serious attention.
U.S./Canada
    As a final note, I want to express my very profound appreciation to 
Senators Snowe and Kerry and other members of the Committee and 
Congress, and especially the Committee staff, for getting the job done 
on clarifying how the MSA rebuilding provisions will apply to stocks 
covered by the U.S.-Canada Transboundary Resources Sharing 
Understanding.
    We worked with you on this issue for more than 5 years beginning, 
in fact, with the development of the MSRA. Thus, I must recognize your 
exceptional persistence which has already paid off with a critical 
adjustment to the Georges Bank Yellowtail Flounder catch limits agreed-
to by the U.S. and Canada last month.
    As is appropriate and intended by Congress for stocks managed by 
international agreement, the U.S. catch limits for our U.S.-Canada 
transboundary fisheries will now reflect the true status and population 
dynamics of the stocks rather than the fishing mortality rate needed to 
rebuild a stock according to an arbitrary timeframe. The ``apples and 
oranges'' approach to fishery management between the U.S. and Canada 
threatened to collapse the critically needed joint cooperative 
management of these valuable transboundary stocks, and so I see a very 
bright future for continued cooperation.
    I should also note that while the recent increases in Georges Bank 
yellowtail flounder catch limits enabled by this legislation are not 
yet large enough to support a directed fishery, they will make a very 
substantial difference in alleviating the ``choke stock'' effect on 
fishing for other valuable groundfish stocks and on the valuable New 
England scallop fishery. As this stock continues to rebuild according 
to its natural population dynamics, we fully expect to see the return 
of the directed yellowtail fishery on Georges Banks. Thank you again 
for your hard work in making this happen.

    Senator Begich. Thank you very much.
    Next person is William Bird, Attorney at Law, private--
for--and a private angler, himself.

         STATEMENT OF WILLIAM R. BIRD, ATTORNEY AT LAW,

                   PRIVATE ANGLER AND MEMBER,

                COASTAL CONSERVATION ASSOCIATION

    Mr. Bird. Thank you, Senator Begich, for this opportunity 
to testify before the Senate committee on the implementation of 
the 2006 reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act.
    Specifically, I will address how the current implementation 
of the changes made to the MSA in 2006 are impacting 
recreational fisheries in the State of Florida.
    I would also like to thank Senator Nelson for his work on 
several important fishery issues for Florida, and his 
introduction, in the last Congress, of Senate bill 3594, the 
Fishery Conservation Transition Act.
    Many of the points of my testimony have already been 
touched on, particularly by Senators Nelson and Rubio, but I'm 
going to proceed and pile on, too; with my apologies to Mr. 
Schwaab, in any event.
    [Laughter.]
    Mr. Bird. My name is Bill Bird. I'm a long-time member of 
the Coastal Conservation Association and past Chairman and 
President of the Florida chapter of CCA. I'm a life-long 
recreational angler, and have enjoyed fishing the beautiful 
inshore and offshore waters of Florida for the last 25 years.
    The passage of the 2006 reauthorization of the MSA ushered 
in new--important new provisions to end overfishing, improve 
data collection for recreational fisheries, and requiring, for 
the first time, necessary economic and social analyses of the 
impacts of fishery management decisions on all participants in 
each sector of the fishery.
    As a recreational fisherman concerned about the health and 
abundance of our saltwater fisheries, I view these provisions 
as critical to improving Federal fisheries management. However, 
as someone who has followed Federal management of recreational 
fisheries in Florida for considerable amount of time, I can 
tell you that there is a management crisis facing many 
recreational fisheries, with the current implementation of the 
2006 reauthorization of MSA.
    In an effort to end, once and for all, overfishing of 
historically overfished stocks, the 2006 reauthorization of MSA 
included a provision requiring annual catch limits, or ACLs, 
that must not be exceeded, for every federally-managed fishery. 
The problem is that, without a recent and accurate stock 
assessment or a baseline stock assessment for a fishery, there 
is no way to meet the legal requirement of the 2006 
reauthorization that an annual catch limit be established and 
not exceeded. It is the legal equivalent of requiring drivers 
to not exceed the speed limit while driving cars without 
speedometers.
    ACLs are a particular concern in recreational species for 
which there is only poor data or a complete lack of data. In 
the south Atlantic region, there are several recreationally 
important and valuable fisheries for which there are--no stock 
assessment has ever been undertaken, and many others that had 
an initial stock assessment and then were never reassessed to 
determine the current health of the stock.
    The potentially most egregious example of this can be found 
in the recommendation, by the South Atlantic Council's Science 
and Statistical Committee, of a generic formula designed to 
reduce harvest of stocks of fish that have never been assessed 
but are otherwise considered healthy and not showing any signs 
of decline. This formula would be applied to species such as 
cobia, wahoo, and dolphin in the south Atlantic, all species 
for which no assessment has ever been undertaken, that have no 
indication that overfishing is occurring in any of them. The 
logical option would be to set the annual catch limit for these 
species at current harvest levels until assessments are 
performed. Unfortunately, fishery managers are recommending 
reduced catch levels for these species, even though there is no 
indication that they are in any trouble.
    Recognizing the need to improve information about the 
status of recreational fisheries, the 2006 reauthorization of 
MSA provided a potentially valuable provision to establish a 
national program for the registration of marine recreational 
fishermen. The new national program was required to be in place 
by January 1, 2009, but, to my knowledge, is still not 
operational. This is not only a failure by NMFS to meet the 
legal requirements of the 2006 Act, but it also exacerbates the 
inability of NMFS to properly implement Annual Catch Limits for 
recreational fisheries that lack timely data.
    Improved data collection is imperative to the successful 
implementation of annual catch limits. Given the failure of 
NMFS to meet the legal requirements of the reauthorization to 
establish a national program to improve recreational data 
collection, NMFS cannot justify shutting down or reducing catch 
in recreational fisheries under catch limits when there is no 
data to support those limits for species that are not in 
trouble.
    The mandatory requirements for drafting a fishery 
management plan were amended in four separate and distinct 
areas to require economic analyses. And many things are 
different now than they were when MSA was first passed. And a 
big part of such analysis is the allocation of the take among 
sectors, which is an ongoing and important responsibility of 
MSA.
    Coastal State populations have exploded, as have the number 
of visiting anglers, and allocations have not been adjusted to 
reflect those realities.
    The MSA has a mechanism to accommodate all of these 
changes. It requires the councils to review and change 
allocations, as necessary. Fishery managers and councils are 
inherently reluctant to do this, because allocation of the use 
of any public resource creates winners and losers, and the 
inevitable controversy. However, MSA now requires economic 
analyses of the impact of harvest restrictions on all sectors 
in a fishery.
    Thank you again for the opportunity, Senator. And that 
concludes my testimony. And I'll be glad to field any 
questions.
    [The prepared statement of Mr. Bird follows:]

Prepared Statement of William R. Bird, Attorney at Law, Private Angler 
              and Member, Coastal Conservation Association
    Thank you, Chairman Begich, for this opportunity to testify before 
the Senate Commerce Committee on the implementation of the 2006 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA). Specifically, I will address how the current 
implementation of the changes made to the MSA in 2006 are impacting 
recreational fisheries in the state of Florida.
    I would also like to thank Senator Nelson for his work in the last 
Congress on several important fisheries issues for Florida and his 
introduction last Congress of S. 3594, the Fishery Conservation 
Transition Act.
    My name is Bill Bird. I am a long-time Member of the Coastal 
Conservation Association (CCA) and the past Chairman and President of 
the Florida Chapter of CCA. I am a life-long recreational angler and 
have enjoyed fishing the beautiful inshore and offshore waters of 
Florida for the last 25 years.
    CCA is the leading marine recreational fishing group in the United 
States. Formed by a small group of sport fishermen in Houston in 1977, 
CCA has grown to become a seventeen-state association with over 90,000 
members. Our volunteer membership, which spans from Brownsville, Texas 
to Portland, Maine to Seattle, Washington, prides itself on passionate 
grassroots efforts to influence policies and laws that promote 
sustainable fisheries for recreational anglers. We believe that we, as 
recreational anglers, have proven that we are and always have been the 
best stewards of our fisheries.
    Over the last 30 years, CCA has been active in a number of 
conservation issues on both the state and Federal level, including all 
of the east and Gulf coast net bans; gamefish status for redfish; 
protective measures for species such as speckled trout, tarpon, striped 
bass, shad, marlins, swordfish and sailfish; and the reduction of 
wasteful bycatch through the use of technology and time and area 
closures. CCA has also pushed for the improvement of fishery management 
systems through the restructuring of state and Federal regulatory 
bodies; the elimination of conflicts of interests by decisionmakers; 
and the active involvement of its membership in the management process.
    The passage of the 2006 reauthorization of the MSA ushered in 
important new provisions to end overfishing; improve data collection 
for recreational fisheries; and requiring for the first time necessary 
economic and social analyses of the impacts of fishery management 
decisions on all participants in each sector of the fishery. As a 
recreational fisherman concerned about the health and abundance of our 
saltwater fisheries, I view these provisions as critical to improving 
Federal fisheries management.
    However, as someone who has followed Federal management of 
recreational fisheries in Florida for a considerable amount of time, I 
can tell you there is a management crisis facing many recreational 
fisheries with the current implementation of the 2006 Reauthorization 
of MSA.
Ending Overfishing
    In an effort to once-and-for-all end overfishing of historically 
overfished stocks, the 2006 Reauthorization of MSA included a provision 
requiring ``annual catch limits'' or ``ACLs'' that must not be exceeded 
for every federally-managed fishery.\1\ The Senate Report filed with 
the passage of the Senate MSA bill (S. 2012) provides some explanation 
of the rationale for including annual catch limits to end overfishing--
--
---------------------------------------------------------------------------
    \1\ Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act (P.L. 109-479), 16 U.S.C. 1853(a)(15); MSA  
303(a)(15).

        ``The [Sustainable Fisheries Act] established new requirements 
        in the Magnuson-Stevens Act designed to prevent overfishing and 
        rebuild overfished or depleted fisheries. The SFA attempted to 
        address overfishing by capping fish harvests at maximum 
        sustainable yield (MSY) and requiring FMPs to include measures 
        to rebuild overfished stocks. However, recent evaluations of 
        stock status have shown that 10 years after enactment of the 
        SFA, overfishing is still occurring in a number of fisheries, 
        even those fisheries under a rebuilding plan established early 
        in the SFA implementation process.'' \2\ (emphasis added)
---------------------------------------------------------------------------
    \2\ U.S. Senate. Committee on Commerce, Science, and 
Transportation. Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2005 (to accompany S. 2012). (S. Rpt. 109-229), 
pg. 6. U.S. Government Printing Office Washington, 2006.

    Annual catch limits were intended to put a ceiling on the allowable 
take in a fishery so as to prevent continued overfishing. As noted in 
the Senate Report, this was not a new concept, and in fact was the goal 
of the Sustainable Fisheries Act, which was the reauthorization of the 
MSA that Congress passed in 1996. However, 10 years later, when the 
Senate Commerce Committee took up the latest reauthorization of the 
Federal fisheries law, overfishing of stocks found previously to be 
overfished was still occurring.
    One critical factor of implementing annual catch limits, however, 
was the requirement to have accurate data on the status of the 
fisheries. Indeed, accurate data is a prerequisite for establishing a 
``catch limit'' that can then be measured during subsequent fishery 
years. Without a recent and accurate stock assessment or a baseline 
stock assessment for a fishery, there is no way to meet the legal 
requirement of the 2006 Reauthorization of MSA that an annual catch 
limit be established and not exceeded. It is the legal equivalent of 
requiring drivers to not exceed the speed limit while driving cars 
without speedometers.
    Unfortunately, species in which there is a significant recreational 
component have long suffered from poor data or a complete lack of data 
and a general lack of proper management by the National Marine 
Fisheries Service (NMFS). In the South Atlantic region there are 
several recreationally important and valuable fisheries for which no 
stock assessment has ever been undertaken, and many others that had an 
initial stock assessment and then were never assessed again to 
determine the current health of the stock. In spite of a lack of 
accurate information for many species, NMFS has nonetheless decided to 
close recreational fishing for some species in order to meet the 
requirement of annual catch limits. In the case of black sea bass, this 
decision was based entirely on an outdated stock assessment that 
previously showed the fishery to be overfished nearly 10 years ago, 
even though no new assessments have been made to determine if that is 
the situation presently. The stock is likely rebuilding as planned, 
because the recreational fishery, which responds to abundance, is 
catching more fish than the current total allowable catch. However, 
with the advent of annual catch limits, NMFS has chosen to close the 
recreational black sea bass fishery in the entire southeast for 4 
months, notwithstanding the lack of information on the current status 
of the stock.
    Another significant problem we have faced is the potential closure 
of completely healthy fisheries to rebuild 1 particular stock. In 2007, 
the first full, modern stock assessment was completed on red snapper, 
an extremely popular recreational species in the South Atlantic. That 
stock assessment revealed that the red snapper stock was undergoing 
overfishing and was overfished. While few questioned that red snapper 
had been fished to a level below its historical abundance, none 
questioned that this was a result of decades of Federal negligence in 
actually managing such an important recreational stock. However, to end 
overfishing of red snapper, fishery managers considered closing not 
only the directed red snapper fishery, but also several thousand square 
nautical miles of the South Atlantic to all bottom fishing to prevent 
any red snapper mortality as bycatch.
    The most absurd and potentially punitive result of implementing 
annual catch limits can be found in the recommendation by the South 
Atlantic Fishery Management Council's Science and Statistical Committee 
of a generic formula designed to reduce harvest of stocks of fish that 
have never been assessed but are otherwise considered healthy and not 
showing any signs of decline. This formula would be applied to cobia, 
wahoo and dolphin in the South Atlantic, all species for which no stock 
assessment has been undertaken, with no indication that overfishing is 
occurring in any of them. The logical option would be to simply set the 
annual catch limit for these species at current harvest levels until 
assessments are performed. Unfortunately, fishery managers are 
recommending reduced catch levels for these species even though there 
is no indication that these species are in any trouble.
    If NMFS proceeds to implement annual catch limits under such a 
draconian approach for data poor stocks and stocks without assessments, 
recreational fishing in Federal waters could be indefinitely 
prohibited--a result I am certain that neither this committee nor the 
Congress ever intended to take place.
    One of the goals of annual catch limits was to drive better data 
collection and provide greater accountability in fisheries management. 
Some are now concerned that NMFS intends to implement catch limits in 
such a restrictive manner that no new information on data poor or 
unassessed fisheries will be gathered, and that these fisheries will 
simply be closed or the allowable catch will be significantly reduced. 
Again, this was never the intention of this Committee, and the Senate 
Report explaining the need for annual catch limits to drive better data 
was clearly stated----

        ``The Committee intends that these annual catch limits, taken 
        with the existing overfishing and rebuilding authorities, will 
        ensure full compliance with the Magnuson-Stevens Act, thereby 
        producing better data collection on the abundance of stocks and 
        eventually providing real time catch figures--information that 
        will help achieve greater accountability in fishery management. 
        The intent of this provision is not only to prevent overfishing 
        from occurring, but also to drive improvements in fishery data 
        collection and research to develop a more precise assessment of 
        the amount of fish that can be caught without exceeding 
        [optimum yield].'' \3\
---------------------------------------------------------------------------
    \3\ Id. at 7.
---------------------------------------------------------------------------
Improving Data Collection for Recreational Fisheries
    Recognizing the need to improve information gathering on 
recreational fisheries, the 2006 Reauthorization of MSA provided a 
potentially valuable provision to establish a national program for the 
registration of marine recreational fishermen. The program is 
authorized ``to improve the quality and accuracy of information 
generated by the Marine Recreational Fishery Statistics Survey, with a 
goal of achieving acceptable accuracy and utility for each individual 
fishery.'' \4\ This provision was the result of a National Research 
Council report on the Review of Recreational Fisheries Survey Methods 
(2006), which determined that NMFS's recreational fisheries survey 
methods were fatally flawed and completely ineffective in establishing 
accurate recreational catch data.
---------------------------------------------------------------------------
    \4\ Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act (P.L. 109-479), 16 U.S.C. 1881(g)(3)(A); MSA  
401(g)(3)(A).
---------------------------------------------------------------------------
    The new national program for recreational data collection was 
required to be in place by January 1, 2009, but to date the program is 
still not operational. This is not only a failure by NMFS to meet the 
legal requirements of the 2006 Act, but it exacerbates the inability of 
NMFS to properly implement annual catch limits for recreational 
fisheries that lack timely data. In fact, this committee understood the 
need to implement improved data collection for recreational fisheries 
before the requirements of annual catch limits could be implemented, 
when it noted in the Senate Report explaining the national program----

        ``Improved [recreational] fishing data collection is imperative 
        to the successful implementation of section 104(7) [annual 
        catch limit section under S. 2012] of the Magnuson-Stevens 
        Act.'' \5\ (explanation of section number added)
---------------------------------------------------------------------------
    \5\ U.S. Senate. Committee on Commerce, Science, and 
Transportation. Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2005 (to accompany S. 2012). (S. Rpt. 109-229), 
pg. 38. U.S. Government Printing Office Washington, 2006.

    Improved data collection is imperative to the successful 
implementation of annual catch limits. Given the failure of NMFS to 
meet the legal requirement of the 2006 Reauthorization of MSA to 
establish a national program to improve recreational data collection, 
NMFS can not justify shutting down or reducing catch in recreational 
fisheries under annual catch limits when there is no data to support 
those limits. Recreational fisheries that have suffered for years from 
a complete lack of Federal management cannot now be expected to 
implement arguably the most aggressive legal fishery management 
requirement ever established.
    Considering the failure to properly meet the legal requirement to 
improve data via implementation of the national recreational registry 
program, recreational fisheries for which no stock assessment has ever 
been performed, and those fisheries for which no stock assessment has 
been performed within the last 5 years, should not be subject to annual 
catch limits below current levels.
Assessing the Impacts of Harvest Restrictions on Recreational Fisheries
    New information and analyses are now required under the 2006 
Reauthorization of the MSA. The mandatory requirements for drafting a 
fishery management plan were amended in four separate and distinct 
areas to require a description, consideration, analysis and assessment 
of economic impacts of harvest restrictions on each sector or 
participant in the fishery.\6\ ``Sector or participant in the fishery'' 
are defined as ``commercial, recreational, and charter fishing.'' \7\ 
These four separate changes to the requirements for implementing a 
fishery management plan taken together ``require an assessment of the 
relative economic importance of the commercial, recreational, and 
charter fishing sectors of the fishery . . . to ensure that in 
allocating harvest restrictions among sectors, the economic impact of 
such restrictions on each sector participating in the fishery is 
considered.'' \8\
---------------------------------------------------------------------------
    \6\ MSFCMRA (P.L. 109-479), 16 U.S.C. 1853(a)(5),(9),(13),(14).
    \7\ Id.
    \8\ (S. Rpt. 109-229), pg. 21.
---------------------------------------------------------------------------
    Allocation is an ongoing and important responsibility of the MSA. 
It is a duty that should be performed by the Councils on a periodic 
basis to ensure that all sectors of the fishery are being treated 
fairly, and that the public's resources are being used for the best 
benefit to the Nation. It is also the best way to accommodate the 
biological, economic and social changes in a fishery. The world today 
is not the same world that existed in 1977. Look at the population 
growth in only two states along the Gulf Coast over the life of the 
MSA. Florida has grown from about 8 million residents in 1977 to over 
18 million in 2010. Texas has grown from approximately 13,000,000 to 
25,000,000. Not all of the new population has gone saltwater fishing, 
but a substantial portion of them have. Florida is reported to have 
some 3,000,000 saltwater anglers, Texas another million. Those numbers 
do not include the many visitors that come to fish the same waters. All 
of these anglers are fishing the same stocks that existed in 1977.
    These anglers are not fishing with the same level of efficiency as 
they were in 1977, either. Most of the present day fisherman use 
significantly better gear today than their parents did. In the 1970s, 
offshore recreational fishing was undertaken with primitive sonar, 
boats with inboard engines and little knowledge of things like release 
mortality. Today we can go twenty miles offshore in a boat with three 
350 horsepower outboards and locate a reef the size of this table. 
Technology has made today's angler much more efficient. It has also 
produced a significant industry for fishing tackle, electronics and 
boats. NOAA estimates that marine recreational fishing contributes some 
$80 billion to the U.S. economy, which includes a lot of jobs here at 
home. A big part of that, especially for the Federal fisheries, is the 
sale of boats. The National Marine Manufacturers Association estimates 
that recreational fishing takes place on some 70 percent of the boats 
sold in the U.S.
    The MSA has a mechanism to accommodate all of these changes--the 
Councils need to review and change allocations as necessary. Fishery 
managers and councils are inherently reluctant to do this because 
allocations of the use of any public resource creates winners and 
losers and the inevitable controversy. However, the MSA clearly points 
to the elements necessary to consider changes in allocation. It now 
requires economic analysis of the impact on the various sectors of 
changes in the fishery. It has always required an analysis of the 
fairness of any redistribution of the resource and the conservation 
impact of the measures on each sector.
    My State of Florida, along with many other states, has managed such 
changes constructively. In many cases, states have declared gamefish 
status for key recreational species. In Florida there are no sale 
provisions for snook, tarpon and bonefish. The state has banned the use 
of highly-destructive and non-selective gear like gill nets. It has 
placed size, season, and bag limits on recreational fishermen that have 
allowed for continued access to the fisheries but also conserved the 
stocks. Last, they have enlisted the support and cooperation of the 
recreational angling community to ensure acceptability and compliance. 
All of this has been allocative, and all of it was done to provide 
greater access to the public resource. NOAA recently adopted a catch 
share policy which includes a requirement that allocation decisions be 
made by the regional Councils to reflect the social, economic and 
conservation needs of the fishery. The Gulf Council has recently 
initiated just such a review for red snapper, gag and red grouper. The 
outcomes of these reviews must reflect the reality on the water. We can 
no longer close out the public because of decades old allocations based 
on historic catches of 20 or 30 years ago.
    Thank you again for the opportunity to comment on how the current 
implementation of the changes made to the MSA in 2006 are impacting 
recreational fisheries in the State of Florida. The problems I have 
described are real, and the impacts are creating a damaging rift 
between conservation-minded anglers and the Federal agencies charged 
with managing our fisheries. It is critical that before annual catch 
limits are imposed on data poor fisheries and fisheries that have had 
no assessments, the Congress require program funds for more stock 
assessments and improved data collection.
    We would like to work with the Subcommittee toward that end. Mr. 
Chairman, that concludes my testimony, and I would be happy to take 
questions.

    Senator Begich. Thank you very much. Thank you for your 
testimony.
    Let me, if I can--Ms. Madsen, I want to--you were--you 
stayed through the first round of the panel. You heard some of 
the Senators, here, in regards to the Northeast. You've heard, 
now, some additional commentary. In your opinion--help me 
understand--I mean, in Alaska we have gone to catch shares, 
we've gone to, you know, rationalizing our fisheries in a way 
that--instead of just first out gets whatever they can get. Why 
do you think it doesn't work, or at least it's not embraced 
aggressively, in the Northeast? I--and I only--I ask this 
because it seems--our history, today in Alaska, is very 
positive, but the history, when we started with this, was not 
as--I mean, we went through some trying times to get to where 
we are today. Would that be a fair statement?
    Ms. Madsen. Yes, Mr. Chairman.
    Senator Begich. I mean, it just didn't happen overnight.
    Ms. Madsen. No.
    Senator Begich. And that's why I still call them the ``fish 
wars.'' I think we remember those well.
    Why do you think it's not embraced from the--kind of a 
fisherman's viewpoint of--in the Northeast, yet, in how to 
manage this resource differently? Or--and can it work? Can what 
we do in Alaska really work elsewhere?
    Ms. Madsen. Mr. Chairman, thank you for question. I think 
that from--my personal view over the years is that--I think the 
first thing that has to happen is the good science, and the 
trust between the fishermen and the managers and stock 
assessment authors, and a transparent process. If you're going 
to doubt the fundamental basis that you're going to set these 
annual catch limits on, I'm not sure how you move forward from 
there.
    I believe that maybe it's just a convergence of untimely 
issues. I think the Northeast seems to have to face two things 
at once, possibly; and that is the implementation of annual 
catch limits, which they have not had before, and, in addition 
to that, a new catch-share model that they're not familiar 
with, either. And so, those two things seem to be happening at 
the same time in the Northeast, which probably does cause 
people a lot of concern, a lot of uncertainty.
    So, Mr. Chairman, briefly I would say, you've got to get 
the science, you've got to trust the science, you have to have 
a transparent process, you have to have buy-in. I think that 
once people get comfortable that they know what the actual 
available catch is, then I think people can start focusing on 
how to maximize the value of the limited catch that they might 
have. And I think that's what we have done in the north 
Pacific.
    Senator Begich. Let me--when it was originally set up, or 
when elements were set up, how did--or how did we remind--I 
guess, for the record here--the connection to the communities, 
how did we deal with the economic issues of the communities? In 
creating that balance, as mentioned by Mr. Bird, there are 
winners and there are losers, absolutely. So, how did we 
address that?
    Ms. Madsen. Mr. Chairman----
    Senator Begich. Or--yes.
    Ms. Madsen.--again, I think that people oftentimes forget 
that the councils have to consider a lot of laws besides 
Magnuson. And I certainly think that there are other laws that 
have to be considered that have to take in socioeconomic 
impacts to both communities, under National Standard A, and 
small and large players in the industry. I think it is a 
balancing act.
    In our examples, we have required landings to occur in 
certain communities, when we move to a rationalized program, so 
that you don't--we did have one IFQ program, in halibut/
sablefish, that didn't have landing requirements. And we did 
see a shift and a loss of revenue in a lot of smaller Southeast 
communities, because of the increased value that went to the 
road systems in Alaska. So, I think we learned from that. And 
we designed a program that required certain landings to be 
maintained to protect those coastal communities.
    Additionally, we had the community development quota in the 
pollock fishery that allocated 10 percent of the pollock quota 
to 56 communities that lived on the coast of the Bering Sea, 
that now have become investors and owners in the resource. That 
was another example. They're also looking at a set-aside, in 
the Gulf of Alaska, for coastal communities that want to, kind 
of, bootstrap their constituents in those communities, to 
provide some start-up quota for them to get into the fishery, 
that they can then buy into the fishery, when a rationalized 
program.
    So, I think--in short, Mr. Chairman, I think the Council 
has tried to limit the barriers to entry for communities in 
Alaska.
    Senator Begich. You think some of this can be--this--the 
concepts can be exported out to New England and other parts of 
the country?
    Ms. Madsen. I think that if you can get over the rift that 
Senator Snowe talked about, between--the lack of trust between 
the science and the fishermen--yes.
    Senator Begich. OK. Thank you very much.
    Mr. Giacalone, let me ask you a couple things. How long has 
sector management--I'm not as familiar with the Northeast, but 
how long has the sector management program been in play?
    Mr. Giacalone. Sector management actually was implemented, 
as a provision that could be utilized voluntarily, in 2004 in 
the previous Amendment 13.
    It was utilized by two sectors. First one was on a pilot 
level, directed cod fishery. And then the second one was a very 
similar, almost a brother-type sector. So, it was never used in 
a broad application. It was never used on all gear types.
    So, we're just completing--we've got a month and a half 
left to our first full fishing year, where the entire fishery 
is basically under this sector management.
    Senator Begich. Have you seen--in the allowable catch, have 
you seen increase?
    Mr. Giacalone. Not yet. On some species, we've seen some 
increases. The incentives have created more targeting of some 
of the healthier stocks. But, we haven't seen an overall 
increase in yields.
    Senator Begich. Have you seen any change in the economic 
element of it--or its--more value, less value, the same?
    Mr. Giacalone. None that we can tie to the supply, yet. 
It's too early, I think, to see the market differences. We have 
had a fairly strong market this year, but it doesn't seem to 
follow any trend with consistency of supply over the years 
prior. So, we're not seeing it.
    We do see a big difference in the economics of the fishery. 
And one of them is, the cost of fishing is now dramatically 
increased. And I--we still don't see any economic studies that 
are looking at that. I know what my gross revenue is this year, 
and it's a lot more than it was in previous years, but my net 
is a lot less. The cost of renting fish, right now, is 
somewhere--anywheres between 40 percent and 80 percent of the 
X-vessel value.
    And where it's dramatically, starkly different than what 
goes on in the Northwest is that we don't have a bunch of 
bycatch fisheries. What we have is--or bycatch species--what we 
have is 19 stocks that each stock is someone's target and 
someone else's bycatch. And the stock assessments are so 
volatile from year to year that your bycatch this year becomes 
your target next. So, that makes it a lot more complicated, 
that you can't just, you know, dole out the--so people are 
paying for hot-target species, in order to stay in business 
right now, which is not very economically viable.
    Senator Begich. Are you going to do anything, within your 
group--as a coalition, are you going to do anything in any 
economic analysis after the season is done? Are you going to do 
anything that say, kind of, the--to analyze what you think 
are--worked, what didn't work?
    Mr. Giacalone. We're now consulting with several folks that 
are in the research community, both public and private. And 
right now, the resources that we have--the human resources--are 
totally tapped out with just trying to stay up with the 
reporting and the requirements that come with the new system, 
and ironing the bugs out of it. So, we don't have the resources 
to actually be doing the work, but we are compiling the data.
    Senator Begich. And you--I'm assuming you would--that 
getting that kind of data would be helpful in analyzing the 
future. Correct?
    Mr. Giacalone. Absolutely.
    Senator Begich. OK. Let me ask just a couple of quick last 
questions, then I'm going to close it out, unless someone pops 
in here, last minute. I don't--I'm a believer that once we've 
done asking the questions, I don't have to wait for other 
people if they're not here.
    So, let me ask, Mr. Bird, if you could comment, in general. 
Your agreement--or your comments lead me to believe--and I 
think I'm starting to hear, not only from the four in 
Southeast, but also the Northeast, that there is a grave 
concern of--and I'll ask, actually, both of you, if possible--
and that is regards to the data and the trust level. What do 
you think are the steps to ensure that--as Ms. Madsen 
mentioned--how do we build the trust on making sure the right 
research data is there for both of your areas of fishery? So, 
when you look at that data--and I will just tell you, from 
Alaska experience, we see--you'll always have some fishermen 
that don't like the data.
    Is that a fair statement, Ms. Madsen?
    Ms. Madsen. Yes, Mr. Chairman.
    Senator Begich. No matter what the data says. It could say 
that there's going to be a lot of fish and they say, ``Well, 
that's not enough.'' Or, not enough one day, then it's too 
little.
    But, knowing that, do you think there's a point--and what 
would cause the opportunity to create a better trust with the 
agencies, in regards to the data?
    Let me start with Mr. Bird, then I'll come back to you, Mr. 
Giacalone.
    Mr. Bird. You know, Senator, I think what has to--where you 
have to get is where a majority of the people on the water, 
what they see matches up with what the managers are telling 
them, in terms of abundance and fishing levels. Once you get 
there, I think you will get buy-in, particularly from the 
recreational community. I think that the recreational anglers 
have always been the best stewards of the resource. And if we 
have any faith, as a group, that what we're being told needs to 
be done to properly manage the species, we'll buy into it.
    Senator Begich. And that means making sure the stakeholders 
are at the table, right?
    Mr. Bird. Correct. And I think it also means, as Mr. 
Schwaab has recognized, we need fishery-independent data, in 
addition to data just from the fisheries themselves.
    Senator Begich. So, peer review and others.
    Mr. Bird. Yes. And ultimately, it comes down to commitment 
of money and time and effort to get there.
    Senator Begich. Mr. Giacalone?
    Mr. Giacalone. I would echo what Mr. Bird just said on 
that. And the fishery-dependent data and getting the industry 
involved--there have been a lot of programs that have be 
conducted for industry-type side-by-side surveys, and I think 
that's an absolute essential thing for buy-in.
    A big problem for us is just the understanding that a lot 
of it is driven by the law, and sometimes it's falsely--the 
blame is placed on the science. The SSCs are required to come 
up with rebuilding programs that are--or mortality rates that 
are, in essence, trying to--with very little time left, trying 
to get there, where you can't--you know, you try to get there 
from here, and you can't reach there. And that's driving very 
small TACs, even on--as the stock is increasing; that's what a 
lot of people don't understand. So, fishermen would believe 
that, ``Why are we reducing TACs, when we see the stocks 
increasing and they're admitting that the stocks are 
increasing?'' Well, it's because we have a rebuilding target 
that may be unattainable. So.
    Senator Begich. Let me--I'm going to--I said that was my 
last question, but I don't want to leave Dr. Hogarth without 
any opportunity.
    Do you want to comment, anything, in regards to what you've 
just heard in the--some of the comments from the other three 
panelists?
    Dr. Hogarth. I think they hit it right on the head.
    I think one thing, though, is that you do have to recognize 
that Alaska has a tremendous fishery. And when you deal with 
the south Atlantic, for example, and you deal with what we used 
to call ``boutique fishers''--they're very small, and you don't 
have the opportunity to really build in much margin; if you do, 
then you don't have a fishery left.
    I think the key is science. The key definitely is science, 
and timely science. The fishermen see things; they're on the 
water every day. And the science that we've been able to 
collect in the agency is--sort of lags behind. And I think you 
have to look at using full resources that the--the Federal 
Government has a fleet of vessels, have to be operated fully. 
And I think, if you check, they're not being operated fully, 
because of money, fuel costs, things like that. So, I think you 
have to--we have to begin to look at the science, cooperative 
research, and bringing the fishing industry along together.
    We knew this was a tough law, back when we dealt with it. 
We talked about this. But, there are 139 species that have 
pretty much vanished. There are 522 this--the councils have a 
responsibility for. And I think you have to, somewhere along 
this line, figure is it--where do you put your money? And can 
we really afford to look at 522 species and how they fit 
together in an ecosystem approach?
    And so--but, I think the agency has an enormous job ahead 
of them. I think they have the tools to do it. And I think that 
we have to figure a way to get the industry and the fishermen 
together.
    I--at the University of South Florida, I have started a new 
course in marine resource assessment, for what I learned here, 
from the government. And it's amazing how much interest it had 
the first year of the course; taught by the Federal Government, 
by their scientists and our scientists.
    We had to turn away students from the course. And it has 
been helped financed by the National Marine Fisheries Service, 
because they need--know we need more stock assessment people. 
And we need to learn to look at the oceanographic conditions to 
why the fish behave.
    So, we have a lot to learn, but I think the Act is working. 
And I think that's what we need to look at. We need to look at 
how to tweak it so that--so some of these data-poor and mixed 
and weak stocks, we can look at differently.
    And thank you for the opportunity.
    Senator Begich. No, thank you very much.
    And I appreciate all your testimony.
    I'm going to just lean back to my staff, here, and make 
sure I did not forget anything I'm supposed to be doing here. 
So----
    [Pause.]
    Senator Begich.--one last comment just, again, for not only 
the four panelists, but others, that the record will be held 
open for the next 2 weeks for additional questions and comments 
that will be put into the record.
    Again, to all four of you, thank you very much for being 
here this morning. And we appreciate your testimony. And also, 
again to remind you, your full text of your comments will also 
be part of the record.
    Thank you very much.
    This committee meeting is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, thank you for calling this hearing and giving us an 
opportunity to discuss this important issue.
    More than 5 years ago, we amended our Nation's fisheries laws to 
better protect the health of our marine ecosystems and our vibrant 
fishing communities.
    I am proud that the law included my language to safeguard deep sea 
corals--which are sometimes known as the ``rainforests of the ocean'' 
because of the diversity of species that call them home.
    We know that we must ensure the sustainability of fisheries--not 
just for the health of our oceans, but for the continued success of the 
U.S. fishing industry.
    Across the country, commercial and recreational fisheries support 
nearly two million jobs and generate $163 billion in sales annually.
    In New Jersey, the commercial and recreational fishing industries 
are cornerstones of our $50 billion a year coastal economy.
    Up and down the shore, you see commercial fishermen bringing in 
their catch, and hundreds of New Jerseyans working in the processing 
plants that get our seafood out to restaurants across the country.
    You see shipbuilders and other businesses that depend on a strong 
fishing industry.
    And you see recreational boats carrying kids out for their first 
fishing trip, or groups of tourists that come to the shore for the 
fishing, but also spend their money in our hotels, restaurants, and 
casinos.
    The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act passed the Senate by unanimous consent in 2006, 
with strong support from both parties and a variety of stakeholders.
    As with any law, time has revealed elements that have worked well 
and elements that have not.
    On balance, the law has been a success.
    The goal of the law was to end overfishing and rebuild fisheries 
that had been overfished within 10 years.
    And 5 years down the road, we have made admirable progress.
    But we have also heard complaints from fishermen and others about 
some aspects of implementation of the law.
    I want to make sure that NOAA is listening to the fishermen and 
communities that know their local waters best.
    And we must take steps to ensure that regulators are using the best 
available science at all times.
    I look forward to hearing from Mr. Schwaab how he intends to 
address these issues, and from other witnesses on how we can improve 
implementation of our fisheries laws.
    Thank you, Mr. Chairman.
                                 ______
                                 
               Prepared Statement of Hon. Kelly Ayotte, 
                    U.S. Senator from New Hampshire
    Catch limits and sectors established by NOAA for the Northeast 
Multispecies Fishery Management Plan represent significant obstacles 
for the fishing industry in New Hampshire. Because NOAA has been 
relying on incomplete and in some cases nonexistent data, it is 
difficult to trust the agency's current basis for establishing catch 
limits and assigning catch shares.
    NOAA has been measuring fish stocks and catch history in New 
Hampshire based on insufficient records and, as a result, subjecting 
the fishing industry to unnecessary and burdensome regulations. This 
represents bureaucracy at its worst and is forcing historically small 
New Hampshire fishermen out of business.
    Sustainable fisheries are in everyone's best interest. However, in 
keeping with National Standard 8 of the Magnuson-Stevens Act, we must 
ensure that efforts to sustain fish stocks do not adversely impact our 
fishing communities. According to a 2008 report, the commercial and 
recreational fishing industries in the United States are worth $163 
billion and responsible for 1.9 million jobs. With the unemployment 
rate hovering around or above 9 percent for the past 22 months, NOAA 
should not be putting more Americans out of work by regulating this 
industry out of business.
                                 ______
                                 
Prepared Statement of Robert E. Dooley, President, United Catcher Boats
      House Subcommittee on Insular Affairs, Oceans and Wildlife--
                  House Committee on Natural Resources

       Oversight Hearing: A Community Perspective on Catch Shares
                   --Thursday, April 22, 2010 10:00AM

    Chairwoman Bordallo, Ranking Member Young, and members of the 
Subcommittee; thank you for the opportunity to testify before you today 
regarding NOAA Catch Shares and, in particular, the West Coast 
groundfish rationalization plan. My name is Bob Dooley. I am the 
President of United Catcher Boats and co-owner of a commercial fishing 
company with my brother John.
    John and I have lived in Half Moon Bay, CA our entire lives and 
have been commercial fishermen for over 40 years. Our families have 
been active in commercial fishing and its supporting businesses on the 
West Coast for over 70 years. We presently own and operate three 
vessels. Two participate in the Alaska Pollock fishery and the West 
Coast Pacific Whiting fishery and our third vessel fishes Dungeness 
crab off the West Coast.
    United Catcher Boats (UCB) is a trade association of 62 commercial 
fishing vessels that participate in the Alaskan Pollock, Alaskan crab, 
and West Coast groundfish fisheries. Our vessels are called catcher 
boats because that is all we do--we catch fish and deliver our catch to 
processing facilities. UCB members are very familiar with the benefits 
of catch share programs, participating in American Fisheries Act 
Pollock cooperatives as well as the Alaskan crab IFQ program, both of 
which were approved by Congress and developed through the North Pacific 
Fishery Management Council process.
    I am here today to express the strong support of both UCB and 
myself for Catch Shares programs in general and specifically for the 
West Coast Trawl Rationalization Program approved by the Pacific 
Fishery Management Council (PFMC). We also support the subsequent 
request for Federal funding to help implement this new fishery 
management program that is presently in the President's FY 2011 draft 
Budget.
    I participate in the fully rationalized Bering Sea Pollock fishery 
in Alaska. That fishery was fully rationalized in 1999 through the 
provisions of the American Fisheries Act. I not only helped in the 
implementation of that program but also have the unique perspective of 
having participated in this trawl fishery since 1981. I have seen the 
problems an open access race for fish creates and the resulting 
downward spiral, both economically and environmentally. I have 
witnessed first hand the benefits to the health of the fishery, 
communities, crews and environment a rationalized fishery provides. 
This is what has been missing in the current and past management of the 
West Coast trawl fisheries.
    Over the past two decades the PFMC has struggled with finding a way 
to rebuild depressed fish stocks off the West Coast, implement an 
accurate catch accounting system both at-sea and at the dock, and 
structure the fishery so the trawl boat owners can once again be 
profitable and thus support the local communities that they live in and 
deliver their harvests to. During this time period, the Federal 
Government has declared the Pacific Coast ground fish fishery a Federal 
disaster and the PFMC has implemented a license limitation program that 
did not control effort. The fishery has been managed via monthly trip 
limits that required regulatory discards and has a minimal observer 
program. Congress authorized and funded a vessel and license buyback 
loan program that failed to reduce overall effort in the fishery. My 
2009 Pacific Whiting Season lasted just 3 weeks. All of these measures 
have failed to rebuild the fishery and the value of the fishery 
continues to be at an all-time low. Six years ago, the PFMC embarked 
upon a project that would allow for ``rationalization'' of the West 
Coast Trawl fishery, otherwise known as a Catch Share program, and last 
year made their final recommendation to the Department of Commerce. 
This new management program is scheduled to go into effect just prior 
to the start of the 2011 fishery.
    The first point I would like to make is that this program was 
developed from the ground up with full participation of all 
stakeholders in the West Coast groundfish fishery from Southern 
California to Northern Washington. This is not an example of NOAA 
Headquarters in Washington, D.C., trying to impose catch shares on the 
fishery. The PFMC established a special stakeholders committee that 
included a broad membership of fishermen, processors, NGO's and 
community representatives. Out of this open process came a preferred 
option for an IFQ-based system for the shoreside groundfish and Whiting 
fisheries and a Co-op-based system for the offshore Whiting fisheries.
    The second point I want to make is that this new program will do 
two things that will have a dramatic positive effect on the health of 
the fish stocks and the value of the fishery. The first is that it will 
end the practice of ``regulatory discards.'' Under the present trip 
limit style management fishermen are required to throw valuable fish 
overboard. This discard is subtracted from existing quotas under an 
assumed estimated discard rate thus contributing to the actual decline 
of the resource while no value is being added to the fishery or our 
communities. Under the new program, each fisherman will be allocated 
their own quota, or percentage, of the stocks of fish they catch and 
once they reach their assigned amount, will either have to stop fishing 
or find another fishermen to acquire fish from. This individual 
allocation allows each fisherman the opportunity to harvest their own 
fish when it is most valuable and the ability to utilize each pound of 
their quota to return the maximum benefit to themselves and their 
communities.
    The second thing that will occur under this new program is accurate 
accounting all fish that are harvested. Every boat will be required to 
carry a Federal observer that will account for the harvest at-sea. 
There is also a requirement of a Federal weigh-master at each 
processing or receiving plant to observe the delivery of fish and to 
check the weight of each delivery. These measures will result in 
accurate accounting of the fish that are harvested and delivered.
    My third point has to do with Federal funding of this new Catch 
Shares Program. To implement this new West Coast program, NOAA is 
requesting about $12 million in the FY11 budget. A large portion of 
this requested funding will go to help fishermen afford the cost of 
having a Federal observer on board their boats (estimated at between 
$300 and $900 per day per observer).
    Note that this request of funding is not a request to subsidize the 
Federal groundfish trawl fishery. In fact the Federal Government has 
the authority under the Magnuson-Stevens Act to assess fishermen a LAPP 
management fee of up to 3 percent of the value of the fishery. The 
fishermen participating in the program will pay an annual fee for the 
cost to manage the fishery. The $12 million request is for the start-up 
cost of the program in 2011.
    Some have said that this funding for implementation of our new 
Catch Shares program will take funds away from current collaborative 
fishery research and fishery science research. This is simply not true. 
Mr. Barry Thom, the Acting NMFS West Coast Regional Director, and Dr. 
Eric Schwaab, the newly appointed head of NMFS, both have stated 
recently that the new Catch Shares programs will not take Federal money 
away from current research programs (Mr. Thom at the March 2010 PFMC 
Meeting in Sacramento and Dr. Schwaab at the previous House Resources 
Subcommittee hearing on Catch Shares on March 16, 2010.)
    Good management of a fishery requires accurate stock assessments of 
the fish populations, and a reliable system to determine the amount of 
fish that can be sustainably harvested all based on good science. Catch 
Share programs in other parts of the country and world have resulted in 
the stakeholders, namely the fishermen, demanding the best available 
science and research be used. The reason for this is under a Catch 
Share system the fishermen have a vested interest in the sustainability 
and health of the fishery resource.
    Catch Share programs also set up the opportunity for fishermen to 
find solutions to management problems without a government mandate, or 
regulation. Rather, fishermen work cooperatively to find creative, 
voluntary programs to solve real problems. Let me give you a couple of 
examples of what I am talking about by looking at the Bering Sea 
Pollock fishery. The first is the Pollock fleet's actions to address 
the problem of incidental salmon bycatch taken while we are fishing for 
Pollock. Under our co-op system, the boat owners developed and approved 
a voluntary program to close small, discrete areas on the fishing 
grounds for a limited duration when high rates of salmon bycatch are 
encountered. We call these areas Hot Spot Avoidance Areas. Unlike the 
government, we are able to close these areas to individual boats or a 
group of boats that have above average rates of salmon bycatch while 
keeping these Hot Spots open to boats that have low rates of bycatch. 
This fleet-sponsored bycatch avoidance program can only happen when we 
are operating under a Catch Share program. We are beginning the process 
of designing a rockfish bycatch avoidance and management program for 
the West Coast Whiting fishery when the Groundfish Trawl 
Rationalization program goes into effect. So what we did in the Alaska 
Pollock fishery due to AFA we will do in the West Coast Whiting 
fishery. Our goal is to harvest 100 percent of our allocation while at 
the same time stay under a bycatch cap for incidentally caught species. 
Government initiated regulations have failed to achieve this goal.
    The second example is the development of a salmon excluder device. 
Through a Pollock industry initiative, we designed, developed and 
tested a number of devices to put into our mid-water trawl nets that 
exclude the bycaught Chinook salmon. After 4 years of trials and 
testing we now have arrived at a device that over 60 percent of the 
Pollock fleet is now using -without any government regulation requiring 
us to do so.
    As I mentioned in my introductory comments, I fish in both the 
rationalized Bering Sea Pollock fishery and the soon-to-be rationalized 
West Coast Whiting fishery. I can tell you that back in 1998 when 
Congress and the North Pacific Fishery Management Council were 
developing the American Fisheries Act, many of us out on the water 
fishing were very skeptical of this new program. Because of this, our 
concerns expressed at NPFMC meetings when they were developing the AFA 
regulatory provisions were very skeptical and there were a lot of boat 
owners that were quite nervous and in fact didn't support the program. 
You have to realize what we were going through in those days. Most if 
not all of the fishermen were just trading dollars and a number of the 
Pollock companies had gone bankrupt. In addition, many of the multi-
national, large fishing companies were acquiring a lot of the vessels 
and consolidation was happening. During a 10-year period, from 1989 -
1999, the Pollock industry experienced three bloody sector allocation 
battles at the NPFMC. For me personally, the only reason I am still in 
the Pollock business is due to the provisions of the AFA that gave me 
and my brother a certain, known allocation of Pollock annually and the 
ability to get the most value out of our harvest of Pollock. The 
ownership and use caps in this law have protected the smaller fishing 
companies. I do not know a single participant in the Bering Sea Pollock 
fishery today that does not emphatically support the American Fisheries 
Act and the rationalized manner of the fishery.
    I can also tell you that the Whiting fishermen who also fish 
Pollock, like myself, were the first ones to go to the Pacific Fishery 
Management Council and ask for an AFA-style co-op management structure 
6 years ago, to address the very same problems we were experiencing in 
the Alaska Pollock fishery 15 years ago. Again, this is a ``ground 
up,'' not ``top down'' built program and one that the fishermen who are 
dependant on this fishery are very excited about.
    Thank you very much for the opportunity to share my and UCB's 
perspective on catch shares.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Eric C. Schwaab
    Question 1. As I've said, there is a serious lack of data on many 
recreational and commercial fisheries both in the Gulf and the South 
Atlantic. This, combined with the National Marine Fisheries Service 
interpretation of the reauthorization of Magnuson-Stevens, has led to 
very restrictive harvest and season limits. It is my understanding that 
other Regions have better science even with limited resources. Can 
similar alternatives be used in the Gulf and South Atlantic for data-
poor stocks instead of presuming the worst and resorting to overly 
restrictive harvest measures?
    Answer. Harvest and season limits are needed to prevent fisheries 
from overfishing. Some fisheries have large numbers of participants and 
the degree of management can be high just to get the total catch down 
to the biological limit. Where data about the biological limit and 
other factors have higher levels of uncertainty, it is necessary to use 
additional mortality reductions to account for the chance that the 
actual biological limit is lower. In some fisheries, this additional 
reduction for uncertainty has been a 25 percent reduction from the 
theoretical maximum allowable catch.
    The increased difficulties of dealing with data-poor situations are 
shared throughout all of the various NMFS' Regions. The Gulf and South 
Atlantic are somewhat unique in this regard because of, among other 
things, the relatively large participation in the recreational 
fisheries, which can present a different set of challenges than those 
of the commercial operations. In an effort to foster collegiality and 
consistency in the approach to the problem, this issue was a topic of a 
recent National Scientific and Statistical Committee meeting. The 
workshop revealed that there are many different approaches to meeting 
the Magnuson-Stevens Fishery Management and Conservation Act National 
Standard 1 guidelines relative to incorporating scientific uncertainty 
into the setting of Annual Catch Limits. Where feasible, Scientific and 
Statistical Committees are considering the P* approach, which uses 
quantified scientific uncertainty to set Acceptable Biological Catch at 
a level to match a pre-specified probability of overfishing. Variations 
include the methods used to calculate scientific uncertainty; tiered 
approaches linked to the quality of information about uncertainty; 
inclusion of stock productivity scores in the risk calculation; and 
fixed buffers where uncertainty is not fully quantified.
    The South Atlantic Scientific and Statistical Committee has 
developed tiers and dimensions (assessment information, uncertainty 
level, stock status, productivity and susceptibility) to establish a 
control rule framework for Acceptable Biological Catch determinations. 
The Gulf of Mexico Council is developing an approach that generally 
mirrors the South Atlantic. Further efforts to share methodology for 
dealing with data poor situations were shared at the NOAA-sponsored 
American Fisheries Society 2010 session entitled, ``Stock Assessment 
Methods for Data Poor Situations.'' Presentations were given by NMFS 
scientists from both U.S. coasts and advising all the various Regional 
Management Councils. Developing alternative methods suited to data-poor 
situations is an ongoing process in the development of improved stock 
assessment methods by NMFS.

    Question 2. During the Deepwater Horizon oil spill in the Gulf of 
Mexico, NMFS ramped up efforts at data collection. I've heard that 
there is often at least a month lag between the time NMFS collects data 
and when it is available to the regional fishery management councils. 
Can you assure me that the latest and best information will be made 
available to the councils in a timely manner so that they can make 
informed decisions?
    Answer. Stock assessments are based on several sources of 
information: fishery-independent data on population trends, obtained 
from field surveys; and fishery-dependent data, obtained from landings 
data, fishery observers, and, for stocks with significant recreational 
fisheries, from surveys of recreational fisheries. NMFS is taking 
several steps to increase operational efficiency and reduce the time 
between data collection and the application of the data to management 
decisions.
    In the FY 2012 President's Request, NMFS is requesting $67.1 
million to expand annual stock assessments, an increase of $15 million. 
These funds will be used to improve assessments for high-priority 
stocks; update assessments for stocks more frequently; and, conduct 
fishery-independent surveys to enable assessment of more stocks, 
including data poor stocks, 3-5 years from now. NMFS proposes to use a 
portion of these funds, $3 million, to invest in advanced technologies 
for fishery-independent surveys. Among the projects that would be 
supported with these funds is near real-time processing of survey data 
as it is collected at sea and more rapid delivery of these data to 
shore-based analysts conducting the stock assessments.
    For fishery-dependent data, NMFS is currently developing new ways 
to improve the data quality and timeliness of recreational catch data. 
Our Marine Recreational Information Program (MRIP) has begun the use of 
electronic logbook reporting in the Gulf of Mexico to speed up data 
processing. NMFS also hosted an MRIP workshop focused on improving the 
timeliness for recreational catch data. The workshop was able to 
identify key ideas that could increase timeliness for recreational 
fisheries and improve the ability to make in-season management 
decisions. The President's FY 2012 budget request therefore includes an 
increase of $3 million to leverage these current recreational fisheries 
monitoring efforts, $2 million of which would allow MRIP implementation 
to address the timeliness issues identified in the aforementioned 
workshop and $1 million to fully implement electronic logbooks in the 
Southeast Region.
    NMFS is also working to increase observer coverage and the number 
of staff available to process and manage the data collected by 
observers. This is important because observers collect high quality 
information on catch and bycatch that is directly incorporated into 
stock assessments. Biological samples such as ear bones (otoliths), fin 
rays, or vertebrae collected by observers are used to determine the age 
of fish, a critical component of any stock assessment. Unbiased, 
fishery-dependent catch and bycatch data from observer programs are 
also used in stock assessments. Additional staff, including fisheries 
scientists to process the data, would increase the timeliness of catch 
and bycatch estimates.
    NMFS is working with the Scientific and Statistical Committees of 
the Regional Fishery Management Councils to streamline the scientific 
review process, so that more assessments can be delivered quickly to 
the councils as updates, rather than as extensive investigations that 
require more thorough peer review. The tempo of assessment updating was 
a significant topic at the NMFS-sponsored workshop in February 2011 on 
the scientific needs for implementation of annual catch limits.

    Question 3. How does the National Marine Fisheries Service 
prioritize which stocks to assess?
    Answer. NMFS rationale and protocols for conducting fish stock 
assessments are generally described in the Marine Fish Stock Assessment 
Improvement Plan published in 2001. Although the Stock Assessment 
Improvement Plan did not include explicit criteria for prioritization 
of stocks to be assessed, each NMFS' Region uses similar concepts in 
selecting stocks to be assessed for the first time or as an update of a 
previous assessment. In 2010, a prototype set of national criteria was 
developed and used in setting priorities for additional stocks to be 
assessed with the FY 2012 request. This prototype set includes:

        1. Commercially and recreationally valuable stocks and 
        associated fishery-limiting stocks with high scientific or 
        management uncertainty influencing annual catch limits;

        2. Intensity of fishing, including stocks that have an 
        overfishing status, stocks that have fishing rates approaching 
        levels that would lead to overfishing, or stocks with high or 
        increasing fishing pressure that require additional attention;

        3. Stock abundance including stocks that are overfished or on 
        the brink of overfished, on a rebuilding plan, or have 
        uncertain abundance trends;

        4. Assessment frequency considerations such as stocks that have 
        never been assessed, stocks that have an assessment that is 
        more than 5 years old, or stocks with management plans that 
        require more frequent updates than currently provided;

        5. Stock importance in terms of commercial and recreational 
        value, role in ecosystem, and as bycatch; and

        6. Synergistic factors, including level of data already 
        available and benefit to other stocks and future assessments.

    Ultimately, the particular assessments that will be updated in any 
given year are determined through regional processes consistent with 
national priorities and in consultation with the Regional Fishery 
Management Councils and other partners as the execution year 
approaches.

    Question 4. Does the Magnuson-Stevens Act actually mandate the use 
of scientific and management uncertainty, or does that come more from a 
National Marine Fisheries Service Policy?
    Answer. The Magnuson-Stevens Act requires conservation and 
management measures to achieve a number of goals, including preventing 
overfishing while achieving optimum yield. The Act also requires use of 
the best scientific information available. Uncertainty is an inherent 
part of the information available for use in managing a fishery. 
Identification and consideration of uncertainty is necessary to achieve 
the required objectives of the Act, including those of National 
Standard 1.
    Recommendations to incorporate uncertainty and manage catch at a 
catch limit are not a new concept. NMFS described scientific and 
management uncertainty as primary reasons why overfishing was still 
occurring in about 20 percent of U.S. fisheries in 2008. Specifically, 
those reasons included:

        1. Setting optimum yield too close to maximum sustainable 
        yield;

        2. Failure to consider all sources of fishing mortality;

        3. Failure to adequately consider the uncertainty in the 
        reference points provided by stock assessments; and

        4. Failure to consider the uncertainty in management control of 
        the actual catch.

    The use of these terms also aligns with the Magnuson-Stevens Act's 
National Standard 6, which states that ``conservation and management 
measure within a fishery management plan shall take into account and 
allow for variations among, and contingencies in, fisheries, fishery 
resources, and catches.'' The National Standard 6 Guidelines (published 
in 1996) specifically mention that lack of scientific knowledge about 
the condition of a stock could be a reason to reduce optimum yield, 
which is consistent with the concept of reducing Acceptable Biological 
Catch from an overfishing limit to account for scientific uncertainty 
in knowing the true overfishing limit.

    Question 5. What is the NOAA's plan for oversight of the science 
and statistical committees with regards to membership, conflicts of 
interest, and guidelines for addressing scientific uncertainty in 2011?
    Answer. NMFS published regulations addressing the membership and 
conflict of interest of the Councils' Scientific and Statistical 
Committees on September 27, 2010. The regulations provide requirements 
for the establishment of the Scientific and Statistical Committees, and 
these requirements need to be reflected in the Councils' Statements of 
Organization, Practices, and Procedures. Regulations also were 
established for financial disclosure of Scientific and Statistical 
Committee members. These regulations require Scientific and Statistical 
Committee members to submit financial disclosure reports annually and 
the NMFS Regional Offices to retain financial disclosure forms for 
Scientific and Statistical Committee members as reference when conflict 
of interest questions arise. NMFS annually submits a report to Congress 
on Disclosure of Financial Interest and Recusal Requirements for both 
Council members and Scientific and Statistical Committee members 
detailing financial disclosure or recusal issues occurring during the 
year. NMFS submitted the 2010 report on March 23, 2011. NMFS will 
continue to monitor the Councils and their Scientific and Statistical 
Committees to ensure they meet the requirements of the Magnuson-Stevens 
Act and these regulations and to report any discrepancies in the annual 
report to Congress.
    With regard to guidelines for addressing scientific uncertainty, 
NMFS's National Standard 1 Guidelines provide general guidance for 
addressing scientific uncertainty and on the responsibilities of the 
Councils and Scientific and Statistical Committees when developing 
Acceptable Biological Catch control rules (i.e., accounting for 
scientific uncertainty). The Councils' role is to provide the 
Scientific and Statistical Committees with a risk policy for developing 
Acceptable Biological Catch control rules, while the Scientific and 
Statistical Committees are responsible for reviewing the best available 
scientific information and creating a control rule that meets the 
requirements of its Council's risk policy. NMFS has been very active in 
providing the Scientific and Statistical Committees with guidance at 
Scientific and Statistical Committee and Council meetings since 2009 
when the revised Guidelines were published.
    Additionally, over the last 3 years, NMFS scientists have published 
(or have in press) eight peer reviewed articles providing fisheries 
scientists with technical approaches to addressing scientific 
uncertainty. These articles range from highly quantitative probability 
based methods for data-rich species to semi-quantitative index based 
methods for data-poor species (citations listed below).

        Brooks. E. N., J. Powers, and E. Cortes. 2010. Analytical 
        reference points for age-structured models: application to 
        data-poor fisheries. ICES J. Mar. Sci. 67:165-175.

        Field, J., J. Cope, and M. Key. In press. A descriptive example 
        of applying vulnerability evaluation criteria to California 
        nearshore species. Proceedings from the data-poor fisheries 
        workshop; Berkeley, CA, Dec. 2008. Southwest Fisheries Science 
        Center, Santa Cruz, CA.

        Linton, B. C. and J. R. Bence. 2008. Evaluating methods for 
        estimating process and observation error variances in 
        statistical catch-at-age analysis. Fisheries Research 94(1):26-
        35.

        Patrick, W. S., P. Spencer, J. Link, J. Cope, J. Field, D. 
        Kobayashi, P. Lawson, T. Gedamke, E. Cortes, O. Ormseth, K. 
        Bigelow, and W. Olverholtz. 2010. Using productivity and 
        susceptibility of Unites States fish stocks to overfishing. 
        Fish. Bull. 108:305-322.

        Punt, A. E., M. W. Dorn, and M. A. Haltuch. 2008. Evaluation of 
        threshold management strategies for groundfish off the U.S. 
        west coast. Fish. Res. 94:251-266.

        Ralson, S., A. Punt, O. Hamel, J. DeVore, and R. Conser. 2011. 
        A meta-analytic approach to quantifying scientific uncertainty 
        in stock assessments. Fish. Bull. 109:217-231.

        Shertzer, K. W., M. H. Prager, and E. H. Williams. 2008. A 
        probability-based approach to setting annual catch levels. 
        Fishery Bulletin 106:225-232.

        Shertzer, K. W., M. H. Prager, and E. H. Williams. 2010. 
        Probabilistic approaches to setting acceptable biological catch 
        and annual catch targets: Reconciling methodology with National 
        Standards Guidelines. Marine and Coastal Fisheries 2:451-458.

    Lastly, since 2008, NMFS has sponsored annual meetings at which 
representatives of all eight of the Scientific and Statistical 
Committees met collectively with one another to build capacity and 
exchange ideas for addressing scientific uncertainty. The overarching 
themes from these meetings were: develop best practices (2008); 
establish a scientific basis for Annual Catch Limits (2009); and 
Acceptable Biological Catch control rule implementation and peer review 
procedures (2010). Currently, the Scientific and Statistical Committees 
and NMFS are planning a fourth meeting for September 2011.

    Question 6. Can the National Marine Fisheries Service comply with 
the requirements and timelines for all species or species groupings 
based on recent and complete data as required by the Magnuson-Stevens 
Act? In other words, does the agency have the scientific output 
capability to meet the new requirements of this Act without undue 
reliance on the precautionary approach?
    Answer. NMFS is working diligently to comply with the Magnuson-
Stevens Act deadlines for establishing Annual Catch Limits and 
accountability measures in all U.S. fisheries by 2011. However, for 
both data-rich and data-limited stocks, there will always be 
uncertainty surrounding the status of a stock (i.e., scientific 
uncertainty) and uncertainty in the ability of managers to either 
constrain catch so the Annual Catch Limit is not exceeded or in 
quantifying the true catch amounts (i.e., management uncertainty). 
Therefore, some degree of precaution is warranted. The National 
Standard 1 Guidelines allow for flexibility in establishing Annual 
Catch Limits to address situations with data-limited stocks, such as 
the use of stock complexes, indicator stocks, and multi-year measures.
    To ensure that precaution is not overly restrictive, NMFS is 
actively working with the Councils and Scientific and Statistical 
Committees to enhance guidance on developing control rules for 
specifying Acceptable Biological Catch; to create new methodologies for 
determining the status of data-limited stocks; and to prioritize the 
data collection of at-risk data limited stocks (e.g., highly vulnerable 
to becoming overfished) so that even the most basic semi-quantitative 
or quantitative stock assessments can be performed in the near future 
(3 to 5 years). NMFS is also exploring ways to further improve data 
collection through cooperative research with fishermen and experimental 
fisheries.

    Question 7. Is NMFS in a situation where demands for information 
have intensified but overall capabilities have fallen behind?
    Answer. NMFS has been able to increase its stock assessment and 
fishery monitoring capabilities and to apply assessments to more stocks 
due to recent increases in our stock assessment program (i.e., through 
FY 2010), but not at a rapid enough rate to meet new expectations. 
Unfortunately, reductions in days-at-sea on NOAA vessels has resulted 
in a number of fishery surveys being canceled. It is critical for NMFS 
to achieve its stated goals in setting Annual Catch Limits that 
requested funding for research is received. Without additional funds, 
as requested in the President's FY 2012 Budget, NMFS will fall farther 
behind in meeting demands from constituents.
    There are three factors that led to increased demands:

        a. The Magnuson-Stevens Act now requires Annual Catch Limits in 
        all fisheries. This new requirement has created a demand for 
        scientific methods that can provide baselines even in data-poor 
        situations, has increased the demand for full assessments for 
        more stocks, and more frequent updating of these assessments.

        b. The National Standard 1 Guidelines recognize and advise that 
        scientific and management uncertainty needs to be taken into 
        account when recommending catch targets that safely avoid 
        exceeding the catch limit. Calculation of the chance that a 
        catch target will exceed the imperfectly known catch limit 
        increases the technical requirements for stock assessment 
        statistical models. Methods have been developed and published 
        by NMFS scientists, but application of these methods across the 
        wide range of data availability remains a significant 
        challenge.

        c. The peer review systems now in use throughout all the 
        regions have improved the quality of the scientific products 
        and the transparency with which they are communicated to the 
        public. However, these improvements come at the cost of 
        increased time to conduct the analyses and to provide more 
        complete documentation. NMFS and the Regional Fishery 
        Management Councils are working on protocols to conduct more 
        assessments as streamlined updates, while focusing the in-depth 
        peer reviews on new methods and first-time assessments.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                            Eric C. Schwaab
    Question 1. In your testimony, you discussed the goals of Magnuson 
to create a highly participatory, bottom up management structure 
through the Regional Councils. During my recent trip to New Bedford, I 
again heard concerns about the Council, its inefficiencies, and its 
inability to adequately represent the concerns of many fishermen and 
industry stakeholders. In December 2009, John Pappalardo, Chairman of 
the New England Fishery Management Council, sent a letter to Secretary 
Locke that discussed the additional demands placed on the New England 
Council, the Northeast Regional Office, and the Northeast Science 
Center as a result of the 2007 reauthorization of the Magnuson-Stevens 
Act. Specifically, he requested a comprehensive system analysis and 
efficiency review of the three institutions to provide a blueprint for 
reform of the three institutions. What actions have been taken in 
response to Mr. Pappalardo's request?
    Answer. Last September, Assistant Administrator Eric Schwaab 
announced his plan to conduct a regional assessment of the fishery 
management process in New England. Every organization, no matter how 
large or how well run, can benefit from constructive guidance as to how 
it could improve its processes because they want to ensure they do not 
miss opportunities to perform better. NMFS contracted with Preston Pate 
to oversee this process and Touchstone Consulting Group to work with 
Mr. Pate on this effort. On Tuesday, April 26, 2011, Eric Schwaab and 
Preston Pate provided a summary to the New England Fishery Management 
Council of Phase I of the agency's Management Review of fisheries in 
the Northeast, which focused on the relationships among the Council, 
NMFS' Northeast Regional Office and the Northeast Fisheries Science 
Center, and factors that affect the effectiveness of the three entities 
to carry out their responsibilities under fisheries law. NMFS will take 
short term and long term actions in response to the report.
    In the short-term, NMFS will work to improve collaboration with 
partners on science, cooperative research with industry and reviews of 
science programs. Especially in this budget climate, it is critical 
that the science conducted by the Northeast Fisheries Science Center 
and partner research institutions is done in a more collaborative 
manner and in ways that maximize involvement of fishermen in the 
findings. We will work and plan together with research and academic 
institutions and fishermen to make the best use of limited research 
funding to answer some of the critical questions facing New England 
fisheries. We will immediately initiate an expedited mid-term review of 
the 2009 strategic plan for cooperative research in a way that involves 
all regional cooperating agencies and academic institutions. The 
results will be incorporated into FY12 research funding prioritization 
decisions.
    Next, we will work to improve our communications efforts. 
Specifically, in the Northeast we will consolidate our communications 
staff under one program and coordinate them under one communications 
plan. We will build on recent efforts like the Navigator now found in 
Commercial Fisheries News to simplify the way we explain the actions we 
are taking and how they impact industry. We will also build on our 
efforts to communicate directly with industry through programs like the 
pilot Fisheries Information Centers, bi-weekly calls with the sector 
managers, and our new compliance liaison in New England.
    We will also clarify roles and responsibilities of our Regional 
Office, Science Center and Council. This has both short-term and long-
term implications. We will immediately update the Regional Office and 
Science Center operating agreement in light of the report 
recommendations. In addition, through the Northeast Region Coordinating 
Council (made up of the region's fisheries executives from the New 
England and Mid-Atlantic councils, the Atlantic States Marine Fisheries 
Commission, NOAA's Northeast regional administrator and Northeast 
Fisheries Science Center director) we will renew our efforts to clarify 
NOAA and council functions and specific staff roles through new 
operating agreements. More importantly, subject to additional feedback 
from the Fishery Management Council and other interested participants, 
we envision this to be a particular area of focus for phase II of the 
review.
    We will also improve data management systems. We will integrate and 
consolidate our fishery dependent reporting/collection systems and the 
underlying data management systems in the region. To improve the 
timeliness and accuracy of fisherman reported data and simplify 
industry reporting requirements, our Regional Office and Science Center 
have been working with the industry to transition from paper to 
electronic logbooks. This will speed processing of data, reduce errors 
in the data and relieve the industry of having to obtain, carry and 
fill out paper logbooks. The program will be available initially on a 
voluntary basis to vessels in multispecies sectors. While these are 
immediate steps we will take, some of the recommendations in the 
reports will require much more thought and analysis. The Council will 
also need time to review the findings and consider next steps.
    The report and related documents can be found at the following web 
address: www.nmfs.noaa.gov/publicreview/new_england_phase1/index.htm.

    Question 2. What efforts are underway at NMFS to facilitate a more 
effective, representative approach to fishery management in New England 
through the Council process?
    Answer. Phase I of the New England Assessment and Management Review 
contains several recommendations to help ensure that the Council 
process is effective. For example, the Review recommends simplifying 
governance by clarifying expectations, roles and responsibilities of 
the various NOAA offices and the Council. It also recommends exploring 
ways to eliminate unnecessarily redundant programs, activities, and 
resources among these groups at key hand-off points. It recommends 
redesigning key engagements to be more collaborative and communications 
to better meet stakeholders' needs. NMFS will take immediate steps to 
address these recommendations and we expect the Council to be full 
partners in this effort after they have had time to review the findings 
and consider next steps.
    The Management Review complimented the fisheries management process 
for being transparent and noted that overall constituent interaction 
with the process as good; however, NMFS is committed to building on and 
improving it.

    Question 3. As you know, the Governor of Massachusetts' request for 
direct economic relief was denied by the Secretary. However, he was 
informed that NMFS is prepared to work with the Massachusetts Division 
of Marine Fisheries (DMF) to more finely analyze necessary data 
regarding fishermen and communities specifically in need of targeted 
assistance. To date, this effort remains hindered by the DMF's lack of 
access to quota transfer data that is critical to answering 
consolidation and excessive share questions in the fishery as a result 
of catch shares and low catch levels. The DMF has requested access to 
the data submitted by the sectors to National Marine Fisheries Service 
(NMFS). Recently, I handed Secretary Locke and Administrator Lubchenco 
letters urging them to grant the DMF's request. Transparency and the 
sharing of all data is critical to fully understand and address issues 
of consolidation and excessive shares in the fishery. Where does the 
Division of Marine Fisheries request for sector data stand?
    Answer. The Commonwealth of Massachusetts and NMFS have had a 
Memorandum of Understanding in place that provides the Commonwealth 
with access to Northeast region data bases since 1991. Through this, 
the Commonwealth has had access to most of the region's data bases. 
This access has recently been expanded and the Commonwealth of 
Massachusetts now has access to all of the region's multispecies 
related data bases including quota transfer data.

    Question 4. In what ways is NMFS currently working with the DMF to 
provide targeted assistance for Massachusetts fishermen and 
communities?
    Answer. NOAA has formed a team comprised of people from NMFS and 
the Massachusetts Division of Marine Fisheries to further analyze the 
economic data from the first year of the sector management program. 
This will allow us to better understand if and where more targeted 
assistance may be needed.
    Additionally, NMFS committed over $47 million in Fiscal Years 2009 
and 2010 to ease the transition to sector management including paying 
for required dockside and at-sea monitoring and providing funding for 
state permit banks to help small boat fishermen stay competitive in the 
fishery.
    The Department of Commerce also deployed Economic Development and 
Assessment Teams to six Northeast fishing ports, which will provide 
customized technical assistance for impacted fishing communities. The 
teams will work with community leaders, regional planning 
organizations, and economic development organizations to explore issues 
ranging from infrastructure challenges to development and financing 
needs, to look at the total economic picture for each community.

    Question 5. While NOAA data from fishing year 2010 shows that 
revenues are comparable (or in some cases greater) to the levels 
observed for this time period last year, aggregating the data masks 
significant economic impacts occurring at local levels. Success in the 
Massachusetts fisheries cannot be measured solely in terms of revenues 
without taking costs into consideration. Net revenues have been 
drastically reduced for much of the fleet as the costs of leasing quota 
(renting fish allocation) have become the highest percentage of fishing 
expenses of any expense realized in the past. There has been a distinct 
shift of revenues from the bottom 90 percent of the fleet to the top 10 
percent of the fleet mainly due to an allocation schematic that left 
many of the fishermen with woefully small allocations making them 
unable to fish or afford to lease quota that would enable them to fish. 
What is the Agency's estimate of the revenue necessary for vessels in 
sectors to break even?
    Answer. Economic break-even analysis for vessel-operation requires 
analysis of the multiple classes, sizes and groups of fishing vessels 
operating in a fishery. The data that NMFS' Northeast Fisheries Science 
Center needs to evaluate the break-even cost for vessels includes:

        1. Fishery vessel fixed costs based on dockside surveys;

        2. Fishing vessel operating costs on a sample of trips; and

        3. Vessel-specific data from Sector Managers and NOAA data 
        bases related to the cost of sector operations as well as the 
        cost of Annual Catch Entitlement trading.

    Much of these data is not currently available but will be available 
in Fall of 2011. NOAA expects to use these data to calculate break-even 
costs for various vessels classes as part of its year-end economic 
report for the Northeast Multispecies fishery. NMFS staff will develop 
this analysis cooperatively with Dr. Dan Georgianna from the University 
of Massachusetts, Dartmouth's School for Marine Science and Technology, 
and provide the analysis by October 2011.

    Question 6. How many vessels in sectors have reached these break 
even points? How many do you expect will fall short?
    Answer. The best measure of economic performance would be reliable 
estimates of vessel-level profits. Vessel-specific revenue estimates 
(developed from dealer data) coupled with vessel operating costs will 
allow us to calculate profits as well as the number of vessels that 
have reached (or exceeded) their break-even points. Those data are not 
completely available to NMFS at this time. NMFS expects to report on 
that in more detail in our annual report, which will be released in the 
fall of 2011.

    Question 7. What has the effect been on the crew of fishing vessels 
and on the shore-side support structure such as ship chandlers, gear 
suppliers, and ice houses?
    Answer.
Effects on Crew
    We use two measures to assess the effects on crew (Table 1). The 
number of crew positions, measured by summing the average crew size of 
all active vessels, is an indicator of the availability of crew jobs, 
while the total number of crew trips, calculated by summing the crew 
size of all trips, provides a measure of the number of separate 
opportunities for crew to earn a share of landing revenues. Comparing 
the first 9 months of the 2009 Fishing Year to the same period in FY 
2010 we find that crew jobs declined by 10 percent (125 positions) and 
the total number of crew-trips declined by over 15 percent (8,428 
trips).
    We expect to report on this in more detail in our annual report 
which will be released in fall of 2011. NMFS Northeast Fisheries 
Science Center has commissioned a study on crew that is due mid-Summer 
2011 and is also planning to conduct a major crew survey in the Fall of 
2011. Both of these studies should shed further light on the changing 
social and economic circumstances of crew in New England and 
Massachusetts.

      Table 1.--Changes in Employment Indicators by Home Port State
                               (all trips)
------------------------------------------------------------------------
                                        2007     2008     2009     2010
------------------------------------------------------------------------
Total Crew Positions                    1,388    1,304    1,253    1,128
Total Crew-Trips                       57,555   54,071   55,015   46,587
------------------------------------------------------------------------
* First nine-months of each fishing year.

Effects on Shore-side Support Structures
    NMFS can currently only surmise the changing circumstances of 
shore-side support businesses based on the number and duration of 
fishing trips. Both of these measures provide an indication of the 
changing demand for inputs required to fish--such as fuel, ice and 
other gear--that are provided by shore-side businesses. For that 
reason, a significant increase or decrease in numbers of trips and days 
absent may also be indicative of changing circumstances of shore-side 
businesses.
    The first 9 months of the 2010 Fishing Year demonstrate a 19 
percent drop in overall trips by groundfish vessels that declared a 
home port in Massachusetts in comparison to 2009; this was despite the 
continued increase in trips by groundfish vessels which focused on non-
groundfish species like scallops and monkfish (Table 2). Similarly, 
there was an overall 22 percent decline in fishing trip duration (in 
days) during the same period (Table 2). The decline in total trips by 
groundfish vessels means that the demand for purchased inputs and 
services from shore-side businesses supplying groundfish trips has gone 
down and that shore-side businesses may be experiencing some additional 
economic pressure in 2010. However, it is important to take into 
account that shore-side marine businesses do not depend only on 
groundfish-permitted vessels (i.e., most of the value in Massachusetts 
marine fisheries is not in the groundfish sector) and we have not done 
an analysis of number and duration of trips for all fleets. 
Furthermore, our analyses of the Massachusetts groundfish fleet show an 
increase in revenues and improved economic performance in terms of 
revenue per unit effort in 2010 in comparison to 2009. Increased 
efficiency and profitability can shift revenues away from shore-side 
businesses and the fishing economy in general into other commercial 
sectors of the local/regional economy. NMFS hopes to be able to provide 
better information on shore-side businesses performance trends through 
analyses that will be conducted this summer.

  Table 2. Mass Trips and Fishing Trip Duration (in days) by Home Port
                                 State *
------------------------------------------------------------------------
                                        2007     2008     2009     2010
------------------------------------------------------------------------
Groundfish trips                       13,002   13,617   13,959    8,320
Fishing trip duration on groundfish    12,431   12,753   12,060    9,252
 trips
Non-groundfish trips **                12,409   12,908   13,702   14,159
Fishing trip duration on non-           9,803    9,219   10,361    9,866
 groundfish trips
------------------------------------------------------------------------
* First 9 months of each fishing year
** Trips made by groundfish permitted vessels that focused on non-
  groundfish species


    Question 8. What are the projected employment losses or gains due 
to the sector management system in Massachusetts?
    Answer. NMFS expects to report on this in more detail in our annual 
report, which will be released in the fall of 2011. NOAA will develop a 
year-end economic report for the Northeast Multispecies fishery to help 
answer these questions. Annual Catch Limits for twelve of twenty 
groundfish stocks will increase in FY 2011 suggesting that there will 
be an increase in fishing activity in 2011, which should result in an 
increase in groundfish fishery-related employment. Moreover, as stocks 
continue to rebuild and Annual Catch Limits are increased, we 
anticipate that other employment indicators will also increase.

    Question 9. Why did NMFS not perform socioeconomic analyses of 
impacts on individual fishermen of the shift from many years of days-
at-sea management to hard-quota management coupled with the new 
approach of direct allocations to individual fishermen who joined 
groundfish sectors?
    Answer. NMFS routinely performs analysis of the social and economic 
impacts of all proposed management actions in compliance with the 
Magnuson-Stevens Act, the National Environmental Policy Act, E.O. 
12866, and the Regulatory Flexibility Act. Amendment 16's Environmental 
Impact Statement included detailed economic analysis of the sector 
allocation alternatives as well as the economic impacts of the proposed 
common pool measures (see http://www.nefmc.org/nemulti/planamen/
Amend16/final_amend16_oct09.html). Analysis of the impacts on 
individual vessels of the sector allocation alternatives were 
summarized by home port state, vessel size, and preliminary sector 
rosters. Anticipated economic impacts on individual vessels of the 
common pool measures were summarized by home port state, home port 
groups, vessel length, gear, and dependence on groundfish. Given 
uncertainties over potential sector operations plans and rosters, these 
quantitative analyses were supplemented by qualitative assessments of 
economic and social impacts. Estimated economic and social impacts were 
also assessed as part of the Environmental Assessment for Framework 44 
(http://www.nefmc.org/nemulti/index.html). These analyses included 
estimated potential revenues associated with the 2010 Annual Catch 
Limits as well as economic impacts on individual vessels of the 
proposed changes to the common pool measures. Economic impacts on 
individuals that had elected to join a sector were assessed in the 
accompanying Environmental Assessment to the proposed and final rules 
implementing sectors for the 2010 Fishing Year.

    Question 10. When will those analyses be done and how will NMFS use 
those results to correct problems and alleviate the impact of Amendment 
16 regulations on fishermen and their families?
    Answer. NMFS expects to report on this in more detail in our annual 
report, which will be released in the fall of 2011. Additional analyses 
will be provided as part of the annual report for the Northeast 
Multispecies fishery, expected to be completed in fall 2011. NMFS will 
provide these analyses to the New England Fishery Management Council to 
facilitate its ongoing review of the realized impacts of sector 
management in 2011. NMFS will work with the Council to identify what 
issues, if any, need to be addressed to more effectively achieve the 
objectives of the fishery management plan and applicable law. Once 
those issues are identified, NMFS will assist in the development, 
analysis, and implementation of any remedies that may be developed by 
the Council. One of the issues that will be analyzed is any 
consolidation of active fishing effort onto fewer vessels. NMFS is 
already working closely with the Council to identify the scale and 
nature of consolidation that has occurred in the fishery since 1994, 
and what measures may be necessary to prevent further consolidation, if 
warranted, as part of Amendment 18 to the Northeast Multispecies 
Fishery Management Plan.

    Question 11. The Massachusetts Fisheries Institute (MFI) Report 
submitted by the Governor to Secretary Locke concludes that 
consolidation is occurring in the fleet. Amendment 16 has no provision 
to prevent permit or quota consolidation into the hands of a few to 
prevent excessive shares. Updated MFI analyses reveal that shares going 
to the top 10 percent of vessels' proportion of total revenue shifted 
significantly in 2010 from an average of 50 percent to almost 60 
percent. Likewise the share going to the bottom 90 percent shifted down 
from 50 percent to about 40 percent. While it is my understanding that 
the Council is working to address the consolidation issue, what actions 
is NMFS taking to support this effort and what can be done to prevent 
the worsening of the shift in shares and concentration of fisheries 
wealth?
    Answer. NMFS is working to provide the New England Fishery 
Management Council with adequate information to make these important 
policy recommendations regarding consolidation. Various analyses have 
either been completed or are planned that will be directly relevant to 
the issue of consolidation. For example, NMFS has done an analysis of 
the performance of the fishery under sectors that looks at the first 3 
quarters of fishing year 2010. This report contains data on recent 
trends of landings, revenue, number of active vessels, and the 
distribution of revenue among active vessels that will help answer 
questions about the distribution of catch among vessels, as well as the 
economic health of the fishery and its components.
    In 2009, NMFS initiated a project to compile information on vessel 
ownership that will provide new insights on the control of multiple 
vessels by individuals (or corporations). The NMFS' Northeast Fisheries 
Science Center is planning additional analyses to analyze the full 
fishing year (May 2010 through April 2011) that will include data on 
vessel profitability. In addition, NMFS's staff have been active 
participants on the Council's Plan Development Team, which drafted a 
white paper on the subject of consolidation.
    The Council recently requested that NMFS implement a control date 
of April 7, 2011 to start the regulatory process of addressing 
consolidation. This control date is intended to discourage speculative 
behavior in the market for fishing privileges, and may serve as a 
reference date for future management measures that may be developed to 
limit the accumulation of fishing privileges. The control date alerts 
the fishing industry and the public that any present or future 
accumulation of fishing privileges may be limited or may not be allowed 
after or prior to the published control date. If it chooses, the 
Council could set specific limits on the amount of fishing privileges 
(e.g., permits, or days-at-sea, quota) that an individual or sector may 
control.

    Question 12. What is your expectation for overages by sectors for 
individual species ACE?
    Answer. Sectors managers and NMFS are monitoring each sector's 
allocation on a daily basis. Currently, it does not appear that sectors 
will exceed their annual catch entitlement for individual stocks. If an 
overage does occur, sectors can acquire additional quota up to a month 
after the end of the 2010 fishing year to allow a ``balancing of the 
books.'' In subsequent years, sectors will have 2 weeks after the end 
of the fishing year to trade allocations. Consequently, NMFS does not 
expect sector overages to occur.

    Question 13. What is the Agency's plan for accountability measures 
if overages occur?
    Answer. Amendment 16 regulations require that within season, sector 
vessels must cease fishing in a particular stock area if the sector 
exceeds its allocation of a groundfish stock in that particular stock 
area. Any overages of a sector's annual catch entitlement that remain 
after sectors have had a chance to balance their allocation at the end 
of the year, will be deducted from that sector's allocation during the 
subsequent fishing year.

    Question 14. What percentage of the total ACLs does the Agency 
expect sectors to land this fishing year?
    Answer. Table 3 compares projected landings and catch (landings 
plus discards) to the total sector sub-Annual Catch Limits. The 
preliminary cumulative sector data presented in this table are based on 
data received as of May 20, 2011. Based on these preliminary catch and 
landing totals, overages are not currently anticipated for the sectors 
in aggregate.

              Table 3. Expected \1\ Sector Landings and Catch (mt), End of FY 2010 (May 1-April 30)
----------------------------------------------------------------------------------------------------------------
                                                                                          Catch: \1\
                                                      Sum of    Landings \1\  Landings,%  Landings +   Catch, %
                       Stock                        Sector Sub-     (mt)        of Sub-     Discards    of Sub-
                                                      ACL (mt)                  ACL (%)      (mt)       ACL (%)
----------------------------------------------------------------------------------------------------------------
Georges Bank Cod                                         3,302        2,733         82.8       2,858        86.6
Gulf of Maine Cod                                        4,327        3,595         83.1       3,677        85.0
Plaice                                                   2,748        1,364         49.6       1,542        56.1
Georges Bank Winter Flounder                             1,823        1,361         74.7       1,379        75.6
Gulf of Maine Winter Flounder                              133           83         62.5          85        63.7
Witch Flounder                                             827          660         79.8         720        87.0
Cape Cod/Gulf of Maine Yellowtail Flounder                 729          591         81.1         653        89.6
Georges Bank/Yellowtail Flounder                           803          652         81.2         720        89.6
Southern New England/Mid-Atlantic/Yellowtail               235          184         78.1         188        80.2
 Flounder
Georges Bank Haddock                                    40,186        8,245         20.5       8,287        20.6
Gulf of Maine Haddock                                      799          399         49.9         401        50.2
White Hake                                               2,505        2,250         89.8       2,283        91.1
Pollock                                                 16,178        5,520         34.1       5,601        34.6
Redfish                                                  6,756        2,007         29.7       2,164        32.0
Southern New England/                                       --           12           --          50          --
Mid-Atlantic/
Winter Flounder
Northern Windowpane                                         --            1           --         159          --
Southern Windowpane                                         --           <1           --          55          --
Ocean Pout                                                  --           <1           --          59          --
Halibut                                                     --            6           --          27          --
Wolffish                                                    --           <1           --          20          --
Total (allocated stocks)                                81,351       29,644         36.4      30,558        37.6
\1\ Preliminary, as of May 20, 2011
----------------------------------------------------------------------------------------------------------------
Source: NMFS Northeast Regional Office                          Any value for a non-allocated species may be due
                                                                to landings of that stock; misreporting of
                                                                species and/or stock area; and/or estimated
                                                                landings (in Lieu of missing reports) based on
                                                                vessel histories.
----------------------------------------------------------------------------------------------------------------
These dates are the best available to NOAA's National Marine Fisheries Service (NMFS). Data sources for this
 report include: (1) Vessels via VMS; (2) Vessels via vessel logbook reports; (3) Dealer via Dealer Electronic
 reporting. Differences with previous reports are due to corrections made to the data base.
----------------------------------------------------------------------------------------------------------------


    Question 15. Do you expect an improvement in the percentage of the 
ACLs landed by sector vessels in 2010 over 2009?
    Answer. Yes, we do expect an improvement in the percentage of the 
Annual Catch Limits landed by sector vessels in 2010 over 2009. Prior 
to the implementation of Amendment 16, the Northeast Multispecies 
fishery was managed primarily by input controls, which restricted the 
number of days-at-sea fishermen could fish each year. There was limited 
individual incentive to selectively fish and flexibility afforded to 
fishermen was limited by the days-at-sea system. In the multispecies 
fishery, the sector system provides fishermen much more flexibility and 
incentives to more fully exploit healthier stocks and avoid catching 
weaker, more limiting stocks. This should result, over time, in higher 
capture of available quota.

    Question 16. I have been informed by NMFS and NOAA that we will 
have a better idea of how sectors are working in Massachusetts at the 
end of the fishing season after all that relevant data has been 
collected and analyzed. However, for some fishermen, this may be too 
late. Fishermen are feeling the impacts of the new management plan now. 
Some appear to be faring well, but others have been already been driven 
out of the fishing industry and many more feel they cannot survive 
until the end of the fishing year. What can be done to provide more 
timely data throughout the fishing season so major issues can start to 
be addressed before the end of the fishing year?
    Answer. Electronic reporting by fishing vessels will substantially 
improve the timeliness of fishing reports and the quality of the data 
being provided. This, coupled with electronic reporting by seafood 
dealers, which was implemented in 2003, will improve the timeliness of 
reports on the status of landings throughout the year. Agency staff and 
independent developers have built several reporting applications for 
use onboard fishing vessels. NMFS anticipates that these systems will 
be available to interested fishermen this summer. NMFS' Northeast 
Regional Office has also been working closely with individual sector 
managers to identify missing reports, incorrect reports and data 
errors.
    NMFS' staff have also concentrated work on improving the 
completeness and accuracy of landings information provided by seafood 
dealers, as these reports provide the definitive data on landings 
throughout the region.
    More complete, accurate, and timely data will minimize fluctuations 
in catch estimates and reduce uncertainty with respect to the amount of 
groundfish landed for each sector, enabling sector managers and 
participants to more effectively plan fishing operations throughout the 
year. In addition, this will facilitate trading of sector quota by 
enabling sectors to more precisely evaluate their need for additional 
quota based on catch rates of participating vessels. Throughout 2010, 
NMFS has strived to incorporate the most updated data in all facets of 
monitoring, including increasing pollock quotas mid-year to reflect 
updated stock status, integrating more precise gear-specific discard 
data once available, and approving additional sector exemptions from 
existing regulations. NMFS will continue such efforts in FY 2011, as 
appropriate, to maximize fishing opportunities for participating sector 
vessels.

    Question 17 While I appreciate efforts by NOAA and the Department 
of Commerce to address the Asset Forfeiture Fund to date, more needs to 
be done to restore trust and credibility between fishermen and the 
agencies as a result of past abuses highlighted in the Inspector 
General's reports. Why has there not been an opportunity for fishermen 
who did not initially submit their cases to the Inspector General for 
fear of retaliation to bring their cases forward as requested by the 
Massachusetts delegation?
    Answer. On March 16, 2011, Secretary Locke announced that fishermen 
and businesses would have until May 6, 2011, to submit new complaints 
about potentially excessive enforcement penalties to the Special Master 
for review, as well as request stays of their penalties as part of the 
complaint process. This is part of a series of ongoing improvements to 
NOAA's Law Enforcement programs and responds to calls to allow 
fishermen who did not initially submit their cases to do so.
    To have been eligible, the Notice of Violation and Assessment 
(NOVA) must have been issued on or after March 17, 1994; settled or 
otherwise resolved before February 3, 2010; and a civil penalty must 
have been paid. In addition, the person making the complaint must 
certify the alleged facts are true. Cases are not eligible for review 
if they were decided by a Federal district court judge, or are 
currently pending before for an Administrative Law Judge or the NOAA 
Administrator. The Special Master will review cases that meet the 
criteria and make recommendations to Secretary Locke regarding whether 
the civil penalties imposed and paid in those cases should be remitted 
or modified.

    Question 18. Why have the penalties associated with the cases 
currently being reviewed by the Special Master not been stayed until 
the review is complete as requested?
    Answer. On March 16, 2011, Secretary Locke announced that fishermen 
can request that the Special Master recommend whether payment of 
penalties should be stayed while their case is under review. In 
addition, Secretary Locke has stayed the current penalty obligations of 
those complainants whose cases have been under review and had requested 
a stay.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Eric C. Schwaab
    Question 1. In the last Congress, I was a co-sponsor of Senator 
Lieberman's Fish Habitat Conservation Act which was supported by the 
American Sportfishing Association, the Congressional Sportsmen's 
Foundation Trout Unlimited, and others. This bill authorizes funding to 
encourage collaborative regional conservation efforts that bring 
together Federal Government agencies, state and local governments, 
nongovernmental organizations, fishing industry groups, private land 
owners, stakeholders and businesses. Can you discuss how this 
legislation would complement the conservation provisions of the 
Magnuson-Stevens Act?
    Answer. The Magnuson-Stevens Act and the National Fish Habitat 
Action Plan offer complementary approaches toward the shared vision of 
productive fish populations supported by healthy habitats. The National 
Fish Habitat Action Plan is an existing, state-Federal effort focused 
on protecting and restoring fish habitat throughout the range of 
keystone species, supported by approximately $7 million in direct 
appropriations to the U.S. Department of the Interior and for regional 
partnerships, and leveraged with significant resources from states and 
private sector partners. NOAA has been a committed partner in the 
implementation of the National Fish Habitat Action Plan to achieve its 
ambitious goals, including a scientific assessment of all of the 
Nation's fish habitats, the identification of priority habitats, and 
the establishment of regional Fish Habitat Partnerships to protect and 
restore those priority habitats. The goals and principles of the 
National Fish Habitat Action Plan align with NOAA's vision to use a 
science-based, ecosystem approach to natural resource management.
    The Fish Habitat Conservation Act would codify the National Fish 
Habitat Action Plan's early success and ease efforts to connect 
National Fish Habitat Action Plan activities with other natural 
resource programs. NMFS' Magnuson-Stevens Act mandate offers a solid 
companion to the National Fish Habitat Action Plan model, based on 35 
years managing marine fish stocks. The Magnuson-Stevens Act's marine 
emphasis provides a logical connection along the Nation's coasts, where 
National Fish Habitat Action Plan programs transition into coastal 
watersheds, and extend to include river species outside Regional 
Fishery Management Council jurisdiction. Together, the National Fish 
Habitat Action Plan's focus on fish habitat and the Magnuson-Steven 
Act's mandate to conserve essential fish habitat and restore habitat 
through the Community-based Restoration Program will combine to provide 
NMFS and its partners with stronger tools to increase ecosystem 
benefits from these valuable resources.

    Question 2. As the Chair of the Subcommittee on Competitiveness, 
Innovation, and Export Promotion, one of the things we're taking a look 
at is how we can compete with other countries to attract more foreign 
visitors in the U.S. Has there been an examination of how changes in 
fishing stocks correlate to tourism activity?
    Answer. NMFS has insufficient data and models to relate tourism 
activity to fish stocks. However, there are academic studies on this 
topic that can provide general guidance to states and communities. The 
only recreational activity NMFS routinely monitors is saltwater 
recreational fishing. While the Marine Recreational Information Program 
survey effort does collect information on whether the interviewed 
angler is a foreign visitor, it is not possible to post-stratify the 
survey results to then estimate the total number of foreign visitors. 
To correlate fishing stocks with recreational fishing activities, a 
necessary piece of information is an estimate of total foreign visitors 
who go recreational fishing. NMFS does not have this information.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Eric C. Schwaab
    Question 1. I know that catch shares have been extremely 
controversial along the east coast, but we've had a fair amount of 
success with them in the Washington and Alaska fishing industries. Are 
catch shares a panacea for all problems in fisheries management?
    Answer. No. To manage fisheries in Federal waters, the Magnuson-
Stevens Act sets up a unique and highly participatory structure through 
eight Regional Fishery Management Councils. The Councils actively 
consider a variety of management tools in determining how to manage the 
fisheries in their respective regions. Catch share programs are only 
one of many fisheries management tools that Councils may choose to 
utilize. Catch shares programs are not required and are not appropriate 
for every fishery.
    The specific goal(s) that Councils are trying to achieve will help 
determine whether a catch share program is appropriate for a specific 
fishery. Goals may include improving safety for fishermen by 
eliminating ``race-to-fish'' conditions; increasing fishery stability 
and economic viability; rebuilding an overfished stock; ensuring 
participation from new entrants; and protecting communities from 
possible economic impacts by anchoring quota with them. Catch shares 
are an extremely dynamic and flexible tool and, when properly designed, 
can better ensure sustainable fisheries. We have seen Councils take a 
wide variety of approaches in the design of catch share programs to 
address a variety of biological, economic, and social objectives.

    Question 2. In what ways are they helpful tools and what are some 
of their limitations?
    Answer. The Councils have great latitude to design catch share 
programs to achieve a wide variety of management objectives. Catch 
share programs can be, and have been, designed to address issues of 
concern to smaller owner-operated vessels, for example, by establishing 
consolidation and ownership limits, establishing set-asides of quotas 
for particular fleets or ports, and providing assistance in the form of 
permit banks and loan programs to assist small entities and new 
entrants to a fishery consistent with the Council's objectives. Under a 
catch share program, a vessel owner has more flexibility to operate in 
a way that maximizes their efficiency and profit. The potential 
economic benefits of catch share programs can be particularly valuable 
to smaller operations. In the past, small vessels/businesses had to 
compete with larger operations, but under a catch share program, how 
and when they fish is largely within their individual control, as long 
as consistent with the fishery regulations.
    Catch share programs can be designed to minimize impacts on fishing 
communities that include smaller fishing operations and promote 
community sustainability. The Councils have the tools to develop 
programs that help communities by taking advantage of Magnuson-Stevens 
Act provisions under Section 303A to designate Fishing Communities and 
Regional Fishery Associations. These types of entities can be flexibly 
developed (e.g., a specific port, group of ports or communities, a 
group of fishermen using the same gear type, or other grouping), while 
at the same time providing a structure and framework for anchoring 
quota with a particular community. NOAA can provide support and 
technical advice on designating Fishing Communities and Regional 
Fishery Associations, and encourage partnerships for community capacity 
building, which can be a tool for ``mom and pop'' operations to 
successfully and sustainably build and maintain their business.
    Impacts to participants, including smaller operators, vary across 
programs, but have generally been positive. Benefits include increased 
ex-vessel prices of fish, increased landings, increased value of 
harvesting privileges, increased season length, reductions in bycatch 
and improved safety. Accurate monitoring of quota that is essential for 
catch share programs also improves the quality and quantity of fishery 
data, which leads to reduced scientific uncertainty and potential for 
increased catch quotas.
    At the same time, these programs can result in increased cost for 
the purchase of new shares. Larger operations may have better access to 
capital which can give them an opportunity to purchase more (or 
additional) quota or upgrade vessels more easily than a small operator; 
however, that is true regardless of whether the fishery management 
regime is a catch share program or any other management program. The 
Magnuson-Stevens Act allows Councils to specify NMFS' Finance Program 
loans to assist small operators and first time buyers of catch share 
privileges.
    While consolidation and ownership limits can be established, 
consolidation can be a concern even in relatively successful programs 
like the sablefish and Pacific halibut longline individual fishing 
quota program in Alaska. It is important that NMFS and the Councils 
continue to monitor the biological and socioeconomic performance of all 
their fisheries and amend Fishery Management Plans that are not working 
to meet the program objectives. For limited access privilege programs, 
the Magnuson-Stevens Act specifies program reviews after the first 7 
years of the program and every 5 years thereafter. The NOAA Catch Share 
Policy recommends the Councils consider similar reviews in the 
development of any new catch share program.
    NMFS has heard concerns with respect to consolidation during the 
development of the NOAA Catch Share Policy and, in response, key design 
elements connected to consolidation such as allocations, 
transferability, and fishing community sustainability, are among the 
guiding principles in the policy. In some instances, the Councils' goal 
may be to reduce overcapacity, and that goal should not be precluded; 
however, we will work diligently with the Councils to ensure that the 
possible impacts of consolidation, such as lost crew positions, are 
considered and mitigated during the development of any catch share 
program.

    Question 3. How can catch shares better-equip fishing fleets to 
deal with the economics of a fluctuating resource?
    Answer. Catch shares provide vessel owners with more flexibility to 
operate in a way that maximizes their effectiveness and profit. Having 
an individual allocation of the resource, and not having to compete 
with others to make landings against a common quota, allows fishermen 
to plan their fishing efforts to best match market and weather 
conditions, and their individual operations, thus improving both their 
efficiency and safety. Catch shares also provide for opportunities for 
groups of fishermen to work collectively to harvest the resources more 
efficiently, as well as in ways that avoid catching the limiting stocks 
in multispecies fisheries. In times when the resource is less abundant, 
fishermen can work together to harvest their quota using fewer vessels, 
or individually by timing the market to increase profits. 
Transferability of catch shares, such as leasing a certain amount of 
quota to another fisherman, provides flexibility for fishermen in their 
business planning and allows them to receive income when they may not 
otherwise be able to (e.g., their vessel is in need of repair and they 
cannot fish).

    Question 4. Some segments of the fishing industry have called for 
legislation to make Magnuson-Stevens more ``flexible'' and point to the 
ten-year rebuilding requirement as an example of an arbitrary and 
inflexible requirement under the law. Isn't it true that the rebuilding 
timeframes for many fisheries greatly exceeds 10 years because the 
Magnuson-Stevens Act already gives managers a great deal of 
flexibility?
    Answer. Yes. The Magnuson-Stevens Act and the National Standard 1 
Guidelines provide a great deal of flexibility in rebuilding timeframes 
to consider the biological needs of the species, as well as the social 
and economic needs of fishing communities. Many rebuilding plans for 
overfished stocks exceed 10 years; the longest of which is 100 years. 
Out of 64 rebuilding plans, both past and current, 26 (41 percent) 
have/had rebuilding timeframes that exceed 10 years, and the average 
rebuilding plan time-frame was 21 years.

    Question 5. At what point are we talking genuine flexibility to 
rebuild stocks versus weakening the bill to avoid the pain of 
rebuilding at all?
    Answer. The Magnuson-Stevens Act currently incorporates sufficient 
flexibility to provide for the unique needs of specific fisheries and 
fishing communities, while also providing strong guidance to rebuild 
overfished stocks quickly to improve their health and abundance, as 
well as to support a sustainable fishery.
    In the National Standard 1 Guidelines, NMFS recommends, that 
consistent with the Magnuson-Stevens Act, a target rebuilding time be 
set somewhere between the absolute shortest time to rebuild and the 
absolute longest time to rebuild, but that the longest rebuilding 
period should be avoided whenever possible. When developing a 
rebuilding plan, it is good practice for Councils to calculate the 
probability of achieving rebuilding by several alternative target 
rebuilding times, in order to inform the decision. In deciding the 
rebuilding timeframe, Councils must take into account the needs of the 
fishing community consistent with National Standard 8.

    Question 6. My colleague Senator Brown has proposed legislation 
that would require the Fisheries Service to do a full economic analysis 
of each fisheries management decision. Would such a requirement pull 
funding away from stock assessments, fisheries surveys, and the 
scientific analyses that we need to do to actually manage our 
fisheries? If such economic analyses were ever required, do you believe 
they should just examine the short-term economic impacts of fishery 
management decisions, or should they also examine the long-term costs 
and benefits of those decisions?
    Answer. Economic analyses on each fisheries management decision are 
currently conducted in accordance with the Magnuson-Stevens Act (e.g., 
10 National Standards), National Environmental Policy Act, Regulatory 
Flexibility Act, and E.O. 12866, as required by law. These analyses 
incorporate short-term, long-term, and cumulative impacts. NOAA and 
NMFS believe that identifying and evaluating both short- and long-term 
economic impacts of management measures is of great importance, and 
conducting economic analyses on each fisheries management decision has 
been a fundamental component of our existing management process. Guided 
by the Magnuson-Stevens Act, NMFS and the Regional Fishery Management 
Councils strive to ensure that U.S. fisheries are sustainable--
economics and viable fishing communities are key components of 
sustainability.
    While NMFS understands the desire to have more information on 
economic impacts of management actions to reduce economic hardships on 
fishermen and fishing communities, the independent economic impact 
statements required in S. 238 could introduce significant complexity 
and conflicts with existing efforts, process, and mandates. The 
economic impact statements called for in the bill:

  <bullet> Are largely duplicative of those already required by law, 
        yet do not require the external entity developing the impact 
        statements to be held to the same legal requirements, including 
        use of best available data;

  <bullet> Would not be streamlined into the current fishery management 
        process and its prescribed timelines, which puts key 
        information in front of decision-makers during the management 
        process;

  <bullet> Do not take into account previous mitigation measures or 
        positive impacts from past management actions, nor recognize 
        that a short-term negative impact is sometimes needed to 
        achieve a longer-term positive impact; and

  <bullet> Conflict with the highly participatory and adaptive fishery 
        management process that Congress created under the Magnuson-
        Stevens Act in 1976 and could jeopardize conservation mandates, 
        particularly the mandate to end overfishing and rebuild stocks.

    NMFS currently funds economic analyses and research to fulfill our 
legal mandates and to improve the science upon which fisheries 
management decisions are based. If the additional economic impact 
statements as proposed in S. 238 were also required, an outside entity 
would conduct these analyses and how that would be funded is unclear. 
The additional funding required to support those activities, which 
could be approximately $15-20 million per year, is likely to result in 
a competition over funds necessary to manage our fisheries in 
accordance with the Magnuson-Stevens Act and other applicable laws.

    Question 7. As you know, NMFS has recently issued several 
biological opinions regarding the impacts that pesticides have on ESA 
listed salmon on the West coast. Jeopardy findings have triggered 
``reasonable and prudent alternatives'' that many in the agriculture 
industry feel are draconian, unnecessary, and irrational. In the past 
when various fishing fleets have been shut down due to ESA findings, 
NMFS has provided support by facilitating experiments to find new, 
alternative ways of meeting ESA mandated standards or requirements 
(like experiments to find gear modifications that reduce bycatch 
levels). Isn't it possible to view the pesticides situation through a 
similar lens, where the agricultural community needs assistance finding 
alternative ways of meeting new standards being required under the 
Endangered Species Act?
    Answer. NOAA, the U.S. Environmental Protection Agency (EPA), the 
U.S. Fish and Wildlife Service, and the United States Department of 
Agriculture's (USDA) Agriculture Research Service and Office of 
Pesticide Management Policy have formed an interagency working group to 
address pesticides registrations and Endangered Species Act (ESA) 
issues. The working group will call upon the expertise of the EPA and 
USDA to work with states and the agricultural community to minimize 
exposure of ESA listed species to pesticides.

    Question 8. If the Federal Government helps the agricultural 
industry experiment to find new ways to lessen farmers' impacts on 
salmon, couldn't such innovations be considered for future ``reasonable 
and prudent alternatives'' in NMFS biological opinions?
    Answer. Yes. Should new methods become available for minimizing 
risks to threatened and endangered Pacific salmon, NMFS would consider 
those methods as it develops any reasonable and prudent alternatives in 
future biological opinions, and fashions recommendations to EPA. NMFS 
would welcome the expertise and capabilities of other agencies and the 
states in fashioning effective and efficient strategies.

    Question 9. Don't you think it is a laudable goal to empower 
farmers to help find solutions to this problem? Would a collaborative 
effort between farmers, NMFS, EPA, and USDA to develop and field-test a 
wide range of possible methods for reducing pesticide impacts on salmon 
be one possible way forward?
    Answer. Yes. All of the agencies that participate in the 
interagency working group recognize the desirability of facilitating a 
collaborative effort to reduce pesticide impacts on ESA-listed salmon. 
The agencies are working to expand opportunities to participate in the 
consultation process to the pesticides registrants, the affected 
states, farming organizations and other interested parties. NMFS will 
solicit recommendations to improve access to scientific information, 
monitoring data, and other information pertinent to ESA consultation 
issues ``up-front'' in the early preparation of biological assessments 
by EPA, and over the course of the preparations of biological opinions 
by both NMFS and the U.S. Fish and Wildlife Service in the case of 
formal consultations.

    Question 10. Rather than just focusing on the legal and scientific 
disputes, wouldn't it be helpful for both the government and farmers to 
engage in a process that is solutions-oriented, collaborative, on-the-
ground, and data-driven?
    Answer. Yes. NMFS is committed to increasing participation of 
agricultural organizations and other stakeholders in the consultation 
process, in both EPA's preparation of its biological assessments and in 
both NMFS' and the U.S. Fish and Wildlife Service's preparation of 
biological opinions. NMFS will actively explore the capabilities of 
USDA's Agricultural Research Service and Natural Resource Conservation 
Service to refine projections of pesticide and herbicide uses and 
potential environmental and aquatic exposures. The interagency working 
group will also undertake parallel work with relevant state pesticide 
programs to further refine the information utilized in the ESA 
consultation process. Finally, NMFS will explore the expanded use of 
the monitoring and modeling capabilities of the U.S. Geologic Survey 
(USGS) as appropriations allow.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Eric C. Schwaab
    Question 1. What steps are you taking to improve the quality of 
stock assessments?
    NMFS is working on several fronts to improve the quality of stock 
assessments. These include improvements in the monitoring of commercial 
and recreational catch, in the number of fishery-independent surveys, 
in survey and assessment methods, and in the peer review processes to 
assure that the best science information available is delivered to 
fishery managers. As shown in the table below, these improvements have 
been implemented partly through funding increases provided in the 
Expand Annual Stock Assessment budget line.

----------------------------------------------------------------------------------------------------------------
                                                                                                       FY12
                                     FY05     FY06     FY07     FY08     FY09     FY10     FY11     President's
                                                                                                      Budget
----------------------------------------------------------------------------------------------------------------
Expand Annual Stock Assessment       20.5     24.4     26.6     31.6     40.5     51.0     51.7            67.1
 Funding ($M)
Percentage of Fish Stocks with      51.7%    52.2%    55.7%    56.1%    59.1%    57.4%    59.6%           60.0%
 Adequate Population Assessments
----------------------------------------------------------------------------------------------------------------


    Over the past 5 years, NOAA has been able to replace four aging 
research vessels with new, state-of-the-science Fishery Survey Vessels. 
The advanced capabilities of these new vessels can improve stock 
assessment information. In addition, NMFS uses the Expand Annual Stock 
Assessment budget to support an Advanced Sampling Technology program to 
improve our ability to fully utilize the acoustics and other advanced 
equipment on the new vessels. Funding to sail these new vessels at 
their full operating capacity has been requested. Funding to repair and 
replace aging fisheries research vessels will help to maintain the 
increase in the number of stock assessments per year throughout this 
decade.
    NMFS has added new surveys targeted on particularly important fish 
and shellfish stocks, including scallops and quahog in the Northeast 
and reef fish in the Southeast.
    NMFS has invested in increased biological sampling from the 
fisheries to provide stock assessment data and is working on 
implementing the recommendations of a National Research Council review 
to improve the monitoring of catch and effort in the recreational 
fisheries.
    NMFS has added stock assessment positions to all of its Science 
Centers and supports a fellowship program to increase the supply of 
highly trained candidates for these positions. These stock assessment 
scientists are experts in their field and work to conduct comprehensive 
stock assessments using state-of-the-science statistical methods.
    NMFS has partnered with the Regional Fishery Management Councils to 
create peer review systems in each region and has supported a Center 
for Independent Experts to provide external, independent experts to 
participate in these peer reviews. These peer review systems assure a 
thorough and transparent review of new scientific assessments.

    Question 2. Will you improve communication with the regulated 
community?
    Answer. Yes, NMFS is taking specific steps to improve outreach to 
and communication with all stakeholders, including the regulated 
community. We must work diligently to listen to our stakeholders, 
especially the regulated community, in order to foster clear, balanced, 
and consistent external communications.
    NMFS recently commissioned an independent Regional Assessment and 
Management Review that made recommendations about how we communicate 
with and provide customer service to the industry and the general 
public in the Northeast. We are committed to continuing our efforts to 
improve our communications with external audiences. Specifically, in 
the Northeast, we will consolidate our communications staff under one 
program and coordinate them under one communications plan. We will 
build on recent efforts like the Navigator now found in Commercial 
Fisheries News to simplify the way we explain the actions we are taking 
and how they impact industry. We will also build on our efforts to 
communicate directly with industry through programs like the pilot 
Fisheries Information Centers and our new compliance liaison position 
in the Northeast.

    Question 3. What specific steps will you take?
    Answer. NMFS is working through its Office of Communications and 
with the regional communications and outreach teams to increase the 
frequency and quality of electronic communications with specific 
stakeholders on the national and regional level, including the 
regulated community. These communications include a new ``External 
Affairs Newsletter'' which can be sent nationally, or targeted to 
regions or states. This approach was lauded as part of NOAA's effort to 
keep stakeholders up to date on response efforts in the Gulf of Mexico 
during the Deepwater Horizon BP oil spill. An increased emphasis is 
also being placed on in-person meetings with stakeholders. For example, 
to strengthen its efforts to improve communication with, and outreach 
to, the regulated community in New England, NMFS recently hired a 
former commercial fisherman as a ``compliance assistance liaison'' in 
the Northeast Region. NMFS recently announced that we will expand the 
compliance liaison program nationwide to assist fishermen in better 
understanding regulations and having stronger incentives to comply with 
them. As a liaison, this NMFS employee interacts daily with individuals 
and groups among the regulated communities and works with them to solve 
problems. Another recent and successful communications effort the 
agency launched is providing an insert into popular fishing community 
newspapers that highlights and interprets fisheries information for 
fishermen and others interested in Federal fishery issues along the 
East Coast.

    Question 4. The MSA provides several exemptions from certain 
requirements for species whose management exceeded our scientific 
capabilities or our sole jurisdiction. For example, the Act provides 
exceptions for unique short-lived species such as squid and shrimp, and 
for species that are part of an international agreement in which the 
U.S. participates. Similar to a short-lived species, extraordinarily 
high levels of natural mortality in species such as butterfish may 
limit our ability to determine overfishing. This sets up a scenario 
that could affect fishermen from other fisheries that interact with 
butterfish as an unintended consequence, such as our domestic squid 
fishery. Would providing an exemption from the Annual Catch Limit 
requirements for a data poor species with a unique life history such as 
butterfish make practical management sense?
    Answer. The data for butterfish and its life history are not so 
extreme or unique as to warrant an exception to the Annual Catch Limit 
requirement, i.e., butterfish can be assessed and can be managed using 
Annual Catch Limits, particularly given the flexibility provided in the 
National Standard 1 Guidelines. Butterfish is a highly productive 
species that usually matures by age one and has a 3 year life span. In 
the past, there has been ample data to construct a quantitative stock 
assessment, and it has been assessed in the past (i.e., 1983 and 2004).
    In general, providing exemptions from the Annual Catch Limit 
requirement for data-poor species or species with varied life histories 
would likely weaken the Councils' and NMFS's ability to obtain the 
optimum yield of those species and prevent overfishing on them, 
consistent with National Standard 1. Due to their unique life history, 
Congress provided an exception from the Annual Catch Limit requirement 
for stocks with a life cycle of approximately 1 year, as the process 
for setting Annual Catch Limits (i.e., annually) does not fit well for 
such stocks. This exception allows flexibility for Councils to use 
other management measures for these stocks which are more appropriate 
for the unique life history and the specifics of the fishery which 
captures them. However, these short-lived species are still required to 
have estimates of other biological reference points (e.g., maximum 
sustainable yield, optimum yield, Acceptable Biological Catch, etc.). 
Also, if the species is experiencing overfishing, the exception cannot 
be used and Annual Catch Limits are required to be implemented.
    Guidance for appropriately accounting for uncertainty in managing 
data-poor stocks has been available since at least 1998. Some examples 
of guidance provided to date for data-poor species includes:

  <bullet> The use of a 75 percent Acceptable Biological Catch control 
        rule which is applied to catch levels that are thought to be 
        sustainable;

  <bullet> The use of stock complexes to address management of data-
        poor stocks in a fishery and the use indicator stocks as a 
        management proxy for data poor stocks;

  <bullet> Methodologies for assessing the vulnerability of stocks, 
        which can be used to aid managers in the formation of stock 
        complexes and to determine the risk of overfishing;

  <bullet> The use of data tiers to develop Acceptable Biological Catch 
        control rules for a stock or complex to allow flexibility to 
        address different levels of scientific uncertainty; and

  <bullet> Multiyear averaging of data for fisheries that have highly 
        variable annual catches.

    Additional guidance for specifying Annual Catch Limits for data-
poor species is currently being developed. At the 2009 National 
Workshop of the Councils' Scientific and Statistical Committees, a 
working group was established to identify and evaluate alternative 
approaches for setting Acceptable Biological Catch for data-poor 
fisheries. Members of the working group come from a variety of 
organizations and agencies: Council staff, Council Scientific and 
Statistical Committees, academia, non-governmental organizations, state 
agencies, and NMFS. The working group is currently finalizing its 
report, and plans to make it available to the public this spring.

    Question 5. We share the Atlantic mackerel stock with Canada but do 
not have a formal international management agreement. Therefore, the 
current trans-boundary exception in the Act does not apply to mackerel. 
However, there is evidence this stock is moving more toward Canadian 
waters. Do you take the shared nature of this stock into account when 
making management decisions about mackerel?
    Answer. The Atlantic mackerel stock spans both U.S. and Canadian 
waters; thus, the U.S. considers the status of the entire stock in 
setting quotas. The U.S. Atlantic mackerel Fishery Management Plan 
requires that the U.S. Acceptable Biological Catch must be calculated 
by deducting estimated catch of Atlantic mackerel in Canadian waters in 
the upcoming year from a target total catch level. Though the U.S. 
quota-setting process accounts for Canadian landings, there is no 
related limitation on Canadian landings.

    Question 6. Would the law allow you to provide for a limited 
exception from the ACL requirement despite not having a formal 
agreement with Canada?
    Answer. There is no authority in the Magnuson-Stevens Act to exempt 
the Atlantic mackerel fishery from the Annual Catch Limit requirement 
absent an agreement with Canada for this species. There is currently no 
such agreement with Canada.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Eric C. Schwaab
    Question 1. In the New England groundfishery, we have 20 separate 
stocks, some of which are rebuilt and the rest of which are on their 
individual rebuilding trajectories. Yet, by assigning total allowable 
catch to each stock, our fishermen are now confronting the practical 
reality that the first species that reaches its limit can completely 
shut down the entire fishery. Effectively, our ocean economy is 
confined by the most delicate species, or ``choke stocks,'' as they are 
often called. As a chain is only as strong as the weakest link, our 
fishing economy will fail to grow if we continue to be inflexible with 
respect to the management of the entirety of the groundfishery. Would 
NMFS consider increasing allowable catch of one stock if that would 
permit harvest of another species that is not overfished? Although 
reducing overfishing and rebuilding stock is of course required by 
Magnuson-Stevens how can NMFS also balance the requirement to have the 
highest possible yield for healthy stock as well?
    Answer. The spatial co-occurrence of multiple stocks of Northeast 
groundfish and their potentially widely different abundance levels has 
been a major challenge to the fishing industry, the New England Fishery 
Management Council (Council) and NOAA's National Marine Fisheries 
Service (NMFS) for many years. The Magnuson-Stevens Fishery 
Conservation and Management Act (MSA) requires all managed fisheries to 
be fished at a sustainable rate that can produce the maximum 
sustainable yield (MSY), and rebuild depleted (overfished) stocks to a 
sustainable level within a defined time period. The effect of the MSA 
requirements on a multi-stock fishery may make it difficult for the 
fishery to achieve full utilization of healthy stocks, because of the 
measures needed to effectively manage the ``weak'' stocks. Although the 
design of management measures and modification of fishing behavior can 
minimize this under-utilization, it is not always possible to harvest 
the entire quota for stocks that are rebuilt or relatively healthy. 
However, NMFS is confident that because of the flexibility provided 
through the sector management system, vessels have been more successful 
at targeting healthy stocks while avoiding stocks of concern. For 
example, haddock and redfish landings for the first 10 months of this 
fishing year have exceeded landing from the same time period in 2009 by 
37 percent and 30 percent, respectively. We expect this trend to 
continue.
    The MSA does not explicitly provide for a mixed-stock exception. 
However, NMFS did allow for a limited exception regarding the 
prevention of overfishing when it established the advisory guidelines 
on development of fishery management plans (based on the MSA's National 
Standards). This is what has come to be referred to as the ``mixed-
stock exception.'' This exception was intended to enable flexibility in 
managing fisheries that catch and land several stocks of fish using the 
same gear types in the same general areas by temporarily allowing 
overfishing to occur (i.e., allowing a higher rate of catch that would 
not be sustainable over the long term) on some stocks so that higher 
levels of catch may be realized on other stocks. This mixed-stock 
exception, however, does not apply to overfished stocks, and it does 
not create an exception to the MSA's mandatory rebuilding requirements. 
Thus, the applicability of the mixed-stock exception is narrowly 
constrained. A discussion of the exception may be found in the final 
rule implementing revised National Standard Guidelines (74 FR 3178; 
January 16, 2009).
    In response to a court order in a case challenging Framework 42 to 
the Northeast Multispecies fishery management plan, NMFS wrote two 
papers addressing the applicability of the mixed-stock exception to 
Framework 42*. The conclusions of those papers were that the mixed-
stock exception was not applicable to Framework 42, because temporarily 
allowing overfishing of some stocks through the ``mixed-stock 
exception'' would prevent overfished stocks from rebuilding within 
statutory timeframes and cause the fishery to be inconsistent with the 
requirements of the Magnuson-Stevens Act. Although these papers apply 
specifically to Framework 42,<SUP>*</SUP> they provide further 
background and analysis on the applicability of the mixed-stock 
exception to any fishery.
---------------------------------------------------------------------------
    \*\ ``Consideration and Analysis of the Application of the Mixed 
Stock Exception to Ending Overfishing and its Applicability to 
Framework 42 to the Northeast Multispecies Fishery Management Plan'' 
(January 2009), and ``Further Consideration and Analysis of the 
Application of the Mixed Stock Exception to Ending Overfishing and its 
Applicability to Framework 42 to the Northeast Multispecies Fishery 
Management Plan'' (February 2009).
---------------------------------------------------------------------------
    Use of the mixed-stock exception is very limited when overfished 
stocks are involved. However, the fishery Councils can choose to adopt 
rebuilding timelines for some stocks that are less aggressive than for 
other stocks. The New England Council has chosen to rebuild stocks at 
different rates, within limits and timelines established by the MSA, to 
account for the different characteristics of the stocks and to help 
reduce short-term economic impacts (Amendment 13). For example, the 
Northeast Multispecies Fishery Management Plan extends the rebuilding 
deadline for Georges Bank cod to 2026, Gulf of Maine Yellowtail 
flounder to 2023, and Acadian redfish to 2051. Such management 
decisions will provide similar results as those that can be achieved 
through the Agency's use of a limited mixed-stock exception.

    Question 2. As you know there is significant interest in developing 
renewable offshore energy in the Gulf of Maine and this will likely 
affect the New England groundfishery. Clearly, it is critical that we 
determine the most suitable areas for fishing or energy production, and 
in some situations both. In addition, while there is some experience in 
Europe, there remains significant uncertainty about the potential 
effects of developing offshore renewable energy facilities. How is NMFS 
working to provide data to determine the areas that should be 
streamlined for permitting as well as areas that raise potential 
concerns? Has NMFS researched whether wind turbines may modify 
circulation patterns and whether this would have implications on key 
migratory species?
    Answer. NMFS participates in the ocean energy siting process by 
identifying habitat areas of known ecological value, including Habitat 
Areas of Particular Concern, corals, live or hardbottom habitats, 
topographic features, estuaries, etc. NMFS provides information to 
other Federal agencies and the public about the vulnerability of these 
areas and the need to avoid them during siting of ocean energy 
facilities, as well as information about the types of habitat impacts 
that should be avoided, minimized, or mitigated during installation and 
operation of ocean energy facilities. By working with Federal action 
agencies that are involved with leasing, licensing, or permitting ocean 
energy projects, NMFS is attempting to develop a consultation process 
that will not unduly impede development of renewable ocean energy while 
recognizing the need to preserve and protect certain marine habitats.
    NMFS staff also participates on all of the Bureau of Ocean Energy 
Management, Regulation and Enforcement (BOEMRE) task forces for the 
northeast region (ME, MA, RI, NY, NJ, DE, MD, VA). As a participant on 
these task forces, NMFS is providing technical support to the U.S. 
Department of the Interior's Smart from the Start Initiative for 
offshore wind energy development. Through this process, NMFS has 
provided comments and information regarding habitat and protected 
resources concerns within BOEMRE's proposed wind energy areas; alerted 
BOEMRE to fishing activity and fishery management regulations within 
these areas; educated BOEMRE on the role of Regional Fishery Management 
Councils in the process, and encouraged that agency to coordinate with 
broader Coastal and Marine Spatial Planning initiatives. NMFS has 
compiled existing agency data within the proposed BOEMRE wind energy 
areas, and staff members are also coordinating with the Fisheries 
Management Councils to ensure they are included in the process.
    NMFS staff is also involved in a joint research project with the 
Navy, BOEMRE, and the U.S. Fish and Wildlife Service to improve our 
knowledge of marine mammal, sea turtle, and sea bird distribution and 
abundance along the Atlantic Coast. Alternative energy development 
along the Atlantic was a significant driving factor leading to this 
cooperative project. The project is planned to continue through FY 
2014, subject to funding, with the possibility of further data 
collection through FY 2018. Additionally, NMFS and other NOAA line 
offices also participate in the Federal Renewable Energy Ocean Energy 
Working Group, which is working to promote the successful, 
environmentally and socially responsible deployment of offshore 
renewable energy devices.
    Outside of NMFS, NOAA's Office of Oceanic and Atmospheric 
Research's National Sea Grant Program also has a role in community 
outreach regarding offshore wind energy. Specifically, the Maine Marine 
Extension Team, a partnership between Maine Sea Grant and University of 
Maine Cooperative Extension, is holding a series of discussions in 
Spring 2011 about research and monitoring plans for the University of 
Maine's Deepwater Offshore Wind Test Site that has been established in 
coastal waters south of Monhegan, Maine. Project leaders will share 
highlights of research and monitoring results, and seek community input 
from residents, fishermen, and business owners in midcoast Maine 
regarding plans to develop a world-class offshore wind research site. 
The meetings are sponsored by the DeepCwind Consortium, Advanced 
Structures and Composites Center, Maine Sea Grant, and University of 
Maine Cooperative Extension.
    Multiple NOAA line offices also supported the FY 2010 funding 
opportunity for Developing Environmental Protocols and Monitoring to 
Support Ocean Renewable Energy and Stewardship, which was conducted 
through the National Oceanographic Partnership Program (NOPP). NMFS, 
the Office of Oceanic and Atmospheric Research, and NOAA's National 
Ocean Service joined partners at the BOEMRE, as well as the Department 
of Energy to provide over $6 million in funding for eight projects that 
were focused on understanding, characterizing, and monitoring the 
environmental impacts of ocean energy.
    NMFS is not aware of any research indicating that wind turbines may 
modify circulation patterns and whether this would have implications on 
key marine migratory fish species. However, in response to the July 19, 
2010 National Policy for the Stewardship of the Oceans, Our Coasts, and 
the Great Lakes established by Presidential Executive Order No. 1354 
(commonly referred to as the ``National Ocean Policy''), Federal, and 
New England state and tribal governments, in consultation with the New 
England Fishery Management Council, will be working to develop a 
comprehensive and ecosystem-based regional plan starting this summer. 
This regional Coastal and Marine Spatial Plan will include a 
characterization (regulatory and scientific) of the Gulf of Maine to 
help us to consider how to minimize conflicts among uses like energy 
and fishing, while mitigating the environmental impact of those uses. 
This proactive and transparent planning process will enable managers to 
make more informed decisions about how we use the Gulf of Maine 
resources as well as consider the cumulative impacts of those uses into 
the future.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Eric C. Schwaab
    Question 1. In your testimony you discussed improving the Expanded 
Stock Assessment programs. These improvements could reduce uncertainty 
in estimating fish populations and improve fisheries management 
decisions. Please describe how NMFS can decrease the time between data 
collection and dissemination of these data to fisheries management 
councils.
    Answer. Stock assessments are based on several sources of 
information: fishery-independent data on population trends, obtained 
from field surveys; and fishery-dependent data, obtained from landings 
data, fishery observers, and, for stocks with significant recreational 
fisheries, from surveys of recreational fisheries. NMFS is taking 
several steps to increase operational efficiency and reduce the time 
between data collection and the application of the data to management 
decisions.
    In the FY 2012 President's Request, NMFS is requesting $67.1 
million to expand annual stock assessments, an increase of $15 million. 
These funds will be used to improve assessments for high priority 
stocks; update assessments for stocks more frequently; and, conduct 
fishery-independent surveys to enable assessment of more stocks, 
including data poor stocks, 3-5 years from now. NMFS proposes to use a 
portion of these funds, $3 million, to invest in advanced technologies 
for fishery-independent surveys. Among the projects that will be 
supported with these funds will be near real-time processing of survey 
data as it is collected at sea and more rapid delivery of these data to 
shore-based analysts conducting the stock assessments.
    For fishery-dependent data, NMFS is currently developing new ways 
to improve the data quality and timeliness of recreational catch data. 
Our Marine Recreational Information Program (MRIP) has begun the use of 
electronic logbook reporting in the Gulf of Mexico to speed up data 
processing. NMFS also hosted an MRIP workshop focused on improving the 
timeliness for recreational catch data. The workshop was able to 
identify key ideas that could increase timeliness for recreational 
fisheries and improve the ability to make in-season management 
decisions. The President's FY 2012 budget request therefore includes an 
increase of $3 million to leverage these current recreational fisheries 
monitoring efforts, $2 million of which will allow MRIP implementation 
to address the timeliness issues identified in the aforementioned 
workshop and $1 million to fully implement electronic logbooks in the 
Southeast Region.
    NMFS is also working to increase observer coverage and the number 
of staff available to process and manage the data collected by 
observers. This is important because observers collect high quality 
information on catch and bycatch that is directly incorporated into 
stock assessments. Biological samples such as ear bones (otoliths), fin 
rays, or vertebrae collected by observers are used to determine the age 
of fish, a critical component of any stock assessment. Unbiased, 
fishery-dependent catch and bycatch data from observer programs are 
also used in stock assessments. Additional staff, including fisheries 
scientists to process the data, would increase the timeliness of catch 
and bycatch estimates. However, funds for observer programs were 
reduced in FY 2011, so the time required to provide data from observers 
to fishery management councils will likely increase.
    NMFS is working with the Scientific and Statistical Committees of 
the Regional Fishery Management Councils to streamline the scientific 
review process, so that more assessments can be delivered quickly to 
the councils as updates, rather than as extensive investigations that 
require more thorough peer review. The tempo of assessment updating was 
a significant topic at the NMFS-sponsored workshop in February 2011 on 
the scientific needs for implementation of annual catch limits.

    Question 2. In your testimony you discussed the fact that increases 
in fisheries stock levels take time and require some significant short-
term sacrifices by fishermen. These short-term sacrifices could force 
some fishermen to exit the fishery. Will NFMS facilitate the re-entry 
of these fishermen to the fishery when stocks are rebuilt and annual 
catch limits are increased?
    Answer. NOAA is very concerned about the hardships that some 
fishermen and fishing communities have experienced recently as NOAA and 
the Regional Fishery Management Councils work to fulfill the Magnuson-
Stevens Act requirements to end and prevent overfishing through 
implementation of annual catch limits. As overfished stocks rebuild, it 
is anticipated that there will be more harvest opportunities as the 
stocks reach their sustainable abundance level.
    NMFS and the Regional Fishery Management Councils work closely with 
fishermen and other stakeholders in a highly participatory public 
process during the development of fishery management programs to 
minimize impacts to the industry. The Council process is highly 
adaptive and flexible allowing for new information to drive 
modifications to management measures. For example, if there is new 
scientific information that supports raising the catch limits, which 
could provide more opportunities for some fishermen to re-enter the 
fishery, then management options will be revisited through the Council 
process.
    People who leave a fishery may be able to re-enter, depending on 
the management provisions of the fishery management plan. In some 
cases, fishermen leaving a fishery may retain their permit, and can re-
enter the fishery at a later date. In other cases, fishermen may sell 
their permits upon leaving the fishery, and, depending on the 
provisions in the fishery management plan, might have to purchase a 
permit from another permit holder in order to re-enter the fishery. 
NMFS has several programs, such as the individual fishing quota loan 
program and Capital Construction Fund that may assist fishermen in re-
entering fisheries.
    The FY 2012 President's Budget includes a proposal for $8 million 
to create a working waterfronts grant program. This program will assist 
fishing-dependent coastal communities adversely affected by changes in 
the fishing industry on which they depend. This program will assist 
distressed or at-risk fishing communities by providing resources for 
communities to engage in planning, capacity building, and other 
activities.

    Question 3. In your testimony you cited NMFS research that supports 
past and projected fishery contributions to our economy. The most 
recent estimates of sales revenue and jobs directly supported by U.S. 
fisheries comes from 2008, which does not fully reflect the effects of 
the recession or the 2010 Gulf oil spill. Is NMFS working on an updated 
fisheries economic report that will include these factors? Do you have 
independent research to corroborate these NMFS statistics cited in your 
written testimony?
    Answer. The 2009 commercial and recreational fisheries economic 
impacts will be available in the coming weeks. NMFS uses IMPLAN, a 
commercially available software package for modeling economic impacts, 
to estimate sales, jobs, income, and value-added impacts. IMPLAN 
recently released a new version of its software causing NMFS to update 
its models, which delayed the release of the 2009 estimates. The 2010 
commercial fisheries data will not be available in all fisheries until 
summer 2011. NMFS plans to release the 2010 economic impacts in late 
summer.
    NMFS has had its national models internally reviewed. In addition, 
we have validated all of the results from these models against 
regionally-implemented IMPLAN models developed by NMFS, as well as 
regionally-implemented models using other software platforms. The 
regional models are used in management and have been externally peer-
reviewed. The national model compares well with the regional models 
because they use the same information and information structure as the 
regional models. NMFS also validates its models against models 
developed by other entities, e.g., state agencies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                            Eric C. Schwaab
    Question 1. In your testimony you state that the 10 National 
Standards for fishery conservation and management provide a yardstick 
against which all fishery management plans and measures developed by 
the Councils are measured. As you know, National Standard 4 requires 
that fishery management councils ``apportion fishing privileges in a 
fair and equitable manner.'' Many in the fishing industry believe that 
NOAA's catch share allocation system favors those with well-documented 
catch history and does not reflect accurate historical data for all 
participants. In light of these concerns, please explain whether the 
catch share allocation scheme is consistent with National Standard 4.
    Answer. There is not an over-arching, national NOAA catch share 
allocation system. In both catch share and non-catch share fisheries, 
allocation decisions are made by the individual Regional Fishery 
Management Councils (Councils) and are based on the specific needs and 
unique characteristics of each fishery and its participants. The NOAA 
Catch Share policy recommends that Councils periodically revisit 
allocations and that the basis for allocation should include 
consideration of conservation, economic, and social criteria.
    With respect to the Northeast sector program, the New England 
Fishery Management Council considered a range of participation criteria 
and ultimately adopted the allocations it considered the most fair and 
equitable. Individual fishermen have the opportunity to correct 
inaccurate historical data by appealing the specific allocation they 
received to the NMFS. NMFS continues to work with fishermen to correct 
historical catch information when appropriate documentation supporting 
the change is provided. In addition to requiring allocations be ``fair 
and equitable,'' National Standard 4 requires allocations to be 
``reasonably calculated to promote conservation'' and carried out in 
such a way that no individual or entity acquires an excessive share. 
For all new sectors approved under Amendment 16, the sector vessels 
were subject to the same criteria for determining sector allocations, 
which were calculated to promote conservation and do not allow one 
entity to acquire an excessive allocation of any stock, because sector 
allocations are temporary and allocations can be traded among sectors. 
Further, allocation among commercial and recreational components of the 
fishery and between sector and non-sector vessels is reasonably 
calculated to ensure accountability in the fishery and more effectively 
achieve conservation objectives.
    With any allocation decision, the Councils consider a range of 
participation criteria and ultimately adopt the allocation system it 
considers the most fair and equitable. Individual fishermen have the 
opportunity to correct inaccurate historical data by appealing the 
specific allocation they received to NOAA's National Marine Fisheries 
Service (NMFS). NMFS continues to work with fishermen to correct 
historical catch information when appropriate documentation supporting 
the change is provided.

    Question 2. As you know, National Standard 8 of the Magnuson-
Stevens Act requires that fishery management plans ``take into account 
the importance of fishery resources to fishing communities in order to 
provide for the sustained participation of such communities, and to the 
extent practicable, minimize adverse economic impacts on such 
communities.'' The fishing industry is concerned that the bureaucratic 
regulatory costs of catch share sectors have imposed unreasonable 
administrative burdens on fishing operations too small to absorb them. 
New Hampshire cannot afford to lose more jobs, especially in this 
difficult economy. In what ways could NOAA change catch share and 
sector policies in order to minimize these adverse economic impacts on 
the small fishing communities in New Hampshire?
    Answer. The NOAA Catch Share policy includes fishing community 
sustainability as one of its guiding principles. Specifically, the NOAA 
policy recommends that Regional Fishery Management Councils (Councils) 
develop policies to promote the sustained participation of fishing 
communities and take advantage of the special community provisions in 
section 303A of the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act). The community provisions in 
section 303A establish explicit eligibility and participation criteria 
and other obligations such as the development and submission to the 
Secretary of a community sustainability or regional fishery association 
plan. As with other considerations in the design of catch programs, the 
Councils strive to balance support for fishing communities with the 
flexibility fishermen and related businesses need to operate 
efficiently and implement innovative ideas. NMFS is committed to 
working with fishermen, state and local governments, public and private 
non-profit organizations, tribal entities, and others to help 
communities build their capacity to address long-term fishery and 
community sustainability such as by working across the Federal 
Government to provide technical assistance related to community 
economic development.
    The catch share programs affecting communities in New Hampshire 
were designed through the New England Fishery Management Council 
process. The New England Council and NMFS developed the monitoring and 
reporting requirements for the sector management program in order to 
ensure accountability. Part of these requirements includes the 
submission of annual operations plans from each sector and an analysis 
of the impacts of the sector operations plan for approval by NMFS. 
These plans give the sectors the freedom to design their own plan to 
harvest their quota and the flexibility to make adjustments from year 
to year; however, these are detailed documents which require 
significant input from the members of the sector. Thus far, NMFS has 
taken on the responsibility of preparing the analyses for the sectors 
to relieve them of that burden. NMFS has, and will continue to, work 
with the Council and interested stakeholders to adjust the reporting 
and monitoring requirements for sectors, where additional flexibility 
could be provided and if there is interest from the fishing industry 
and the New England Council to do so. Additionally in FY 2010 and FY 
2011, NMFS has provided significant funding to help the industry 
transition to the sector management program. Among other items, this 
funding has been used to pay for dockside and at-sea monitoring which 
would have otherwise been paid for by industry and to develop 
electronic reporting systems to be used in completing required catch 
reports. The Administration's FY 2012 budget requests additional 
funding to help fishing sectors, including funding to pay for dockside 
and at-sea monitoring requirements through the 2012 fishing year.
    A proposed rule soliciting public comment on additional sector 
exemptions from groundfish regulatory requirements, as requested in the 
fishing year 2011 sector operations plans, closed on March 15, 2011. 
NMFS received several comments on these requested exemptions, some of 
which are specific to relieving administrative burdens, including 
exemptions from certain reporting and dockside monitoring requirements. 
The final rule on this action, which published April, 25 2011, included 
17 regulatory exemptions for sectors, an increase from the 2010 Fishing 
Year. The final rule exempts specific handgear and small vessel 
permitted vessels from dockside monitoring requirements, removes the 
requirement for industry to pay for dockside monitoring in Fishing 
Years 2011 and 2012, and allows additional time for sectors to trade 
quota at the end of the fishing year to avoid exceeding their 
individual allocations among other measures. Additional New England 
Council actions underway to assist small fishing communities include 
actions that provide funding to the states of Maine, New Hampshire, 
Massachusetts, and Rhode Island in the form of Federal grant awards for 
the purpose of establishing several permit banks of Northeast 
multispecies fishing vessel permits. These permit banks are intended to 
provide small vessels and small communities with an opportunity to 
obtain additional quota or days-at-sea on the open market at a reduced 
cost.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Douglas DeMaster
    Question 1. You mentioned in your testimony that Acceptable 
Biological Catch (ABC) limits are set at a level such that there is an 
estimated 50 percent or less chance of overfishing a given stock. How 
was this < 50 percent probability-of-overfishing limit determined?
    Answer. During the scoping period for revising the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act) National 
Standard 1 Guidelines, NMFS received many comments on the topic of 
setting a specific probability of successfully preventing overfishing. 
Some commenters expressed that a 50 percent probability of success each 
year is all that is legally required, while other commenters expressed 
that the probability of success should be higher (e.g., 75 percent or 
100 percent).
    Section 303(a)(15) of the Magnuson-Stevens Act requires that Annual 
Catch Limits be set ``such that overfishing does not occur''. Courts 
have found, and as a result it has been generally accepted practice in 
fisheries management, that to take actions that will prevent 
overfishing, those actions must have at least a 50 percent chance of 
success. The court in NRDC v. Daley \1\ rejected a NMFS action intended 
to prevent overfishing that NMFS determined had only an 18 percent 
chance of success. The court held that at a minimum, when taking 
actions necessary to end overfishing, NMFS's actions must have at least 
a 50 percent chance of success in order to find that those actions are 
sufficient to prevent overfishing. When developing the relationship of 
the reference points--overfishing limit, Acceptable Biological Catch, 
Annual Catch Limit, and an optional Annual Catch Target--NMFS 
considered including specific probabilities of success regarding 
preventing overfishing and preventing catch from exceeding the Annual 
Catch Limit. In the final revised National Standard 1 Guidelines in 
2009, NMFS did not include specific guidance on how much below 50 
percent the probability of overfishing should be. This preserves 
flexibility for case-specific analysis and implementation for each 
fishery management plan. By taking a probability approach (e.g., chance 
of overfishing), the inherent scientific uncertainty in knowing the 
true overfishing limit is acknowledged and incorporated into management 
decisions.
---------------------------------------------------------------------------
    \1\ 209 F.3d 747, 754 (D.C. Cir. 2000).
---------------------------------------------------------------------------
    The National Standard 1 Guidelines explain how the Regional Fishery 
Management Councils should each work with their Scientific and 
Statistical Committees to understand the uncertainty involved in each 
fishery and then determine, based on scientific advice, the level of 
risk of overfishing they think is appropriate to take with each stock 
however that risk should not exceed 50 percent and is recommended to be 
lower.

    Question 2. How often have ABCs been set too high, resulting in 
overfishing?
    Answer. When an Acceptable Biological Catch is established, it is 
an estimate of a catch level that would not result in overfishing, with 
a specified probability, if the exact Acceptable Biological Catch was 
caught. The probability that catch equal to Acceptable Biological Catch 
would result in overfishing cannot exceed 50 percent. However, the 
actual catch will seldom be exactly the Acceptable Biological Catch, as 
there is uncertainty in the management of the fishery to its catch 
limit. In order to prevent overfishing, the actual catch will usually 
be somewhat less than the Acceptable Biological Catch.
    A subsequent stock assessment might indicate, based on new 
information, that the prior Acceptable Biological Catch had been set 
too high. So, in some cases, management that was thought to be safe 
(i.e., not overfishing), could be determined later to have been 
overfishing. In the coming years, Annual Catch Limit performance, 
including evaluation of the Acceptable Biological Catch control rules, 
will be evaluated. This evaluation will occur over the next several 
years, as fisheries are managed under Annual Catch Limits and new stock 
assessments are completed.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Dr. Douglas DeMaster
    Question 1. While anecdotal evidence may not be as compelling as 
other types of information, it would only help NMFS develop a complete 
view of a given fishery. Does NMFS incorporate anecdotal evidence from 
fishermen in stock assessments? Why or why not?
    Answer. Anecdotal information is an invaluable part of the stock 
assessment process. Often, our first indicator of a shift in stock 
status comes from observations of commercial and recreational fishers 
who are out on the water. Input from fishers is obtained at question 
and answer periods and during public testimony held at each Fishery 
Management Council meeting, and through their Advisory Panel 
representatives at stock assessment workshops. NMFS makes a concerted 
effort to stay in touch with the participants of the fisheries and to 
take advantage of their ``on the water'' perspectives for verification 
of trends seen in the data, as well for insight into trends that may be 
less obvious by examination of the data alone. Observations provided by 
recreational and commercial fishers have been used to generate 
hypotheses that can be tested by conducting new studies or by analyzing 
existing data. Stock assessments are quantitative and as such, it would 
be rare to use anecdotal information, which is often qualitative, as a 
substitute for quantitative information. During a stock assessment 
workshop, such as the Southeast Data, Assessment and Review process 
(SEDAR) used for South Atlantic, Gulf of Mexico and Caribbean 
assessments, anecdotal information can be used to inform decisions that 
are made or to address questions that may arise regarding fishing 
practices, or changes in fishing patterns over the history of the 
fishery. Input from fishers or their Advisory Panel representative has 
been sought to address those questions. Use of anecdotal information in 
these ways is appropriate and strengthens the stock assessment process. 
Similar efforts to involve fishermen and their perspectives are 
practiced by the Northeast through species-specific working groups and 
the Northwest Fisheries Science Center via Pre-Assessment Workshops. 
While it may not always be obvious from examination of the final stock 
assessment product that gets published, the unique perspectives and 
evidence afforded by the various stakeholders is viewed as a critical 
part of the overall stock assessment process.

    Question 2. It is my belief that the National Marine Fisheries 
Service could find creative ways to manage fisheries that will avoid 
closures and minimize restrictions in the Gulf and South Atlantic. What 
are you doing to create flexible, creative solutions that will keep our 
fishermen on the water?
    Answer. NMFS recognizes the economic impacts of closures and other 
regulations on Gulf and South Atlantic fishermen and fishing 
communities, and we are committed to working with the Regional Fishery 
Management Councils to identify flexible and creative ways to achieve 
conservation mandates at the least cost. While Federal mandates require 
fishery managers to prevent overfishing by holding fisheries 
accountable to annual catch limits, NMFS is actively exploring 
opportunities to incorporate increased flexibility into the guidelines 
for specifying and managing Annual Catch Limits within the constraints 
of the law.
    NMFS is encouraging the Regional Fishery Management Councils to 
consider the variability around landings data when specifying Annual 
Catch Limits for data-poor species and when monitoring landings 
relative to Annual Catch Limits. For example, accountability measures 
adopted by both the Gulf of Mexico and South Atlantic Councils for some 
stocks require Annual Catch Limits to be compared to average landings 
over a three-year period, rather than to annual landings, to reduce the 
likelihood of unwarranted corrective action.
    In addition, NMFS is encouraging the Councils to consider measures 
to minimize the incidence of unplanned seasonal closures and/or Annual 
Catch Limit reductions. For example, the Gulf of Mexico Council 
recently approved a fixed two-month seasonal closure for greater 
amberjack to maximize the number of fishing days available to the 
recreational sector while reducing the likelihood of exceeding the 
Annual Catch Limit. The South Atlantic Council recently approved new 
measures to slow catch rates of black sea bass, gag and vermilion 
snapper for the same purpose. Finally, NMFS is also encouraging the 
Councils to consider the appropriateness and feasibility of using catch 
share management strategies to avoid unplanned closures and 
restrictions, as the individual fishing quota programs recently 
implemented in the Gulf of Mexico red snapper, grouper and tilefish 
fisheries have proven to be effective in this regard. However, such 
programs can be controversial and would not be implemented unless 
broadly supported by affected fishery participants.

    Question 3. How much precaution is necessary before regulations 
start to undermine the ability to harvest maximum sustainable yield?
    Answer. This question identifies the trade-off between the degree 
to which overfishing is prevented and the amount of foregone fishing 
opportunity in the short-term. This trade-off is also apparent in the 
harvest goal defined by the Magnuson-Stevens Act (and reiterated in the 
National Standard 1 Guidelines): to achieve the optimum yield from each 
fishery, while preventing overfishing (Magnuson-Stevens Act  2(b)(4)). 
Ideally, stock assessments would provide near perfect information on 
the maximum annual level of catch that would not be overfishing, and 
fishery monitoring and management systems would be able to control the 
catch to exactly that level. In that case, the sequence of annual 
catches would average out to the maximum sustainable yield without any 
overfishing. However, our knowledge of the fish stocks and our control 
of the fisheries are never perfect, so the best that can be achieved in 
the long-term will likely be somewhat less than the maximum sustainable 
yield while we aim to set catch levels as close to it as possible. The 
National Standard 1 Guidelines recommend that the inherent uncertainty 
of the fishery assessment and management system be taken into account 
so there is no greater than a 50 percent chance that overfishing will 
occur, consistent with the Magnuson-Stevens Act requirement that Annual 
Catch Limits be specified at a level such that overfishing does not 
occur. The National Standard 1 Guidelines recommend that the chance of 
overfishing be less than 50 percent, but does not provide a specific 
level because the trade-off between degree of reduction in catch and 
degree of reduction in chance of overfishing is very case-specific.

    Question 4. How does the National Marine Fisheries Service intend 
to address this conflict in 2011?
    Answer. The Regional Fishery Management Councils are responsible 
for assessing and specifying optimum yield for each fishery in their 
fishery management plans (see Magnuson-Stevens Act  303(a)(3) and 
(4)), subject to Secretarial approval. In addition to working directly 
with each of the Councils, NMFS provides descriptive yet flexible 
national guidance for assessing and specifying optimum yield, and will 
continue to work with the Councils to ensure that proposed management 
actions are appropriately analyzed according to requirements of the 
Magnuson-Stevens Act and other applicable laws (e.g., National 
Environmental Policy Act, Regulatory Flexibility Act, E.O. 12866, 
Endangered Species Act, etc.). The Council process is highly 
participatory, allowing fishermen and other stakeholders multiple 
opportunities to comment on and contribute to the development of 
proposed management action(s) in order to balance social, economic, and 
ecological objectives and to minimize negative social and economic 
impacts to the extent possible.
    NMFS has been, and will continue, assisting the Councils in 
implementing the new requirements for Annual Catch Limits in various 
ways, such as through participation in the National Scientific and 
Statistical Committee Workshops in 2008, 2009, 2010, and upcoming in 
September 2011. Presentations at the Scientific and Statistical 
Committee Workshops in 2009 and 2010 demonstrated potential methods to 
better calculate and portray the linkage between the degree to which 
fishing is reduced and the degree to which the chance of overfishing is 
reduced.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          Dr. Douglas DeMaster
    Question 1. The trawl surveys have been criticized for under 
sampling the fishing environment. Fishermen in Massachusetts are eager 
to see the type of technology Eric Schwaab witnessed at Northeastern 
University, namely the ocean acoustic waveguide remote sensing (OAWRS), 
which has the ability to instantaneously image fish populations over 
wide areas in highly complex environment used in stock assessments. 
This technology was presented to NOAA as early as 2003 and has yet to 
be utilized for any stock assessments. What steps in NMFS taking to 
explore new types of technology such as OAWRS and how are these 
technologies being integrated into stock assessments?
    Answer. NMFS' scientists at the Northeast Fisheries Science Center 
have been involved in Ocean Acoustic Waveguide Remote Sensing (OAWRS) 
research with investigators from Northeastern University and 
Massachusetts Institute of Technology from the outset of that field 
program. NOAA personnel are viewed as principal collaborators in 
published studies that have mapped large shoals of Atlantic herring 
abundance within the region. Our scientists are enthusiastic about 
potential broader applications of this technique, but have noted 
practical issues that must be addressed before this technology becomes 
a standard tool to develop stock assessment data. Any acoustic method 
requires long-term investment in the identification of species and size 
composition from acoustic signals, automation of that process, and 
biological validation of the results. While these methodologies are 
relatively well-developed for single pelagic species targets such as 
Atlantic herring, there has been relatively less progress with respect 
to multispecies bottom-dwelling targets such as the New England 
groundfish complex. Current regional research using OAWRS includes 
estimation of spawning aggregations of Atlantic cod, while they are 
densely distributed and off the bottom. Extension to multispecies 
results for the entire New England groundfish complex (including 
bottom-tending flounders) will likely require a core 5-10 year program 
to develop a robust operating version of what currently is research 
technology, and address the species identification, automated 
processing, validation and statistical modeling questions.
    NMFS Northeast Fisheries Science Center scientists have also been 
working closely with researchers at the Woods Hole Oceanographic 
Institution, NOAA's Office of Atmospheric Research, and the U.S. Navy's 
Office of Naval Research to evaluate broadband acoustic and optic 
underwater remote sensing systems. The Woods Hole Oceanographic 
Institution researchers have shown that broadband acoustic methods can 
resolve signals as individual fish at length, and when combined with 
biological sampling can detect multiple species within a single 
acoustic sample. This methodology could potentially be implemented in 
pilot mode with installation of a broadband transducer on an existing 
research vessel. Development of a towed optic underwater remote sensing 
system (Woods Hole Oceanographic Institution's Habitat Camera [HabCam]) 
to survey sea scallops has advanced to the point that several pilot 
surveys have already been undertaken, and a comparison of estimates 
from the video camera system versus traditional scallop dredge samples 
is planned for this summer. Development of video processing technology 
for that survey approach is in the initial test phase. Use of the 
HabCam system will enable NMFS to significantly expand the bottom area 
surveyed for sea scallop abundance. NMFS and NOAA's Office of 
Atmospheric Research are also working with the Office of Naval Research 
to develop the use of autonomous underwater vehicles (e.g., Remote 
Environmental Monitoring Units [REMUS] 100) coupled with an optic 
sensing system to survey bottom habitat for shell and finfish. A pilot 
study has just been completed in Massachusetts Bay.

    Question 2. In New England, critical management decisions are being 
based on data (GARM 2008) that are up to 3 years old. The time lag 
between the collection of data and the inclusion of that information 
into the management process is poor. The assessment process should be 
better aligned with the management process so that the best available 
science is available at the time decisions are made. There is also much 
concern from industry that time and money is being spent on cooperative 
research that never makes its way into stock assessments. I want NMFS 
and NOAA to improve the science and how it is utilized in the 
management process. What can be done to increase the frequency of stock 
assessments and more quickly incorporate the findings of cooperative 
research?
    Answer. NMFS recently released Phase I of the New England 
Management Review, which was an independent review that solicited 
information--positive and negative--from a variety of constituents and 
others knowledgeable about New England fisheries management. NMFS 
listened to feedback received, is taking this input seriously, and 
plans to act aggressively to build on the current system and improve 
the overall process. NMFS has a strong set of specific actions we are 
going to take to begin now to address concerns raised by people both 
inside and outside of this managements system and make improvements. 
The Review was very specific regarding the opportunity to improve 
science collaboration. It is critical that the science conducted by our 
Northeast Fisheries Science Center and partner research institutions is 
done in a more collaborative manner and in a way that maximizes 
involvement of fishermen in the findings.
    Cooperative research is an essential component of our science work 
and we committed to two actions: (1) NMFS will work and plan together 
with research and academic institutions and fishermen to make the best 
use of limited research funding to answer some of the critical 
questions facing New England fisheries; and (2) NMFS will immediately 
initiate an expedited mid-term review of the 2009 strategic plan for 
cooperative research to involve all regional cooperating institutions. 
The results will be incorporated into FY 2012 funding prioritization 
decisions.
    NMFS and the New England Fishery Management Council are in the 
process of re-engineering the stock assessment process to increase the 
frequency of stock assessments. At present, most stocks are reassessed 
every 5-8 years. Under the new process, almost all commercial stocks 
will be reassessed at least once every 3 years. This will be done 
largely by applying previously peer-reviewed baseline models to produce 
operational assessments, rather than going through development of a new 
benchmark model with every assessment. Stocks which require development 
of new assessment models will continue to be operationally assessed, 
while the new models are developed separately in a research track (this 
will avoid slowing the operational assessments for research). 
Scheduling operational assessments every 2-3 years will allow more 
timely incorporation of a variety of new data available from surveys 
and cooperative research, and will better align the frequency of 
assessments with the underlying biological variability in stock size. 
It will also provide a stable multiyear harvest level which will allow 
industry to better plan their investments in fishing effort.
    Fishery managers are also reviewing all of NMFS' Northeast Region's 
fishery management plans to determine if there are changes that may be 
necessary or may facilitate incorporation of more frequent assessments 
into management action. This could mean revising fishery management 
plans to allow for multi-year specifications, adjusting/aligning 
fishing years, and regrouping similar stocks within fishery management 
plans.
    The Northeast Region Coordinating Council has concluded their 
review of the proposed new process, and has charged NMFS and Council 
staff with development of an implementation plan. It is expected that 
this new process will be implemented in either 2013 or 2014, so as to 
not conflict with important benchmark assessments already planned for 
New England groundfish stocks and Atlantic herring.
    Two sets of data are generated by cooperative research to inform 
the assessment process: data on fish stock abundance and distribution 
like the Northeast Area Monitoring and Assessment Program (NEAMAP) 
inshore trawl surveys, and research on the biology of harvested species 
(including tagging studies). Data from survey efforts are incorporated 
into the assessment process as soon as a time series is sufficiently 
long to make the data useable statistically. For example, the NEAMAP 
surveys were not fully implemented until 2008, and will be used in 
assessments for the first time with this spring's winter flounder stock 
assessments, now that there is a 3-year time series available to 
monitor the trends shown in the survey. Other relevant research on 
stock biology is included as quickly as possible in the assessments. 
Again as an example, research on cooperative tagging research with cod 
in the Northeast was evaluated at a recent meeting of the New England 
Fishery Management Council's Scientific and Statistical Committee. 
Based on this, a special review of Atlantic cod stock structure will be 
convened in 2011-2012 to determine if the current two stock definition 
for Atlantic cod in U.S. waters is still consistent with the best 
available scientific and commercial data.

    Question 3. What steps can be taken to lower the high amount of 
scientific uncertainty that is built into catch levels?
    Answer. Specification of catch limits begins with the calculation 
of a stock's Overfishing Limit, which is the maximum allowable catch 
that could be taken from a stock in a given year without causing 
overfishing. The Overfishing Limit is measured with uncertainty that 
arises from the underlying model and its assumptions. Roughly speaking, 
a catch recommendation set exactly at the mean Overfishing Limit would 
have a 50 percent chance of overfishing and 50 percent chance of not 
overfishing the resource. Acceptable Biological Catches represent the 
reduction in catches necessary to ensure that overfishing does not 
occur. The primary steps necessary to minimize the catch buffers are to 
reduce the uncertainties in the stock assessment model.
    Uncertainty in stock assessment models arises from the imprecision 
of basic data in the stock assessment model and from assumed 
mathematical relationships in the model. Imprecision in the data is 
called observation error; imprecision in the mathematical relationships 
is known as process error. Both types of uncertainty can be addressed 
through improvements in the: (1) quality and timing of data collection 
and processing; (2) sampling strategies; and (3) basic research.
    Improvements in the collection of commercial landings data include 
application of quality assurance and control procedures, and 
implementation of outreach strategies to inform fishermen about the 
critical importance of the data they provide. Incomplete or missing 
landings data increase the uncertainty in measures of abundance and 
fishing mortality rates. Similarly, accurate estimates of discards are 
important for establishing the scale of populations. If discards are 
underestimated then population estimates will be biased low and the 
potential productivity of the fishery will be underestimated. Another 
step toward reducing the uncertainty of stock assessments is through 
improved sampling strategies for allocating observer coverage, 
collecting biological samples from fisheries, and conducting fishery-
independent surveys. Increases in sampling coverage will nearly always 
improve precision (and reduce uncertainty), but increases in sampling, 
coupled with improved designs, can lead to even greater gains. Finally, 
there is much to be gained through basic research and collaborative 
research efforts. Basic research on factors such as natural mortality 
can be accomplished through improvements in sampling, monitoring, and 
experimentation. A well-designed experiment can pay huge benefits.
    Collectively these steps can reduce the uncertainty in the model 
inputs and uncertainty in model structure or parameterization. No 
single step is sufficient to reduce the uncertainty so it is unwise to 
invest solely in one component without considering the whole system.
    As NMFS continues to monitor the response of fish stocks to the 
fishery, greater certainty will gradually be achieved. The rate at 
which greater certainty is achieved depends upon the biology of the 
fish stock and the level of scientific data collection. NMFS has been 
using budget increases in the Expand Annual Stock Assessment budget 
line to increase scientific data collection by providing for additional 
fish abundance surveys, increasing the collection of data from the 
fisheries, and assessing more fish stocks more frequently. NMFS works 
with the fishing industry to collect additional data through 
cooperative research. In addition, NMFS is using advanced sampling 
technology, such as that on the four new NOAA Fishery Survey Vessels, 
to improve the accuracy and timeliness of scientific data collection. 
The at-sea monitoring and new reporting required under the Sector 
management system will provide additional valuable information to help 
reduce uncertainty in groundfish assessments.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Dr. Douglas DeMaster
    Question 1. I have heard many scientists argue that we are still 
grappling with the core scientific questions that lie at the heart of 
the conflicts between Steller sea lions and fishermen in the North 
Pacific. After many millions of dollars spent on research, we still 
cannot definitively say to what extent fishing is impacting Steller sea 
lion populations. Under the Endangered Species Act, NMFS is required by 
law to arrive at an answer, but scientifically we still lack a 
fundamental understanding of the answer to that question with any 
certainty. Would it be useful to consider an adaptive management 
approach, where the fishery management regime is designed as a series 
of experimental treatments with the explicit purpose of attempting to 
answer some of the fundamental Steller sea lion questions?
    Answer. NMFS attempted to implement an adaptive management 
framework in its 2000 Biological Opinion (BiOp). In that approach, 
fishing grounds in the Gulf of Alaska and Bering Sea/Aleutian Islands 
were divided into 13 zones. Some of these areas would have been closed 
to fishing; others open, but with certain restrictions. On inspection 
by the North Pacific Fishery Management Council and based on public 
comment, this approach would have had devastating economic impacts for 
the groundfish fishery in Alaska. The fundamental problem in any 
adaptive management approach is twofold: (1) the contrasts between 
different areas has to be sufficient to produce statistically 
significant results, which creates problems for fisheries in certain 
areas, and (2) the time-frame to achieve statistically significant 
results is relatively long (e.g., 5-10 years), and is therefore 
difficult for a Federal agency to support throughout the life of the 
experiment.
    The 2003 National Research Council report on declines in Steller 
sea lion abundance, Decline of the Steller sea lion in Alaskan waters; 
untangling food webs and fishing nets,\2\ encouraged NMFS to reconsider 
an adaptive management approach. In response, NMFS worked closely with 
the North Pacific Fishery Management Council. Efforts were made to 
solicit proposals for robust experimental approaches that included 
close cooperation with the fishing industry. After approximately 18 
months of effort, no proposals were forthcoming from any State, Federal 
or private institutions.
---------------------------------------------------------------------------
    \2\ National Resource Council. 2003. Decline of the Steller sea 
lion in Alaskan waters; untangling food webs and fishing nets. National 
Academy press. Washington, D.C. 184 pp, available at http://
www.amazon.com/Decline-Steller-Lion-Alaskan-Waters/dp/0309086329.
---------------------------------------------------------------------------
    NMFS has implemented several small scale experiments that were 
intended to be responsive to the recommendations of the National 
Research Council, but also acceptable to the North Pacific Fishery 
Management Council (e.g., study on pollock in the vicinity of Kodiak 
Island; study on cod in the Unimak Pass area; and study on Atka 
mackerel in the Aleutian Islands). The details of these studies are 
described in the 2010 Biological Opinion.

    Question 2. What would be some potential benefits of utilizing an 
adaptive management approach for Steller sea lions and the fishing 
industry in the North Pacific? What outcomes would we hope to achieve 
under such an approach?
    Answer. Adaptive management experiments are typically designed to 
answer specific management questions. Over time and with constancy in 
operations, area-specific contrasts in specified metrics are 
statistically tested to ascertain whether a particular hypothesis is 
consistent with the available data. For example, in the proposed 
adaptive management experiment described in the NMFS BiOp (2000), 
changes in trends in abundance and pup condition were to be tested 
between areas closed to fishing and areas open, but with some 
restrictions. The spatial and temporal scale of these experiments to 
address complicated ecological relationships has to be large. 
Therefore, to be effective, such experiments tend to be costly to 
implement and disruptive to local constituents. Nonetheless, the 
expected outcome of such an approach, if appropriately designed and 
effectively implemented, would be to accept or reject specific 
hypotheses that have to do with the relationship between commercial 
fishing and the lack of recovery in the western Steller sea lion 
Distinct Population Segment.

    Question 3. Hasn't adaptive management been recommended and/or 
proposed in the past with respect to Steller sea lions?
    Answer. NMFS recommended an adaptive management approach in past 
BiOps (e.g., 2000). Further, the National Research Council and the 
North Pacific Fishery Management Council have also recommended that 
NMFS attempt to design an adaptive management experiment that was 
statistically robust, affordable, and acceptable to the fishing 
community. Efforts to date to design such an approach have not been 
successful.

    Question 4. Under the current management, research, and monitoring 
regime, is it likely that we will still lack definitive answers to the 
core questions discussed above five or 10 years from now? To have any 
hope of dramatically increasing our understanding of those fundamental 
questions, do we need a different approach (like possibly adaptive 
management)?
    Answer. Over the past 15 years, considerable understanding has been 
achieved. For example, there is general agreement that the current lack 
of recovery is primarily a problem in the western and central Aleutian 
Islands and to a lesser extent in the central Gulf of Alaska. In 
addition, a statistically significant improvement in trend in abundance 
in the decade of the 1990s compared with the most recent decade was 
detected. Nonetheless, the Endangered Species Act requires that NMFS be 
able to ensure that management actions have removed the likelihood of 
jeopardizing the existence of listed species or adversely modifying 
their critical habitat.
    The existing approach implemented by NMFS in 2011 can be considered 
an application of adaptive management. That is, there are three 
contrasts in fishing practices established: (1) closure; (2) reductions 
in catch levels and spatial restrictions; and (3) no change. Therefore, 
NMFS can test various hypotheses regarding relations between Steller 
sea lions and commercial fishing, using data from the 1990s (overall 
period of decline), 2000s (overall a period of stability, with 
significant declines in certain sub-regions and significant increases 
in other sub-regions), and the next decade. Critical to our full 
utilization of this paradigm is funding to support: (1) biennial 
surveys of pups and non-pups; (2) biennial surveys of fish biomass in 
the Aleutian Islands; (3) food habits studies in each of the seven sub-
regions; (4) tagging studies to better determine the manner in which 
different age and sex classes forage inside and outside of critical 
habitat; and (5) life history studies to allow for the estimation of 
age and sex specific rates of natality and survival.

    Question 5. Would NMFS be open to considering or discussing 
adaptive management for North Pacific fisheries with respect to Steller 
sea lions?
    Answer. NMFS welcomes working with the North Pacific Fishery 
Management Council and other entities in an effort to design, fund, and 
implement an effective adaptive management experiment to better 
understand whether commercial fishing in Alaska is having a negative 
impact on the recovery of western population of Steller sea lion. NMFS 
has pursued small scale experiments to address uncertainty in 
qualifying the relationship between Steller sea lions and commercial 
groundfish fisheries in the past. In 2011, NMFS, with support from the 
industry and the North Pacific Research Board, intends to conduct 
tagging studies on Atka mackerel in the Aleutian Islands. Recovery of 
tags will provide information on movement patterns of Atka mackerel 
between critical habitat and area outside of critical habitat. If the 
information provided from this study indicates an ability to revise the 
existing management regime in a manner that would be consistent with 
the ESA, yet beneficial to the fishery, NMFS will implement the process 
needed for such a change.

    Question 6. For such an approach to be successfully designed and 
implemented, do you believe that it would require the support and 
participation of stakeholders such as the fishing industry and 
environmental groups?
    Answer. Yes, all relevant stakeholders should be involved to 
maximize the likelihood of success in this type of adaptive management 
experiment. At the very minimum, the North Pacific Fishery Management 
Council and directly affected fishing interests would have to be 
involved, given the necessarily large differences between treatments 
and control for there to be any chance of statistical robustness.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                          Dr. Douglas DeMaster
    Question. You provided a general overview of how fishery stock 
assessments are prioritized by NMFS. The 2010 BP oil spill severely 
impacted the Gulf Coast fishing industry, and there remains a high 
level of scientific uncertainty regarding how fish populations were 
affected and how they might recover. Considering the broad impacts of 
this tragedy in the Gulf of Mexico region, how will NMFS prioritize the 
assessment of fisheries critical to the Gulf Coast economy?
    Answer. In FY2010, Congress provided a $10.4 million increase to 
the Expand Annual Stock Assessments budget line. This increase enabled 
NMFS to provide substantial new resources to enhance our capabilities 
for conducting and reducing uncertainty in stock assessments in the 
Gulf of Mexico. Even prior to the BP oil spill, NMFS used a portion of 
the FY 2010 increase in stock assessment funds (the Expand Annual Stock 
Assessment budget line) to add additional assessment scientists to the 
NMFS Southeast Fisheries Science Center. The addition of these 
scientists will allow NMFS to conduct more comprehensive analyses of 
available data for Gulf of Mexico, South Atlantic, Caribbean, and 
Atlantic highly migratory species stocks, and to update the assessments 
for more stocks more frequently.
    In addition, because of the BP oil spill, the NMFS Southeast 
Fisheries Science Center received a one-time infusion of $10 million in 
FY 2010 emergency supplemental funding to enhance our ability to assess 
stocks in the Gulf. To maximize the benefits derived from these funds, 
the NMFS Southeast Fisheries Science Center and the Gulf States Marine 
Fisheries Commission organized two workshops in August and September 
2010, to evaluate and improve the sampling design of the surveys 
conducted by the Southeast Area Assessment and Monitoring Program. 
Subsequently these funds were distributed to maximize the impact for 
enhancing stock assessments in the Gulf. Over half of the funds were 
provided to the Gulf States Marine Fisheries Commission for chartering 
commercial vessels to conduct additional fishery-independent surveys. 
The remaining funds were used to contract for additional scientists for 
staffing these surveys at sea, increased observer coverage to improve 
data on bycatch in commercial fisheries, increase capacity for 
processing biological samples for incorporation of age data into stock 
assessments, and improve data processing and management for trip 
tickets and electronic reporting in the for-hire segment. In addition, 
a portion of these funds was used to provide 2 years of support for an 
additional staff member for the SouthEast Data, Assessment, and Review 
(SEDAR) process for supporting additional peer-review activities 
related to assessing Gulf of Mexico stocks.
    NMFS's criteria for prioritizing stocks for assessments were also 
applied to help identify the highest priority stocks for assessments. 
Briefly, these criteria are:

  <bullet> Economically valuable stocks and associated fishery limiting 
        stocks with high uncertainty;

  <bullet> Intensity of fishing: if overfishing is occurring;

  <bullet> Stock abundance : if the stock is overfished or on a 
        rebuilding plan;

  <bullet> Assessment frequency: if the current assessment is over 5 
        years old;

  <bullet> Stock importance: if the stock is of high commercial or 
        recreational value; and

  <bullet> Synergy factors: if a small increment can produce an 
        assessment or contribute to other assessments.

    Given these enhancements to NMFS Southeast Fisheries Science 
Center's capacity to generate and analyze the data used in stock 
assessments, current plans are to assess Gulf stocks of vermillion 
snapper and grey triggerfish in 2011 and red snapper and mutton snapper 
in 2012. In addition, the enhanced data collections and processing will 
contribute to improved assessments for several other Gulf stocks in the 
future, including red grouper, gag grouper, amberjack, and shrimp.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to William Hogarth, Ph.D.
    Question 1. Will NMFS be able to utilize scientific data from 
sources outside the agency (such as data from academic institutions) in 
their stock assessment process?
    Answer. Yes. Magnuson encourages this. I believe this is a key to 
improving our fisheries independent data.

    Question 2. How could collaborative research efforts between NMFS 
and fishing communities be improved to increase the amount and accuracy 
of stock assessment data?
    Answer. Funds have been one of the problems with maintaining a good 
scientifically, defensible cooperative research program. With the 
regulations being required to rebuild the stocks, cooperative research 
becomes more important to obtaining the necessary fisheries independent 
data.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         William Hogarth, Ph.D.
    Question 1. Thanks for all your work on the Deepwater Horizon oil 
spill and for your testimony. What is your perspective on the fact that 
the reauthorization of Magnuson required a new Marine Recreational 
Information Program by January of 2009?
    Answer. I think this is essential to obtaining an accurate count of 
the recreational catch. The recreational industry is huge in many 
states such as Florida, and is a vital part of the State's economy. It 
is critical to have accurate catch and effort data in order to conduct 
scientifically stock assessment.

    Question 2. Does the lack of accurate data on recreational effort 
and catch hamper efforts to manage fisheries?
    Answer. Absolutely.

    Question 3. What could be done to improve fishery independent data, 
given the current fiscal constraints?
    Answer. We can rely more cooperative research, but we must find a 
way to fund the fuel costs for the NOAA research fleet. The number of 
days at sea for surveys has decreased by 48 percent from 2008 to 2011 
for NOAA vessels supporting fisheries missions. Priority has to be set 
on the economically important fishery surveys. See attachment 1.
                               Appendix 1

                                            FY05-10 Accomplished DAS
----------------------------------------------------------------------------------------------------------------
                           Ship                               2005     2006     2007     2008     2009     2010
----------------------------------------------------------------------------------------------------------------
Albatross IV                                                    239      236      195      136       42
Belle M. Shimada                                                                                              37
David Starr Jordan                                              239      234      243      239       83
Delaware II                                                     215      222      159      197      214      148
Fairweather                                                     211      164      177      165      176      192
Gordon Gunter                                                   227      198      191      132      233      121
Ferdinand Hassler
Henry B. Bigelow                                                                   39      161      182      111
Hi'ialakai                                                      184      234      196      210      172      203
John H. Cobb                                                    157      125      161      145
Ka'imimoana                                                     234      231      198      223      147      208
McArthur II                                                     172      237      184      206      189      211
Miller Freeman                                                  218      232      243      202      135      171
Nancy Foster                                                    236      185      191      193      158      137
Okeanos Explorer                                                                            59      132      191
Oregon II                                                       233      227      174      229      217       40
Oscar Dyson                                                     120      130      212      230      215      203
Oscar Elton Sette                                               238      232      220      218      212      200
Pisces                                                                                               11      131
Rainier                                                         212      190      172      192      183        0
Ronald H. Brown                                                 224      243      232      197      213      165
Thomas Jefferson                                                175      191      172      186      179      157
----------------------------------------------------------------------------------------------------------------
Total DAS                                                     3,534    3,511    3,359    3,520    3,093    2,626
----------------------------------------------------------------------------------------------------------------
NMFS DAS                                                      1,988    2,012    1,974    2,044    1,733    1,331
----------------------------------------------------------------------------------------------------------------
% NMFS                                                         56.3     57.3     58.8     58.1     56.0     50.7
----------------------------------------------------------------------------------------------------------------
Yellow denotes ship under construction/conversion.
Red denotes ship permanently deactivated.
Notes: FY05--FY10 accomplished DAS includes program funded DAS in addition to base funded DAS. FY10 and FY11 DAS
  do not include reimbursable DWH response activities. FY11 and 12 are estimates based on FY11 draft Fleet
  Allocation Plan and FY12 President's budget request.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         William Hogarth, Ph.D.
    Question 1. When you were head of the Fisheries Services several 
years ago under the Bush Administration, what areas of Magnuson-Stevens 
implementation did you feel were the most challenging?
    Answer. Recreational aspects because the fishery is extremely 
important but we did not have a credible program to collect accurate 
catch information. Most of the regulations were therefore, placed on 
the commercial industry. With some 500 species to be managed, it is 
fiscally impossible in my opinion, to adequately sample and conduct 
regularly scheduled stock assessments for all species.

    Question 2. Could you specifically explain the need to improve our 
recreational fishery data? Does this continue to be an area where we 
need significant improvement?
    Answer. The recreational catch in my instances can be as large or 
larger than the commercial catch for certain species. We simply do not 
have a reliable method to obtain the recreational catch, which is 
critical for the stock assessments. Inaccurate catch data have 
ramification on the stock assessment which could cause lower quotas and 
consequently reduction in jobs, etc. Even though the Magnuson 
reauthorization required a new recreational methodology and licensing 
of fisherman fishing in Federal waters, the program has not been 
implemented. It should be immediately.

    Question 3. If Congress underfunds the National Marine Fisheries 
Service, will this translate into management, scientific, and economic 
challenges for our Nation's fishing industry? Is it possible it could 
result in lost jobs?
    Answer. In my opinion NMFS is already underfunded and by not having 
necessary data to conduct stock assessments and rebuild stocks we are 
not realizing an approximately $2 billion increase in fishing revenue. 
In the Gulf of Mexico for example we do not have background information 
of many species, are not conducting sufficient surveys to provide 
timely-stock assessments. The number of days at sea per NOAA research 
vessel has declined from about 195 in 2000 to 153 in 2011 projected and 
even lower for 2012. These vessels could operate 240 days per year. The 
total number of days for the vessels supporting fisheries mission has 
decreased 48 percent from 2008 to 2011, which in turn translates into 
less fisheries independent data, etc, to conduct the stock assessments 
which are critical for implementing effective regulations to rebuild 
stocks and prevent overfishing. Also, lack of funding increases the 
uncertainty in the stock assessments which results in lower catches and 
greater economic losses to the fishing industry and communities. 
Without accurate and essential data the Agency must respond 
conservatively which means reduced catches and loss of jobs, etc 
throughout the industry.

    Question 4. Do you believe that there are currently major fisheries 
being managed in the U.S. that need more data and better science?
    Answer. Absolutely. Critical need for more fisheries independent 
data and more frequent stock assessments.

    Question 5. Do we have any data-poor fisheries that require major 
investment? If so, which fisheries?
    Answer. Wahoo, mahi-mahi, tuna, snapper/grouper, sharks, mixed 
stock species, groundfish to mention a few. Data poor stocks need to be 
addressed as all data poor stocks are not recreationally or 
commercially valuable, but are important from ecosystem perspective. 
Many of these species spend a small amount of their life in U.S. 
waters.

    Question 6. How can the Fisheries Service gain credibility with 
fishermen in those fisheries that have had a history of data 
deficiency?
    Answer. Create program such as cooperative research that utilizes 
industry, have regular sessions with fisherman to receive input and 
discuss and exchange ideas. Improve, data collection and improvement 
stock assessment schedule to provide more frequent updates to 
fishermen.

    Question 7. What are the long-term consequences of NOT investing 
appropriately in the science we need for those fisheries?
    Answer. Over restrictive regulations, stocks that are not rebuilt 
and a loss of revenues of approximately $2 billion annually to the 
fishing industry. Greater uncertainty in science, increased 
disagreements with fishing industries, both recreational and 
commercial.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         William Hogarth, Ph.D.
    Question 1. Do you believe there should be flexibility on the 
rebuilding timelines of some key ``choke'' stocks that are currently 
considered to be overfished, but where there is no overfishing 
occurring?
    Answer. As you know, I was NOAA's Assistant Administrator for 
Fisheries when the Magnuson-Stevens Act was reauthorized in 2007. At 
that time, I reasoned that if strong controls on ending overfishing 
were front-loaded into rebuilding plans, and overfishing was avoided, 
that greater flexibility in the recovery process would follow for 
normal variations in fish stocks. Of course, the final version of MSRA 
retained the 10-year rebuilding time frames, but with significant 
exceptions. Those exceptions are for stocks where the life history 
would not allow rebuilding in 10 years, or where international 
fisheries agreements must reflect differing laws and systems occurring 
in each nation. In the case of New England fisheries, a number of 
stocks such as Georges Bank cod, Acadian redfish and Atlantic halibut 
have the exceptions for longer time lines allowed under the Act because 
of their life histories. In the case of other Georges Bank stocks 
(e.g., yellowtail flounder) their bilateral status allows them longer 
time frames for rebuilding also consistent with MSRA. As demonstrated 
in the 2010-2011 fishing year, given proper incentives, fishermen can 
avoid weak stocks to the extent that they do not constrain the fishery 
into premature shut downs. Thus, with respect to the time lines for 
rebuilding, these do not seem to be the limiting factor in allowing the 
fishery to achieve its annual optimum yields. Rather, I think there 
needs to be greater emphasis on gear technology development to avoid 
weak stocks, combined with greater real time bycatch information shared 
by the fishermen, similar to the situation in the Alaskan fisheries. 
With only 1 year of experience in the current New England groundfish 
management system I think there should be a careful review of what 
works and what needs improvement with the goal of maximizing harvests 
under the species TACs that prevent overfishing. Managing mixed-species 
fisheries under stock rebuilding plans is one of the greatest 
challenges of fisheries management because of the different rates of 
rebuilding of productive and less productive species. Our challenge is 
to rebuild the diversity of the fisheries, which is one of the factors 
that sustained them for hundreds of years.

    Question 2. Are there any modifications to the Act of further 
guidance that could assist in achieving the recovery of species in a 
cost-effective manner?
    Answer. The Magnuson-Stevens Act is without doubt the premier 
fisheries law in the world. Many recent global reviews have emphasized 
the importance of having clear definitions of who much fishing is too 
much and for clear standards for fishery management plans, such as 
those in MSRA. The recent reauthorization in 2007 will accomplish what 
we all think is its most important goal--to finally rid the country of 
overfishing and to set all stocks on a path to rebuilding. However, 
considerable challenges persist. I think that there are two areas in 
which we must continue to emphasize.
    First, the MSRA has as its key, the use of best science available 
with which to manage the fisheries. While the agency and the states are 
doing the best they can with what they have, we need to increase the 
amount, quality and timeliness of scientific information available to 
the Councils and the Secretary. In some regions of the country, stock 
assessments only occur every 5 years or so, and even then, limited or 
no fishery independent data are available. Similarly, the use better 
information on recreational fisheries, as called for by the National 
Research Council, needs to be operationalized by NOAA/NMFS and the 
states. Increased funding for stock assessments, fisheries dependent 
and independent data collection using a cooperative research framework 
are imperative--the credibility of the management system relies on high 
quality, timely scientific information.
    Second, while ending overfishing in the United States will provide 
more seafood for our domestic and export markets, the United States 
still imports over 80 percent of its seafood. Some of this comes from 
nations with much less restrictive management controls than ours. We 
have an obligation to assist in increasing global fishery management 
effectiveness. Programs to identify and help countries eliminate 
illegal, unregulated and unreported (IUU) fishing, combined with strong 
partnerships in regional fishery management organizations (RFMOs), and 
technical assistance to other countries will help assure the 
sustainability of world fisheries and make sure that U.S. fishermen 
compete on a level playing field. A strong national policy on 
aquaculture would also go a long way in increasing the consumption of 
domestically-produced seafood.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Stephanie Madsen
    Question 1. Has the At-Sea Processors Association ever lobbied 
Congress to increase a fish catch limit that was set by the North 
Pacific Council?
    Answer. No, APA has never sought support from Congress to influence 
the setting of annual catch levels set by the North Pacific Council.

    Question 2. How often, if ever, do fishermen from the North Pacific 
lobby Members of Congress to increase fish harvest quotas? If not, why 
not?
    Answer. I am not aware of any instance in which commercial fishing 
interests participating in federally-managed fisheries in waters off 
Alaska lobbied Members of Congress to influence or supersede the annual 
catch limits recommended by the North Pacific Council and approved by 
the Secretary of Commerce. Commercial fishing interests participate 
fully in the public process by which annual catch limits are set. NOAA 
Fisheries' stock assessment experts freely share data from stock 
surveys. NOAA Fisheries' scientists are accessible and open to 
discussing their findings with interested industry members.
    Stock assessment reports are peer-reviewed by two panels--the North 
Pacific Council's Groundfish Plan Team and Scientific and Statistical 
Committee (SSC). The Plan Team and SSC are comprised of Federal, state 
and independent scientists. Both scientific panels recommend to the 
Council a safe harvest limit and the Council then determines a catch 
limit at, or below, the safe harvest limit proposed by the panels. It 
simply would not be credible for the industry to come to Congress to 
argue for an annual catch limit that contradicts the findings of the 
stock assessment author(s) and the science panels or the decision of 
the Council.

    Question 3. It seems that fishermen on the east coast and in the 
Gulf of Mexico approach their Members of Congress frequently asking for 
political intervention to raise fishery quotas and total allowable 
catch. Why do you think this difference exists between the East and 
West coasts?
    Answer. While I don't have firsthand knowledge of the situation on 
the east coast and Gulf of Mexico, in conversations with colleagues in 
the industry there appears to be a lack of confidence in NOAA 
Fisheries' stock assessment work on the east coast that contrasts 
starkly with our experience in the Alaska region. Uncertainty is a part 
of stock assessments and the data is always open to interpretation. If 
the industry does not have confidence in the data collection and 
analytic processes, then it is more likely to seek to have its 
interpretation of the science adopted through the political process.

    Question 4. If the North Pacific pollock fishery were managed with 
little data and poor science, how do you think it would change the 
management dynamics in your sector?
    Answer. The existing healthy, collegial working relationship 
between stakeholders, including the commercial fishing industry, and 
NOAA Fisheries and the Council would certainly be strained if there was 
great uncertainty in the science across a range of management issues. 
Assuming that a precautionary, ecosystem-based management approach was 
still applied in a world of much greater scientific uncertainty, one 
certainty is that economic returns would be lower as catch levels would 
be reduced to account for the uncertainty.

    Question 5.How important is it to your fleet and the jobs in your 
industry that Congress appropriate sufficient funding to the Fisheries 
Service to conduct fisheries surveys, collect fisheries data, and 
conduct thorough stock assessments?
    Answer. It is critically important that Congress continue to fully 
fund fisheries surveys, data collection, and stock assessment work. 
Federal groundfish fisheries in waters off Alaska account for about 40 
percent of all fish landed annually in the U.S. The fishery is worth 
more than $1.0 billion at the primary processing stage. The current 
modest Federal investment in basic science results ensures abundant 
fishery resources that sustain a very healthy and important commercial 
fishing industry in Alaska and the Pacific Northwest. We are already 
quite concerned about the lack of funding for cooperative research and 
for NOAA survey ship time, and we urge Congress to fully fund core NOAA 
fisheries science programs.

    Question 6. From your experiences in the North Pacific, does 
implementation of catch shares sometimes lead to consolidation?
    Answer. Yes. In the North Pacific region, catch share programs have 
been implemented in the halibut/sablefish fishery, the crab fishery, 
the Alaska pollock fishery, and the non-pollock groundfish fishery. In 
each instance, while the stocks were managed at sustainable levels 
through science-based catch levels and rigorous catch accounting 
requirements, the race to catch the available quota resulted in 
overcapitalization of the fisheries. The over-investment in vessels and 
processing facilities versus the return on that investment was not 
economically sustainable. Catch shares allowed less efficient producers 
to sell their shares and exit the fishery, allowing the fishery to 
achieve a rational balance between the value of the catch and the 
investment in production.
    The North Pacific Council, however, has implemented rules to place 
upper limits on how much of the annual catch any one entity can 
control. Each catch share fishery has different characteristics, and 
the Council has tailored consolidation limits to meet socio-economic 
goals for each individual catch share program.

    Question 7. How do catch shares typically impact fishing jobs? Do 
fishing jobs get eliminated? Do they change in terms of stability and 
whether they are seasonal or more permanent in nature?
    Answer. There is often a difficult transition period when a catch 
share program is implemented as excess fishing and harvesting capacity 
is retired through the economic rationalization of a fishery through 
catch shares. Jobs are often lost in this transition. However, the 
experience of the catch share programs in Alaska is that the jobs that 
remain pay higher wages, are more stable and secure, and safer. With 
fishing capacity reduced, fishing seasons last longer. Crewmembers, 
whose pay is generally based on the value of the catch, see incomes 
rise as the remaining vessels have more days at sea. With a guaranteed 
share of the catch assigned to a vessel, jobs are more stable. If there 
is an operational problem with the vessel, repairs can be made and the 
vessel can return to the fishing grounds without sacrificing 
production. It is very much our experience in Alaska that while there 
are generally fewer jobs, the jobs are better.

    Question 8. You represent a sector that is big and corporate in 
nature, and some fishermen fear that catch shares will mean the end of 
small, family fishing businesses. In your view, do catch shares 
inevitably only help the ``big guys'' and hurt the ``little guys''? 
Does it depend on how a given catch share system is designed and 
structured?
    Answer. Good catch share programs are designed to accomplish 
publicly stated goals for managing both the fish stock and the fishery 
participants. In Alaska, prior to having a catch share program, the 
halibut/sablefish fishery was conducted by smaller longline vessels 
operated by fishing families. That is pretty much the situation today 
almost 20 years after the halibut/sablefish catch shares program was 
implemented. The difference is that there are more full-time fishermen 
and fewer part-time fishermen, the fishery is no longer 
overcapitalized, and the season lasts 6 months instead of 2 days. It is 
safer and more professional, but the fishery is still conducted by the 
``little guys.'' In the Alaska pollock catcher/processor sector, we 
still have single vessel operators as well as larger companies that own 
multiple catcher/processors. To some extent, consolidation limits that 
are part of the program design help preserve diversity in the fleets, 
but just as important is that a rational management system rewards 
efficient operators regardless of the size of their companies.

    Question 9. Can you please explain how the implementation of catch 
shares impacts fishing safety?
    Answer. The most obvious safety benefit of catch share programs is 
that because a harvester is assured a percentage of the catch, the 
harvester is not penalized for staying in port (or returning early to 
port) for weather-related reasons or if a mechanical problem develops 
on the vessel. Also, ending the race for fish eliminates any incentive 
for crewmembers to work beyond their limits where long hours or 
exhaustion can lead to workplace accidents.

    Question 10. Have catch shares had a positive impact on fishing 
safety after they have been implemented in the North Pacific?
    Answer. Yes. The small boat halibut/sablefish fishery is much safer 
now that participants are not locked into two one-day openings per year 
where they feel compelled to fish regardless of weather conditions. 
Also, vessel owners can more easily attract experienced, professional 
crewmembers under the catch share program, and that undoubtedly 
promotes a safer operating atmosphere. There have been similar 
improvements in the safety record of the crab fleet following 
implementation of a catch share program. The Alaska pollock fleet, 
which operates larger, stable trawl vessels, maintains a good safety 
record; improving vessel safety was not a factor for the pollock fleet 
in pursuing a catch shares program.

    Question 11. From your experience, in what ways do catch shares 
change fishing behavior that impact safety and environmental 
stewardship?
    Answer. One immediate benefit of creating fish harvesting 
cooperatives for the catcher/processor fleet was implementing an 
information sharing system in which each co-op member shared catch 
information with other members. This data sharing provided vessel 
captains with real-time information about areas where higher catch 
rates of non-target species could be expected, so vessel captains knew 
to avoid such areas. In fact, co-op members entered into legally 
binding contracts to voluntarily close such ``bycatch hotspot'' areas. 
Such an approach is feasible under a catch share program since a vessel 
captain can take the time to search for other productive fishing 
grounds when the vessel's share of the catch is assured.

    Question 12. Have you ever seen a catch share system that made 
safety problems worse, or is the impact always a positive one?
    Answer. No, I am not familiar with any catch share program that 
created safety concerns. As noted above, improving safety was a major 
impetus to developing catch share programs for halibut/sablefish and 
crab, but it was not a significant factor in rationalizing the Alaska 
pollock fishery. If there were improvements in safety realized in the 
pollock fishery, it was from creating stable, higher wage jobs that 
increased retention rates among employees, enhancing the experience and 
expertise of crewmembers. I can think of no scenario where 
rationalizing a fishery exacerbated safety issues.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                            Stephanie Madsen
    Question. You raised concerns about the current stock assessments 
and the level of uncertainty in management decisions of the 
groundfishery. While clearly we must have additional cooperative 
research, increased surveys to inform stock assessments, and more 
baseline assessments, since there will always be some uncertainty in 
these assessments, the broader question is how we incorporate 
scientific uncertainty into these management decisions. Deferring to 
caution and reducing total allowable catch can destroy a community, 
such as Prospect Harbor, Maine, which lost its supply of herring for a 
sardine factory. At the same time, we have seen the negative 
consequences of overfishing, and we should not use uncertainty in the 
data as an excuse to continue to overfish. How would you recommend that 
the Councils and NMFS incorporate scientific uncertainty into fisheries 
management decisions? Do you believe that the economic conditions of 
specific fishing communities should be also considered in these 
decisions, and, if so--how?
    Answer. While there are technical aspects of incorporating 
scientific uncertainty into stock assessments that I am not qualified 
to speak to, as a former Council Chair, I looked to the Magnuson-
Stevens Act National Standards to guide my decisionmaking. National 
Standard #1 mandates that conservation and management measures achieve 
optimum yield, and National Standard #2 requires use of the best 
available science in the decisionmaking process. The first standard 
emphasizes the importance of maintaining a healthy fishing industry 
while protecting the resource from overfishing, and the second standard 
recognizes that the science need not be perfect, but the best 
available. From time to time, we might lose focus on the importance of 
food production and job creation in fisheries. That said, I don't want 
to suggest that fishery managers should be less precautionary based on 
the economics of the situation. I believe we need to strike the 
appropriate precautionary balance in setting catch limits regardless of 
the economic circumstances facing a particular fishing community.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Vito Giacalone
    Question 1. How specifically would you change the process by which 
catch allocations are determined, if not based on historical catch 
data?
    Answer. In my opinion, the initial allocation is the most critical 
consideration in the process of developing a plan to implement a catch 
share type of system. To be consistent with MSRA, a plan should 
consider current investment in and reliance upon the fishery from both 
a fisherman participant level and a community/infrastructure 
perspective. A well designed plan should also strike a balance between 
the fisheries ability to harvest Optimum Yield (OY) in the near and 
long term along with assessment of the current capacity of the fleet as 
it relates to both near and long term achievement of OY.
    That said, it would be nearly impossible to design an allocation 
method that could ignore historical catch data altogether and still 
accomplish the core objectives of minimizing disruption to the existing 
fishery and its capacity to attain OY.
    On the other hand, in my opinion, it is equally impossible to meet 
the core objectives if the allocation method is based solely on 
historical catch data. Among the most fundamentally simple reasons for 
this I list below. These were applicable to my experience with the 
Sector Allocation method adopted in Amendment 16:

  <bullet> If the Limited Access currency allocated in the fishery 
        prior to the implementation of a new system (i.e.: Days At Sea 
        limited by vessel Length and Horsepower) has been relied upon 
        for permit valuations and recent fishing revenues and that 
        currency is weighted at or near zero for the new allocations, 
        the likelihood that the new allocation will cause substantial 
        disruption to current participants is high and the range of 
        impacts extraordinarily broad.

  <bullet> If conservation mandates to End Overfishing and Rebuild fish 
        stocks are the primary driver/purpose for the shift to a new 
        system, the underlying fact is that the past participants in 
        the fishery all contributed to Overfishing. If that same 
        fishery chooses to allocate access to the future fishery using 
        Historical Catch Data only, the message and practical result of 
        that policy decision is to reward those who contributed most to 
        the Overfishing of each stock subject to overfishing in the 
        past will be rewarded highest allocations the rebuilding period 
        including that same proportionally higher share of the fully 
        rebuilt fishery.

  <bullet> However, it is also extremely important to recognize that 
        the participants who have contributed most to the historical 
        catch performance of the fishery are also those who are likely 
        to be most dependent upon the fishery, have substantial 
        investment in the fishery and are those who contributed most to 
        their port infrastructures that are dependent upon the fishery 
        in question. If these high performing participants were gutted 
        by an inadequate initial allocation scheme which ignored the 
        reality that historical catch data must be a critical 
        consideration, the disruption to the fishery would be 
        substantial and patently unfair.

    All of this is further complicated when an initial allocation for a 
multi-species complex must be developed due to the species leveraging 
dynamics associated with harvesting opportunities of healthy stocks 
being constrained by weaker stock ACLs (Annual Catch Limits).
    In direct response to your question, Senator, with regards to a 
specific recommendation, I have often suggested that as a strong 
supporter of the Regional Council process, I believe initial allocation 
decisions and alternatives development should receive assistance from a 
national body of experts to remove individuals with a direct interest 
in the outcome from the unavoidable appearance of conflict and to 
create a base of expertise in this most critical issue for the future 
of U.S. fisheries. Specifically, an allocation of future access to a 
fishery should have performance and accountability incentives built in 
which create promise and opportunity based upon participants 
performance in the new system and far less weight on their performance 
in the past.

    Question 2. You mentioned in your statement that one problem faced 
by the multispecies groundfish fishery is the restriction of catch 
based on the most vulnerable or ``weakest'' stock that is managed. 
Under the current management scheme, are fishers allowed to trade quota 
shares among different fish stocks?
    Answer. In our fishery, members of the same sector can lease/trade 
quota of individual stocks in any amounts, to each-other. Further, one 
sector can do the same with another sector and do this on behalf of 
specific members. What cannot be done with the allocations from 
Amendment 16 is for a permanent transfer/sale of individual stocks. A 
permit must be sold as a complete package and is not separable. This is 
not a complaint. In fact, it is a constraint that is has an unintended 
but arguably beneficial public policy effect in that it may be 
preventing a higher level of consolidation that would otherwise occur 
if permanent transfers of individual stocks were allowable.

    Question 2a. If not, would implementing such a system decrease 
fishery closures that result from exceeding annual catch limits for the 
weakest stock?
    Answer. Since temporary transferability (through leasing) of 
individual stocks is allowable under the current rules the fishery is 
not experiencing closures due to weak stock constraints. However, the 
low allocations of Annual Catch Limits resulting from MSRA/SFA 
arbitrary rebuilding timelines is preventing Optimum Yield and 
constraining the fishery overall.

    Question 3. You mentioned in your testimony that although your 
gross fishing revenue has increased since the implementation of the 
sector management system, your net profits have gone down due to 
increased costs. Which costs specifically have increased since the 
implementation of the sector management system?
    Answer. The costs of LEASING quota necessary for the majority of 
the permit holders to meet breakeven or attempt profitability. Lease 
costs are now a dominant proportion of a vessels ex-vessel value which 
has radically altered the gross/net ratios for the business.

    Question 3a. Are these costs directly related to the change in 
fisheries management system, or to other external factors such as an 
increase in fuel prices?
    Answer. Yes. These costs are directly related to the change in the 
management system.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                             Vito Giacalone
    Question 1. In your estimation, what is the biggest obstacle to the 
effective implementation of Amendment 16 in New England?
    Answer. Arbitrary rebuilding timelines coupled with a lack of 
creativity and leadership with regards to sensible implementation of 
the MSRA by the secretary will continue to frustrate any effort to 
implement a plan that will achieve the mandates for rebuilding fish 
stocks and preserving a viable fishing industry.
    The low ACLs for some stocks and the narrow distribution of the 
initial allocation are both products of a process that was not 
developed from the bottom up which means industry ``buy-in'' cannot be 
expected. The industry feels as though they have been left with no 
choice but to join a sector. This ``Hobson's choice'' scenario is not 
conducive to an effective implementation.
    The sector system has been setup in a manner that places a 
tremendous amount of management, data collection, data processing and 
complex reporting burdens on the industry. Cumulatively, the costs of 
At Sea and Dockside Monitoring programs coupled with the enormous data 
and reporting requirements have created a system that is financially 
infeasible if these costs shift entirely to the industry. Currently, 
the regulations spell out that industry must accept the burdens 
starting 2012-13. This threat must be addressed with a longer term 
approach or the system will fail under its own weight.

    Question 2. In your statement you note that low ACLs for some 
stocks are choking the sector trading system. This is an issue that 
Senator Snowe and I, along with 23 of our colleagues, flagged for 
Secretary Locke prior to the beginning of the Fishing Year 2010. 
Specifically, we requested that the Secretary ``promulgate an emergency 
regulation increasing the ACLs for groundfish--especially the five 
choke stocks--sufficient to minimize the risk of failure of the sector 
management while still preventing overfishing from occurring.'' Can you 
explain the effect a minor increase in the ACLs for choke stocks would 
have on the sector trading system?
    Answer. Any increase in the ACLs for constraining stocks will have 
at least two profound and positive effects: (1) each permit holder 
would receive more in their base allocation which relieves the 
necessity to lease from others which effectively lowers the cost of 
those fishing trips and increases the profitability for crew and boat 
owner; and (2) when constraining stocks are increased there is a 
greater opportunity to harvest a higher portion of the healthier stocks 
which continue to be fished far below the allowable levels due to the 
constraining stocks.

    Question 3. How would you characterize the ease with which quota 
can be traded both within a sector and between sectors?
    Answer. I would say that the trading has been exceptionally easy 
considering this has been the first year. Although it is not easy to 
attain the quota most of us need for the price needed to be profitable, 
this is not a problem with the trading system but instead it is the 
lack of available fish at affordable lease prices.

    Question 4. Beyond low ACLs, are there any major obstacles to an 
effective sector trading system in New England?
    Answer. No. None that the industry couldn't overcome or improve 
upon ourselves. I have not seen a regulatory or administrative 
obstacle.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Vito Giacalone
    Question 1. Your testimony points out that the rebuilding timelines 
mandated by the Magnuson-Stevens Act are essentially arbitrary 
deadlines without a relationship to the biological reality of any given 
stock. It seems to me that whatever timeline we choose for rebuilding 
will be influenced by ``unknowable'' variables, and that any management 
strategy under the Magnuson-Stevens Act needs to be informed by the 
best, and most recent, data we can collect. While we have to recognize 
that we will never know exactly how many fish are in the sea, I agree 
that it is essential that currently we have fisheries managed by flawed 
stock assessments.
    If we were to manage stocks based on maintaining fishing mortality 
at maximum sustainable yield, like you suggest, how do you think this 
would change management of the groundfish in New England, for example?
    Answer. The most important change would be to allow scientists and 
managers to implement a management strategy that achieves a more stable 
and predictable regulatory environment for the fishery to operate 
within, and most importantly, to achieve a much higher percentage of 
the optimum yield.
    Because recruitment, growth, natural mortality and, consequently, 
stock biomass simply cannot be predicted with any reliability 4 or 6 
years, much less 10 years into the future, the current approach of 
trying to achieve an arbitrary biomass target in an arbitrary time-
frame is doomed to failure. It places a completely unrealistic demand 
on the scientific community to produce information and predictions at a 
level of precision that is beyond their capacity. It creates utter 
havoc for managers in the latter years of the rebuilding plan when it 
becomes clear that ``we can't get there from here'' in the remaining 
time without severe reductions in fishing mortality. This produces a 
wildly draconian and pointlessly disruptive regulatory environment at 
great loss of optimum yield and economic costs.
    The implementation of a management strategy for groundfish based on 
hard TACs, output controls and intensive catch monitoring has 
eliminated any value that arbitrary rebuilding timeframes and targets 
may have had in the past. A simplified strategy based on maintaining 
the fishing mortality rate at a level that is some margin below Fmsy 
that reflects the true level of scientific uncertainty and both 
biological and economic risks will achieve what are the truly important 
goals of the Act. These goals are to prevent overfishing and to rebuild 
overfished stocks with the minimum of disruption to the fishery and 
fishing communities. And, this strategy will place a realistic demand 
on the scientific community to produce the information needed to 
implement this strategy.
    This is not just my view, but one held by many of the most 
distinguished fishery population dynamicists in the world including at 
least two highly-distinguished fishery biologists that are former NMFS 
Chief Scientists and Directors of the NE Fishery Science Center. 
Unfortunately, few have taken the time to understand the scientific 
realities underlying this strategy and so there is a natural but 
unfortunate suspicion that eliminating the 10-year rebuilding 
requirement in the Act will somehow gut fishery management. We greatly 
appreciate the fact that Senator Snowe is among those few that have 
taken the time to reach this understanding. It is time for all other 
fishery policy decision-makers in Congress and the Agency to become 
educated on this issue and amend the statute appropriately.
    Finally, I would note that the recent legislation successfully 
championed by Senator Snowe to conform U.S. management to the 
management strategy applied by the U.S.-Canada Transboundary has the 
effect of making the transition from the arbitrary rebuilding time-
frame approach to an Fmsy-based approach for three key Georges Banks 
stocks--yellowtail flounder, cod and haddock. We look forward to the 
success of this new management approach as a clear demonstration of its 
validity.

    Question 2. Are there particular stocks that you have reason to 
believe would be better managed under this rebuilding regime?
    Answer. All stocks in the groundfish fishery would be more 
successfully managed under an Fmsy-based management and rebuilding 
regime. Some of the most ``underfished'' stocks from which we realize a 
low percentage of the optimum yield today include Georges Bank haddock, 
pollock, and redfish. But, that is just today. This same situation 
could exist for virtually any stock in the future.
    Further, at present the SNE winter flounder, Cape Cod/Gulf Of Maine 
yellowtail flounder, witch flounder (grey sole) and the white hake 
stocks are nearing the end of their rebuilding periods and are 
suffering from unnecessarily-low catch limits needed to achieve the 
arbitrary rebuilding target by the end of the arbitrary timeframe. But 
again, this scenario could occur for just about any stock at any time 
in the future. Such stocks might be reasonably healthy and could 
sustain much greater yields, but catches are severely constrained for 
no other reason but to reach a biomass target in a very short arbitrary 
timeframe. What's worse is the very real possibility that the target is 
simply biologically unattainable, but that fact may not reveal itself 
in time to avoid potentially irreversible damages to the economic 
infrastructure of the industry.

    Question 3. You raised concerns about the current stock assessments 
and the level of uncertainty in management decisions of the 
groundfishery. While clearly we must have additional cooperative 
research, increased surveys to inform stock assessments, and more 
baseline assessments, since there will always be some uncertainty in 
these assessments, the broader question is how we incorporate 
scientific uncertainty into these management decisions. Deferring to 
caution and reducing total allowable catch can destroy a community, 
such as Prospect Harbor, Maine, which lost its supply of herring for a 
sardine factory. At the same time, we have seen the negative 
consequences of overfishing, and we should not use uncertainty in the 
data as an excuse to continue to overfish. How would you recommend that 
the Councils and NMFS incorporate scientific uncertainty into fisheries 
management decisions?
    Answer. Scientific uncertainty must be incorporated into fishery 
management decisions but what is missing is the evaluation of the costs 
to the fishery and communities of being wrong. Some level of biological 
precaution is appropriate. But, so is some level of economic 
precaution. Currently there does not appear to be a balance between 
those two.
    Through its National Standard 1 guidelines, the Agency has 
incorporated what many feel are excessive levels of precaution. In the 
groundfish fishery, this has produced ACLs that are very difficult to 
justify and which are making it very difficult to implement the sector 
system which depends on a healthy allocation trading system.
    In my view, part of the impetus for inserting such excessive 
precaution into stock assessments and projections is the fact that 
science is simply unable to meet the demands of the current statutory 
approach of setting rebuilding goals and trajectories so far out into 
the future. Given the profound uncertainties of wild fish population 
dynamics, it is simply not possible to predict what the biomass of any 
stock will be 10-years into the future at the level of precision 
demanded by the statute. Consequently, scientists and managers feel 
compelled to reflect that uncertainty in their stock assessments, 
projections and regulations.
    As I explained above, the alternative is to replace the current 
approach of trying to achieve an arbitrary biomass target in an 
arbitrary time-frame with an Fmsy-based strategy that can accommodate 
those unpredictable uncertainties in recruitment, growth and natural 
mortality that have plagued groundfish management in recent years.

    Question 4. Do you believe that the economic conditions of specific 
fishing communities should be also considered in these decisions, and, 
if so--how?
    Answer. I believe Congress has already clearly spoken to this 
question when it adopted National Standard 8 championed by Senator 
Snowe in 1996. Yes, every decision that affects fishing communities 
must give full consideration to a serious analysis of the impacts of 
such decision. And, that analysis must be based on adequate scientific 
and economic information. It is not sufficient for the Agency to say it 
used the ``best available'' information if what is available is simply 
insufficient to do a proper analysis. If data is needed, then the 
agency should be compelled to gather it.
    It is my view that in adopting National Standard 8 Congress 
intended to bring balance to the considerations that must be made in 
all fishery management decisions, but that this intent has not been 
adequately implemented by the Agency or the Councils. This has been for 
two reason--one is that Congress has not insisted on it through 
sufficient oversight, and second, because there is an insufficient 
effort to gather and analyze adequate information on economic and 
social impacts.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to William R. Bird
    Question 1. How far back in time do you believe it is appropriate 
to look when assessing whether a stock's abundance has increased, 
decreased or remains constant?
    Answer. In assessing the status of a species of fish, it is 
appropriate to look as far back in time as the period for which 
reliable data exists, most importantly fishery independent surveys that 
can detect trends in abundance without the use of catch data.

    Question 2. Why is the time-frame you specified above the 
appropriate one?
    Answer. The southeast region has been largely ignored by the 
National Marine Fisheries Service and Congress when it comes to funding 
and implementing fishery independent data collection systems, data that 
is critical to better stock assessment. Only a very few surveys even 
exist in the region, thus making the task of assessing the health of 
these valuable fisheries much more difficult.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            William R. Bird
    Question 1. Which coasts do you fish?
    Answer. Both the Atlantic and Gulf of Mexico.

    Question 2. Would you be willing to provide better information on 
when you fish and what you catch?
    Answer. I would, and I believe many recreational anglers would as 
well. However, recreational license fees already provide significant 
funding for marine resource management, and managers must do a much 
better job of accounting for effort and catch by the general public.

    Question 3. Are you discouraged that the Marine Recreational 
Information Program is not up and running yet?
    Answer. Yes, and so are all concerned recreational anglers. While I 
would like for a better recreational data collections system to be in 
place, I understand it is a very complicated task. I believe it is 
better to take the time necessary to get the new data collection system 
right rather than implement it hastily. Producing the best possible 
recreational catch data should be the goal.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                            William R. Bird
    Question. You raised concerns about the current stock assessments 
and the level of uncertainty in management decisions of the 
groundfishery. While clearly we must have additional cooperative 
research, increased surveys to inform stock assessments, and more 
baseline assessments, since there will always be some uncertainty in 
these assessments, the broader question is how we incorporate 
scientific uncertainty into these management decisions. Deferring to 
caution and reducing total allowable catch can destroy a community, 
such as Prospect Harbor, Maine, which lost its supply of herring for a 
sardine factory. At the same time, we have seen the negative 
consequences of overfishing, and we should not use uncertainty in the 
data as an excuse to continue to overfish. How would you recommend that 
the Councils and NMFS incorporate scientific uncertainty into fisheries 
management decisions? Do you believe that the economic conditions of 
specific fishing communities should be also considered in these 
decisions, and, if so--how?
    Answer. Thank you for your follow-up questions. Perhaps I could 
have been clearer in my testimony. My concern about scientific 
uncertainty in management decisions is tied mostly to the many 
fisheries with significant participation by the general public for 
which no stock assessments have ever been undertaken, and those lacking 
recent assessments. Scientific uncertainty should always be a factor in 
fishery management decisions, and for fisheries that are overfished or 
undergoing overfishing, the uncertainty involved will usually dictate a 
conservative approach. On the other hand, in fisheries that are viewed 
as abundant or for which there is no evidence of any decline in 
abundance, an overly-cautious approach based simply upon scientific 
uncertainty could be needlessly drastic in its impact on the economic 
vitality and sustainability of our coastal communities.
    Unfortunately for many communities, overfishing has resulted in 
economic devastation. Nonetheless, the economic condition of fishing 
communities can not take precedence over the rebuilding of overfished 
stocks. I believe the best management course in such situations is the 
implementation of the measures required to re-build the stocks coupled 
with government support programs such as equipment buy-outs and re-
training in other fields to help sustain those communities.
                                 ______
                                 
                                       United States Senate
                                      Washington, DC, March 8, 2011
Hon. John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce,
Washington, DC.
  
  

Hon. Mark Begich,
Chairman,
Senate Subcommittee on Oceans, Atmosphere, Fish and Coast Guard
Senate Committee on Commerce,
Washington, DC.

Dear Chairmen Rockefeller and Begich:

    Last year, fishermen from our home state of New York came to the 
Washington, DC by the busload to appeal for help from Congress. 
Commercial and recreational fishermen joined together with a bipartisan 
Congressional coalition calling for relief from fisheries regulations 
which are harming fishing communities. In particular, our constituents 
are concerned about the lack of flexibility and scientific data used in 
determining fishing quotas, and the National Oceanic and Atmospheric 
Administration's (NOAA) push for implementation of catch shares 
programs.
    Since that rally, things have not gotten much better for these 
fishermen and their families. Our constituents in New York, for 
example, are now facing onerous regulations on black sea bass and scup 
harvest, fish stocks which are nearly or completely rebuilt, simply 
because the Magnuson-Stevens Fishery Conservation and Management Act 
(MSA) does not permit regulators to manage these fisheries in a way 
that allows the fish stocks to rebuild without driving hard-working 
fishermen out of business. Fisheries like black sea bass, scup and 
summer flounder are crucial economic resources for the coastal 
communities in our state and others. We fully support the goals of the 
MSA and so do our constituents and we believe that we must rebuild 
stocks and conserve resources for the long-term vitality of the 
environment. However, the fishing tradition is a way of life in New 
York that is under real threat due to the arbitrary timelines mandated 
by MSA for rebuilding fisheries. From Montauk, LI to the Hunts Point 
market in New York City, fishing represents hundreds of millions of 
dollars in economic output. But in recent years, the pressure of 
inflexible regulation has threatened this industry. And it's not just 
the fishermen who are hurt--tackle shops and marinas are closing their 
doors and, across Long Island, seafood restaurants are unable to serve 
fresh locally harvested fish.
    We will soon reintroduce the Flexibility in Rebuilding American 
Fisheries Act, legislation which would allow consideration of the 
impact on coastal communities when determining fishery management 
plans. This modest change would allow for fish stocks to be rebuilt at 
a more gradual pace if the Secretary of Commerce finds this is 
necessary to minimize economic impacts to coastal communities. We 
believe this legislation offers a responsible solution, and we 
respectfully request that your committee examine this bill. We are 
confident that such reforms will be supported by New York State's 
Department of Environmental Conservation, as they have supported this 
legislation in the past.
    In addition to the need for greater flexibility in implementing the 
MSA, there is a tremendous need for more fisheries research to insure 
that regulators have the best data available to make management 
decisions. As you know, when there isn't enough good data for 
regulators, they must implement overly conservative quotas, which in 
turn hurts employment and industry in coastal communities. Last month, 
we joined Senators Hagan, Burr and Brown to express concern that NOAA 
has committed $36.6 million to encourage the adoption of catch share 
programs when it had not committed sufficient funds to adequately 
assess the stocks of our Nation's fisheries. The MSA expressly directs 
NOAA to assess the health of fishing stocks, but NOAA has not committed 
significant funding to fulfill this requirement in its budget. NOAA 
should first commit funding to carry out this important duty before 
providing funding for a new fishery-management tool that requires--and 
currently does not have--broad-based support from the fishing industry.
    The recreational and commercial fishing industries generate 
billions of dollars each year and are central to America's history and 
culture. Honest fishermen work very hard to make a living in our state 
every day. For them and for our economy, we must institute fishery 
management programs that enhance the industry's vitality while 
protecting our natural resources. We urge you to carefully consider 
these concerns and we look forward to working with you to ensure the 
long-term health and vitality of American fisheries.
            Sincerely,
                                        Charles E. Schumer,
                                             United States Senator.
                                     Kirsten E. Gillibrand,
                                             United States Senator.
                                 ______
                                 
        Prepared Statement of Gordon Robertson, Vice President, 
                   American Sportfishing Association
    Thank you for the opportunity to submit written testimony for the 
record regarding implementation of the 2006 reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA). The 
American Sportfishing Association (ASA) is the sportfishing industry's 
trade association, committed to representing the interests of the 
entire sportfishing community. We give the industry a unified voice 
when emerging laws and policies could significantly affect sportfishing 
business or sportfishing itself.
    ASA also invests in long-term ventures to ensure the industry will 
remain strong and prosperous, as well as safeguard and promote the 
enduring social, economic and conservation values of sportfishing in 
America. According to the National Oceanic and Atmospheric 
Administration's National Marine Fisheries Service (NOAA Fisheries), 
saltwater fishing alone contributes $82 billion to the Nation's economy 
creating employment for over 500,000 people.
    Since its inception in 1933, ASA has understood that the foundation 
of the sportfishing industry and the broader sportfishing community is 
sound fisheries management that results in public access to sustainable 
fisheries. One of ASA's core tenets is to support this basic precept. 
Through the Federal Aid in Sport Fish Restoration Act, passed in 1950 
at the request of the fishing industry, special excise taxes on fishing 
gear and boating fuel have contributed over $8 billion for fish 
conservation. From the industry's continuing support of this program, 
which constitutes the cornerstone of the states' fisheries programs, to 
a myriad of actions that promote and support essential habitat programs 
to efforts that maintain and increase access to fishable waters, ASA 
has steadfastly approached sportfishing's challenges and opportunities 
in a deliberate and collaborative fashion.
    The saltwater sportfishing community and the sportfishing industry 
are currently facing an unprecedented set of challenges as a result of 
the 2006 MSA reauthorization. The current breakdown in Federal marine 
fisheries management is deeply rooted in the culture of the NOAA 
Fisheries, which has virtually ignored the recreational fishing sector 
in favor of the commercial sector. Recently NOAA has shown a new 
interest in addressing this, which we appreciate, but the inattention 
to recreational fishing over time, combined with new mandates included 
in the MSA 2006 reauthorization has led to major problems in need of 
significant and immediate action. Because of NOAA Fisheries' strict 
interpretation of MSA, and a lack of understanding of many culturally 
and economically important stocks, many popular and economically 
valuable fisheries are now being unnecessarily closed at an alarming 
rate, taking anglers off the water and seriously harming businesses 
dependent on recreational fishing.
Roots of the Problem
    Important amendments made to MSA during its 2006 reauthorization 
were intended to drive NOAA Fisheries toward more effective marine 
fisheries management and stock rebuilding. The MSA reauthorization 
included key provisions to end overfishing, set annual catch limits 
(ACLs) and accountability measures (AMs) for all stocks by 2011. These 
requirements were predicated on two critical assumptions:

  <bullet> NOAA Fisheries would invest in proper fisheries management, 
        including up-to-date and accurate stock assessments.

  <bullet> NOAA Fisheries would invest in a method to capture catch 
        data on which to base management decisions and anticipate 
        potential problems in the fishery.

    Neither of these assumptions was met. As a result, the recreational 
fishing community is now faced with massive fisheries closures, and the 
attendant job loss, because the appropriate investment in recreational 
fishery stocks, economic data and angler catch data was not made.
    Saltwater recreational fishing has increased in popularity in 
recent years as people migrate to the Nation's coastal areas. Over the 
years, some state natural resource agencies have enhanced their 
fisheries and angler data, while NOAA Fisheries has done little to 
improve recreational fishing angler and stock assessment data. It's so 
``data poor'' that the U.S. Commission on Ocean Policy has called for a 
substantial investment in fisheries data and stock assessments. 
Further, in 2006 the National Academy of Science called the Marine 
Recreational Fisheries Statistics Survey conducted by NMFS ``fatally 
flawed.''
    Recreational fishing accounts for only 3 percent of the marine 
finfish harvested by weight, yet it produces 56 percent of the jobs 
from all saltwater fisheries. Unquestionably marine recreational 
fishing is a coastal economic engine that deserves an investment 
commensurate with the jobs and economic output it provides to the 
nation, not to mention the millions of hours of recreation it provides 
to 13 million saltwater anglers who contribute over $82 billion to the 
Nation's economy.
    As required by the 2006 reauthorization of MSA, NOAA Fisheries has 
increased the regulatory measures applied to recreational fishing but 
has yet to improve either the data collection or its basic 
understanding regarding recreational saltwater fishing. When Congress 
reauthorized the MSA, it did so with the intention of ending 
overfishing--not ending fishing. However, NMFS is implementing the 
statute in a way that is unnecessarily shutting down sustainable 
recreational fisheries, primarily by:

  <bullet> Shutting down entire multispecies fisheries, including 
        healthy and valuable recreational stocks, in order to rebuild 
        weaker stocks.

  <bullet> Applying ACLs to each individual stock of fish, including 
        many that do not have accurate, up-to-date stock assessments.
Challenges in the Southeastern U.S.
    While regions across the country are laboring to meet the 
requirements of MSA before the end of 2011, this challenge is most 
acute in the Southeast. The South Atlantic and Gulf of Mexico are home 
to a multitude of complex fisheries and have historically received 
disproportionately low funding for science and data collection given 
the number of fish stocks and anglers in the region. With the deadline 
to end overfishing looming, the South Atlantic Fishery Management 
Council (SAFMC) and Gulf of Mexico Fishery Management Council (GMFMC) 
are now resorting to drastic measures to ensure overfishing does not 
occur.
    Last year, the sportfishing community held its collective breath as 
the SAFMC considered options to close massive areas of the south 
Atlantic to all bottom fishing in order to address problems in the red 
snapper fishery. Because red snapper are considered severely overfished 
and are subject to bycatch when fishing the larger snapper-grouper 
complex, Amendment 17A to the South Atlantic snapper-grouper fishery 
management plan was introduced in 2010 by the SAFMC. This amendment 
proposed a nearly 5,000 square mile area closure off the coast of 
southeastern Georgia and northern Florida where fishing for all species 
in the snapper-grouper management complex would be prohibited. Closing 
healthy stocks in order to address problems in a single weak stock is a 
draconian approach and would have had dire ramifications for the 
sportfishing industry and coastal communities throughout the South 
Atlantic that depend on bottom fishing for much of their tourism 
revenue. Fortunately, a new assessment on South Atlantic red snapper 
was completed in December 2010 which indicated that the stock was 
healthier than originally projected and the bottom closure proposal was 
tabled.
    While the sportfishing community let out a collective sigh of 
relief, it was with acknowledgement that the red snapper closure was 
only the first in a line of looming problems coming in the near future. 
In fact, at the same time that the bottom fishing closure to address 
red snapper was removed, a separate bottom fishing closure in depths 
240 feet or greater was approved to address overfishing of speckled 
hind and Warsaw grouper. This closure, while smaller in scope, is 
having considerable impacts on businesses that manufacture specific 
equipment for these deeper water snapper-grouper and coastal economies 
that are supported by these fisheries.
    In addition to the threat of multispecies closures, both the South 
Atlantic Fishery Management Council and the Gulf of Mexico Fishery 
Management Council are currently developing ACL proposals for numerous 
important recreational fisheries, which may result in severe 
limitations due to a lack of data. Because MSA requires that ACLs be 
developed for all fisheries, the Councils are currently pursuing 
options on species such as dolphin, wahoo and cobia that have no up-to-
date stock assessments, and for which the only data from which to base 
decisions is landings. The Councils are currently developing 
precautionary and overly restrictive ACLs for these fisheries even 
though there is no indication that any of these species are in trouble.
Need to Restore Balance and Re-Inject Commonsense
    The Nation's 13 million recreational anglers and the thousands of 
businesses that rely on healthy marine fisheries support rebuilding 
fish stocks in a way that is balanced with public access and economic 
impacts. Ending overfishing, maintaining reasonable access and 
sustaining economic activity are not mutually exclusive. The MSA 
contemplated a range of options for ending overfishing on fish stocks. 
However, NOAA Fisheries has historically managed recreational fisheries 
by proxy; waiting until a fishery is in trouble to implement management 
measures or full-scale fishery closures, which isn't fisheries 
management: it's crisis management. It can avoid the default closures 
only with adequate data and facts in hand and the agency needs the time 
to gather this information.
    Through the leadership of Senator Bill Nelson and others, ASA and 
its partners in the marine sportfishing community pursued legislation 
in the 111th Congress to address the crisis in Federal marine fisheries 
management. ASA and others in the recreational fishing community will 
continue to pursue comprehensive legislation to give NOAA Fisheries the 
time, resources and guidance to reprioritize its responsibilities in 
order to properly implement the Magnuson-Stevens Act in the manner in 
which it was originally envisioned by Congress in 2006.
    The way that MSA is currently being implemented will unnecessarily 
close healthy fisheries and cause tremendous damage to recreational 
fishing dependent businesses. The recreational fishing community fully 
supports ending overfishing, but believes it must be done in a 
thoughtful, science-based manner that balances socioeconomic 
considerations with conservation principles. The recreational fishing 
industry depends on abundant fisheries and access to those fisheries. 
We can have sound fishery management, recreation and a healthy business 
community built around sound fisheries. It is of the highest priority 
for ASA to work with NOAA Fisheries and Members of Congress to ensure 
that the needed data collection and stock assessments are in place 
before the data-dependent provisions of MSA are enacted. ASA looks 
forward to working with this committee to ensure that a commonsense 
approach is developed to meet these challenges.
                                 ______
                                 
To: Senator Mark Begich, Chairman
Oceans, Atmosphere, Fisheries, and Coast Guard Subcommittee
of the Commerce, Science, and Transportation Committee

cc: Senator John Kerry
Senator Brown
Senator Olympia Snowe
Secretary Gary Locke, Commerce Department

From: Citizens for Gloucester Harbor
Date: March 21, 2011

Re: March 8, 2011, ``Issues'' Hearing on the Implementation of the 
            Magnuson-
            Stevens Fishery Conservation and Management Act: Comments

    We are a citizens group from Gloucester, Mass who are concerned for 
our historic fishing community and the ability of our fishing families 
and the businesses they support to weather the regulatory storm they 
are currently facing.
    It is widely accepted here that stewardship of our precious fish 
stocks and the creation of a sustainable fishery is in everyone's best 
interest. We are not driven by greed or immediate gratification, nor 
are we environmentally ignorant. We believe that the goals of ending 
overfishing and restoring and rebuilding fish stocks to sustainable 
levels can, and must, coexist with the preservation of the livelihoods 
and way of life of our relatively small boat fishermen and the 
community that is their homeport.
    It is most disturbing to witness how current allocations are 
especially hurting the small boats that characterize much of 
Gloucester's remaining fleet. These small businesses have a multiplier 
effect in our community's economy as they are mostly family owned boats 
that are serviced and outfitted locally, with local crews who deposit 
their pay in local banks and shop in local stores. These businesses are 
important to our City's economic stability and its continuation as a 
hub port. Additionally, they are a critical part of our heritage and 
character as a community.
    What is most disturbing is that some of the forces which are coming 
to bear on, or that have most significantly impacted the economic 
viability of our local fleet, are a part of a flawed process. It is one 
thing to have the economy and the heritage of a community inexorably 
altered for a greater cause, such as a sustainable fishery for future 
generations. It is quite another thing to be brought to your knees by 
inadequate or withheld science or by the sobering abuses detailed in 
Inspector General Zinser's Report. Accuracy, decency, transparency, and 
the current health of humans and their communities must be considered 
hand and glove with the saving of our fish stocks and the preservation 
of future economic gain. Current fiscal stability and the preservation 
of viable fishing communities must be considered now, in the ways in 
which the Magnuson-Stevens Act originally intended them to be.
    A pattern of actions taken by NMFS in recent years has been 
directed at the consolidation of fishing fleets, in the guise of 
achieving greater economic efficiency in the pursuit of conservation 
goals. This single-minded focus is driving small, local boats out of 
business, and unless changes are made will eliminate the industry as we 
know it. Policies and activities that we believe subvert the intent of 
the Magnuson-Stevens Act include:

  <bullet> Passage last year of a sector management system, which was 
        implemented on May 1st, despite great concerns about its 
        viability and necessity;

  <bullet> Punitive enforcement measures (documented by the Department 
        of Commerce Inspector General) that have forced boat-owners out 
        of fishing;

  <bullet> Inadequate and potentially inaccurate scientific that have 
        had a history of underestimating fishing stocks;

  <bullet> Failure to conduct adequate research and/or failure to 
        properly utilize existing research results;

  <bullet> Diversion of funds away from cooperative research and into 
        policing efforts;

  <bullet> Unnecessarily strict limits on fishing that exceed what is 
        necessary for stock recovery;

  <bullet> Shutting down an entire multi-species fishery once the quota 
        for any one species fishery, although it is clear, that in 
        practice, all species do not recover at the same rate.

    In particular, the sector approach, as currently implemented, will 
inevitably lead to concentrated ownership. Larger vessels owned by 
outside investors will displace the smaller local family fishing 
business and local fisheries will be unable to compete. The effects on 
local fishermen, employment, and economic activity in local ports, the 
safety of local fish stocks, and the long-term viability of ocean 
fisheries and ecosystems will be devastating.
    Especially in New England, it is the fish caught, only hours 
before, by our small inshore day fishing boats for which our 
restaurants and markets are famous that will be most greatly impacted. 
An intentional destruction of this industry and replacement by large 
industrial ships that stay further at sea for longer trips would result 
in replacement of our fresh fishery with fish stored for days in ice or 
brine or frozen at sea. The policy of increasing efficiency by 
replacing small fishing businesses, both at sea and in small harbors 
ashore by a few larger concentrated industrial operations in a few 
large ports seems ill-advised in the present national economic and 
under employment crisis and will not enhance the sustainability of 
fishing stocks.
    The history of economic rationalization, deregulation, and a 
singular drive for ``efficiency'' has had unintended and disastrous 
results in other economic sectors in the United States. The 
deregulation and subsequent collapse of financial markets is the 
foremost example of excessive reliance on free market ideology and 
``efficiency.'' Similarly, in agriculture, the ideology of free-market 
fundamentalism has led to devastated farming communities, unsafe and 
unhealthy food supplies, and toxic pollution.
    Properly designed sector management can restore ecosystems and 
fisheries, protect local jobs, and secure safe and local food supplies, 
but only if the approach is based on principles of community-based 
management. As Dr. Elinor Ostrom (2009 Nobel Prize in Economics) and 
others have demonstrated repeatedly around the world, community-based 
management assures long-term sustainability of environmental, economic, 
and social values.
    If perceived as a catch share system, as opposed to a temporary 
management measure, these goals will not be achieved. Therefore, we 
believe they ought to only be seen as a temporary management measure.
    We particularly call attention to the fact that the National Marine 
Fisheries Service chose not to establish the sector approach according 
to the policies and procedures set forth in section 303A of the 
Magnuson-Stevens Act governing Limited Access Privilege Programs 
(LAPPs). LAPP would have required a review of proposals that would have 
been subjected to a very comprehensive and deliberate set of standards 
and process, where the interests of all parts of the fisheries, 
including fishermen, port communities, and other public interests and 
benefits would have been reviewed. The deliberate decision by the New 
England Fisheries Management Council (NEFMC) to develop a comprehensive 
fishery-wide sector allocation and management system that is not based 
on or consistent with MSA section 303(A) was largely based on ill-
advised advice provided to it by NOAA through the NMFS Northeast 
Regional Office.
    NOAA needs to recognize that potential sector contributions (PSCs) 
should not be considered quota shares for the purposes of buying, 
selling, and trading with any mid-term or long-term value. 
Nevertheless, because of confusion over the long-term status of PSCs, 
there is a danger in artificially inflated permit values. Local 
fishermen may be unable to pay higher prices for permits when they have 
to compete with speculative outside investors who are misinformed about 
the duration of the sector allocation.
    We urge the Secretary of Commerce to take the following actions:

        1. Issue a public notification stating that the non-LAPP status 
        of Amendment 16 Sector Allocations and individual PSCs means 
        the fishery is still open to allocation through a deliberate 
        and free standing allocation amendment process. The statement 
        should also make clear that PSCs are short-term management 
        currencies analogous to Days at Sea and have no long-term 
        economic value. PSCs do not have the same effect as quota 
        shares, unless NEFMC initiates a fully LAPP compliant amendment 
        in strict compliance with the LAPP requirements in the 
        Magnuson-Stevens Act.

        2. Amend the sector management program by adding measures to 
        prevent excessive consolidation and outside investment.

        3. Increase the Total Allowable Catch (TAC) limits, 
        particularly on species that would otherwise shut multi-species 
        fisheries down unnecessarily, but not to exceed levels 
        considered ``overfishing". This increased flexibility would 
        sustain the local fishing fleets through the next few years of 
        the rebuilding of sustainable stocks.

    These actions are all within the discretion of the Secretary of 
Commerce.
    We thank you for your attention to these requests and look forward 
to hearing: (1) when an additional hearing to address these matters 
will take place; and (2) what actions the Secretary of Commerce has 
taken.
            Yours truly,
Citizens for Gloucester Harbor
Peter Anastas, Writer
Ann Banks, Board Member, Gloucester Maritime Heritage Center
Damon Cummings, PhD, Naval Architect
Henry Ferrini, Documentary Filmmaker
Jeanne Gallo, PhD, Social Ethics
Jay Gustaferro, Lobsterman, Former Gloucester City Councilor
Marcia Hart, RN
Ann Molloy, Neptune's Harvest Organic Fish Fertilizer Company
Valerie Nelson, PhD, Economics, Former Gloucester City Councilor
M. Sunny Robinson, RN
Angela Sanfilippo, Gloucester Fishermen's Wives Association
                                 ______
                                 
                            E2--Environmental Entrepreneurs
                                   San Francisco, CA, March 8, 2011
Hon. John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Doc Hastings,
Chairman,
Natural Resources Committee,
U.S. House of Representatives,
Washington, DC.

Hon. Kay Bailey Hutchison,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Edward Markey,
Ranking Member,
Natural Resources Committee,
U.S. House of Representatives,
Washington, DC.

Dear Senators Rockefeller and Hutchison and Representatives Hastings
  and Markey:

    As members of Environmental Entrepreneurs (E2), a national 
community of 850 business leaders, we ask you to stay the course in 
ending overfishing and rebuilding our Nation's valuable commercial and 
recreational fisheries. This is a historic moment in the stewardship of 
our oceans. In 2006, Congress amended the Magnuson-Stevens Fisheries 
Conservation and Management Act (MSA), our Federal fisheries law, with 
broad bipartisan support to require an end to overfishing through the 
use of science-based catch limits. These requirements are currently 
being implemented by regional fishery management councils around the 
country and we are on the verge of making unprecedented progress in 
building long-term sustainable fisheries for this Nation. This is a 
vital economic initiative, which will add jobs and wealth in coastal 
economies around the country. We urge you to reject calls to weaken the 
law and turn back the clock to the short-sighted and unsustainable 
fishery management practices of the past.
    E2 works to promote thoughtful environmental policy that grows the 
economy. We are entrepreneurs, investors and professionals who 
collectively manage nearly $90 billion of venture capital and private 
equity. Our members have started over 1,100 businesses, which in turn 
have created over 500,000 jobs.
    Halting overfishing and rebuilding depleted stocks has been an 
issue of concern to E2 for many years. For example, in 2005, E2 
sponsored a study of 22 commercially valuable overfished stocks that 
found that the economic value of these stocks if they are allowed to 
rebuild to sustainable levels is nearly three times the value of the 
depleted, overfished annual harvest.\1\
---------------------------------------------------------------------------
    \1\ U.R. Sumaila et al., ``Fish Economics: The Benefits of 
Rebuilding U.S. Ocean Fish Populations,'' Fisheries Economics Research 
Unit, Fisheries Centre, University of British Columbia, Vancouver, B.C. 
(October 2005), available at <http://www.e2.org/ext/doc/2005%20
Fish%20Economics.pdf>.
---------------------------------------------------------------------------
    The current economic value of the Nation's marine fisheries is 
quite substantial. The commercial fishing industry contributed more 
than $38.4 billion to the gross national product in 2009.\2\ Direct 
expenditures by saltwater anglers totaled $8.9 billion in 2006, 
supporting about 300,000 jobs and $20 billion in economic activity per 
year.\3\ Together this amounts to close to $60 billion in economic 
benefits to the Nation from marine fisheries, many of which are 
actually under-producing due to years of overfishing. This economic 
value will increase significantly as our fisheries reach healthy 
levels.
---------------------------------------------------------------------------
    \2\ NMFS Fisheries Statistics Division, ``Fisheries of the United 
States, Statistical Highlights,'' available at <http://
www.st.nmfs.noaa.gov/st1/fus/fus09/highlight2009.pdf>.
    \3\ U.S. Fish and Wildlife Service, ``2006 National Survey of 
Fishing, Hunting, and Wildlife-Associated Recreation,'' Table 16, at 72 
(2007), available at <http://www.census.gov/prod/2008pubs/fhw06-
nat.pdf>; U.S. Commission on Ocean Policy, ``An Ocean Blueprint for the 
21st Century,'' Final Report, at 275 (September 20, 2004), available at 
<http://www.oceancommission.gov/documents/full_color_rpt/welcome.html>.
---------------------------------------------------------------------------
    According to NMFS, rebuilding the Nation's fisheries would generate 
an additional $31 billion in sales and support an additional 500,000 
jobs.\4\
---------------------------------------------------------------------------
    \4\ NMFS, ``MAFAC Catch Shares Presentation,'' at 6, available at 
<http://www.nmfs.noaa.gov/ocs/mafac/meetings/2009_11/docs/
mafac_catch_shares_presentation.pdf>.
---------------------------------------------------------------------------
    Continued overexploitation of marine fisheries prevents the 
additional economic benefits of healthy fisheries from being realized. 
Of the 230 most valuable stocks monitored by National Marine Fisheries 
Service (NMFS), one-fifth of those assessed are subject to overfishing, 
while nearly one-quarter are overfished.\5\
---------------------------------------------------------------------------
    \5\ NOAA Fisheries, ``Status of the Fisheries: 4th Quarter 2010 
Update,'' available at <http://www.nmfs.noaa.gov/sfa/statusoffisheries/
2010/fourth/Q4%202010%20FSSI%20Summary%20Changes.pdf>.
---------------------------------------------------------------------------
    Investing in the future productivity of the Nation's fisheries 
requires a commitment to catch levels that are based on the best 
available science and accountability measures that ensure adherence to 
these catch levels and trigger clear and predictable management 
responses if and when those catch levels are exceeded. This approach, 
as embodied in the current MSA, will pay dividends to the fish, 
fishermen, and the Nation in perpetuity. We urge you to support 
sensible and sound fisheries management policies by maintaining a 
strong MSA.
    We appreciate your attention to this important issue.
            Sincerely,
    The following 218 E2 members have signed this letter:

Curtis Abbott (CA)
CEO, Lucesco Lighting Inc
Maryvonne Abbott (CA)
Dan Abrams (CA)
President/CEO, Cross River Pictures
Bill Acevedo (CA)
Attorney, Wendel, Rosen, Black & Dean
Clifford Adams (NY)
Managing Director, Coady Diemar Partners
Christopher Arndt (NY)
Patty Arndt (NY)
Principal, ONG Designs
Jay Baldwin (MA)
Partner, Wind River Capital Partners, LLC
Dora Barlaz Hanft (NY)
Environmental Science Teacher, Horace Mann School
Karl Batten-Bowman (CA)
Ed Beardsworth (CA)
Principal, Energy Technology Advisors
Lisa Bennett (CO)
Jeff Bennett, Ph.D (CO)
Founder, Big Kid Science
Fiona Bensen (CA)
Tod Bensen (CA)
Chairman, WildAid
Tony Bernhardt (CA)
Physicist; Angel Investor
Aron Bernstein (MA)
Professor of Physics, MIT
Maureen Blanc (CA)
Social Entrepreneur
Dayna Bochco (CA)
President, Steven Bochco Productions
Steven Bochco (CA)
Steven Bochco Productions
David Bowen (CA)
Consultant
Barbara Brenner Buder (CA)
CFO, VP--Operations, The San Francisco Theological Seminary
Diane Brinkmann (CO)
Alan Buder (CA)
Monica Burton (NY)
Dianne Callan (MA)
Independent Legal Consulting, Green Tech Legal
Pete Cartwright (CA)
CEO, Avalon Ecopower
Warner Chabot (CA)
CEO, California League of Conservation Voters
Steve Chadima (CA)
Chief Marketing Officer, TweetUp
John Cheney (CA)
CEO, Silverado Power, LLC
David Cheng (CA)
Senior Manager, Advisory, The Cleantech Group
Roger Choplin (CA)
Proprietor/Owner, Our Earth Music, Inc.
Diane Christensen (CA)
President, Manzanita Management Corp.
Brooke Coleman (WA)
Assistant Professor, Seattle University Law School
Ann Colley (NY)
Executive Director, The Moore Charitable Foundation
Catherine Crystal Foster (CA)
Consultant, Policy & Advocacy Consulting
Jane Cuddehe (CO)
Broker Associate, Coldwell Banker Devonshire
Michael Cuddehe (CO)
President, Seven Trust Advisors
Andrew Currie (CO)
Investor, Active Minds LLC
Tim Dattels (CA)
Managing Director, Newbridge Capital
Lynne David (VA)
Gordon Davidson (VA)
President, Davidson & Associates
Jayne Davis (CA)
Peter Davis (CA)
Retired Attorney
Rick DeGolia (CA)
Executive Chairman, InVisM, Inc.
Chris Dennett (OR)
Systems & Analytics Manager, Account Management, Regence
Heather Dennett (OR)
Harry Dennis (CA)
Pediatrician, Palo Alto Medical Clinic
Susan Dennis (CA)
Fine Arts Advisor, Self-employed
George Denny (MA)
Partner, Halpern Denny & Co.
Sally DeSipio (OR)
Ted Driscoll (CA)
Venture Partner, Claremont Creek Ventures
Robert Earley (NY)
Principal, Armor Capital
Scott Elliott (WA)
CEO, MountainLogic
Bob Epstein (CA)
Co-founder, Sybase, New Resource Bank, Environmental Entrepreneurs
Christina Erickson (CA)
Founder, Green by Design
Rob Erlichman
Founder & President, Sunlight Electric, LLC
Lynn Feintech (CA)
Anne Feldhusen (CA)
Marketing Program Manager, Hewlett Packard
Kacey Fitzpatrick (CA)
President, Avalon Enterprises Inc.
Jon Foster (CA)
SVP Global Operations, Atempo
Karen Francis (CA)
CEO, Academix Direct, Inc
Nell Freudenberger (NY)
Rona Fried (NY)
President, SustainableBusiness.com
Matthew Frome (CA)
VP of Business Development, Linkage Biosciences, Inc.
Ken Gart (CO)
President, The Gart Companies
Rebecca Gart (CO)
Donna Geil (CA)
Teacher, Clovis Unified School District
Sam Geil (CA)
CEO, Geil Enterprises
Bonnie Gemmell (CA)
GoFavo
Rob Gemmell (CA)
Co-founder, AlikeList
Devon George (NY)
President, DMV Capital Corp.
Howard Girdlestone (CA)
Martha Girdlestone (CA)
Nancy Gail Goebner (CA)
Gardenpeach Place
Susan Goldhor (MA)
Biologist, C.A.R.S.
Dan Goldman (MA)
Co-Founder and Managing Partner, Clean Energy Venture Group
Diana Goldman (MA)
Founder, ICanPlanIt
Ken Goldsholl (CA)
CEO, Movidis, Inc.
Nancy Goldsholl (CA)
Tom Goodrich (CA)
Managing Director, Duff, Ackerman & Goodrich
Jon Gordon (CO)
Executive Vice President, JobPlex, Inc.
Vicki Gordon (CO)
Peter Gorr (IL)
Retired
Marianna Grossman (CA)
President & Executive Director, Sustainable Silicon Valley
Tom Haggin (CA)
Co-Founder, Sybase and Tilden Park Software
Vicki Haggin (CA)
Debbie Hall (CA)
Chair of the Board, Village Enterprise Fund
Russell Hall (CA)
Managing Director, Legacy Venture
Bert Hartman (MA)
E2 New England Chapter Director, Hartman Consulting
Hyman Hartman (MA)
E2, Massachusetts Institute of Technology
Paula Hawthorn, PhD (CA)
Sheryl Heckmann (CA)
Alan Herzig (CA)
Independent Director
James Higgins (CA)
Partner, Lakeside Enterprises
Jill Tate Higgins (CA)
General Partner, Lakeside Enterprises
Jerry Hinkle (VA)
Manager, Office of Federal Housing Enterprise Oversight
Elaine Honig
Robin Hruska (WA)
Art Teacher, Blakely Elementary School
Kristine Johnson (CA)
Director, Kingfisher Foundation
Fred Julander (CO)
President, Julander Energy Company
Charlene Kabcenell (CA)
Former Vice President, Oracle Corporation
Derry Kabcenell (CA)
Former Executive Vice President, Oracle Corporation
Jerome Kalur (MT)
Attorney at Law
Christopher Kaneb (MA)
Principal, Catamount Management Corporation
Lisa Kaneb (MA)
Timothy David Karsten (CA)
TDKA Group
Van Katzman (WA)
Principal, Beacon Law Advisors, PLLC
Holly Kaufman (CA)
CEO, Environment & Enterprise Strategies
Marie Kent (OR)
Stephanie Kiriakopolos (CA)
Karinna Kittles Karsten (CA)
Charly Kleissner (CA)
Co-Founder, KD Cura Corporation
Lisa Kleissner (CA)
KL Felicitas Foundation
Eric Kloor (CO)
CEO, MacroSystem US
Gina Lambright (CA)
Managing Partner, TOZ Consulting
Sue Learned-Driscoll (CA)
Administrator, Stanford University
Noelle Leca (CA)
Vice Chair, Chair-Elect, NCPB, Inc.
Nicole Lederer (CA)
Co-Founder, Environmental Entrepreneurs
Rebecca Lee (CA)
Waidy Lee (CA)
Grace Lee Park (OR)
Mark Liffmann (WA)
Vice President of Business Development, EnerG2
Paul Logan (NY)
Vice President, Jones Lang LaSalle
Alison Long Poetsch (CA)
Principal, SHR Investments
Tracy Lyons (CA)
Singer-Songwriter, Mythic Records LLC
Joe Madden
CEO, EOS Climate
Andrew Magee (MA)
Senior Consultant, Epsilon Associates
Felicia Marcus (CA)
Western Director, NRDC
Ryan Martens (CO)
Founder, Rally Software Development
Wynn Martens (CO)
Outreach, University of Colorado
Christine Martin (CA)
Clinical Nurse Specialist, San Francisco General Hospital
Nancy McCarter-Zorner (CA)
Plant Pathologist
John McGarry (NY)
Elizabeth McPhail
CEO, KUITY Corp.
Kate Mitchell (CA)
Managing Partner, Scale Venture Partners
Wes Mitchell (CA)
Board Member, Foto Forum, SFMOMA
Kris Moller (CA)
Founder, ConservFuel
Carol Mone (CA)
Producer, Our Earth Productions
John Montgomery (CA)
Chairman, Montgomery & Hansen, LLP
Linda Montgomery (CA)
Andrew Moon (DC)
Senior Manager, SunEdison Solar
Michael Moradzadeh (CA)
Commodore, Corinthian Yacht Club
David Moyar (NY)
President & CEO, MEI Hotels Inc.
Emilie Munger Ogden (CA)
Gib Myers (CA)
Partner Emeritus, Mayfield Fund and Founder/Board of the Entrepreneurs 
Foundation
Susan Myers (CA)
Armand Neukermans (CA)
Founder, Xros
Tori Nourafchan (CA)
Rick Nowels (CA)
Doug Ogden (CA)
CEO, North Ridge Investment Management
Larry Orr (CA)
Managing Partner, Trinity Ventures
Michael Brian Orr (WA)
Senior Computer Scientist, Adobe Systems
Alex Osadzinski (CA)
Jiali Osadzinski (CA)
Controller, Applied Biosystems
Lyn Oswald (CA)
Jim Panttaja (CA)
Vice President, Corporate Development, RebelVox
Mary Panttaja (CA)
Vice President, Product Management, RebelVox
Peter Papesch
Architect, Papesch Associates
Eric Park (OR)
Director, Ziba Design
Mark Parnes (CA)
Attorney, Wilson Sonsini Goodrich & Rosati
Neela Patel (CA)
Director, Biology, Poniard Pharmaceuticals
Rebecca Patton (CA)
Matt Peak (CA)
Director of Technology Ventures, Prize Capital, LLC.
Jean Pierret (CA)
Ethan Podell (NY)
President, Babel Networks Limited
Jeff Poetsch (CA)
Principal, JCP Advisors
David Rosenheim (CA)
Chairman, JamBase, Inc.
David Rosenstein (CA)
President, Intex Solutions
Amy Roth (CA)
Laurie Rothenberg (NY)
Jacqueline Royce (MA)
Independent Scholar
Paul Royce (MA)
Independent Scholar
Carina Ryan (CA)
Ella Saunders
Tedd Saunders
President, EcoLogical Solutions, Inc., Director of Sustainability, The 
Saunders Hotel Group
Eric Schmidt (CA)
Chairman and CEO, Google
Wendy Schmidt (CA)
Founder, The 11th Hour Project
David Schwartz (CA)
James Schwartz (MA)
Director, Business Development, GMZ Energy
Lauren Scott (CA)
Paul B. Scott (CA)
Chief Science Officer, ISE Corp.
Carol Sethi (CA)
Patient's Administration, Valley Medical Center, San Jose
Kuldip Sethi (CA)
CEO, SV Greentech Corp.
Cynthia Sexton (CA)
Tim Sexton (CA)
Founder & CEO, The Sexton Company
JoAnn Shernoff (CO)
Former President, Institute for Ecolonomics
Steve Silberstein (CA)
Co-founder, Innovative Interfaces Inc.
Barbara Simons (CA)
Research Staff Member, Retired, IBM Research
Jon Slangerup (CA)
CEO, NEI Treatment Systems, LLC
Sandra Slater (CA)
Owner, Sandra Slater Environments
Kristen Steck (CA)
June Stein (CA)
Virtual Group, LLC
Lee Stein (CA)
Chairman and CEO, Virtual Group, LLC
Marc Stolman (CA)
Attorney, Stolman Law office, E2 Climate Project Leader
Scott Struthers (CA)
Co-Founder, Sonance
Jim Sweeney (MA)
President, CCI Energy, LLC
Todd Thorner
Vice President, Business Development, Foresight Wind
Laney Thornton (CA)
The Laney Thornton Foundation
Pasha Thornton (CA)
Flashpoint
Cariad Thronson (CA)
Robert Thronson (CA)
VP Managed Service Solutions, Genesys Telecommunications
Mike Ubell (CA)
Architect, Oracle
Bill Unger (CA)
Partner Emeritus, Mayfield Fund
Maria Vidal (CA)
Aino Vieira da Rosa (CA)
Architect, Aino Maria Vieira Da Rosa, AIA
Alex Wall (OR)
Director of Consulting, Discover-e Legal, LLC
Dorothy Weaver (NY)
Babel Networks Limited
Jeffrey Weiss (RI)
Dave Welch (CA)
Chief Technology Officer, Infinera Corporation
Heidi Welch (CA)
Robert Wilder (CA)
CEO, WilderShares, LLC
Tonia Wisman (CA)
Daniel Yost (CA)
Partner, Orrick, Herrington & Sutcliffe LLP
Margaret Zankel (CA)
Martin Zankel (CA)
Emeritus Chairman, Bartko, Zankel, Tarrant & Miller
Anthony Zolezzi (CA)
Founder, Pet Promise
Paul Zorner (CA)
President and CEO, Hawaii BioEnergy LLC
    cc:
Senator Mark Begich, Chairman, Senate Committee on Commerce, Science, 
and Transportation; Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard

Senator Olympia Snowe, Ranking Member, Senate Committee on Commerce, 
Science, and Transportation; Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard

Representative John Fleming, Chairman, U.S. House Natural Resources 
Committee; Subcommittee on Fisheries, Wildlife, Oceans and Insular 
Affairs

Representative Donna Christensen, Ranking Member, U.S. House Natural 
Resources Committee; Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs

Secretary Gary Locke, U.S. Department of Commerce

Administrator Jane Lubchenco, National Oceanic and Atmospheric 
Administration

Chair Nancy Sutley, White House Council on Environmental Quality
                                 ______
                                 
                                    Fishing Rights ALliance
                                 St. Petersburg, FL, March 21, 2011
Senator Mark Begich,
Chairman,
Transportation's Oceans, Atmosphere, Fisheries, and Coast Guard 
            Subcommittee,
U.S. Senate Committee on Commerce, Science, and Transportation.

Dear Chairman Begich and Subcommittee members:

    Thank you for the opportunity for the Fishing Rights Alliance to 
comment on the recent U.S. Senate Committee on Commerce, Science, and 
Transportation's Oceans, Atmosphere, Fisheries, and Coast Guard 
Subcommittee hearing on implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act. Two Fishing Rights Alliance Directors 
were present for the hearing.
    The Fishing Rights Alliance, Inc. (FRA) is composed primarily of 
recreational anglers and includes charter captains, headboat operators 
and some commercial fishermen that fish the U.S. waters of the Gulf of 
Mexico, Atlantic and Pacific Oceans. FRA members are all good stewards 
of our marine resources and are engaged in the conservation and wise 
use of those resources.
    Magnuson-Stevens was conceived as a defense against foreign 
interests exploiting our domestic fisheries. The FRA is concerned that 
it is now being used to reduce the nations fishing activity in a 
squeeze play designed to force the use of catch shares on our fisheries 
as the only tool that will allow SOME to continue fishing. This 
apparent blatant theft of our Nation's fisheries is un-American and 
needs to be stopped.
    While NMFS claims it is committed to preserving and growing jobs, 
it continues to destroy jobs, communities, and our heritage. While NMFS 
claims ``Magnuson, made me do it,'' the agency ``continues to ignore 
parts of Magnuson that are ``inconvenient,'' while embellishing other 
parts that lead to the draconian regulations promulgated by the agency. 
NMFS has ignored MSA's mandate of a new recreational data collection 
system. This should not come as a surprise, since NMFS has ignored 
reviews by the National Research Council in 2000 and again in 2006, 
both of which pointed out the flawed data collection and processing of 
the unreliable recreational catch and landing estimates and both of 
which specifically stated that the MRFSS was not to be used as an in-
season quota monitoring tool.
    An example of ignoring/embellishing MSA is NMFS' failure to have a 
recreational angler registration system operating by January 1 of 2009 
while feverishly advancing the catch-reducing Annual Catch Limits on 
all species, even those with poor or non-existent data. Annual Catch 
Limits as promoted by National Marine Fisheries Service reduce previous 
harvest levels by 25 to 50 percent, then put ``buffer levels'' in to 
``slow down'' fishing. This ignores the cyclical nature of the fish 
stocks. In some years, the stock is more abundant than other years, 
affected by bait supply, extreme weather events and other non-fishing 
factors. Catches, too, will fluctuate. Fishermen are penalized if 
catches fall by NMFS claiming that a reduced catch indicates an 
overfished stock The agency has repeatedly ignored the effect of 
regulations on the catch, instead using every instance as support for 
further restrictions to ``protect the stock.'' Fishermen are also 
penalized if they catch more fish, which is mischaracterized as 
``overfishing.'' There is no ``good'' news from catch information.
    NOAA Fisheries Assistant Administrator Schwaab admits missing the 
deadline for implementation of a new recreational angler registration. 
Yet his agency argues in court that it met its obligation. The FRA asks 
``which way is it?''
    Senator Snowe spoke of NMFS' ``antagonism, mistrust and 
dysfunction'' and its ``reckless and vindictive actions'' that 
``undermine, harass and sometimes bankrupt fishermen.'' She was 
referring to the recent activities of the NMFS North East regional law 
enforcement group. Interestingly, the same terms can be applied to the 
current regulatory actions of NMFS South East regional office. 
Vindictive actions include a closure of Gulf recreational amberjack 
with 5 days notice, based on the fatally flawed MRFSS data being used 
as an in-season quota monitoring tool. When the National Marine 
Fisheries Service Southeast regional administrator was asked how far in 
advance he knew he was going to close Gulf recreational amberjack in 
2009, he stated that he knew 60 days in advance but chose not to tell 
the recreational fishing community because he ``did not want to hear us 
(recreational anglers) complain.'' The FRA finds this to be 
antagonistic, reckless and vindictive, to say the least. How long must 
we suffer the mismanagement of our fisheries by this agency?
    Catch shares are opposed by nearly all recreational and most 
commercial fishermen in the United States. There are a few pro-catch 
share individuals who currently attempt to represent themselves as the 
face of commercial and recreational fishing. Nothing could be further 
from the truth. These individuals all have a financial stake in the 
future of catch shares. Their activities are supported by nonprofit 
environmental groups who are acting on behalf of institutional 
investors that wish to be able to buy and sell the fishery. The same 
environmental group purchased pro-catch shares ads in a Washington D.C. 
magazine during the week of this hearing.
    Senator Cantwell's comments regarding the Environmental Defense 
Fund pro-catch shares ad was indicative of her pro-catch shares 
position. The FRA urges the Committee members to take a long look at 
who really supports catch shares, who really is opposed to catch 
shares, and who is funding the blind, mad drive to a catch share 
system.
    The opportunity to fish is what drives the recreational fishing 
sector. Bag limits, size limits and other landings restriction tools 
have the most affect on fish stocks while having the least effect on 
fishing opportunity. The FRA opposes the privatization of our public 
marine resources.
    The FRA requests that all closures based on outdated stock 
assessments be reversed until such time as a current, reliable stock 
assessment can be completed and evaluated for each species.
    Regulatory dead discards are hidden and ignored by catch share 
proponents. These same proponents inflate the dead discard estimates 
for non-catch share fisheries in an attempt to justify their theft of 
our public resource.
    The FRA echoes Senator Rubio's concerns about $6 million being 
taken from Cooperative Research Programs and given to the catch share 
effort and the $11.4 million taken from the fisheries research 
management program and put into the catch shares program.
    Why is data priority not reflected in the funding? Why are ACL's 
being pushed ahead of the data? Why are catch shares being funded with 
money that was designated for recreational fisheries data improvement? 
Who at NMFS will be held accountable for ignoring MSA?
    The FRA also shares the concerns of Senator Nelson, who noted that 
MSA passed based on the data being current, accurate and up to date and 
that NMFS is using MSA in a way not intended by Congress. We urge the 
Committee to address the Senator's and our concerns that NMFS is not 
following the intent of Congress.
    Congress should strongly consider repealing the closures that are 
hotly contested and seem to be contradicting what is seen on and under 
the water. Gulf Gag Grouper and Red Snapper as well as South Atlantic 
Red Snapper are the first species that come to mind.
    The FRA urges the Committee to investigate how NMFS prioritizes the 
stocks to be assessed, as AA Schwaab's answer on this was evasive, to 
say the least.
    The FRA was disappointed by the makeup of the panel that the 
Committee chose to interview. We feel the panel was heavily slanted 
toward the pro-catch share agenda, with no representation of those 
active in fisheries management on behalf of the recreational anglers. 
The FRA was encouraged by the knowledge of the Committee members as 
exhibited by their line of questioning.
    The FRA thanks the Committee for their time and the opportunity to 
comment on this hearing.
            Respectfully submitted,
                                             Dennis O'Hern,
                                                Executive Director,
                                          Fishing Rights Alliance, Inc.
                                 ______
                                 
                                                     March 21, 2011
Oceans, Atmosphere, Fisheries, and Coast Guard Subcommittee

    I'm writing this letter in regards to the issues and motions being 
made at the NMFS Southeast Regional Gulf Council. There has been a 
perversion of the entire council process due to the political nature of 
how the council representatives are selected. It has become very 
apparent that the interpretation of Congress in its writing of the 
Magnuson-Stevens Act (MSA)has been skewed by the politics of the 
Governors appointing process. The MSA already has the flexibility and 
language needed for regional councils to properly manage the Nation's 
marine resources; however the MSA is supposed to ensure fair and 
balanced appointments. The Gulf Council is not providing fair 
representation to all fishery sectors. If the commercial fishery sector 
is to continue to thrive, we have to figure out a new way to fairly 
represent all of the fishery sectors that are governed by the council 
process. What the commercial sector has in the Gulf is clearly not fair 
or balanced. I'm substantially dependent on the commercial fishery and 
very concerned that if left unchecked the Gulf Council will continue to 
make bias management decisions. Decisions like re-allocating the 
Nation's resource to an unaccountable recreational fishery that 
accounts for less than 5 percent of the Nation population.
    The source of the problem is that the regional councils and the 
advisory panels that they appoint have become unfairly dominated by the 
recreational sector. The leading cause for this is that in the Gulf 
Council all the state chairs 5 total, that have automatic appointments 
that are not approved by the commerce secretary have now become 
recreational seats due to the nature of state politics. Recreational 
organizations have extensively lobbied each state Governor and their 
game commissions to have their respective candidates nominated . This 
has led to a total omission of fair representation due to the politics 
of the day. None of these groups care about the American consumer and 
their access to the Nations resources . The commercial sector knows 
that it has become very difficult to get involved in the AP process 
because our resumes are not fairly considered for AP Panels because the 
make up of the council itself leads to a distinct disadvantage getting 
commercial members the votes necessary to get put on the AP. The 
results of this bias has led to the regional councils finding it hard 
to recruit un-bias fishery scientist to the SSC panel at this point 
because of the influence of the recreational sector. Standard operating 
procedure approved by the council process has made minor and incidental 
fisheries violations a justification for removal or ineligible 
participation in panels. These same standard operating procedures for 
violations don't apply to the recreational sector, they are immune.
    The current balance of the Gulf Council is an issue that needs to 
be addressed immediately. The present Gulf Council is so out of balance 
that is has had a significant effect on Allocation Issues, ACLs, 
Economic Impacts, Advisory Panels, Ad Hoc Panels, and Catch Shares that 
especially affect the Gulf of Mexico commercial fishermen. The 
commercial sector has legitimate issues about the balance of the Gulf 
Council. Alabama has not had a commercial representative for at least 
the past eleven years. There are currently three at-large appointment 
seats currently available, however even if they are all filled from the 
commercial sector, the council will still be would still be unbalanced 
when it comes to fair and equitable appointments for each stakeholder 
groups. The APs obviously needs to be examined closer for fairness. By 
reviewing the voting records of the regional gulf council that the 
members Congress will clearly recognize the bias. Even all five of the 
State Representative's vote recreational. The uneven Gulf Council 
either out votes or simply rejects the commercial fishery 
representative's motions.
    Let me provide some specifics. At each of the last four gulf 
council meetings members of the commercial red snapper fishery have 
requested they form an Ad Hoc 5 year review panel to allow the 
commercial fishermen a way to provide input on the red snapper IFQ 
system; however, one year later the Gulf Council has yet to complete 
this request. Another example is fin-fish. Fin-fish are probably the 
most discussed issue at the council meetings but there has never been a 
commercial fin-fish fishermen appointed to the Gulf Council for over 20 
years , that sir is a crime.
    At the last Council meeting, this February 2011, I witnessed a gulf 
council member from the State of Florida who is a Florida CCA board 
member before his council appointment begin a discussion to re-address 
the recreational allocation to acquire an even larger percentage of the 
red snapper and grouper TAC. The recreational sector to date still has 
failed to implement accountability measures in compliance with MSA. 
Eleven years after the Council set up the split for king mackerel they 
came back and reallocated 5 percent to the recreational sector. They 
also reallocated 17 percent of commercial red grouper TAC 2 years ago 
by raising their aggregate bag limit of red grouper. Motion after 
motion is passed over to develop a real time accountability measure for 
recreational sector that mirrors the commercial sector.
    When it comes to allocation, the Gulf Council simply picks and 
chooses from the years that help the recreational sector the most. They 
choose different years for different species to obtain an unfair 
advantage by using two different baseline years. Roy Crabtree strongly 
advised the Gulf Council not to use that method. I think he understood 
the backlash it could cause later when a case could be made against it. 
But the Chairman of the council who receives large research grants from 
CCA allowed the process to continue in spite of the regional 
administrators leadership to do other wise. Below are incidents that 
show these types of actions of the Gulf Council that need to be 
addressed:

  <bullet> The Gulf of Mexico Fishery Management Council demonstrates 
        unfairness to the commercial sector when it comes to ACLs or 
        Accountability Measures. Over harvest by either sector for 
        amberjack, triggerfish or grouper disallows that sector 
        eligibility for a raise in their quota. It's not the same for 
        red snapper though; the council did not apply the same measure 
        for that species. We feel this is a double standard due to the 
        fact that the recreational sector has over harvested their 
        quota of red snapper eighteen out of the last twenty 1 years. 
        In many of those years the recreational fishery went 100 
        percent over their quota.

  <bullet> The full potential of commercial fishery economic impacts 
        had been devalued for years because of bad fishery management 
        regulations mandated by the Gulf Council. Commercial Fishermen 
        provide access for the Nation's consumer and using just red 
        snapper alone that accounts for almost 3\1/2\ million meals for 
        the Nation's consumer. According to NMFS less than 5 percent of 
        the U.S. population accounts for saltwater anglers.

  <bullet> In 2008 the commercial sector (Seafood Industry) generated 
        $104 billion in sales impacts, and supported 1.5 million full 
        and part-time jobs, while the recreational sector generated 
        $58.9 billion in sales impacts and supported 385,000 full and 
        part-time jobs, using 2008 as the baseline year. Now that is 
        significant commercial fishery economic impact that the Gulf 
        Council pays no attention to.
    In conclusion, I think the Gulf Council already has the flexibility 
and language needed in MSA as it stands today. The IFQ red snapper 
commercial fishery is the most accountable, well managed and successful 
fishery management plan ever developed in the Gulf of Mexico. It has 
increased the optimal yields, reduced regulatory discards and is 
meeting the goals of MSA. The establishment of a red snapper IFQs 
working in conjunction with reduced size limits have allowed red 
snapper to be removed from overfishing status. We need more successful 
management plans for the other sectors. The recreational sector wants 
to open the MSA simply to reallocate the resource. They have had 31 
years to develop a good Marine Resource Management Plan, but have 
failed to do so with their ``business as usual'' position of resisting 
a fishery management plan that still after 31 years has No 
Accountability. Successful fishery management is going to require a 
balanced representation from both sectors to achieve management goals 
that will reach optimum yield. The future of sustainable fisheries 
requires true stewardship of the resource.
            Sincerely,
                                         Capt. Gary Jarvis,
                                                   F/V Back Down 2,
                                                       Back Down 2 Inc.
                                 ______
                                 
       Prepared Statement of Bruce Stedman, Executive Director, 
                    Marine Fish Conservation Network
    Chairman Begich and members of the Subcommittee:
    On behalf of the nearly 200 member groups nationally who are 
dedicated to conserving marine fish and achieving sustainable 
fisheries, the Marine Fish Conservation Network (Network), I thank you 
for the opportunity to submit the following testimony for the record 
concerning the implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA).
    NOAA and NMFS are responsible for the management and conservation 
of living marine resources within the U.S. Exclusive Economic Zone 
(EEZ), encompassing an area larger than the combined land area of all 
fifty states. Our nation's fisheries are among the many benefits 
provided by this vast territory, and they are managed as a public 
trust. Ending overfishing is essential to sustain those benefits for 
present and future generations. Implementing management measures that 
achieve the MSA's goals for sustainability will require ongoing 
cooperation and support from Congress, state and Federal agencies, 
regional fishery managers, fishermen and other public stakeholders. 
This Subcommittee's ongoing oversight is vital to ensure that regional 
fishery managers are complying fully with the MSA.
    The Network's comments will focus on efforts to prevent 
overfishing, rebuild overfished stocks, use the best available science, 
and ensure that the National Marine Fisheries Service (NMFS) provides 
adequate guidance and technical support to the regional fishery 
management councils as they implement a system of annual catch limits 
(ACLs) and accountability measures (AMs) that will prevent overfishing 
in accordance with the MSA.
Preventing Overfishing, Rebuilding Overfished Stocks
    Preventing overfishing and achieving sustainable use of fisheries 
resources for U.S. fishermen has been the goal of the MSA since its 
passage in 1976. National Standard 1 (NS1) of the Act mandates that 
``conservation and management measures shall prevent overfishing while 
achieving, on a continuing basis, the optimum yield from each 
fishery.'' \1\ However, the MSA's lack of explicit measures for 
preventing overfishing allowed unsustainable levels of fishing to 
continue and, as a consequence, many of the Nation's fisheries were 
depleted and in crisis by the 1990s. The inclusion of fishery 
management reforms in the Magnuson-Stevens Act (MSA) of 1996 were aimed 
at preventing overfishing and rebuilding overfished stocks in a timely 
manner, but fishery managers too often ignored the advice of scientists 
on fishing limits and there was still no explicit statutory requirement 
to establish a firm catch limit and stop fishing when the limit has 
been reached. The result was numerous instances of chronic overfishing 
that continued unabated year after year, a practice the Network 
documented in 2007.\2\
---------------------------------------------------------------------------
    \1\ MSA Sec. 301(a)(1); 16 U.S.C. 1851.
    \2\ MFCN (2007), Taking Stock, The Cure For Chronic Overfishing.
---------------------------------------------------------------------------
    Ending overfishing was the highest priority of the reauthorized 
Magnuson-Stevens Act of 2006 (MSRA), a bipartisan legislative effort 
signed into law by President Bush in January 2007. The MSRA's approach 
to ending overfishing builds on and strengthens the 1996 amendments on 
overfishing because Congress believed that the basic provisions were 
sound \3\ To close the loopholes which had allowed overfishing to 
continue in numerous fisheries, Congress adopted key recommendations 
from the U.S. Commission on Ocean Policy (2004) including the 
requirement to establish ACLs in all U.S. fisheries with AMs to ensure 
accountability for staying within the catch limits.\4\ In addition, the 
MSRA requires each Council to maintain a Scientific and Statistical 
Committee (SSC) and requires each SSC to make fishing level 
recommendations for Acceptable Biological Catch (ABC), which serves as 
the upper limit on Council specification of an ACL.\5\
---------------------------------------------------------------------------
    \3\ Senate Report 109-229 on S. 2012 (April 4, 2006), p. 23.
    \4\ MSRA Sec. 303(a)(15) (16 U.S.C. 1853(a)(15)), Senate Report 
109-229 on S. 2012 (April 4, 2006), p. 21.
    \5\ MSRA Sec. 302(h)(6) (16 U.S.C. 1852(h)(6)).
---------------------------------------------------------------------------
    The intent of these new measures is to provide transparent 
accounting mechanisms for measuring compliance with the MSA's 
requirements to prevent overfishing and rebuild overfished stocks.\6\ 
In addition, the MSRA also includes requirements for the establishment 
of a national saltwater angler registry and other measures to improve 
the quality of recreational fisheries data--critical priorities for the 
implementation of ACLs in recreational fisheries. Equally important, 
the MSRA reaffirms the existing rebuilding provisions for restoring 
overfished stocks, including the 10-year rebuilding timeframe, while 
retaining ample flexibility to extend the time in specific situations 
in which the life history of a fish or other circumstances make the 10-
year schedule infeasible. It should be noted that, in 2010, fully half 
of the stocks in rebuilding plans had rebuilding target dates greater 
than 10 years.
---------------------------------------------------------------------------
    \6\ Senate Report 109-229 on S. 2012 (April 4, 2006), p. 21.
---------------------------------------------------------------------------
    In regions where a system of catch limits has already been 
implemented, and where accountability measures are in place, fisheries 
managers have successfully prevented overfishing and are rebuilding 
overfished stocks. Based on the final Status of Stocks update from NMFS 
in December 2010, however, it is clear that overfishing stubbornly 
persists in regions which have not employed hard catch limits in the 
past. Although there are fewer stocks subject to overfishing in 2010 
than in 2006, and fishery managers continue to make progress in 
rebuilding overfished populations, overfishing was occurring on fully 
one in five of the major fish stocks assessed for overfishing in 
2010.\7\
---------------------------------------------------------------------------
    \7\ See the NMFS 4th Quarter 2010 Status of Stocks Update, 
available at: http://www.nmfs.noaa.gov/sfa/statusoffisheries/
SOSmain.htm.
---------------------------------------------------------------------------
    Although NMFS and the Councils still have much work to do to end 
overfishing, they are making significant progress in amending each 
fishery management plan (FMP) to comply with the MSRA's deadline for 
implementing ACLs and AMs in all U.S. fisheries by the end of 2011. A 
system of ACLs and AMs is already in place for all stocks subject to 
overfishing (completed in 2010), and implementation of ACLs for all 
other fishery stocks is well underway. With a system of ACLs and AMs in 
all U.S. fisheries, fishery managers will have a framework in place to 
achieve the MSA's goal of ending overfishing. Regularly evaluating the 
performance of ACLs and AMs to ensure success at addressing this 
chronic problem should be one of the Subcommittee's top priorities.
    The results are clear: catch limits effectively prevent overfishing 
where they have been implemented and where accountability measures are 
in place to ensure that fisheries stay within limits. While there is 
always some risk of overfishing, successful fishery management councils 
have created a system that enables managers to adjust catch limits in a 
timely manner when new information indicates that adjustments are 
needed to stay within safe limits. Moreover, with the adoption of 
rebuilding programs that establish catch limits and accountability for 
staying within the limit, overfished stocks have begun to recover--
since 2007, 11 have achieved their rebuilding goals and another 10 have 
rebuilt to 80 percent of maximum sustainable levels.\8\
---------------------------------------------------------------------------
    \8\ See NMFS Status of U.S. Fisheries, Report to Congress 2007-
2009.
---------------------------------------------------------------------------
    Congress should resist the temptation to micromanage the fisheries 
management process to achieve specific outcomes in catch-setting, 
although the Subcommittee should exercise its oversight authority to 
ensure that the MSA reforms aimed at ending overfishing and restoring 
overfished stocks are working as intended. Efforts to increase catch 
limits or extend rebuilding timelines through political intervention 
have failed to produce longterm healthy fisheries in the past and have 
often contributed to chronic overfishing that hurts, not helps, 
fishermen. The appropriate place for making such determinations is 
within the science and management processes established under the MSA, 
including the regular regional stock assessment workshops and peer 
review processes and the SSC review prior to making their fishing level 
recommendations for each regional fishery management council's ACL-
setting process.
Accounting for Uncertainty and the Risk of Overfishing in the ACL-
        setting Process
    Because all fisheries information is uncertain and there is always 
some risk of overfishing, an effective system of ACLs and AMs will 
require fishery scientists and managers to treat uncertainty explicitly 
when specifying catch limits. The revised NS1 regulatory guidelines for 
specifying ACLs and AMs (NMFS 2009) require fishery managers to take an 
approach that considers uncertainty in scientific information and 
management control of the fishery in the catch-setting process.\9\
---------------------------------------------------------------------------
    \9\ 50 CFR  600.310(b)(3).
---------------------------------------------------------------------------
    Some critics of this approach to uncertainty have argued that the 
adoption of uncertainty ``buffers'' in the ABC- and ACL-setting process 
at the regional councils is overly precautionary to the detriment of 
fishermen. History advises that the failure to account for uncertainty 
at all has more often been the problem, resulting in risky fishing 
strategies such as setting a catch limit at the overfishing limit 
(OFL), a practice which virtually guarantees that the OFL will be 
exceeded. For this reason, science and policy recommendations have 
overwhelmingly recommended more explicit treatment of uncertainty and 
measures to reduce target fishing levels below the maximum allowable 
limits. The guiding principle is: ``The greater the degree of 
uncertainty in the assessment of stock status or in the ability to 
effectively implement management actions, the greater the difference 
between [catch] targets and limits should be.'' \10\
---------------------------------------------------------------------------
    \10\ NMFS Stock Assessment Improvement Plan (2001), p. 15.
---------------------------------------------------------------------------
    In revising the NS1 guidelines to comply with the new legal 
requirements to specify ABCs and ACLs, NMFS says it sought to retain 
the principle of limit and target fishing levels in which targets are 
set sufficiently below the limits so that the limits are not 
exceeded.\11\ But while the terms ``ABC'' and ``ACL'' were introduced 
in the MSRA as required elements of the catch-setting process and were 
intended as clear limits,\12\ the new guidelines provide limited 
guidance on how to incorporate scientific uncertainty into scientific 
ABC recommendations or to address management uncertainty (in addition 
to any relevant Optimum Yield factors) when setting ACLs.
---------------------------------------------------------------------------
    \11\ See NMFS response to comments in the NS1 final rule, 74 Fed. 
Reg. at p. 3183.
    \12\ See MSA  302(g)(1)(B) and MSA  303(a)(15).
---------------------------------------------------------------------------
    The Subcommittee should ask NMFS to provide additional details on 
how the Councils are proposing to address scientific and management 
uncertainty in the catch-setting process. At present, it appears that 
methods vary substantially from region to region and it is difficult to 
determine if uncertainty is being treated more thoroughly in some 
regions than others. Regardless of the approach in a particular region 
or fishery, the Network believes scientists and managers should address 
uncertainty and risk as transparently as possible in the ACL-setting 
process.
Use of Best Available Science to Comply with the MSA's National 
        Standard 2
    The MSRA materially strengthened the role of science in the fishery 
management process.\13\<SUP>,</SUP>\14\ To ensure that a system of ACLs 
and AMs meets the MSA's National Standard 2 for ``best scientific 
information available,'' it is hoped that the NMFS revised NS2 
guidelines (currently in final rulemaking) will clarify the roles and 
responsibilities of stock assessment review teams, peer reviewers, SSCs 
and the Councils in the catch specification process. The NS2 guidelines 
should also include explicit procedures for compiling, evaluating and 
using the best scientific information available in the catch-setting 
process. Regularly updated Stock Assessment and Fishery Evaluation 
(SAFE) reports should be required for each FMP, so that all the 
information used for ABC- and ACL-setting is readily available to 
decision-makers and the public. Such clarifications of roles, 
responsibilities and procedures for using and presenting the best 
available scientific information used will go a long way toward 
instilling trust in the science, the process and the outcome.
---------------------------------------------------------------------------
    \13\ 16 U.S.C.  1852(g)(1)(A) and (B); 1852(h)(6).
    \14\ Senate Report 109-229 on S. 2012, April 4, 2006, pp. 6-7.
---------------------------------------------------------------------------
    Some critics of rebuilding plans and new ACL requirements, 
particularly in New England, have attempted to discredit the science 
used to set catch limits and have sought intervention by the Secretary 
of Commerce to increase ACLs and relax rebuilding requirements for 
overfished groundfish. Yet those status determination criteria and 
catch limits have been intensively vetted and peer reviewed through the 
established regional stock assessment and peer review process, the 
Stock Assessment Workshop/Stock Assessment Review Committee (SAW/SARC). 
Indeed, a 2009 Department of Commerce Inspector General's investigative 
report to Senator Snowe of Maine found that the science on which the 
fishing limits are based meets the MSA's ``best scientific information 
available'' requirements.\15\ Circumventing the results of that process 
by political means would undermine and politicize the entire ACL-
setting process. Such actions would also violate the MSA's requirement 
that fishery management actions be based on the best scientific 
information available.
---------------------------------------------------------------------------
    \15\ Department of Commerce, Office of Inspector General 
Investigative Report, Letter to Sen. Snowe re: the Northeast Fisheries 
Science Center and the Quality of the Science Used to Determine Catch 
Limits for New England Commercial Fisheries, Feb. 26, 2009. 42 pp.
---------------------------------------------------------------------------
Agency Guidance and Technical Support to Regional Fishery Management 
        Councils
    Establishing science-based recommendations for ABCs, ACLs and AMs 
that prevent overfishing will require each council to establish 
procedures for receiving SSCrecommended ABCs and making recommendations 
to NMFS for ACLs and AMs. Agency guidance on best practices for ACL-
setting is critical to ensure that regions which are adopting formal 
catch limits for the first time can benefit from the experience of 
regions that already employ them.
    Although the agency has decided not to pursue technical guidance on 
the development of ABC control rules to assist the Councils' SSCs in 
their deliberations, better agency guidance on the ACL-setting process 
in general is needed to ensure that best practices and lessons learned 
are available to all regional fishery scientists and managers as they 
amend their operating procedures and FMPs. In regions where catch-
setting has been employed already, for example, a regular cycle of 
scientific and management review has been established to ensure that 
ACLs can be promulgated in a timely manner before the beginning of the 
fishing year for each fishery in the FMP. Providing guidance to the 
remaining Councils on how to establish an efficient, transparent catch 
specification process is essential.
    The revised Federal NS1 regulatory guidelines on overfishing (NMFS 
2009) provide flexible approaches to ACL-setting that can be tailored 
to meet the needs of many different fisheries and situations, including 
recreational and data-limited fisheries,\16\ but NMFS must do a better 
job in communicating the options available to Councils. The February 
2011 national ACL Science Workshop in Silver Spring, MD illustrated the 
importance of NMFS's role in convening regional experts involved in the 
ACL-setting process to share expertise, discuss best practices, and 
identify key needs and challenges in the regions. In general, NMFS 
should take a more hands-on and pro-active approach that seeks to avoid 
problems rather than waiting until they occur.
---------------------------------------------------------------------------
    \16\ See NMFS response to comments in the NS1 final rule, 74 Fed. 
Reg. at p. 3183.
---------------------------------------------------------------------------
    Finally, NMFS must ensure that basic scientific standards and 
practices are employed in all regions so that ACL specifications meet 
the MSA's requirement for the use of the best scientific information 
available in National Standard 2. Currently NMFS is completing 
rulemaking on revisions to the NS2 regulatory guidelines to clarify the 
roles and responsibilities of the regional stock assessment and peer 
review teams, the SSCs and the Councils in the ABC- and ACL-setting 
process. The Subcommittee should ask NMFS to provide an update on the 
status of the NS2 rulemaking, completion of which has been delayed 
considerably.
Conclusion
    Overfishing is considered by many to be the single biggest threat 
to marine biodiversity and ecosystems worldwide,\17\ but the complex 
biological, technological, economic and social dimensions of the 
problem have made efforts to prevent it exceedingly difficult. In the 
U.S., successive reauthorizations of the Magnuson-Stevens Act in 1996 
and 2006 have established a responsive, adaptive, and flexible 
framework for addressing the problem and making good on the MSA's 
promise of ending overfishing at last. This is, ultimately, the only 
way to achieve the sustainability of America's marine fisheries 
resources so that present and future generations of fishermen may enjoy 
them fully.
---------------------------------------------------------------------------
    \17\ For instance, see: Pauly et al., 1998; Jackson et al., 2001; 
Pauly et al., 2002; Myers and Worm 2003; Hutchings and Reynolds 2004; 
Ward and Myers 2005; Worm et al., 2006.
---------------------------------------------------------------------------
            Thank you for accepting our testimony,
                                             Bruce Stedman,
                                                Executive Director,
                                      Marine Fish Conservation Network.
                                 ______
                                 
Prepared Statement of Art C. Ivanoff, Chair, Southern Norton Sound Fish 
                      and Game Advisory Committee
    Mr. Chair and members of the Subcommittee, thank you for the 
opportunity to provide written testimony on the implementation of 
several key features of the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA).
    Southern Norton Sound Fish and Game Advisory Committee (SNSAC) is 
composed of village representatives from Shaktoolik, Saint Michael, 
Stebbins, Koyuk and Unalakleet. SNSAC advocates on behalf of the 
villages for the conservation and use of fish and game resources.
    Our testimony is brief. We will focus on: (1) Tribal consultation 
and Composition on the Regional Councils, in particular the North 
Pacific Fisheries Management Council (Council); and (2) Total Allowable 
Catch of Pollock in the Bering Sea Aleutian Islands. These are not 
problems, but opportunities to improve the process that will protect 
our national interests and the interests of Arctic-Yukon-Kuskokwim 
villages. Really, the interest of conservation is global in nature.
Composition of Regional Councils/Tribal Consultation
    SNSAC has been engaged with the Council for a brief period of time, 
nearly 3 years. During this brief tenure, however, the experience and 
observation has revealed glaring and significantly problematic issues 
with the composition of the North Pacific Fisheries Management Council. 
The Council offers no voting seat for federally-recognized tribes. 
Alaska is home to 226 federally recognized tribes, nearly half the 
tribes in the United States. Without voting representation on the 
Council, the federally-recognized tribes cannot effectively advocate 
for the conservation issues that are pivotal to the survival of the 
cultural heritage and our subsistence way of life. We have sat on the 
side during Council meetings and deliberations with no opportunity to 
influence the process and no opportunity to help frame questions. It 
has been suggested that federally-recognized tribes work through the 
Governor's office using the appointment process. However, history has 
exposed a truculent relationship between tribes and states making an 
appointment to the Council improbable. Our analysis suggests that the 
system is broken.
    The United States Constitution is the prime catalyst for developing 
tribal consultation. However, over the last twenty years, the efforts 
by the Council and the National Marine Fisheries Service have neglected 
the inclusion of tribes in helping shape policy and regulations. In 
fact, it has been repeatedly stated that the Council is exempt from 
tribal consultation. We believe the Council's to be an extension of the 
Federal Government and therefore obligated to engage in a government-
to-government relationship with federally-recognized tribes. 
Consultation with federally-recognized tribes can be effective only, 
and we stress only, by being directly involved in the decision-making 
process.
Total Allowable Catch
    SNSAC is keenly aware of the overall harvest on Pollock in the 
Bering Sea. Over the twenty years, the average harvest, we estimated, 
is 800,000 metric tons. The total allowable catch is based on science 
of the Pollock in the Bering Sea. With an extraction rate of nearly 1.6 
billion pounds annually, we are compelled to ask the question, what 
impact does this have on the ecosystem? How do we calculate the need to 
ensure the ecosystem is capable of regenerating or the Pollock from 
regenerating with such an extraction rate? Are there other resources 
showing sign of stress due to overfishing? The MSA National Standards 
primary focus is ``optimum yield'' while attempting to prevent 
overfishing. This is a complete contradiction in terms. The shear 
nature of industry along with the composition of Regional Councils 
should leave little doubt overfishing will occur. Josh Eagle's report 
Taking Stock of Regional Councils suggests that the North Pacific 
fisheries discard more than 300 million pounds of bycatch annually. How 
do we prevent activity that profligate's resources at a phenomenal 
rate? After research, SNSAC concurs with Josh Eagle's report which 
suggest that the most important reform would be to separate 
conservation and allocation decisions, leaving allocation decisions in 
the hands of the Councils but giving responsibility for conservation 
decisions to a separate governmental entity. The Minerals Management 
Service underwent reform; we believe reform with the National Marine 
Fisheries Service and Regional Councils is also warranted. The concern 
today should focus not only on the overall harvest of marine resources, 
but other the looming giant impacting the health and productivity of 
our oceans, acidification.
    One thing is for certain, the MSA allows for extraction, but allows 
very little for conservation. Language in the MSA relating to 
conservation is weak at best and without MSA amendments the marine 
resources will continue to spiral down. SNSAC encourages the total 
allowable catch to be based on an ecosystem approach verses a single 
species which is the current practice.
    In closing, we are requesting changes to improve the MSA which will 
reduce waste, reduce the chance of overfishing and provide the 
federally recognized tribes with an opportunity serve to help make 
decisions.
    Thank you for the opportunity.
                                 ______
                                 
                                                     March 22, 2011
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Re: March 8, 2011 Hearing on Implementation of the Magnuson-Stevens 
            Fishery Conservation and Management Act

Dear Chairman Begich, Ranking Member Snowe and Members of the 
            Subcommittee:

    On behalf of the Gulf of Mexico Reef Fish Shareholders' Alliance, 
please accept these comments for inclusion in the record of the March 
8, 2011 hearing on implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act (``MSA'').
    The Shareholders' Alliance is a leading organization representing 
commercial fishermen in the Gulf of Mexico who operate under catch 
share programs. We are avid proponents of catch share programs because 
we have experienced the economic and conservation benefits that these 
programs can achieve. We strongly support the $54 million in proposed 
funding for NOAA's National Catch Share Program in Fiscal Year 2012. We 
oppose recent efforts to prohibit fishermen from evaluating catch share 
programs as a management option because fishermen should have the 
flexibility to use whatever management tool they think is appropriate 
to manage the fisheries in which they are engaged.
    The unqualified success in rebuilding the red snapper fishery in 
the Gulf of Mexico shows the benefits that can be achieved through 
catch share programs. Red snapper in the Gulf of Mexico were overfished 
for decades. A management plan first took effect in 1991, creating a 
fishery that operated as a derby with an overall catch limit and a 
season that opened and closed when that quota was met. Under that 
system, each individual fisherman would race to catch as many fish as 
possible during the season. This was similar to the old halibut and 
salmon derbies in the Northwest and had a similar outcome--a short 
season (less than 3 months), low prices, and a market void of domestic 
red snapper the remainder of the year. It was an unsafe, inefficient, 
and uneconomic way to manage the fishery. It also did little to improve 
the conservation of the resource. Other attempts at using traditional 
methods of managing fisheries, including shortened seasons, trips 
limits and size limits, also failed to improve economic conditions in 
the industry or rebuild the stock.
    A better approach was needed, so the stakeholders in the fishery 
began the process of developing a red snapper individual fishing quota 
(``IFQ'')--a form of catch share or limited access privilege program. 
The stakeholders voted on the program by referendum, and it was 
implemented in January 2007.
    The red snapper fishery is better now than I have seen in my 
lifetime. It has a longer season. It is better economically, and we are 
seeing a resurgence of red snappers. The difference was that by 
assigning an individual his own quota, the collateral damage was 
reduced since he could now keep fish that he used to discard while 
fishing for other reef fish species during other closed seasons. An IFQ 
program designed by the stakeholders is a very important tool in the 
fishery management strategy. It is the only tool that allows fishermen 
the individual flexibility to meet their needs. I feel that it is 
imperative that this tool be available for future consideration by 
fishermen who want to use it.
    One of the criticisms of NOAA's National Catch Share Program 
(``NCSP'') is that it is taking funds away from cooperative research 
and other science-based programs. Such criticisms are unfounded. NOAA 
has indicated that the funds it has requested be transferred out of the 
cooperative research line item and into the NCSP line item will 
continue to be used to fund cooperative research programs in catch 
share fisheries.\1\ It is also important to note that NOAA is 
requesting $67.120 million for critical research programs like stock 
assessments in FY12, a 112 percent increase over the $31.631 million 
for stock assessments enacted in FY08. As stated by Eric Schwaab, head 
of NOAA Fisheries, funding for the NCSP ``is not requested at the 
expense of other important fisheries research and management 
programs.'' \2\
---------------------------------------------------------------------------
    \1\ See testimony of Eric Schwaab, Assistant Administrator for NOAA 
Fisheries, before the Subcommittee on Insular Affairs, Oceans and 
Wildlife of the Committee on Natural Resources, U.S. House of 
Representatives, One Hundred Eleventh Congress, Second Session, 
regarding oversight hearings on ``Catch Shares as a Management Option: 
Criteria for Ensuring Success--Parts 1 and 2 (Mar. 16 and Apr. 22, 
2010), at pp. 17-18, available at http://frwebgate.access.gpo.gov/cgi-
bin/getdoc.cgi?dbname=111_house_hearings&docid=f:55542.pdf.
    \2\ Id. at p. 8.
---------------------------------------------------------------------------
    We understand the concerns of those who find it difficult to be 
told when to fish, where to fish, what to keep and what to discard. In 
the Gulf of Mexico we have lived with overfishing, chronically low fish 
populations and unstable fishing communities. With scientifically based 
catch limits and catch shares, we have reversed that process and now 
have a thriving commercial fishery for red snapper. Today's constraints 
are the result of putting off hard choices, sometimes for decades. The 
new law made those choices unavoidable. We're making progress, and 
stopping the process now means going back to the downward spiral. We 
simply can't go back to the old ways of overfishing and pretending the 
resource doesn't have limits.
    Catch share management is a way to empower fishermen to shape their 
own fishing future. We were very active in developing our catch share 
program and think others should be too. Just like other management 
measures, catch shares work best when they are developed with input 
from fishermen. The fishery management council process allows that to 
take place and as far as we know most catch share programs come about 
that way. They are important tools for effective management and we need 
to be able to continue to consider using them.
    The $54 million in funding NOAA has requested for its NCSP in FY12 
is not only crucial to programs that are already on the water, such as 
the red snapper IFQ, but also to the development of new programs to 
further improve the management of our Nation's fisheries. We urge the 
Subcommittee to support this level of funding, and to oppose provisions 
that would limit the ability of the regional fishery management 
councils to consider the use of catch share programs.
    Thank you for considering our views.
            Sincerely,
                                               David Krebs,
                                                         President,
                       Gulf of Mexico Reef Fish Shareholders' Alliance.
                                 ______
                                 
                                                     March 18, 2011
    Oceans, Atmosphere, Fisheries, and Coast Guard Subcommittee

    I'm writing this letter in regards to the Magnuson-Stevens Act 
(MSA). The MSA already has the flexibility and language needed for 
regional councils to properly manage the Nation's marine resources; 
however the MSA is supposed to ensure fair and balanced appointment. 
What the commercial sector has in the Gulf is clearly not fair or 
balanced. I'm substantially dependent on the commercial fishery and 
enormously concerned that if left unchecked the Gulf of Mexico Fishery 
Management Council (GMFMC) will continue to make bias management 
decisions. Decisions like re-allocating the Nation's resource to an 
unaccountable recreational fishery that accounts for less than 5 
percent of the Nation.
    The GMFMC is not providing fair representation to all fishery 
sectors. The GMFMC interpretation of MSA is arguably contradictory to 
the intent of what Congress intended. If the commercial fishery sector 
is to continue to thrive, we have to figure out a new way to fairly 
represent all of the fishery sectors that are governed by the GMFMC.
    The GMFMC has become such a bias ruling organization that many 
fishermen from the commercial sector have stopped attending Advisory 
Panels (APs) and Ad Hoc meetings. Panels are unfairly dominated by the 
recreational sector. The commercial sector knows it's of no use to send 
in a resume for AP Panels because GMFMC will not choose a commercial 
person over a recreational. The GMFMC is finding it hard to recruit un-
bias fishery scientist to the SSC panel at this point because of the 
influence of the recreational sector. Standard operating procedure 
approved by the GMFMC has made minor and incidental fisheries 
violations a justification for removal or ineligible participation in 
panels. These same standard operating procedures for violations don't 
apply to the recreational sector, they are immune. Many feel it's just 
another ploy by the GMFMC to displace the commercial fishing sector.
    The current balance of the GMFMC is an issue that needs to be 
addressed immediately. The out of balance GMFMC has had a significant 
effect on Allocation Issues, ACLs, Economic Impacts, Advisory Panels, 
Ad Hoc Panels and Catch Shares that especially affect the Gulf of 
Mexico commercial fishermen. The commercial sector has legitimate 
issues about the balance of the GMFMC. Alabama has not had a GMFMC 
commercial representative for at least the past eleven years. There are 
currently three at-large appointment seats currently available, however 
even if they are all filled from the commercial sector, the GMFMC would 
still be unbalanced. The APs obviously needs to be examined closer for 
fairness. APs created by the GMFMC are heavy recreational sector allied 
also.
    By reviewing the voting records of the GMFMC members Congress will 
clearly recognize the bias. Even all five of the State Representative's 
vote recreational. The uneven GMFMC either out votes or simply rejects 
the commercial fishery representative's motions.
    Let me provide some specifics. At each of the last four GMFMC 
meetings members of the commercial red snapper fishery have requested 
they form an Ad Hoc 5 year review panel to allow the commercial 
fishermen a way to provide input on the red snapper IFQ system; however 
the GMFMC has yet to complete this request. Another example is finfish. 
Finfish are probably the most discussed issue at the GMFMC meetings but 
there has never been a commercial finfish fishermen appointed to the 
GMFMC.
    At the last Council meeting, this February 2011, I witnessed a 
GMFMC discussion to re-address the recreational allocation to acquire 
an even larger percentage of the red snapper and grouper TAC. The 
recreational sector to date still has failed to implement 
accountability measures in compliance with MSA. Eleven years after the 
Council set up the split for king mackerel they came back and 
reallocated 5 percent to the recreational sector. They also reallocated 
17 percent of commercial red grouper TAC 2 years ago by raising their 
aggregate bag limit of red grouper. Motion after motion is passed over 
to develop a real time accountability measure for recreational sector 
that mirrors the commercial sector.
    When it comes to allocation, the GMFMC simply picks and chooses 
from the years that help the recreational sector the most. They choose 
different years for different species to obtain an unfair advantage by 
using two different baseline years. Roy Crabtree strongly advised the 
GMFMC not to use that method. I think he understood the backlash it 
could cause later when a case could be made against it. Below are 
incidents that show these types of actions of the GMFMC that need to be 
addressed:

  <bullet> The Gulf of Mexico Fishery Management Council demonstrates 
        unfairness to the commercial sector when it comes to ACLs or 
        Accountability Measures. Overharvest by either sector for 
        amberjack, triggerfish or grouper disallows that sector 
        eligibility for a raise in their quota. It's not the same for 
        red snapper though; the council did not apply the same measure 
        for that species. We feel this is a double standard due to the 
        fact that the recreational sector has overharvested their quota 
        of red snapper 18 out of the last 21 years. In many of those 
        years the recreational fishery went 100 percent over their 
        quota.

  <bullet> The full potential of commercial fishery economic impacts 
        had been devalued for years because of bad fishery management 
        regulations mandated by the GMFMC. Commercial Fishermen provide 
        access for the Nation's consumer and using just red snapper 
        alone that accounts for almost 3\1/2\ million meals for the 
        Nation's consumer. According to NMFS less than 5 percent of the 
        U.S. population accounts for saltwater anglers.

    In 2008 the commercial sector (Seafood Industry) generated $104 
billion in sales impacts, and supported 1.5 million full and part-time 
jobs, while the recreational sector generated $58.9 billion in sales 
impacts and supported 385,000 full and part-time jobs, using 2008 as 
the baseline year. Now that is significant commercial fishery economic 
impact that the GMFMC pays no attention to.
    In conclusion, I think the GMFMC already has the flexibility and 
language needed in MSA as it stands today. The IFQ red snapper 
commercial fishery is the most accountable, well managed and successful 
fishery management plan ever developed in the Gulf of Mexico. It has 
increased the optimal yields, reduced regulatory discards and is 
meeting the goals of MSA. IFQs working in conjunction with reduced size 
limits have allowed red snapper to be removed from overfishing status. 
We need more successful management plans for the other sectors. The 
recreational sector wants to open the MSA simply to reallocate the 
resource. They have had plenty of years to develop a good Marine 
Resource Management Plan, but have failed to do so with their 
``business as usual.'' Successful fishery management is going to 
require a balanced representation from both sectors to achieve 
management goals that will reach optimum yield. The future of 
sustainable fisheries requires true stewardship of the resource.
            Sincerely,
                                              David Walker,
                                             Walker Fishing Fleet, Inc.

                                  <all>

</pre></body></html>
